<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR 2021</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]







                  DEPARTMENTS OF LABOR, HEALTH AND HUMAN
                SERVICES, EDUCATION, AND RELATED AGENCIES
                         APPROPRIATIONS FOR 2021

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SIXTEENTH CONGRESS

                              SECOND SESSION

                                _________
                              
    SUBCOMMITTEE ON LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND 
                            RELATED AGENCIES

                 ROSA L. DeLAURO, Connecticut, Chairwoman

  LUCILLE ROYBAL-ALLARD, California           TOM COLE, Oklahoma   
  BARBARA LEE, California                     ANDY HARRIS, Maryland  
  MARK POCAN, Wisconsin                       JAIME HERRERA BEUTLER, Washington
  KATHERINE M. CLARK, Massachusetts           JOHN R. MOOLENAAR, Michigan        
  LOIS FRANKEL, Florida                       TOM GRAVES, Georgia
  CHERI BUSTOS, Illinois                      
  BONNIE WATSON COLEMAN, New Jersey                 
 
  NOTE: Under committee rules, Mrs. Lowey, as chairwoman of the full 
committee, and Ms. Granger, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

      Robin Juliano, Stephen Steigleder, Jared Bass, Jennifer Cama,
      Jaclyn Kilroy, Laurie Mignone, Philip Tizzani, and Brad Allen
                            Subcommittee Staff

                                _________

                                  PART 5

                                                                        Page
  Department of Health and Human Services  ...........................     1
  Department of Education/Budget Request for Fiscal Year 2021 ........   123
  Reducing Child Poverty..............................................   185
  National Institutes of Health/Budget Request for Fiscal Year 2021...   225
  Centers for Disease Control and Prevention..........................   331
  National Labor Relations Board......................................   379
  COVID-19 Response, May 6, 2020......................................   405
  COVID-19 Response, June 4, 2020.....................................   449
  The Impact on Women Seeking an Abortion but are Denied Because of 
  an Inability to Pay.................................................   527
                                        

                                _________

          Printed for the use of the Committee on Appropriations

                              
                 U.S. GOVERNMENT PUBLISHING OFFICE
                 
43-462                   WASHINGTON : 2021

















                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                  NITA M. LOWEY, New York, Chairwoman


  MARCY KAPTUR, Ohio                               KAY GRANGER, Texas  
  PETER J. VISCLOSKY, Indiana                      HAROLD ROGERS, Kentucky         
  JOSE E. SERRANO, New York                        ROBERT B. ADERHOLT, Alabama       
  ROSA L. DeLAURO, Connecticut                     MICHAEL K. SIMPSON, Idaho          
  DAVID E. PRICE, North Carolina                   JOHN R. CARTER, Texas            
  LUCILLE ROYBAL-ALLARD, California                KEN CALVERT, California               
  SANFORD D. BISHOP, Jr., Georgia                  TOM COLE, Oklahoma             
  BARBARA LEE, California                          MARIO DIAZ-BALART, Florida     
  BETTY McCOLLUM, Minnesota                        TOM GRAVES, Georgia       
  TIM RYAN, Ohio                                   STEVE WOMACK, Arkansas
  C. A. DUTCH RUPPERSBERGER, Maryland              JEFF FORTENBERRY, Nebraska                
  DEBBIE WASSERMAN SCHULTZ, Florida                CHUCK FLEISCHMANN, Tennessee                
  HENRY CUELLAR, Texas                             JAIME HERRERA BEUTLER, Washington  
  CHELLIE PINGREE, Maine                           DAVID P. JOYCE, Ohio    
  MIKE QUIGLEY, Illinois                           ANDY HARRIS, Maryland    
  DEREK KILMER, Washington                         MARTHA ROBY, Alabama      
  MATT CARTWRIGHT, Pennsylvania                    MARK E. AMODEI, Nevada           
  GRACE MENG, New York                             CHRIS STEWART, Utah  
  MARK POCAN, Wisconsin                            STEVEN M. PALAZZO, Mississippi    
  KATHERINE M. CLARK, Massachusetts                DAN NEWHOUSE, Washington
  PETE AGUILAR, California                         JOHN R. MOOLENAAR, Michigan      
  LOIS FRANKEL, Florida                            JOHN H. RUTHERFORD, Florida   
  CHERI BUSTOS, Illinois                           WILL HURD, Texas    
  BONNIE WATSON COLEMAN, New Jersey                               
  BRENDA L. LAWRENCE, Michigan 
  NORMA J. TORRES, California 
  CHARLIE CRIST, Florida 
  ANN KIRKPATRICK, Arizona 
  ED CASE, Hawaii 

                 Shalanda Young, Clerk and Staff Director

                                   (ii)


 
DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, EDUCATION, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2021

                              ----------                            

                                      Wednesday, February 26, 2020.

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

                                WITNESS

HON. ALEX M. AZAR, SECRETARY DEPARTMENT OF HEALTH AND HUMAN SERVICES
    Ms. DeLauro. The subcommittee will come to order.
    Good morning, Mr. Secretary. Welcome to the Labor, HHS, and 
Education Subcommittee, I suppose I should say and related 
agencies as well. This is our first hearing on the President's 
fiscal year 2021 budget request.
    However, I want to start with a matter of urgency, the 
novel coronavirus, COVID-19. Cases are growing, as is alarm. 
This is both domestically and internationally. The U.S. 
Government has responded to the COVID-19 outbreak with 
aggressive measures, significant travel restrictions, a 
mandatory 14-day quarantine for individuals returning to the 
U.S. from Hubei province.
    Mr. Secretary, I support your declaration of a public 
health emergency. We are dealing with the likelihood of a 
global pandemic. It is interesting to note yesterday from the 
CDC that commented that with regard to the United States it is 
not a question of if but a question of when we will face this 
issue seriously here.
    That said, I have serious concerns about the 
administration's responsiveness with respect to funding. I 
understand Senators of both parties expressed a similar concern 
to you at their hearing yesterday. I have repeatedly asked for 
information about expenditures thus far and about the balances 
remaining in the Infectious Diseases Rapid Response Reserve 
Fund. And yet, we have not received an adequate answer.
    In addition, you submitted a letter late Monday night 
notifying the committee that you would begin transferring up to 
$136 million from other HHS programs, including NIH and the 
Low-Income Energy Assistance Program. And on Monday, the 
administration finally submitted a request for an emergency 
supplemental funding, but there is no supporting documentation.
    You must share that information immediately. In that 
request, the administration also asked permission to shift more 
than $500 million from Ebola preparedness. That is a mistake, 
and we are not robbing funding for other emergency activities 
to pay for this emergency.
    There is another $536 million-$550 million of reprioritized 
funding and funding that was provided for fiscal year 2020, and 
that funding is coming from other HHS programs. We know of 
the--and we need to know specifically where that money is being 
cut from.
    What the American people need is an emergency supplemental 
bill that answers these questions, supports development of 
therapies and a vaccine, funds State and local agencies and 
healthcare providers, and strengthens our public health 
infrastructure. And the American people, Mr. Secretary, need to 
know that now. As you know, there is great alarm and 
consternation in the country about this.
    Another important issue, an issue that I, like many 
Americans, find deeply disturbing, is the administration's 
ongoing and cruel treatment of asylum seekers and children 
entering the United States. In recent weeks, we learned that 
agents with ICE, Immigration and Customs Enforcement, are 
showing up at HHS-funded shelters to fingerprint 14-year-olds 
in the unaccompanied children program. That is outrageous.
    They are allowing ICE agents to intimidate kids. I 
recognize that there is a statute, but it remains the 
responsibility of HHS to ensure the safest environment for the 
children. So I want HHS to make clear to its grantees that 
children are to have a representative present to allay their 
fears and ensure their understanding of the process, and I 
would, and I expect my colleagues on the subcommittee, would 
want to see a copy of that guidance.
    We also learned that ORR took confidential notes from 
children's therapy sessions and shared them with ICE for 
multiple years. I appreciate your comments on stopping this. It 
should not have happened. You and I know this, that it cannot 
happen again. There needs to be a firewall with DHS. ORR is not 
an immigration enforcement agency. Its mission is to provide 
for the care and the welfare of children.
    Turning to your budget, Mr. Secretary, despite what you may 
try to say, this document would hurt millions of Americans, and 
you have to ask who is paying the price. It is not the wealthy 
or well off; no, it is the vulnerable who are the victims. It 
is the working people, middle-class families of this country, 
who would be forced to do less with less.
    This is a time they need more help, but you are proposing 
to cut $10 billion from the Department of Health and Human 
Services, an 11 percent cut. You are leaving people at risk of 
a potential pandemic by cutting $700 million from the Centers 
for Disease Control and Prevention, and especially the 
Infectious Diseases Rapid Response Reserve Fund.
    You are telling suffering families that we will not do all 
we can to help their ill loved ones by cutting $3 billion from 
the National Institutes of Health. It is the world's leading 
biomedical research institution, and you would want to hit the 
brakes on that research. It is unacceptable. You would leave 
people without enough trained doctors and nurses by cutting 
hundreds of millions of dollars for training for healthcare 
careers like nursing.
    The health issues of this Nation require a trained 
healthcare workforce. You would force 6 million seniors to have 
to choose between eating, buying prescription drugs, heating or 
cooling their homes by eliminating LIHEAP, the Low-Income Home 
Energy Assistance Program.
    And you would reject the bipartisan intention of this 
Congress to save lives and address the public health crisis by 
ending the $25 million for gun violence prevention research. 
One hundred Americans are killed every day by guns, 36,000 per 
year, two-thirds of which are suicides, a particular concern 
for our veterans.
    That is not all. On the mandatory side you would take away 
health insurance from 20 million Americans by cutting 
healthcare by $1 trillion over 10 years and eliminating the 
Affordable Care Act and its Medicaid expansion. And you are 
still in Federal court to repeal the Affordable Care Act, 
endangering the health coverage for 130 million Americans with 
preexisting conditions.
    To date, you have not come up with a comprehensive plan to 
help. I could go on, and I am not, but the consequences of your 
budget would leave us as individuals and as a Nation less 
healthy, less safe, and less able with respect to economic 
security.
    And so we will not allow you to go after millions of 
Americans; instead, we will continue to invest in health 
workforce programs, medical research, and the public health, 
because it is what American people need and what the American 
people deserve.
    I appreciate the administration's request for increased 
funding to reduce maternal mortality as well as additional 
funding to address tick-borne diseases like Lyme disease. 
Although, it is one step forward and three steps backwards as 
the growth in incidents of Lyme disease is related to climate 
change, and yet, you propose to eliminate the CDC's climate 
change program.
    The administration is also requesting increased funding for 
the second year of an HIV initiative to reduce transmission of 
HIV by 90 percent over 10 years. We strongly share that 
ambitious goal. Again, I have to note the contradiction at the 
heart of this because the administration is simultaneously 
proposing to cut NIH's HIV research portfolio, USAID's PEPFAR 
program, eliminate the Affordable Care Act, and eviscerate 
Medicaid. These are programs essential to combatting HIV. In 
fact, Medicaid is the largest payer for HIV care in the United 
States.
    So, much to discuss today. We appreciate your being here. 
And before we turn to you for your testimony, let me turn to 
our ranking member, Congressman Cole, for remarks that he would 
like to make.
    Congressman Cole.
    Mr. Cole. Thank you.
    Thank you very much, Madam Chairman.
    Thank you, Mr. Secretary, for being here. I have got some 
prepared remarks that I am going to read in just a second, but 
before I do, I want to begin by thanking you. I want to thank 
you, I want to thank the professionals at the Centers for 
Disease Control and the National Institutes of Health, the 
folks that you have supervising our strategic stockpile.
    I think you guys have--your team, in working with other 
departments--I know you have worked very closely with Homeland 
Security and Transportation. You have been up here briefing us 
on a very regular basis--have done a really remarkable job in 
responding to something that this committee has been preparing 
for for years, and this committee ought to be very proud of its 
work on a bipartisan basis providing the tools for you and your 
colleagues to respond.
    And through you, I want to thank the President. The 
President has taken very strong and decisive action here in 
terms of protecting our borders and, you know, I am pleased to 
see this supplemental here, and, you know, I suspect we will 
change it in some ways.
    My good friend, the chairman, makes some points that I 
agree with her on, and I wouldn't be surprised to see you back 
here. But you are doing the right thing. You have used the 
resources we have given you. You have come back for a 
supplemental. I have no doubt you will come back again if you 
feel like you need them or need additional support, and I have 
no doubt, frankly, the Congress will be forthcoming.
    I have to tell you, I have heard a lot of stuff not on this 
committee and certainly it isn't--but particularly in the other 
body that I have got to tell you is just transparently 
political claptrap. And that is what it is. And when I hear 
people say, well, the President's done--it is too little and 
too late. I think, where have you been? We have been preparing 
for this honestly before this administration was here.
    We had 5 years in a row of substantial NIH funding. I know 
my friend, the chairman, worked with me when I was chairman. I 
have tried to work with her as her ranking member. We have 
shared this goal all along the way. And we have done the same 
thing at CDC.
    We have done the same thing with strategic stockpile with 
this subcommittee that came up with the Infectious Diseases 
Rapid Response Fund that gave you the initial money to not wait 
around on Congress or political theatrics but to start 
responding immediately, and I think you have done that 
exceptionally well.
    So when I hear you criticized by people that in many cases 
didn't vote for the bills that gave you the tools then I regard 
that as political as opposed to substantive.
    Last point I want to make on this is, I really appreciate 
the briefings that we have gotten, Congress as a whole has 
gotten. You have been--you know, had your representatives here 
before this committee. Our chairman did a wonderful job in 
bringing in folks. We had an honest and open dialogue.
    So the idea that we haven't been kept well informed or 
people have not said, look, we are going to do our very best 
but this is an unpredictable disease, this could spread at any 
time, these are not warnings that I just heard in the last 24 
hours. These are things that your team has been telling us from 
the very beginning. And it suggests to me that the 
administration has been on top of this, and, again, I 
appreciate the President in that regard from the very 
beginning.
    So I know you are--I was going to open by asking you how 
has your last week been, but I was afraid I would get an honest 
answer, so I don't want to begin that way.
    But I do want to commend you, and I mean that with all 
sincerity. You are one--I think one of the best cabinet 
officers that the President has, and I think you and your team 
serve this country very well. And I think this incident is 
proof of that, not a contradiction to it.
    Mr. Secretary, let me, again, wish you good morning. I look 
forward to the hearing today. Department of Health and Human 
Services has broad responsibility covering almost every aspect 
of daily life. In the next year, you are projecting almost a 
$1.4 trillion in outlay. You oversee healthcare for our seniors 
and Native Americans, and ensure both the quality and safety of 
the Nation's food and drug supply.
    Your agency forms the backbone of the public health 
infrastructure and is responsible for the development of 
medical protections against infectious diseases and chemical, 
biological, radiological, and nuclear agents. Discretionary 
spending provided by this subcommittee amounts--you know, 
accounts for only a small fraction of your overall total, 
really, just 8 percent of your outlays.
    In just the last 2 years--I was reflecting about your 
tenure as Secretary--you have responded to unprecedented storms 
leaving thousands of limited access to healthcare in Puerto 
Rico, humanitarian crisis at our southern border, and opioid 
addiction epidemic, and most recently, the spread of a new 
infectious disease from China. And I want to commend you and 
your leadership of this agency.
    First, I want to address the aggressive budget you have put 
before us. We know the cuts proposed are deep and, quite 
frankly, unlikely to be sustained. And I also know who writes 
the budget. They are called the OMB, the, you know, Office of 
Management and Budget, and you get to submit things but you 
have to come out and defend the decisions that are made there. 
And I appreciate that, and you work for the President, and you 
have to do that.
    But I want to stress, continued cuts to discretionary 
spending will not solve the Nation's fiscal problems, period. 
It is not possible to balance our national budget by chipping 
away at discretionary spending. We must look to broader 
entitlement reform to achieve the valued goal of a balanced 
budget. Nearly 90 percent of your agency is entitlement 
spending on autopilot. The authorizing committees of 
jurisdiction need to tackle the mounting problem of entitlement 
spending.
    I know, Mr. Secretary, you know these figures, but I hope 
those listening will take heed and recognize the challenges 
with Federal spending are not within the discretionary spending 
controlled by the Appropriations Committee.
    Second, I want to stress again that, while small compared 
to your total outlays, the discretionary component of your 
budget that we are going to talk about today plays a critical 
role for our country. Moreover, several programs we will 
discuss here today touch the life of every American. I usually 
start with the National Institutes of Health, but today I think 
it is fitting to highlight how important the Centers for 
Disease Control and Prevention is to protect the health of the 
American people.
    In the span of just a few weeks, we have witnessed a 
massive interagency undertaking to respond to the novel 
coronavirus from China. The CDC is built on lessons learned 
from past outbreaks and was positioned to respond, inform, 
deploy, and protect. Hundreds of staff were marshalled quickly 
to work on different elements of the response efforts.
    While not everything has gone perfectly, the Agency has 
shown the value of preparing for the unexpected and having a 
transparent, proactive communication strategy. I urge this 
committee to increase its support for the Infectious Diseases 
Rapid Reserve Fund at the CDC. As I have said here before, the 
threat of a pandemic is far greater than a terrorist event. 
Having resources uncommitted and immediately available is 
vital.
    I know many are disappointed to once again see proposed 
reductions for the National Institutes of Health. You and I 
have had have candid conversations about this. I too agree with 
my chairman here that a reduction there is unwise. However, I 
do want to point out this budget actually is $12 billion more 
for the NIH than the level proposed just 4 years ago. So it is 
not as if you haven't recognized the value there, and, frankly, 
I think you are going to catch up to us someday and you are 
going to be with us in continuing this bipartisan effort to 
increase this spending.
    I ardently urge Congress to continue to maintain its 
commitment to sustained increases for biomedical research, and 
I am pleased to see that with each budget the total request for 
NIH continues to increase. I hope decades from now future 
legislators commend the work of this committee for showing its 
commitment to biomedical research and maintaining American 
dominance in basic science.
    Recent news reports highlighting efforts by the Chinese 
Government to steal intellectual property and use financial 
incentives to manipulate researchers stresses the importance of 
our advantage. We should be proud the knowledge gained from 
hard work of our scientists is the envy of the world, but we 
must also understand protecting and safeguarding that 
information is necessary to ensuring the Nation's security.
    I also want to highlight your commitment to emergency 
preparedness. However, I was disappointed to see the reduction 
in Project BioShield and the Infectious Diseases Rapid Response 
Reserve Fund and only flat funding of the Strategic National 
Stockpile and the Biomedical Advanced Research and Development 
Agency, or BART as it is known.
    And, again, I will just be candid with you. I attribute 
that to OMB more than I do to people at HHS. And we can have 
that discussion later, because this whole Congress and 
administration needs a serious discussion on spending, but that 
has been true for a long time and under previous 
administrations as well.
    Our country needs to be ready to respond to any event to 
protect the health of the Nation. These programs are the 
Nation's frontline of defense against a domestic chemical, 
biological, or nuclear attack or infectious disease outbreak. 
We know current funding levels are not enough to have the 
Nation prepared for a large-scale event; therefore, reductions 
there, in my view, are misguided.
    I do want to recognize the $50 million increase for 
pandemic flu. While the current flu season has been milder than 
in years past, it has still resulted in thousands of 
hospitalizations and hundreds of deaths, including children. 
And I am encouraged by the commitment expressed in your budget 
to increase vaccination rates and efforts to develop more 
effective vaccines. We will save lives with those investments.
    Your budget also proposes to provide an additional $680 
million for the unaccompanied children program. This program 
has been a difficult and--has had a difficult and unpredictable 
history resulting in a deficiency in highly contentious 
supplemental appropriation last year. Your agency's efforts to 
move the program to a more stable position to respond to 
increases in arrivals at the southern border is long overdue. 
Building a system that can accommodate unpredictable arrivals 
at the southern borders is both necessary and responsible 
management of Federal resources.
    Finally, again, I want to personally thank you for your--
the efforts that you have undertaken in your agency to protect 
the life of innocent children and respect a person's right to 
follow their religious beliefs. I support your efforts to align 
the Title 10 Family Planning Program with current law and 
ensure a separation between family planning services and 
abortion.
    I also support your efforts to allow for the free exercise 
of conscience and health insurance coverage and enforce current 
law provisions, which prohibit discrimination based off of 
decision not to support an abortion.
    Again, I appreciate the job you have done for the American 
people. I look forward to your testimony here today.
    Ms. DeLauro. Let me now yield to the chair of the full 
Appropriations Committee, Congresswoman Nita Lowey from New 
York.
    Mrs. Lowey. Welcome. And I thank Chair DeLauro, Ranking 
Member Cole for holding this hearing.
    Secretary Azar, thank you for joining us today. As you 
know, Chair DeLauro and I sent you a letter on February 4 
requesting information on additional resources for the 
coronavirus. Despite urgent warnings from Congress and the 
public health community, it has taken weeks for the Trump 
administration to request these emergency funds while tens of 
thousands have become ill around the world. And I understand 
well, as my colleague Mr. Cole has said, this may not be 
attributed to you, but here you are today, and I thank you.
    Where still the overall request is inadequate to 
effectively combat this threat, it is alarming that the 
administration is proposing to take money from one emergency to 
pay for another, which would leave us more at risk for emerging 
diseases and is an irresponsible approach to combatting what 
the WHO has said is a potential pandemic. House Democrats will 
move quickly to enact a robust package that will fully address 
this threat without jeopardizing other necessary programs.
    Now to the budget. Mr. Secretary, you and I have been able 
to work together on important public health issues, and I value 
our relationship. That is why it is so disappointing when you 
come before us with a budget that is really devoid from reality 
and would seriously harm the American people.
    President Trump's disastrous budget is filled with program 
cuts opposed by the public and bipartisan majorities in both 
chambers. It is unfortunate that instead of using the budget to 
build on the historic investments secured in last year's 
appropriation bills, the President doubled down on partisan 
talking points.
    To propose investing $2 billion for the wall or steal it 
outright from our veterans and servicemembers while proposing 
to cut initiatives that improve the well-being of Americans 
exposes the Trump administration priorities to what they are, 
campaign promises over public health.
    Among many reckless proposals your budget would cut CDC by 
nearly $700 million, just as CDC is combatting epidemics on 
opioids, surging rates of youth vaping--we could use a whole 
hearing, again, on just the youth vaping issue. I have never 
seen anything expand in all our public schools, even down to 
fourth, fifth, sixth grade.
    One of the worst flu seasons in decades and the 
coronavirus, cut NIH by $3.3 billion jeopardizing lifesaving 
medical research, and eliminate preschool development grants 
which would stall the important progress dates made to build 
strong early education systems.
    In addition, the irresponsible proposal to eliminate teen 
pregnancy prevention while assaulting Medicaid and attacking 
the foundation of Title 10 Family Planning with a domestic gag 
rule is a dangerous combination that will leave many women 
without access to quality care, result in more unplanned 
pregnancies. This is an assault on women's health and the 
rights of women and their doctors.
    And I was dismayed--actually shocked--with the elimination 
of the Federal funding we included in the fiscal year 2020 
spending bill for the first time in two decades for gun 
violence prevention research. While you have supported this 
research in the past--I want to say that again. I am aware that 
you have supported this research in the past--the budget makes 
clear that the President does not intend to do anything to 
combat the gun violence epidemic in this country.
    In addition, rather than invest in the ability of State and 
local governments to combat the vaping epidemic, which has led 
to at least 64 deaths, nearly 3,000 hospitalizations, this 
budget would consolidate CDC's office on smoking and health, 
cut its funding at the very moment we need the CDC's expertise 
and resources.
    So if a budget is a statement of values, that it is clear 
that President Trump has no intention of protecting our young 
people or improving the health of Americans.
    So thank you so much for being here. I look forward to 
continuing the discussion.
    Ms. DeLauro. Thank you.
    I now want to yield to the ranking member of the full 
Appropriations Committee, Congresswoman Kay Granger from Texas.
    Ms. Granger. Thank you so much.
    Before I begin my prepared remarks on the crisis that we 
are dealing with right now, I want to associate myself with 
Ranking Member Cole's remarks having to do with your good job 
and the planning that has gone on in this committee for such a 
long time.
    I would like to thank Chairwoman DeLauro and Ranking Member 
Cole, who also serves as the vice ranking member for the full 
committee, for holding this hearing.
    I also want to thank you, Secretary Azar, for your efforts 
to protect our Nation from this new coronavirus. Your immediate 
actions have enabled us to get ahead of the virus and begin 
protecting our citizens.
    At the beginning of the outbreak you told Members of 
Congress that you would let us know as soon as possible when 
more funding was needed, and you have done just that. I am 
confident that Congress will work with you to make sure you 
have the resources in hand to continue to respond rapidly to 
this dynamic situation.
    All Americans should be reassured this morning that we have 
a robust public health system that is able to respond in every 
State to an infectious disease outbreak such as this. Congress 
has strengthened our State and local efforts with recent 
investments, including $85 million in the most recent fiscal 
year 2020 appropriation for a rapid response to an infectious 
disease.
    This is the very situation that led the subcommittee under 
the leadership of my friend Mr. Cole and Chair DeLauro to 
create such a fund, and I am pleased to see that it is enabling 
your agency to mount a quick and proactive effort to keep our 
Nation safe.
    I look forward to working with you and my colleagues in 
Congress as we continue to prevent the spread of this and other 
diseases within our country. I thank you for being here to 
testify today, and I yield back my time.
    Ms. DeLauro. Thank you very much.
    Mr. Secretary, your testimony--and as you know, your full 
testimony will be entered into the record, and now you are 
recognized for 5 minutes. Thank you.
    Secretary Azar. Great. Thank you very much.
    Chairwoman Lowey, DeLauro, and Ranking Members Granger and 
Cole, thank you very much for inviting me to discuss the 
President's budget for fiscal year 2021. I am honored to appear 
before this committee for budget testimony as HHS Secretary for 
the third time, especially after the remarkable year of results 
that HHS has produced in the last year.
    With support from this committee this past year we saw drug 
overdose deaths decline for the first time in decades, another 
record year of generic drug approvals at FDA, and historic 
drops in Medicare Advantage, Medicare Part D, and Affordable 
Care Act exchange premiums.
    The President's budget aims to move toward a future where 
HHS programs work better for the people we serve, where our 
human services programs put people at the center, and where 
America's healthcare system is affordable, personalized, puts 
patients in control, and treats them like a human being not 
like a number.
    HHS has the largest discretionary budget of non-defense 
department agencies, which means that difficult decisions must 
be made to put discretionary spending on a sustainable path. 
This committee has made important investments over the years, 
and some of HHS's large discretionary programs, including the 
National Institutes of Health and we are grateful for that 
work.
    The President's budget proposes to protect what works in 
our healthcare system and make it better. I will mention two 
ways we do that: First, facilitating patient-centered markets, 
and second, tackling key impactable health challenges.
    The budget's healthcare reforms aim to put the patient at 
the center. It would, for instance, eliminate cost sharing for 
colonoscopies, a lifesaving preventive service. The budget 
would reduce patients' costs and promote competition by paying 
the same for certain services regardless of setting. And it 
endorses bipartisan, bicameral drug pricing legislation. The 
budget's reforms will improve Medicare and extend the life of 
the hospital insurance fund for at least 25 years.
    We propose investing $116 million in HHS's initiative to 
reduce maternal mortality and morbidity, and we propose reforms 
to tackle America's rural healthcare crisis, including 
telehealth expansions, and new flexibility for rural hospitals.
    The budget increases investments to combat the opioid 
epidemic including SAMHSA's State opioid response program where 
we appreciate this committee's work with us to give States 
flexibility to address stimulants like methamphetamines. We 
request $716 million for the President's initiative to end the 
HIV epidemic in America by using effective evidence-based 
tools, and this committee's support has enabled us to begin 
implementation already.
    Today, I am pleased to announce that the Health Resources 
and Services Administration is dispersing $117 million in 
grants to expand access to HIV treatment and prevention by 
leveraging successful programs and community partnerships, such 
as the Ryan White HIV/AIDS Program and community health centers 
to reach more Americans who need treatment or prevention 
services.
    The budget reflects how seriously we take the threat of 
other infectious diseases such as the novel coronavirus by 
prioritizing funding for CDC's infectious disease programs and 
maintaining investments in hospital preparedness. We still have 
only 14 cases of the novel coronavirus detected in the United 
States involving travel to or close contacts with travelers.
    We have three cases among Americans repatriated from Wuhan 
and 42 cases among American passengers repatriated from the 
Diamond Princess. The immediate risk to the American public 
remains low, but there is now community transmission in a 
number of countries, including outside of Asia, which is deeply 
concerning. We are working closely with State, local, and 
private sector partners to prepare for mitigating the virus' 
potential spread in the United States, as we expect to see more 
cases here.
    On Monday, OMB Center requests to make at least $2.5 
billion in funding available for preparedness and response, 
including for therapeutics, vaccines, personal protective 
equipment, State and local public health support, and 
surveillance. I look forward to working closely with Congress 
on that request.
    Lastly, when it comes to human services, the budget cuts 
back on programs that lack proven results while reforming 
programs like TANF to drive State investments in supporting 
work in the benefits it brings for well-being. We continue the 
fiscal year 2020 investments Congress made in Head Start and 
child care programs, which promote children's well-being and 
adults' independence.
    This year's budget aims to protect and enhance Americans' 
well-being and deliver Americans a more affordable, 
personalized healthcare system that works better rather than 
just spends more, and I look forward to working with this 
committee to make that commonsense goal a reality.
    Thank you very much.
    [The statement of Secretary Azar follows:]
    
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    
    Ms. DeLauro. Thank you very much, Mr. Secretary.
    And we are going to step out of regular order for a moment. 
Chairwoman Roybal-Allard is chairing a hearing at 10:30 with 
the Department of Homeland Security, so I want to say thank 
you, you know, for--to my colleagues for your graciousness and 
allowing Congresswoman Roybal-Allard to ask her question before 
she has to excuse herself.
    We recognize Congresswoman Roybal-Allard.
    Ms. Roybal-Allard. Thank you, Madam Chair. And also thank 
you to the committee for the courtesy of being able to speak 
out of order.
    Secretary Azar, since the initial passage in 2008 of my 
Newborn Screening Saves Lives Act, it has helped ensure high-
quality diagnostics and lifesaving followup interventions for 
the over 12,000 newborn babies diagnosed each year with genetic 
and endocrine conditions.
    As you know, the Newborn Screening Act codified the 
Advisory Committee on Heritable Disorders in Newborns and 
Children to help address the vast discrepancy between the 
number and quality of State screening tests. Because of this 
committee's work, today 49 States and the District of Columbia 
screened for at least 31 of the 35 currently recommended core 
conditions.
    Last September, the reauthorization of the newborn 
screening law expired, and we have passed a new reauthorization 
bill in the House, and we continue to push our Senate 
colleagues to pass the bill out of their Chamber.
    However, since October, your office has suspended the 
activities of the Advisory Committee, which is preventing it 
from completing its current work at commencing new business 
including a critical update to the recommended uniform 
screening panel nomination process. Meanwhile, you have the 
authority reinforced in the 2014 newborn screening 
reauthorization to deem the advisory council a secretarial 
Advisory Committee so it could continue its charter.
    Given the essential role that the advisory council plays in 
our Nation's newborn screening system, why haven't you used 
this authority, and when will you extend the term of the 
committee until reauthorization occurs?
    Secretary Azar. Well, first, Congresswoman, I would like to 
thank you for your leadership with respect to maternal health 
and as co-chair of the congressional caucus on maternity care.
    As you know, maternal health is a very serious public 
health challenge in the United States, and our budget is 
actually investing in--thanks to your leadership and both 
chairwomen of this committee--by increasing funding by $74 
million at CDC, HRSA, ARQH, and IHS to reduce maternal 
mortality and morbidity.
    We are going to continue funding for maternal and child 
health block grants to States, which provide States with 
additional flexibility for programs such as heritable 
disorders. We also have $126 million for Healthy Start for 
community-based strategies to reduce disparities in infant 
mortality and improve perinatal outcomes for women and children 
in high-risk communities.
    With regard to the Advisory Committee on Heritable 
Disorders, due to that lapse in the authorization, that 
committee has halted activities. I am happy to look into the 
question of its work as we work with Congress around 
reauthorization, of course, of the Neonatal Screening Act.
    Ms. Roybal-Allard. Okay. Because you do have that authority 
to continue that committee.
    And you mentioned another issue that I am concerned about, 
that in your 2021 budget that you propose to eliminate the 
HRSA, heritable disorder program, that provides grants to 
educate providers and parents to help States expand their 
newborn screening programs.
    Without this funding, how will the States fulfill these 
newborn screening activities and improve followup care for 
infants diagnosed with heritable disorders, and who will 
operate, update, disseminate information from the Federal 
Clearinghouse of newborn screening information? Those are 
questions that I would like some answers to. But you did 
mention that you also rolled the newborn screening into the 
maternal health, child health block grant. Is that what you 
just stated?
    Secretary Azar. So, no, I was emphasizing that we have 
within the maternal mortality block grant that those provide 
addition that has flexibility to States for programs such as 
heritable disorders. So they could use that block grant 
funding, is my understanding, to continue while we are waiting 
for congressional reauthorization work on heritable disorders.
    Ms. Roybal-Allard. Well, the concern is that, number one, 
you put less money into the block grant than was in the 
programs that you eliminated and then States are free to use 
their block grant money as they desire. So increasing funding 
for the MCH block grant, I think, is an important investment, 
but it does not guarantee the money will be spent on improving 
State newborn screening programs. So maybe we can work a little 
bit on that and talk a little bit more about the possibility of 
reinstating the committee, Advisory Committee.
    Secretary Azar. Happy to work with you on that.
    Ms. Roybal-Allard. Thank you.
    Secretary Azar. Thank you.
    Ms. Roybal-Allard. Thank you.
    Ms. DeLauro. Thank you. We are going to return to regular 
order, and I have a question for you, Mr. Secretary. Just 
before you testified yesterday morning before Senate 
Appropriations, OMB finally submitted a supplemental funding 
request. And Chairwoman Lowey mentioned and that we both asked 
you to submit such a request 3 weeks ago, and while we are glad 
the administration has finally done so, what has been provided 
to date is unacceptable. It lacks the fundamental components of 
a supplemental request, including proposed bill language, 
supplemental documentation, and OMB did not transmit a budget 
table with programmatic details until last night.
    To be clear, we want to be supportive. We realize this 
situation is evolving, and you are adjusting to shifting 
circumstances, but it is important for the committee to better 
understand the needs going forward.
    One, can you tell us how much of the Infectious Diseases 
Rapid Response Reserve Fund has been used for this emergency 
response? Has----
    Secretary Azar. So as I think you--oh, sorry.
    Ms. DeLauro. Has the $105 million that was available from 
that fund been exhausted?
    Secretary Azar. We are at the point now where we have used 
or where we have either committed or obligated the moneys in 
that $105 million rapid response fund, and that is why I sent 
you the notice last night about the reprogramming and transfer 
on the 136 so that future obligations we can continue our work 
pending----
    Ms. DeLauro. So that the $105 is gone?
    Secretary Azar. It is in budgets being committed or 
obligated, exactly. Right.
    Ms. DeLauro. Yeah. Right. Well, it's not there, okay.
    Secretary Azar. Right.
    Ms. DeLauro. And are you going to--how quickly are you 
expending the funds?
    Secretary Azar. The actual run rate of the money going out 
the door I don't know. I believe we were at about $20 million 
the last update we had given to the subcommittee, but I would 
want to defer to staff if we could check with you on that.
    Ms. DeLauro. Okay.
    Secretary Azar. I do want to make sure you are getting 
information on spend rate as quickly as OMB will, you know, 
authorize the release of that. But we are--basically we are out 
of the $105, for which we are very grateful that you all 
funded. It has proven to be vitally, vitally important, so 
thank you.
    Ms. DeLauro. Let me ask you to provide additional details 
of the supplemental request for the subcommittee. I have only 
seen the two-page letter from OMB and a one-page budget table. 
You know, I was around when the Obama administration submitted 
a supplemental request for Ebola. They sent a 28-page document 
outlining the intended purpose of each component of the 
request, and that was demanded by this committee. I was there. 
Every time they came with much more information.
    So let me ask you these several questions. How do you 
intend to reimburse State and local agencies for their 
expenditures on the ground?
    Secretary Azar. So we have got--I appreciate your 
frustration with the two-page letter being the documentation. 
We have been working with your staff to provide detail----
    Ms. DeLauro. By the way, this is the Obama submission.
    Secretary Azar. Yes. Right. So we have been working with 
your staff. We actually do--we do have plans that we are going 
to work with your teams to make sure we educate on and work 
together to flesh out. It is a very fast-moving process, as I 
am sure you understand.
    So within the $2.5 billion, at least $2.5 billion request 
we would have the CDC have a major fund, which would be through 
the public health emergency fund, to allow them to work with 
State and local governments to reimburse for expenses around 
contact tracing, laboratory work, lab testing, et cetera.
    Ms. DeLauro. So we are going to reimburse State and local 
agencies?
    Secretary Azar. Yes. So that would be--that is the goal to 
have a fund that would enable the feedback we have gotten from 
State and locals, whether through grants or actual 
reimbursement, and we would work with the committee on the 
appropriate structure of how you think that should be done.
    Ms. DeLauro. Okay. And I would just like to know what we 
think that is going to be, how much money is involved, et 
cetera, so that we can also respond.
    Secretary Azar. Absolutely. Yeah.
    Ms. DeLauro. We are all getting those questions.
    Secretary Azar. Yes. So that is in the table. So if--there 
are five key areas that didn't--weren't quite transparent in 
the letter, if I could mention the key strategic announcements 
we want to make.
    Ms. DeLauro. Quickly. My time is going to run out.
    Secretary Azar. Okay.
    Ms. DeLauro. I will get the five areas.
    How much of the funding is designated for international 
activities versus domestic preparedness?
    Secretary Azar. So I believe in the most recent document 
that I saw, the table that I believe you have access to, there 
is $200 million in there of USAID funding that may be from 
existing sources. I don't know if that is new money or not. 
That may be existing moneys that would be dedicated on that.
    We have focused our $2.5 billion request at HHS frankly on 
U.S. preparedness and response. And I would say, compared to 
the Ebola response where getting that stopped in West Africa or 
now in East DRC is the critical element, here our activities 
are really mitigation--containment and mitigation preparation 
in the homeland because we are not going to help the Chinese 
stop this in China. China is going to do that or not be able to 
do that.
    Ms. DeLauro. Does the supplemental request include funding 
to replenish the Infectious Diseases Rapid Response Reserve 
Fund? Yes or no.
    Secretary Azar. I don't believe we use the Rapid Response 
Fund, but what we would do is work with you on the 2021 
appropriation to ensure that that is appropriately funded in 
light of this. The funding request, of course, was locked in 
December before any of this happened, so we want to be flexible 
on 2021 funding to respond to this.
    Ms. DeLauro. Did OMB reject any of your requests for 
emergency supplemental funding to respond to the coronavirus?
    Secretary Azar. Well, I am not going to get into back and 
forth with the White House or OMB discussions, but I want to 
let you know, this $2.5 billion request, it has my complete and 
full support. It attacks the five critical success factors that 
I made clear I needed to invest in, and it supports that. It is 
at levels I think are appropriate. And if not, if it doesn't 
fund it enough, we will come back to you and work with you. 
And, again, we are trying to be flexible. We said at least 
$2.5. We want to work with you on both funding sources as well 
as top-line amounts.
    Ms. DeLauro. Well, as the chair pointed out, we will put 
together a supplemental that will address this issue.
    Congresswoman--Congressman Cole.
    Mr. Cole. You gave me a promotion there for a minute. I am 
sorry? Oh, yeah. I know she has got to get to the next meeting.
    Ms. DeLauro. Yes. I apologize.
    Ms. Granger. No problem.
    Ms. DeLauro. Congresswoman Granger.
    Ms. Granger. Thank you for allowing me to go. I have to go 
to another one.
    Mr. Secretary, I was alarmed to learn recently that almost 
90 percent of active ingredients used for pharmaceutical 
manufacturing originate in China. What should we be doing in 
the United States to ensure the safety of the American drug 
supply?
    Secretary Azar. Well, Chairwoman, as you know, this is 
really--this has brought to light the issue of the complete 
internationalization of the supply chain not just for medical 
products but really across all of the economy. And so what we 
are doing now is the FDA is reaching out to all pharmaceutical 
manufacturers, device manufacturers, et cetera, to make sure we 
have got visibility.
    The latest fruits of that work show that there are 20 
pharmaceutical products we are aware of to date at FDA where 
either the entire product is made in China or there is a 
critical active ingredient that is solely sourced within China. 
So those would be obviously the most targeted to be concerned 
about.
    To date we are not aware of any expected shortages, and we 
have aggressively proactively reached out to manufacturers for 
that information. I am told there are two manufacturers in 
Hubei province of pharmaceuticals, but fortunately the 
manufacturer has a large, large stockpile supply of advanced 
production there.
    But we have to be very alert to this, and we have to be 
candid that there could be disruptions in supplies. We already 
experience that, of course, with medical shortages, generic 
shortages, due to sole-source producers, manufacturing defects, 
inspection problems. And we have got an aggressive agenda for 
shortages that we have worked with this committee and 
authorizing committees onto help alleviate shortages.
    Ms. Granger. Good. Thank you. And would you keep us 
informed on those?
    Secretary Azar. Of course, yes.
    Ms. Granger. Thank you, Madam Chair, for letting me do 
that.
    Ms. DeLauro. Thank you.
    I now would like to recognize the chair of the committee 
who has a hearing to get to as well, Congresswoman Lowey.
    Mr. Cole. You are a very busy woman.
    Mrs. Lowey. We will all talk fast. Thank you.
    First of all, I echo the concerns raised by Chair DeLauro 
on the coronavirus, and we really do need these answers right 
away, but I would like to turn to another matter on--which is 
impacting public health.
    As you know, I have worked to restore funding for gun 
violence prevention since former Representative Dickey first 
attached his amendments to the spending bill more than 20 years 
ago. Some of us were there. The fiscal year 2020 spending bill 
enacted with bipartisan support in December included $25 
million for Federal gun violence prevention research split 
between the CDC and the NIH.
    And when you and I have discussed this issue, including at 
the budget hearing 2 years ago, you expressed support for this 
research and responded that we are in the science-gathering 
business. Well, clearly, that sentiment isn't shared by the 
White House as the President's budget would eliminate this 
groundbreaking funding.
    Nearly 40,000 Americans lose their lives due to a firearm 
each year, hundreds of thousands more are injured. Why does the 
Trump administration not believe this is a public health 
priority worthy of funding?
    Secretary Azar. So thank you for having funded that in the 
2020 appropriation in December, and we are actually executing 
on the funding both at NIH and at CDC. In fact, just on the 
21st, the CDC put out a new research funding opportunity, 
research grants to prevent firearm related violence and 
injuries to solicit investigator initiated projects with a 
deadline of May 5 for submissions of those.
    In terms of the budget submission and the continuation of 
that, as you know, with CDC's budget we prioritized infectious 
disease preparedness and global health security, and so that 
did mean cuts and prioritization away from chronic and 
preventive activities which included the firearm research 
there.
    We, of course, continue at NIH to always be open for 
business as we have always been for firearm research within the 
peer review process of submissions, and so that would continue 
regardless of whether Congress accepts the budget submission or 
not.
    Mrs. Lowey. Well, with all due respect, the administration 
chose to make these cuts. This wasn't a tough choice; it was 
the wrong choice.
    With limited time, I am going to go to another key issue. 
And I thank you, Madam Chair.
    As I mentioned, at least 64 people died last year and 
nearly 3,000 were hospitalized with vaping-related respiratory 
illnesses. While many but not all of these cases were 
attributed to vitamin E acetate, the crisis raises serious 
question about how little is known about vaping, particularly 
as concern grows that there could be long-term health 
consequences such as heart disease, stroke, cancer, and more. 
This is particularly alarming as the youth vaping rates have 
skyrocketed.
    So I was optimistic when President Trump said he would 
clear the market of flavored e-cigarettes. But after speaking 
to his political advisers, he turned his back on public health 
for political gain and instead proceeded with an announcement 
that has left thousands of kid-friendly flavors on the market 
and allowed disposable e-cigarettes to flourish. How many more 
people will have to be sickened or die for the administration 
to take this seriously and ban all flavors?
    Secretary Azar. Chairwoman, thank you for your passion 
around the e-cigarette and vaping issue and access for kids. I 
share that and want to keep working with you on this challenge.
    When the President made the initial announcement with me on 
September 11, we included all flavors other than tobacco in 
that statement because at the time we had the National Youth 
Tobacco Survey data, which had mint and menthol together as 
single category of use.
    We were actually at that time concerned about including 
menthol in the immediate removal from the market given the fact 
that menthol combustible is a discrete legal category used 
especially in the African American community, and we want to 
make sure that off-ramp would not be immediately pulled away 
from folks.
    After making our announcement we got the Monitoring the 
Future data out of NIH that broke apart for the first time and 
showed that menthol was really not being used by kids. It was 
much more like tobacco flavoring of the e-cigarettes, and it 
was the mint that was driving it. And that was what led to the 
modification of the flavoring question there as we move forward 
to the submission deadline.
    We just--also, with regard to disposables, we don't have 
data on disposables. NJOY, the largest manufacturer, did pull 
their flavors off the market, is what they announced, the 
comparable kid-friendly flavors off of the market. But we are 
going to keep working and enforcing. If anybody is marketing to 
kids, we are going to enforce against them. We are going to 
watch the data in terms of enforcement priorities. And, of 
course, they all have to submit by May of 2020 per court order 
for the PMTA at FDA.
    Mrs. Lowey. Well, just a quick, final question. Frankly, we 
need more resources to combat this epidemic not less. So maybe 
you can think about why the administration recommended yet 
again to consolidate and then gut funding for the Office on 
Smoking and Health.
    I guess I--oh, I guess I don't have any time.
    Ms. DeLauro. No. You are out of time.
    Mrs. Lowey. Why don't you think about that and perhaps 
answer--just let me say, in conclusion, Madam Chair, this is an 
epidemic. You know, I speak to my grandkids, sixth grade, fifth 
grade, it is unbelievable what is going on out there. So we 
have to take it seriously, be tough and strong and respond to 
this epidemic that is growing. Thank you very much.
    Ms. DeLauro. Thank you.
    Mrs. Lowey. Thank you, Madam Chair.
    Ms. DeLauro. Ranking Member Cole, thank you, again, for 
your----
    Mr. Cole. Absolutely. Thank you.
    And, Madam Chairman of the full committee, you have all the 
time you want whenever you need it. I am sure our chairman will 
make sure----
    Mrs. Lowey. Oh, really?
    Mr. Cole. Yes, you do. This is your committee.
    Mrs. Lowey. Thank you. But I am going to go over to 
Homeland Security.
    Mr. Cole. Okay. Well, we will miss you because we know we 
are really your favorite, and we always have been.
    Let me start--a couple things. I want to first associate 
myself very much with our chairman's request for the additional 
detail on the supplemental, and that is meant to try and help 
you----
    Secretary Azar. Of course.
    Mr. Cole [continuing]. Quite frankly, because our job will 
be to sell this supplemental to our colleagues on both sides of 
the aisle. I know we will work together to do that. So the more 
you can arm us with information, the better off we will be.
    I do have a couple of quick questions on the coronavirus. 
And I want to--again, my chairman made this point and I want to 
associate myself with her on this too. I agree with her about 
Ebola. You know, I don't think you should sacrifice short term 
here what--this is bad dealing with coronavirus.
    If we ever had an Ebola outbreak inside the United States, 
it would be devastating. So I just don't think we should be, 
you know, penny wise and pound foolish on that. I would hope 
working together we protect that funding going forward, and I 
just I say that just to advise you of that. And, again, I don't 
have any problem with people being prudent, trying to stretch 
the dollars as far as they can. That is a good thing. This is 
just one that I think we are going to have to do something 
different.
    Now, I want to ask one question, and I know the answer to 
it but I want to get it clearly on the record. If you do not 
have enough money in the $2.5 billion you asked for, you will 
come back and ask for it, additional funds. Is that correct?
    Secretary Azar. Absolutely.
    Mr. Cole. I can tell you, I have talked to our leadership 
and they are fully supportive of that. They understand that 
this is difficult to estimate and that it could grow 
exponentially. And so, I mean, I have got the green light from 
our side of the aisle to say, look, if we have to go beyond 
this, please feel free to alert your colleagues on the other 
side that we are going to work with you on that.
    Second question, and, again, a compliment, I want to thank 
you. We don't have the jurisdiction over funding on the Indian 
Healthcare Service, but you do, and you had a modest increase 
in that this year and a tight budget. I appreciate that. And 
thank you, and I will do my very best to give you more money 
than you asked for this that area.
    But I do want to also alert you, the budget does propose 
for the elimination of the good health and wellness in Indian 
Country program at the CDC. That ain't going to happen. You 
know, that is a program that we work with tribal governments 
on. They are vastly underfunded in this particular area. And 
so, again, I sympathize with you dealing with OMB, but I just 
alert you that I certainly would be very opposed to that.
    If you want to comment on some of the things you are doing 
in tribal health, I would be very interested in listening to 
what you have to say.
    Secretary Azar. Yeah, absolutely, Mr. Cole. Thank you very 
much. And I think you know our passion, my passion around 
tribal health. And we have--even in tight budget environments 
we have really tried to ensure appropriate investment in Indian 
Country.
    While our budget does, as everyone has noted, propose an 
overall decrease of almost 10 percent in discretionary 
spending, IHS is funded in our budget request actually at $6.2 
billion, which is a 3 percent increase. So just by scale, I 
think that reflects the prioritization of Indian health that we 
are trying to make here.
    Discretionary funding for IHS has actually gone up by 24 
percent between fiscal year 2017 and 2020. We are working to 
improve quality, safety in our facilities. In fact, my deputy 
secretary is out there in South Dakota this week inspecting our 
facilities that we are trying to get brought up to 
certification.
    We are working to--as part of this appropriation we want to 
really build up a whole quality, safety culture and mindset 
throughout IHS beyond just compliance with CMS certification 
requirements. So that is part of all that we are trying to do 
for Indian health, so thank you.
    Mr. Cole. Well, again, I am very appreciative, and we are 
going to work with you where we can and then occasionally stop 
you where we must.
    But let me move to another area. And you and I have talked 
about this recently, and I think it is important for the 
committee to know. We have had some very legitimate questions, 
in my view, about reimbursement particularly during coronavirus 
for State and local people.
    But the reality is CDC provides, I think, 50 percent of all 
the funding for State and local health programs in the United 
States. I know in my own State it is 60 percent. So it is not 
as if you haven't put a lot of effort out there already, and, 
you know, this is something that maybe State and local 
governments need to be looking at, not that I am calling for 
any decrease in what we do, but maybe they need to be doing a 
little bit more themselves.
    But I want to ask you how ready you think these State and 
local departments are to deal with this as we go forward and 
what additional steps you think we ought to take to strengthen 
those things without making them totally dependent on the 
Federal Government.
    Secretary Azar. Well, as you mentioned, thanks to this 
committee we, through the CDC fund, approximately 50 percent of 
the public health infrastructure at the State and local level 
in the United States. In addition there is--or connected to 
that is the Public Health Emergency Program, the PHEP, which 
funds over the last many years $675 million a year to States to 
then give to locals to--precisely for this kind of situation, 
to be ready for public health emergencies.
    I have been impressed by most States and local governments' 
degrees of cooperation and preparedness, but it has also 
highlighted to me, I believe there is a need for greater 
accountability and oversight with that money that is going out 
to ensure that it is, in fact, leading to readiness for a 
public health emergency.
    Mr. Cole. Last quick question because I only have about 30 
seconds, but I probably get more concerns about mental health 
in my district than almost anything else, and I think that is 
pretty common for all of us. Could you address quickly some of 
the things in your budget that would help us deal with the 
mental health problems that I know all of us face?
    Secretary Azar. Well, one of the most exciting things in 
our budget, from my perspective, is the proposal that would 
allow a State option on what is called the IMD exclusion, not 
just to have inpatient--expanded inpatient facility capacity 
for substance use disorder but also for serious mental illness, 
to really--we have seen where we have had IMD exclusions 
approved for--the waivers approved for States on substance use 
disorder and expansion in capacity, and by bringing this as a 
State option, which means it is not, I think, subject to the 
budget neutrality issues of a waiver, that is a major 
investment that could allow that for serious mental illness. 
Just one example there.
    Mr. Cole. Thank you very much.
    Thank you, Madam Chairman.
    Ms. DeLauro. Congressman Pocan.
    Mr. Pocan. Thank you very much, Madam Chairman.
    And thank you Mr. Secretary for being here.
    First off, let me say your department is in the final 
stages of a regulation regarding the interoperability of 
healthcare data. More than 10,000 of my constituents work in 
the health IT industry.
    I just wanted to let you know that the outcome of this rule 
is very important to my district. I appreciate you listening to 
the concerns of comments. I look forward to the improvements 
that will happen in the regulation, and I want to thank you for 
your leadership.
    Secretary Azar. I have worked directly with Epic leadership 
in hearing their concerns. I think often they--we put a 
proposal out, precisely because we want to get that feedback 
about operationalizing and everything. So I hope that we are 
trying to be reflective of----
    Mr. Pocan. I look forward to----
    Secretary Azar [continuing]. As much as we can.
    Mr. Pocan. So let me try to get the meat which may not be 
as pleasant. I would love to get to talks about the cuts to 
Medicare and Medicaid, the cuts to NIH, but I really want to 
talk about the coronavirus. And I need you to help provide some 
comfort to the American people that this administration and 
Federal officials actually have a grasp on this. So let me just 
go down a little bit of litany of what I found on the news just 
in the last few days. We had the Secretary of Homeland Security 
Chad Wolf yesterday say a vaccine was several months away, the 
President said we are very close to a vaccine, and yet I think 
you and the CDC and others have said it is more like 18 months.
    We have heard from Commerce Secretary Wilbur Ross say that 
the coronavirus could be good for U.S. business because it 
hurts China. We have heard Larry Kudlow say it is contained. We 
have heard Rush Limbaugh, Medal of Freedom winner and White 
House surrogate, say it is no worse than the common cold. And, 
yet, we have also heard from CDC officials not a question of if 
this will happen anymore, but rather a question of exactly 
when. And Dr. Fauci, who many of us really respect, said it is 
inevitable this will come to the United States. So we have got 
those kind of comments.
    Second, we know that this first started information coming 
around January 7, and the budget that was produced by the 
President on February 10 provided a number of cuts that would 
have actually worked to directly affect this from the almost 
$700,000,000 cuts to CDC, $167,000,000 from the Office of the 
Assistant Secretary for Preparedness and Response, $18,000,000 
from the House Preparedness Response Account, and $200,000,000 
cut to Project Bioshield.
    We have seen recent reporting that 150 prescription drugs--
and this is from the FDA--are at risk of shortage if this 
outbreak worsens, and yet the FDA Commissioner Stephen Hahn, is 
reportedly not part of the task force as planning the U.S. 
response to the coronavirus virus.
    In 2018, the CDC cut 80 percent of its efforts as part of 
the global health security initiative to prevent global disease 
outbreaks because it was running out of money, and it was 
reported that the Department could go from working in 49 
countries to just 10 countries. Also, in 2018, the White House 
official that was responsible for leading the U.S. response of 
the deadly pandemic left the administration, and the global 
health security team he oversaw was disbanded.
    And, finally, the tweet from this morning from the 
President talking about low ratings fake news, doing everything 
possible to make the coronavirus--spelled incorrectly, but I am 
a journalism major--look as bad as possible, including 
panicking markets if possible. Markets being the concern.
    So help me, if this contained the common cold, inevitable, 
2 months, 18 months, provide me some security that someone 
knows what is going on in this administration about the 
coronavirus virus.
    Secretary Azar. Well, thank you. Where shall I begin?
    Mr. Pocan. It is a long list of----
    Secretary Azar. What we are trying to do, and we have tried 
to do this with Members of Congress, Senate, and the public and 
the media is really flood you with information about this to 
make sure that we are being transparent about what we are 
facing, what we know and what we do not know, as well as what 
our plans are.
    So the risk right now is very low to Americans. We have--as 
Kudlow--as Larry Kudlow said, from a public health perspective, 
we technically are in a state of containment in the United 
States. We have had 14 domestically identified cases here from 
nonrepatriation. That has remained the case now for 15 days, 
but we have always been clear that, number one, that could 
change rapidly. And from the outset, I and the public health 
experts have said we fully expect we will seek more cases here 
in the United States. We have to be mentally prepared and, 
also, as a government prepared.
    Mr. Pocan. If I can, just to reclaim my time. It still 
didn't provide me the comfort I was looking for. Because the 
variety of statements I said are from 2 months ``it is 
nothing,'' ``it is a common cold'' to ``inevitable.'' And I 
still do not think this administration seems to have grasp on 
it.
    Let me ask you this, you are looking for the funds--I also 
agree with the bipartisan concern around stealing it from 
Ebola. I talked to a senior White House official last year--not 
White House, but administration official. One of his two main 
concerns he was dealing with was Ebola. So taking money from 
that would be ridiculous.
    Let me ask you this. We have redirected $3,800,000,000 from 
Defense for the wall. The wall is not going to stop any real or 
imaginary migration, and it is certainly not going to stop the 
coronavirus. Would you supportive of taking some of that 
$3,800,000,000 or any money for the wall and transferring it to 
take care of the coronavirus.
    Secretary Azar. So the Ebola funding and all of the 
transfers proposed in the supplemental, I do want to be very 
clear: That is simply a concept of how you could fund half of 
the supplemental. We are not wed to that. We wanted to give you 
ideas.
    On the Ebola money, that in particular with Ebola, it is--
thanks to the Ebola supplemental funding we had before, it is 
important to note, we have now an approved vaccine from Merck, 
and we now have two therapeutic candidates. I have been almost 
daily involved with the eastern DRC Ebola outbreak that, God 
willing, is coming close to being under control. It is 
certainly, on the epidemiological curve, is looking more like 
that if the security situation stays. But I want to thank this 
committee for the support on Ebola that we have had. And we 
have now major weapons to use against Ebola, which is really a 
revolution.
    Mr. Pocan. And if I could may interject, just the specific 
last part of the question, would you be okay with taking funds 
that have been redirected for the wall and redirecting to stop 
coronavirus?
    Secretary Azar. I don't believe the administration would be 
supportive of that, but Congress would make the decisions about 
how to fund supplemental.
    Mr. Pocan. Thank you very much, Mr. Secretary.
    Ms. DeLauro. Congresswoman Herrera Beutler.
    Ms. Herrera Beutler. Thank you, Madam Chair.
    I want to commend you for your initiative on advancing 
kidney health. Most people don't know that 750,000 Americans 
have irreversible kidney failure. And 90 percent of CKD 
patients are undiagnosed. So 9 in 10 people do not know that 
they are on this track. It represents--so, then, it is too late 
to slow the disease progression. So that is--Medicare spends 
more 120,000,000,000, 34 percent of total spending. And end-
stage disease accounts for 7 percent of Medicare spending, 
despite representing 1 percent of Medicare patients. And this 
is only going to get worse.
    So my hat is off. I have been super excited about the 
initiative that the White House, that you have launched to go 
after several of the problems within our current system to both 
educate and inform and help people more healthy, also to make 
sure that we are getting more solid organ procurements, that 
people are getting the transplants needed. And they are also 
going after--the big fear for most people that have 
transplants, which is when is the immunosuppressive coverage 
going to end, because I cannot afford that.
    So I just want to say thank you. It is a breath of fresh 
air to have someone really taking on this issue. It represents 
a lot of hope for a number of us who have been laboring in this 
field.
    I wanted to ask. There are two things--you know I have a 
lot of questions about the coronavirus, and I do appreciate it. 
I have seen multiple options for Members that come for 
briefings from your staff, from your team. So thank you for 
keeping us abreast. I think do think it is going to change and 
iterate, like you said.
    I wanted to see if someone from your office would be 
willing to come in and just sit down with me about some real 
specific questions. How does it jump? What test kits are being 
made available locally? I saw something about commercial test 
kits becoming available. I think if it does iterate and becomes 
communicable--in each of our communities, we do not know how 
really our public health agencies and even our hospitals need 
to be able to test. That is what we are going to need. I know 
they keep saying it is only 2 percent of people die with this 
as compared with SARS, but those 2 percent represent the 
elderly. I mean, almost every article I have read, it is 
someone 70 years or older, or it is someone with a chronic 
illness. And I think we should be defending those folks to the 
best of our ability. So I know we probably don't have the time 
to go into that now, but I would just love somebody to come in 
and spend a little bit of time with me on that.
    Secretary Azar. We would be happy to try to do that, or if 
we could address those--because those are questions everybody 
has. And so that might be one of our----
    Ms. Herrera Beutler. So if you want to take a quick swing 
at it.
    Secretary Azar. So in terms of----
    Ms. Herrera Beutler. So let me give you the three----
    Secretary Azar. Right.
    Ms. Herrera Beutler [continuing]. How does it spread?
    Secretary Azar. Right----
    Ms. Herrera Beutler. Is it on table tops? How long does it 
sit there? How does it jump? And the test kits and their 
availability?
    Secretary Azar. Right. So, in terms of transmissibility, 
obviously as a respiratory illness, it usually would transmit 
versus aerosolization. But there might be fomite--it is called 
fomite transmission when it would sit on a hard surface, for 
instance. Dr. Fauci has spoken publicly about this. But, of 
course, we don't have hard data with regard to the novel 
coronavirus. But usually one would expect fomite transmission 
in the several-hour range as opposed to multiple-day range. 
But, again----
    Ms. Herrera Beutler. You do not know.
    Secretary Azar. But, again, we do not have studies on this 
or the data on this that would be the usual with the 
coronavirus. But I rely on Dr. Fauci on that.
    In terms of fatality rates, we are seeing various 
estimates. The WHO team that was just in China saw higher rates 
of fatality; I think over 2.5 percent in Wuhan. But outside of 
Hubei province, I believe they were seeing numbers closer to 
0.7 percent. So there again is a range. And we are going to 
have--one of the numbers--the top projects for us is to get a 
set of public health statements of our beliefs and what is the 
fatality rate we believe would be applicable in a modern 
healthcare system like the United States with very aggression 
active containment at the outset, as well as community 
mitigation efforts in the event of community spread here. So it 
might be quite different than that in terms of assumptions.
    On testing, we currently have the CDC test, which they 
invented in 1 week. That is at CDC and is now validated at 11 
other sites. We had an issue on the third stage of the--there 
is a third stage of the test. One of the 92 reagent aspects of 
it, if it is not done just right, was having issues on quality 
control on the control element, not leaving the false positives 
or negatives, just an inconclusive result on 1 of the 92. We 
are working on both fixing up, but also perhaps we have over-
engineered that test in the first two stages of it. It may 
actually be enough to enable a faster test. So we are working 
on getting that as soon as possible to the remaining public 
health labs. The commercial sector is looking at, we hope, the 
bedside diagnostics, as you have said. And we have heard from 
dozens and dozens of them. And the FDA will obviously expedite 
work with them on that.
    Ms. Herrera Beutler [continuing]. Good. I know I cannot ask 
you more questions. Could someone--I would also like to talk 
about the pharmaceutical slowdowns. I realize the 
immunosuppressive--there are some other things that are 
happening both in India and China, kind of impacting India with 
regard to shortages that have started that we are seeing that 
is leading to some of the major pharmacies and retail 
pharmacies and mail order pharmacies--I do not want to use 
the--they are being judicious in how they are filling scripts. 
I only see that getting worse.
    Secretary Azar. I would say, just to clarify for the 
public, those would be our general shortage issues that are not 
connected to the novel coronavirus.
    Ms. Herrera Beutler. I would like----
    Secretary Azar. Because we have not seen any shortages 
connected to this.
    Ms. Herrera Beutler. I do not want incite any fear here, 
but I would like someone to come in here and talk with me 
about--I just want to know what the contingencies are and some 
forward planning.
    Thank you so much, Madam Chair.
    Ms. DeLauro. Thank you.
    Congresswoman Frankel.
    Ms. Frankel. Thank you, Madam Chair. I want to talk to you 
about something that I think is actually one of the greatest 
health issues here in this country. But I want to say for the 
record--and then I think my colleagues will follow this up--the 
public should know that Mr. Trump fired the government's entire 
pandemic response chain of command while in the White House.
    But I am not going to get into that. I want to ask you a 
question, a couple of questions. Would you agree that doctors 
should not lie to their patients?
    Secretary Azar. Doctors should provide truthful information 
to their patients.
    Ms. Frankel. All right. There is one. And doctors should 
give full information to their patients. All right.
    Secretary Azar. I know you said doctors should not lie to 
their patients, and I agree with that.
    Ms. Frankel. Okay. They should give full information.
    Secretary Azar. If they are in a statutory system that 
precludes certain information or certain communications, then 
they have to comply with statutory requirements.
    Ms. Frankel. Okay. Let's get that. So let's talk about the 
contradiction of really of those two statements. Because I am 
going to talk about Title IX. I am sure you anticipated that. 
And, listen, I just wanted to say thank you for being here. 
Okay.
    Title X, that is right, I cannot even read my own paper. 
All right. So the Trump budget, Title X, you keep it stable 
funding, $286,000,000. And I want to say something about Title 
X. It has in the past been a bipartisan and very incredibly 
effective program. It is meant to ensure people who are 
struggling to make ends meet, who do not have health insurance. 
They can still have access to birth control, cancer screenings, 
STD testing and treatment, as well as annual exams.
    Unfortunately, in March of 2019, HHS published a rule which 
prohibits providers from providing referrals for abortion, even 
upon a patient's request, and impose onerous physical and 
financial separation requirements, which under a rule, all 
abortion activities must be physically and financially 
separated.
    So let me just say this: I call this the Trump abortion 
obsession. So, for example, even if a patient who came into a 
Title X provider found out they were pregnant and asked, ``Do I 
have an alternative whether I keep this pregnancy or not,'' the 
provider is not allowed to tell them--not allowed to say. They 
are gagged, g-a-g-g-e-d. They are gagged. Because of this, 
Planned Parenthood announced it would leave the program. And, 
unfortunately, the courts have upheld the administration's 
rule. Planned Parenthood served 1,500,000 of the 4,000,000 of 
the Title X patients. And I have just to go--not going through 
all of the statistics, but half the patients who rely on Title 
X funding do not have the provider they had been turning to.
    I want to ask you this, do you have a list--could you 
provide us with a list of the new providers that have come into 
the program?
    Secretary Azar. I believe we could, I think.
    Ms. Frankel. Okay. I would like--do you happen to know how 
many new providers there are?
    Secretary Azar. The number of new--I am just looking to see 
if I happen to have that here. I do not believe I have just the 
exact number of new providers, but we could get that for you.
    Ms. Frankel. Okay. Would it have surprised you that, as of 
1 year after the rule was published, there had only been one 
new provider and/or maybe--and the provider did not provide 
contraceptive services.
    Secretary Azar. Well, actually, the provider has--I know 
the entity you are speaking of, but that provider has to, 
through their subgrantees have subgrantees that would provide 
the full range of contraceptive services required under Title 
X.
    Ms. Frankel. And there are several States that have no 
Title X funding right now. Well, you know, I could go on and on 
about this. But let me ask you another question. Who should 
decide whether or not someone brings a child into this world? 
Who is in the best--should someone have to call the Governor or 
call you or call me?
    Secretary Azar. So, with regard to Title X, we are 
enforcing the Title X law, which by Congress prohibits referral 
for abortion as a method of family planning, and our final rule 
actually was upheld even by the----
    Ms. Frankel. Well, abortion is a medical service that is 
legal. It is legal. Is that correct?
    Secretary Azar. The Congress decides where Federal money 
may be used in connection with abortion, and so the Federal, 
the statute in Title X prohibits referral to programs in 
which----
    Ms. Frankel. I do understand that. And as a result, because 
what is called as a gag rule, which means providers cannot give 
their patients all the information they need to make important 
decisions, you have lost the biggest provider in the country, 
which is called Planned Parenthood? Are you aware that Planned 
Parenthood does a lot more than refer to abortions or provide 
abortions, STD exams, mammograms?
    Secretary Azar. So I am actually aware that between 2020 
and--2010 and 2015, 141 Planned Parenthood clinics have closed; 
that, over the past 9 years, cancer screening and prevention 
services at Planned Parenthood decline by over 60 percent; 
contraceptive services declined by 30 percent; and there are 
important preventive activities, like HPV vaccinations and well 
women exams, that account for less than 10 percent of their 
activities as they focus on their abortion work.
    Ms. Frankel. Hundreds and hundreds of thousands of patients 
are taken care of--were taken care of by Planned Parenthood. 
Mammograms, STDs, contraception. You need to check--all right. 
Sorry about that.
    I would say you should go back to school.
    Ms. DeLauro. Congressman Moolenaar.
    Mr. Moolenaar. Thank you, Madam Chair.
    Mr. Secretary, thank you for being with us here today and 
for the update on the coronavirus and the regular briefings 
that you and the administration, the team, have been doing. 
Also, I want to thank you for all that you and your team are 
doing kind of around the clock on this. So I appreciate that.
    I wondered if we could talk a little bit about some of the 
initiatives you are doing in the rural health space. I know you 
have a 4-point strategy. A few specific areas I wanted to talk 
about. One is the opioid situation. You know and overdoses of 
opioids. That is a huge concern in my district. And I know 
Naloxone is used in kind of the front lines on this to help 
people. And I wondered what HHS is doing to help create an 
awareness with the general public, as well as work with 
pharmacists to make sure it is accessible and available, and 
then anything you can do to help us understand the insurance 
aspects as well to keep costs down for people.
    Secretary Azar. Sure. So, Congressman, with regard to rural 
health and the opioid crisis, I did want to mention that we 
have got consistent funding of $23,000,000 for the First 
Responders Training Program, which actually trains first 
responders in opioid overdose in rural communities. We have the 
Project AWARE rural set-aside. We have the Rural Health 
Outreach Grants Program, which maintains $80,000,000, 
consistent funding there to support grants for primary care and 
opioid use disorder treatment and prevention and behavioral 
services there.
    In terms of Naloxone, with Naloxone, we have actually seen 
the genericization of that product. As a result, we have seen 
405 percent increase in Naloxone prescribing. We have got, in 
2019, FDA approved the first-ever generic Naloxone. We have 
granted priority review to every other Naloxone product that 
would be used for emergency treatment. And we also are 
encouraging over-the-counter by laying out what would be needed 
to do an OTC of Naloxone also. So we have seen pricing--I 
think, at this point, with CMS with part D, we have encouraged 
placement on the select care tier for Naloxone, which would be 
zero-dollar copay. I think we are seeing similar types of 
support in commercial insurance also.
    Mr. Moolenaar. Thank you. And I also want to talk a little 
bit about telehealth, if we could. That is very important in 
these rural communities. And I just wondered if you could 
discuss how your proposed changes to Medicare fee-for-service 
advanced payments will broaden access to Medicare at telehealth 
services.
    Secretary Azar. Absolutely. So we have got in the budget 
several proposals. One of those would be to modernize Medicare 
telehealth so that it would promote value-based payments. So we 
are moving barriers to telehealth in rural and underserved 
areas by expanding the availability and fee-for-service where 
we have advanced payment models. So those APMs, making sure 
telehealth is available in fee-for-service. So that is one.
    The next is to enhance our services in federally qualified 
health centers and rural health clinics. So that would allow 
these centers to actually be distant site providers in rural 
America, which would make them eligible for payment under 
Medicare fee-for-service as part of that proposal.
    We would also extend Medicare telehealth for his and Tribal 
facilities. As we know, his is of course one of the most 
important rural healthcare providers that we have in America.
    Mr. Moolenaar. Wonderful. If I could take you to the CDC 
for a minute. I know the CDC surveillance data platform, can 
you talk or give us an update on the status of that and the 
plans going forward?
    Secretary Azar. So we have got one of the finest 
surveillance platforms in the world in terms of CDC support of 
this. In fact, one of the critical elements of the emergency 
supplemental is to enhance that surveillance system for novel 
coronavirus. What I want to get to is where we are getting data 
on suspected flu cases nationwide and getting those tested for 
novel coronavirus nationwide. We have expanded that immediately 
to six cities. So Seattle, San Francisco, Los Angeles, 
Honolulu, Chicago, and New York currently have this enhanced 
surveillance. We want an early detection system because this 
will be the backbone of our effective mitigation program.
    We are also--something I am quite interested in, we are 
talking with Google and others about, how can we leverage novel 
IT social media interactions as part of a modern 
epidemiological surveillance system? They may know things 
faster than we can get public health reports in from local 
health agencies.
    Mr. Moolenaar. Are we on track of these things? I know 
there are reports that are due to you and to Congress.
    Secretary Azar. I don't know about any particular reporting 
issues on that. But if we get the supplemental, obviously, we 
are going to use transfer money immediately to try to enhance 
that surveillance system and then working on the rest of these 
initiatives. If there are particular questions, we would be 
happy to get back to you on any timing or deadlines.
    Mr. Moolenaar. Thank you very much.
    Ms. DeLauro. Congresswoman Watson Coleman.
    Mrs. Watson Coleman. Thank you, Madam Chairwoman, Mr. 
Ranking Member.
    And thank you. Mr. Secretary.
    Real quick thing. I think we have a 6-degree-of-separation 
relationship. You clerked for Scalia. His aunt, who was very, 
very proud of him, was my both French and Spanish teacher, and 
he comes from Trenton.
    I want to ask you a couple of quick questions, and I have 
some questions regarding New Jersey specific. Number one is 
that you were quoted as saying we have a 30,000 stockpile of 
masks, and if there is a real pandemic, we need 300,000. And 
since we generally see products of that nature come out of 
China, where will we get ours and be prepared?
    Secretary Azar. Thank you, and, first, I would like to 
actually clarify something that I said yesterday in the Senate 
Appropriations Committee. I had been informed of some 
information that is a bit different than what I had at the 
time. To clarify first, we have more masks than the 30,000,000 
that I related yesterday. But we have a different mix of those 
masks than what we have been informed of. So we have 30,000,000 
surgical masks. Those would be the gauze-type tied-behind-the-
ear-type mask. It is meant to really protect people from the 
healthcare worker spreading. We have 12,000,000 N95 NIOSH-
certified masks in the stockpile. And then we have about 
5,000,000 N95 masks that I believe may have expired. They are 
no longer NIOSH certified.
    Mrs. Watson Coleman. So where do we get the rest?
    Secretary Azar. And then we would need--so what we have 
talked about is we would need approximately 300,000,000 N95 
masks from the emergency supplemental. We have already from the 
reprogramming----
    Mrs. Watson Coleman. But where will we get them?
    Secretary Azar. Well, so from the reprogramming, we are 
going to initiate immediately procurements to do domestic 
manufacturing around N95 as quickly as we can scale it up. And 
then, if we get the emergency supplemental money on the 
Strategic National Stockpile, that would add on to those 
contracts. It will be--I do want caution: It will take time 
because China, as you rightly mentioned, China does control a 
lot of the raw materials, as well as manufacturing.
    Mrs. Watson Coleman. Thank you. Thank you. I need to ask 
you some New Jersey specific questions because New Jersey has 
been designated a funnel airport, which means that individuals 
who are contagious or could possibly be contagious could 
possibly be contained or quarantined in New Jersey. So I am 
interested in sort of the costs associated with our 
responsibility to do that. And I know New Jersey is gearing up 
for that purpose. What do you think is an appropriate and fair 
model to reimburse the State for costs that might be incurred 
over incidences like that, including quarantine facilities, 
test kits, overtime, service, that kind of thing.
    Secretary Azar. So, first, with regard to the emergency 
supplemental, that is exactly why we are asking for a large 
amount of money to help State and local governments with larger 
scale containment activities. With regard to the particular 
issue of Newark Airport as one of the funneling airports, that 
means individuals who have been in China within the previous 14 
days would be directed by DHS into Newark and others. We have 
worked very collaboratively with New York, which if we have any 
cases that required actual quarantine, New York has taken those 
on out of the Newark airport, New York. And then the others 
really are not--should not be an impact on New Jersey because 
at this point, because we are screening them with CDC and DHS 
people for health screening. And then the rest of the people 
are going on. We have screened I believe total about 46,000 
travelers and have yielded only, I believe, 17 nationwide who 
have actually needed to go into quarantine because they were in 
Hubei province.
    Mrs. Watson Coleman. Okay. Then let me clarify something 
for my own self. That they are being--that they are being 
brought in and looked at in Newark, there is no provision or no 
discussion about those individuals who need quarantining being 
like on the Joint McGuire Air Force Base, which is more 
southern New Jersey.
    Secretary Azar. I do not believe so, but I am happy and 
certainly can be corrected on that, and we would get you 
updated information. My understanding what we worked out was 
Newark would funnel--that any patients with Newark would go 
into New Jersey.
    Mrs. Watson Coleman. So New York I said--
    Secretary Azar. I want to make sure I am right about that.
    Mrs. Watson Coleman. Would you please because I understand 
that that is going to--allowing that is going to expire on 
March the 5th. But if there is going to be this need, we need 
to know what the emergency response is going to be to do that.
    Secretary Azar. Sure. I want to make sure I get you 
accurate information. If I could, we will call your office 
after the hearing to get you information.
    Mrs. Watson Coleman. I think that Ms. Frankel asked--made a 
comment about sort of the organization of the administration's 
response to pandemic diseases and things of that nature. And I 
was wondering why we do not have a, quote/unquote, czar and why 
this administration is not organized in a way that there is a 
person at the top who represents sort of the policies and has 
some authority? Because I know we had a pushback between the 
CDC and the State Department in terms of flying individuals who 
are contagious on an airline. So why don't we have that 
structure? What is a plan to have such a structure, and is 
there a plan to have such a czar?
    Secretary Azar. Under the national--if I might. Under the 
National Response Plan, Emergency Support Function 8 for public 
health emergencies, I am the lead--mine is the lead agency. I 
actually helped build these plans decades ago for pandemic 
preparedness after 911. So I serve as the lead on this while it 
is a public health emergency. I work on a daily basis with the 
chief of staff and the President. So if there is any 
deconflicting of agencies needed, that can happen there. So we 
effectively get that same function. And it is just the 
longstanding doctrine that this should be led by HHS with the 
public health emergency. There is not actually a change. The 
oddity was actually what President Obama did with the Ebola 
response. I do not know why they felt things were not working 
and needed to do that. This has been the smoothest interagency 
process I have experienced in my 20 years of dealing with 
public health emergencies.
    Ms. DeLauro. Congressman Harris.
    Mr. Harris. Thank you very much.
    And thank you, Mr. Secretary. And I have to tell you, after 
hearing your testimony, you know, the inference that no one in 
the administration knows about coronavirus is pretty stunning. 
Your knowledge is actually as up-to-date as you can get about 
it.
    I will tell you the other fake news is the budget as 
referred to as cuts to Medicare and Medicaid. The first time I 
heard that, I went back and looked at that budget document. 
Medicare and Medicaid spending go up every single year in the 
President's budget, don't they? That is a rhetorical questions. 
I know what the answer is. So only in Washington is an increase 
called a cut. I am not sure I understand it, but we will leave 
it at that. Let's talk about the emergency funds. I have not 
been aware of anything that could be done here in the United 
States that has not been done. Let me bring a couple of 
examples. For instance, we know that Moderna think just 
yesterday shipped their novel vaccine. 6 weeks after the idea 
of making a vaccine, it shipped for Phase 1 trial to NIH. 
Moderna, by the way, is an American company, right? It is. 
Right outside of Boston, isn't it?
    Secretary Azar. Right.
    Mr. Harris. Absolutely. This is stunning. And this lays on 
the framework that the ranking member had mentioned over the 
years of us dealing and preparing for exactly this kind, this 
kind of potential crisis. I mean, that is stunning. But 6 weeks 
from conceptualization to shipping, a phase 1 vaccine is 
stunning. And I would urge that you and the Department to speed 
that through the Phase 3 trial hopefully to get it here before 
the next winter season.
    Another American company, Gilead, Remdesivir, is developing 
a novel approach to an antiviral that could be effective in 
coronavirus. That is pretty good, I think. So we have 
incentivized--it is amazing that the two companies that have 
taken the lead in a pharmacological approach to dealing with 
this are American companies. Now, I will tell you what is 
disappointing is the President warned us China is a bad actor. 
Do we yet why the genotypes from China of the first cases of 
this virus?
    Secretary Azar. I do not believe we have the first 
generation isolates or genetic sequence.
    Mr. Harris. That is a real problem, because we can talk 
about what this country can do, but when you are talking about 
DNA sequence or MRNA sequences of a vaccine, it depends on an 
accurate genotype that China is unwilling to share with the 
United States. Now I do not know why they are unwilling to 
share. You can use your imagination why they might be unwilling 
to share. But to hold the President of the United States 
responsible for the behavior of China in response to this is 
unconscionable. It is unconscionable. I pick the newspaper, and 
that is all I hear. You have heard some of it today in the 
subcommittee. No one is talking about China's role withholding 
the genetic sequencing of those initial isolates, exceedingly 
important to figure out how this disease is going to affect 
Americans ultimately. All right. But there are other things and 
I just want to congratulate you for your support of BARDA. As 
you know, Sanofi and J&J are making two other novel vaccines 
under the BARDA program. Again, we have thought about this in 
advance. We have done what we needed to do. And I believe that 
we are on the track to dealing with this. There are other 
issues that are important to me, and I do not have the time to 
ask more indepth questions.
    Maternal mortality is very important. I was an obstetric 
anesthesiologist. I have seen patients get very, very ill. 
Fortunately, knock on wood, I have not seen a mother die. But 
it happens in the United States, it happens more often than it 
should, and I applaud you for doing things about it.
    Antimicrobial resistance is incredibly important. And by 
the way as we begin strategies to fight coronavirus, we have to 
realize that the antivirals--I was unaware of this actually 
until very recently that viruses develop resistance to 
antivirals too. It is not just bacteria. So increasing or 
keeping the drug pipeline for antivirals open and working is 
very, very important.
    One thing that I would ask you to look into--I have asked 
this for a year and a half--is that Medicare still does not pay 
for oxygen therapy for cluster headaches. And as I have told 
the CMS Administrator, I had cluster headaches; oxygen worked 
for me when I was younger. We should not deny it to Medicare 
patients. It is a serious disease. You should not deny it.
    DIR fees, I am a little disappointed that the 
administration has not taken action on them. The rebating 
mechanisms and what happens helps I think drive up the cost of 
pharmaceuticals. I would ask you to take action on it. I think 
we have to come up--and this is one of the most frequent 
questions that I get asked in the townhall meetings, is, what 
are we going to do about prescription drug prices? I would 
suggest, instead of separating into our opposing camps as we 
always do, let's get together and agree on some common things 
that we can do.
    Finally, on Naloxone, incredibly important to make sure--as 
we know and is true in my district, the number of overdoses 
continues to rise or plateaus. The number of deaths, 
fortunately, has gone down mostly to the availability of 
Naloxone. So I want to thank the Department for what it has 
done with that.
    With that, I yield back, Madam Chair.
    Ms. DeLauro. Thank you.
    Congresswoman Bustos.
    Mrs. Bustos. Thank you, Mr. Secretary for being here. We 
appreciate it.
    So I come from the State of Illinois where we have actually 
had some cases of coronavirus. And I actually want to shift my 
line of questioning not so much just around appropriations, 
even though we are here at our Labor-H Subcommittee of 
Appropriations, but more about preparing communities. About 85 
percent of the towns I represent are 5,000 people or fewer; 60 
percent are a thousand people or fewer. So a lot of small and 
rural areas. And with the expected increase in cases that we 
have learned about, what will you and your Department do to 
help prepare our local health providers to be ready for this?
    Secretary Azar. Yeah, and Congresswoman, first. Thank you 
for your leadership on rural health. I really appreciate you 
coming over and meeting with me.
    Mrs. Bustos. I appreciated you having me. It was very nice 
of you. Thank you.
    Secretary Azar. In terms of rural communities and rural 
hospitals and providers in the coronavirus situation, first, we 
don't know how broad any spread would be. We prepare for 
community outbreaks. Those could be really localized, and then 
taking mitigation efforts. Dr. Anne Schuchat, who is the top 
career official at CDC, yesterday at our press conference, she 
tried to clarify one of the impressions--misimpressions that 
people have had from our current active containment efforts. 
Because, right now, we are bringing people back from China or 
from Japan, repatriating them. And they may be positive or in 
active containment. We are using high-end health facilities, 
like Ebola treatment centers, as really isolation units, even 
though they don't require that level of medical care; because 
we are in active containment, we don't have another place for 
them to be. So the impression I think is getting created that 
anybody who gets novel coronavirus not only goes to the 
hospital but also goes to very intensive type negative airflow 
facility, which our rural communities do not have. In fact, 
what she said is most people who would get novel coronavirus 
are going to stay at home. They are going to treat it the way 
they would treat a severe flu or a cold, managing symptoms. And 
we will publish clear information when you should seek medical 
attention. When you might, you go to the hospital for the rarer 
instances where that would be required. So part of it is really 
managing that patient flow so we do not collapse our rural 
hospitals unnecessarily. So it is really important that we all 
work together to educate the public and providers about that.
    Mrs. Bustos. So really no different in rural America than 
urban America; it is just educating the public on how best to 
treat this, rather than head to the biggest hospital.
    Secretary Azar. It is not going to be race into the 
emergency room, right? But, also, the State and local support 
in the supp will, of course, be really important for our 
hospitals and local public health agencies.
    Mrs. Bustos. Thank you. Let me shift to the discussion that 
we had when I was in your office back in November. That was 
about healthcare provider shortage. So I will give you an 
example in the congressional district that I serve. We have a 
county--it is called Henderson County--where the patient to 
physician ratio is 6,995 patients to 1 physician. That 
contrast, like if you look at Cook County, our largest county 
in Illinois where, you know, Chicago area, the ratio there is 
1,200 to 1. So and then you have also have these example--we 
have a hospital that literally took 7 years to recruit a 
physician. So we talked a little bit about this before. So we 
work together--my colleagues and I, in last year's funding bill 
to direct the health resources services administration to 
provide a report to our committee within 120 days of how, how 
recruitment could be better handled to address these provider 
shortages. And so I did note that, in the President's budget, 
his proposal is to cut the Healthcare Workforce Program by 
$824,000,000, or about 50 percent. So I was just wondering how 
your Department will square that massive cut with ending 
provider shortages or at least addressing provider shortages 
especially in rural America.
    Secretary Azar. Yes, so I understand your concern and your 
question. The program that we fund there is the National Health 
Service Corp, which really lets us through tuition 
reimbursement get people who are nurses, doctors, dentists, 
through a reimbursement system to serve in rural communities 
and underserved areas. The other program, the one you mentioned 
that we proposed cutting, it doesn't have demonstrable results 
in terms of producing that kind of service in rural and 
underserved areas. It more goes to institutions as subsidies 
around teaching.
    The other thing that we want to do is reform our graduate 
medical education program. That is why we advocate in combining 
the Medicare Medicaid in children's graduate medical education 
programs and getting rid of the caps that we had from the 1990s 
that freeze in place specialties so that we can enhance our 
primary care doctors that we produce and psychs other 
underserved specialty areas to get them into rural areas. That 
is part of the plan also.
    Mrs. Bustos. I have several followup questions. I can get 
those to you later because I am out of time right now. But 
thank you being here, and thanks for your answers.
    Ms. DeLauro. Congresswoman Lee.
    Ms. Lee. Thank you very much.
    Thank you, Madam Chair, and also ranking member.
    And thank you, Mr. Secretary. A couple of questions. First 
of all, let me just follow up on the N95 masks. Last week, I 
came through the international terminal from the bay area in 
San Francisco, and I noticed quite a few people had masks on, 
but they were not N95. The reason I knew this is because of the 
fires in the bay area, and I have an aunt who is 99 years old 
and also some senior centers where they were wearing masks. But 
come to find out, they were useless in many respects. And that 
is how I learned about N95. And there was only one place where 
I could purchase them. I wanted to ask you how you are rolling 
out the public education just with regard to which masks are 
the appropriate ones to use and which ones are not. Because 
when I entered the terminal last week, no one had an N95 mask 
on. So how are we reaching out and letting the public know the 
difference between the masks and which ones to use?
    Secretary Azar. Thank you. I am so glad you asked about 
that. We just need to use avenues like this and when we have 
press conferences and all, because I do fear, especially given 
that this coming out of Asia where there is much more of a 
culture of mask wearing when one is sick or at risk of being 
sick, that people do have the sense of the mask as like the be-
all end-all of either preparedness or response activity. It is 
an element in our armamentarium mostly for healthcare workers. 
And that is that N95 mask that is actually fitted; it has be to 
carefully fitted, and it can protect the worker.
    The other mask, just you and me wearing these masks--what 
Dr. Fauci and what Dr. Schuchat have said is that actually 
sometimes be more harmful to you than not wearing a mask. 
Because if it is not fitted right, you are going to be fumbling 
with it, you are going to be touching your face, which is the 
number one way you are going to get disease is unclean hands 
touching your face. And so we are really--and every press 
conference I have been asked about masks, I have tried to 
settle these expectations that it is--that is not the be-all 
end-all. Basic public health hygiene, washing hands at extended 
time with soap and water, not touching your face, coughing into 
your elbow. These are best things for flu season for common 
cold, for novel coronavirus that any of us can do.
    Ms. Lee. So you are not suggesting that the public access 
the N95 mask.
    Secretary Azar. No, we do not recommend that. We do not 
recommend that, no.
    Ms. Lee. Let me ask you now about some of these cuts in 
your budget. First of all, HIV and AIDS, while we know that we 
can achieve an AIDS-free generation by 2030, you have a funding 
cut of $170,000,000 to PEPFAR, which, of course, reduces the 
transmission of HIV and AIDS throughout the world. Also, you 
have a cut in Medicaid, which is the largest source of coverage 
for people with HIV. So now it is estimated to cover 42 percent 
of people. So, while you are proposing an increase or new money 
for Ryan White and CDC, you are cutting 42 percent--you are 
cutting Medicaid which affects 42 percent of people.
    Secondly, and I will do this very quickly, you propose to 
eliminate the teen pregnancy program. And I want to follow up 
with Congresswoman Frankel's comment about this obsession with 
abortion that this administration has, yet you have moved 
forward to eliminate programs that prevent abortion, such as 
the teen pregnancy prevention program. You just zeroed that 
out. You zero out the racial and ethnic approaches to community 
health, which is the only Federal program that funds community-
based organizations to address racial health disparities. And 
you for the most part cut I think it is $30,000,000 for the 
National Institute on Minority Health and Health Disparity. And 
so the impact of these cuts on minority communities, on young 
people, on people living with HIV and AIDS, they are 
horrendous. And I want to know how you justify cutting these 
programs which really do good and help people and provide for 
good quality public health strategies.
    Secretary Azar. So we clearly agree with you on the 
importance of solving minority health disparity, as well as 
supporting minority health. We may just approach it in 
different programs and different ways of doing it. We are 
providing $5,700,000,000 for our health centers which serve 1 
in 12 Americans. And 62 percent of patients in our health 
centers are actually racial and ethnic minorities. They are 
really one of the gems of our primary and preventative health 
system.
    Our HIV program that you mentioned my--the one that I 
really am very passionate about to end the HIV epidemic--the 
investment of Ryan White HIV AIDS there is critical. And that 
serves--75 percent of Ryan White clients are actually racial 
and ethnic minorities.
    Ms. Lee. But actually you are cutting Medicaid, which 
serves 42 percent of people.
    Secretary Azar. As Congressman Harris mentioned, we are 
actually not even proposing a cut to Medicaid. We would slow 
the rate of growth on Medicaid from 5.1 percent per year to 3 
percent per year, increasing in every single year of the budget 
outlook in terms of Medicaid. So it actually grows Medicaid 
just by not quite as of much, as its unsustainable pathway for 
States.
    Ms. Lee. If we have a second go around, you can answer teen 
pregnancy prevention. That is totally crazy.
    Ms. DeLauro. Congresswoman Clark.
    Ms. Clark. Thank you, Madam Chair. Thank you, Secretary for 
being here.
    So, when I was preparing for the hearing today, I really 
wanted to focus on the Low-Income Housing Energy Assistance 
Program, LIHEAP. There has been a lot of unpredictability 
because we simply cannot understand the formula that is being 
used. And this impacts over 7 million families who rely on 
LIHEAP for their cooling and heating in the season. So I was 
planning on asking you to follow up on the request of this 
committee that you provide an explanation of the formula. And I 
was given this particular--this is the formula for LIHEAP that 
I was given yesterday by some advocates. So I can understand 
why it is difficult for you to understand, but I am wondering 
if you can--I was planning on asking if you can tell us if you 
are going to have the formula explanation ready for us in time 
with the 120-day deadline that we gave you?
    Secretary Azar. We will work on getting that to you. I am 
not familiar with the request that you had for the LIHEAP 
formula in terms of information, but we will certainly work to 
get that to you.
    Ms. Clark. Well, it was in our fiscal year 2020 funding 
bill, and you have 67 days left to comply with it. So I would 
get cracking if I were you.
    Secretary Azar. I will put coronavirus on hold.
    Ms. Clark. But then maybe it does not really matter because 
you completed eliminated LIHEAP in this budget. Is that right?
    Secretary Azar. As we have before, the budget environment 
with budget caps we had a----
    Ms. Clark. That is right. You decided to eliminate the 
entire program.
    Secretary Azar. We did recommend that it is not as 
effective as a program, and it is duplicative of other State 
and local programs.
    Ms. Clark. You just zero out the budget item.
    Secretary Azar [continuing]. You make the choices on 
whether to accept that.
    Ms. Clark. But that is your recommendation.
    Secretary Azar. It is our recommendation, yes.
    Ms. Clark. Basically you said that is because you think 
that utilities now cover this because many more States have--
that you cannot have your utilities cut off. Is that right?
    Secretary Azar. That is correct as well as GAO funding 
findings about the risk of fraud and abuse in the program. It 
is a tight budget environment, and making choices, it is a 
large discretionary program----
    Ms. Clark. Okay. So you decided that seniors, families with 
children, that is going to be where we are going to make our 
decisions in the tight budget environment. I do want to note 
that many of the rural electric co-ops, municipal utilities, 
and many of the larger utility companies, the rural and 
municipal have none of these protections in most States. And in 
many States, it is not based on income. It is based on whether 
and trying to figure out the Federal formula that nobody 
understands. But we will look forward to your report. But then 
it got a lot worse for LIHEAP because you not only eliminated 
it, you decided to transfer $37,000,000 to fighting the 
coronavirus. So that is another 750,000 families that you 
decided, okay, they can go cold, but we are going to put this 
money towards the coronavirus. And you also did that with 
$535,000,000 in Ebola funding, which I know you talked about a 
little. Do you agree with those Ebola cuts?
    Secretary Azar. So, as I mentioned earlier on the emergency 
supplemental, we proposed funding half of it through various 
transfers and reallocations. Congress can of course decide 
other funding sources or no funding sources for the money. The 
Ebola money is, while it is useful to us, right now the most 
pressing need is the novel coronavirus and I----
    Ms. Clark. I agree with you.
    Secretary Azar. And we can restore in the coming years 
also. As we think about it.
    Ms. Clark. That is a pressing need, but I certainly think 
that you understand as Secretary that public health crises keep 
coming, and that is why you prepare. So I am mystified why the 
White House totally took apart the pandemic chain of command. 
And you have said today that you do not think you need it; this 
is one of the smoothest operations. But breaking news while we 
sit here and maybe the White House did not inform you, is that 
there is a press conference at 6 o'clock, and the White House 
is in fact now saying, we might need to appoint a czar to 
overlook this pandemic.
    Secretary Azar. No, not at all. The President and I spoke 
this morning as he returned from India, and he said: I want to 
keep being radically transparent. When you come over to brief 
me this evening, let's sit and invite the press in.
    It is quite that simple.
    Ms. Clark. Quite that simple. Okay. So you have taken that 
apart. You have recommended $700,000,000 in cuts to CDC. You 
have underfunded our emergency response. $6,100,000,000 was 
what the President asked for in response to Ebola. This 
President is asking for $1,250,000,000 to address this 
pandemic. But how if you consistently underfund the CDC, you 
have taken up the heart of chain of command, you are using 
other critical public health and security measures to fund this 
coronavirus even at those very low levels, are we possibly able 
to be transparent, as you just said and look at Americans and 
saying: Your country is doing everything we can, not only to 
prepare for this crisis, but for those that we know are coming 
in the future. I am sorry. My time has expired.
    Ms. DeLauro. We are going to move to the second round and 
asking people to do 3 minutes so everybody has a chance to say 
or do what they need to do, and then we will wrap up. I will 
just mention, it just says here: White House is waiting whether 
to appoint a coronavirus czar to coordinate response to the 
spreading epidemic.
    Secretary Azar. I do not put much stock in anonymous 
sources in Politico.
    Ms. DeLauro. Well, we will see what happens. But let me 
move to a different area. I am told that DHS can still be given 
significant incident reports which might include child's past 
accounts of trauma or witnessed activity. You know the vast 
majority of children that end up in ORR's care are there are a 
result of fleeing, unimaginable violence, gang activity, 
poverty, desperate situation. What is ORR's policy with regard 
to sharing information, sharing significant incidence reports 
collected by case managers or clinicians with ICE? It is my 
understanding that you have said, Secretary Azar, that you have 
talked about consent. How are children capable of giving 
consent to sharing notes from their confidential therapy 
sessions with ICE?
    Secretary Azar. So, as we have discussed, the transmission 
of the clinical notes should not have happened. That was under 
the Obama guidance in 2016 that led to misunderstanding where 
providers were putting their clinical notes either completely 
into the serious incident reports, or they were being 
transmitted by ORR correctly over to DHS. That should not have 
happened. When we learned of it in August of 2019, that 
practice has stopped. We corrected the understanding of 
providers. It is important, a serious incident report must be 
completed if a child evidences harm to self or harm to others. 
And that goes into the SIR which does get transmitted to DHS as 
important information about the child. But that should be 
minimal information, not include--we believe in respecting that 
psychiatrist or mental health professional relationship.
    In terms of consent, our children who are not tender age of 
course, they are in our care, and they have to consent for 
medical treatment for any other things all the time. This is 
part of how ORR has to operate. Remember these are kids who do 
not have--who left their parents, whose parents abandoned them, 
whose parents sent them here. And they consent, that is what 
they do for whether they are getting vaccines or whether they 
are getting medical treatment.
    Ms. DeLauro. But their ability to----
    Secretary Azar. We try to keep in touch with parents as 
best we can, as you know.
    Ms. DeLauro. Again, that requires probably to have legal 
counsel in order to be able to provide the child with 
recommendations depending upon obviously the age. I do not know 
whether or not you require legal counsel if a child has asked 
to consent to sending their clinical notes or significant 
incident reports to DHS.
    Secretary Azar. Well, as you know, we do provide legal 
counsel. You fund it. So kids are offered, do have legal 
counsel. But we serve as the guardian for these individuals. 
They do not----
    Ms. DeLauro. I understand that, but the guardianship has 
been--and there has been some changes made, but guardianship 
hasn't been a really, that substantial, as we have found out 
over the last 2 years about how we guard these children. 
Private rights, et cetera. It has not been the case. I would 
hope we would get to direct representation, legal 
representation of children. What guidance have you given case 
managers or clinicians to distinguish in a child's file or in 
the report that a child has witnessed gang activity or violence 
without forever associating that child as a gang member? There 
is an important distinction if that's what justifies sharing a 
child's information with law enforcement.
    Secretary Azar. We would be happy to work with you. The 
guidance that went out in August of 2019, I do not know about 
the divide between witnessing versus participation, and we 
would be happy to share that with you.
    Ms. DeLauro. I would like to see that guidance and would 
like to sit down and figure out what your oversight is of DHS 
with regard to this transmittal of this information.
    Congressman Harris.
    Mr. Harris. Thank you very much.
    And thanks again, Mr. Secretary, for staying over 2 hours 
to talk with us about the importance subjects. You know, with 
regards to the budget request, the emergency request, look, I 
applaud the Department for doing what every department should 
do when they come to Congress for an emergency request, which 
of course exceeds our budget caps--so this just directly 
contributes without the constraints of a budget cap to our debt 
and deficit--of actually only asking for only half of it coming 
from really new funding and the rest finding places where we 
perhaps over budgeted or we gained efficiencies and transferred 
it.
    So, for instance, you know the $535,000,000 from Ebola, 
well, the fact of the matter, as you mentioned, we do have a 
vaccine. We actually are participating with the international 
community in controlling Ebola. And it seems perfectly 
reasonable, instead of asking for new money above budget caps, 
I just read something that I think over in the Senate side, 
someone is requesting $8,000,000,000 or something. I mean, you 
could not spend the money fast enough. I am going to ask you a 
question. Is there anything that could have been done up till 
now that has not been done that you haven't had money for?
    Secretary Azar. No, no. We have had that money. We have 
used the--thanks to this committee, the Infectious Disease 
Rapid Response Fund, we have been spending that. And then, with 
our transfer authority, we will continue to spend as a bridge 
to whenever we get the emergency supplemental. And we are using 
that money to seed contracts to be able to execute works on the 
expansions once we receive the supp.
    Mr. Harris. Sure. In fact, we have a novel vaccine having 
been developed. We have a novel antiviral having been 
developed. You know, we used to say--I used to be in Maryland 
legislation, and we only met 3 months out of every year. We 
would say, well, we would meet every year. So if the problem is 
a--that you could bring it back, but Congress meets all year. 
Don't we? I am going to ask you, do you take an August recess 
and an October recess?
    Secretary Azar. No, we do not.
    Mr. Harris. So we could. I mean, God forbid, this becomes 
more serious than it is--and it is anticipated it could be 
serious, more serious--we could actually come back any time and 
pass more emergency funding above our budget caps, couldn't we?
    Secretary Azar. We could. And in addition, it is important 
to remember, this request is only for 2020 funding, so through 
September of this year. And then we have said we would work 
with appropriators on modifying 2021 requests based on the 
progress of the disease over the next weeks and months.
    Mr. Harris. Right. And the plan transfers that have 
occurred, as I read this chart, right, is $135 million out of 
$81 billion. So that is----
    Secretary Azar. I believe 0.2 percent.
    Mr. Harris. I think it is a little less than 0.2 percent 
actually. You are being a little generous about that. I think 
it is actually less than that.
    And, finally, just to clear up one question, because a 
question came about LIHEAP, but do I recall in the Obama 
budgets that LIHEAP was zeroed out?
    Secretary Azar. I do not remember if that is the case or 
not.
    [Response from audience]
    Mr. Harris. It was cut? Oh, so it was cut? It was cut in 
previous administration budgets, so you are just doing what 
previous--you are just following the lead of previous 
administrations. Well, on that I applaud you for following the 
lead; on other things, I don't.
    Finally, look, on title 10 funding, the fact of the matter 
is that you and I both understand exactly what title 10 was 
intended for. It was never meant to promote or fund abortions. 
There are a vast number of Americans who believe the taxpayer 
dollars should not be used to promote or fund abortions.
    And I congratulate the administration on finally restoring 
title 10 to its initial purpose and, again, allowing us to go 
home to many of my constituents who strongly believe--who 
oppose abortion and who believe the Federal Government has no 
role in promoting or funding abortions.
    So I thank you, and I yield back.
    Ms. DeLauro. Mr. Pocan.
    Mr. Pocan. Thank you, Madam Chair and Ranking Member.
    Okay. So I just want to make sure I understand on this czar 
part, okay. We just got an alert coming out. You said, ``I 
don't put much stock in anonymous sources in Politico,'' but 
that is neither a yes or no. So you had a conversation this 
morning with the President. Have you ever discussed having a 
czar?
    Secretary Azar. Well, first, I am not going to discuss the 
content of my interactions and advise to the President, but the 
President is the one who said, consistent with the National 
Response Framework, as well as Emergency Support Function 
Eight, which I actually played a role in designing, that HHS is 
the lead agency on a public health emergency.
    Mr. Pocan. So you don't anticipate a czar?
    Secretary Azar. I don't anticipate one. This is working 
extremely well. If it doesn't work or if there is a need for a 
change as there is, for instance, implication of other 
emergency support functions under the NRP, then that would be 
for the President to decide perhaps there is a multi-ESF 
leadership, which is part of the NRP is contained in there 
also.
    Mr. Pocan. Okay. So you are saying from your conversations 
you don't expect a czar to be appointed today----
    Secretary Azar. I do not.
    Mr. Pocan [continuing]. Or anytime in the near future. All 
right. That is good. Jared Kushner will have more free time 
then because I am sure, otherwise, he takes on a lot of those 
responsibilities. So that is good to know.
    Let me go back to the question that Ms. Granger asked 
because I just over vacation read ``China Rx,'' and pretty 
scary, you know, when you look at the amount of stuff that is 
being done. This is your wheelhouse, right, where you came 
from.
    I am really concerned--and I saw the President had a 
directive for military personnel especially about buying 
American. Are you concerned that so many of our drugs or 
essential ingredients in drugs are made in places like China, 
and I think they said 90 percent of generics probably or 80 
percent of production, but 90 percent of the essential 
ingredients are made in China, that at some point that could 
cause some problems, especially given some of the last--some of 
the recent various commerce activities we had had with China, 
how they could hold things up, or in this case what could 
happen in the Wuhan province where people may have to stop 
working for a while and you could have some problems? Are we 
able to do anything? Are we able to try to get production back 
in the United States?
    Secretary Azar. So I am concerned about that. Having our 
supply chain, especially on medical products, which can be 
strategic, so intertwined with China or any other--dependent on 
any other country is a challenge.
    Here is the issue, and I know you have, as do I, a deep 
passion around getting drug prices down. If there is a reason 
they are being made in China or India, and that is low-cost 
manufacturing so----
    Mr. Pocan. Yeah. Let me--if I can----
    Secretary Azar [continuing]. If we force them to make them 
here, we could see an increase in price.
    Mr. Pocan. To that very point though, how much does it 
actually cost to produce a pill? So like the Hep C pill is 
$1,000 a pill, right? What is the actual production cost on 
average for a pill?
    Secretary Azar. Well, it depends on the product, but the 
difference is a special and generic manufacturing between the 
U.S. and other countries----
    Mr. Pocan. But what is the average cost of production for a 
pill?
    Secretary Azar. I couldn't tell you that. It depends on the 
product and how it is----
    Mr. Pocan. 10 cents? $1? $100?
    Secretary Azar. It would depend on the product.
    Mr. Pocan. Yeah.
    Secretary Azar. But manufacturing generics, just we see 
this, is materially different in lower cost countries than in 
the U.S. That is why we don't see generic production----
    Mr. Pocan. So how about on generic drugs, because we know 
they are generic, the cost difference. I am just trying to 
decide why a company--like, are they saving a nickel or are 
they saving 50 cents by doing that and risking our flow 
potentially of those essential drugs?
    Secretary Azar. Well, I think it is important to remember 
the generic business is an extremely low-margin, high-volume 
business. And so even what you and I may think of as a penny 
difference could be bankruptcy versus success for a generic 
company on that, difference in manufacturing with competitors. 
So I absolutely understand it is a critical issue. I don't know 
the solution. I want to work with you on that because I don't 
want to do something that causes our generic prices to soar, of 
course.
    Mr. Pocan. Thank you.
    Ms. DeLauro. Congresswoman Herrera Beutler.
    Ms. Herrera Beutler. Thank you.
    I want to shift gears a little bit to the announcement for 
the healthy adult opportunity proposal. And I noted that CMS 
specifically stated that children in very low-income households 
will, quote, not--will not be, quote, directly affected.
    You know, one of the things that I have found that goes 
unnoticed is that kids are about 20 percent of the Medicaid 
population--or I should say it this way: They are about 40 
percent of the population; they are about 20 or less percent of 
the actual dollars spent.
    So any kind of shifts within Medicaid I believe need to be 
done with a specific eye towards safeguarding really the 
intended recipients of the program. It is a safety net program 
mostly for a certain population. I think children are kind of 
front and center in that.
    I wanted to know how the Department is going to keep--so--
and I know--the answer I have heard before is the States are 
going to do--the States can do that. I don't trust that my 
State is going to do that to the best--I should say it this 
way: I am a trust but verify with regard to how my State is 
going to make sure that the adults aren't just protected and we 
are going to push the kids to the edge, because I have children 
with disabilities who are on Medicaid who come to me and say 
they get put at the back of the wait lists with regard to 
Medicaid.
    So how is the Department going to be able to step in? I 
know this is a little different from some of the Republican 
State's rights questions, you know, give it all to the States. 
Well, what if we haven't necessarily seen the best instances of 
children being protected at the State level? How is your 
department going to be able to do that in the midst of this new 
proposal?
    Secretary Azar. Well, I would just note first that the 
actual proposal or the actual opportunity is literally called 
the healthy adult opportunity. It is an optional demonstration 
program for States to restructure benefits for adult 
populations. It is important to remember this is not a 
mandatory change. This would only be if the State wanted to do 
it. It would require CMS approval. There is no entitlement on 
approval. It just states a pathway that we are open to look at 
these.
    It doesn't allow stripping of benefits, limits on 
eligibility. They can't cap or limit adult enrollment even. So 
that is even with regard to adults. It requires coverage of 
essential health benefits. So, even with regard to adults whose 
name is in the title, all of those protections are in place. 
And so that is why for low-income individuals, for pregnant 
women, the elderly adults, people disabled, the traditional 
Medicaid populations aren't in any way impacted by that. This 
is that--the able-bodied adult expansion populations under the 
Affordable Care Act that would be at issue.
    Ms. Herrera Beutler. Perfect. That is what I wanted to 
know. And I am glad you mentioned the pregnant women receiving 
Medicare. That is the other piece there.
    In my view, the goal should be to keep Medicaid as a safety 
net, a strong, robust safety net for those who it was intended 
to serve. And for those who are not--shouldn't be part--who 
weren't part of the original outlay, I think we need to get 
them into different programs and different options to get them 
care so that we are not breaking the safety net for, you know, 
a single mom with three children, one of whom has multiple, you 
know, different abilities. So I appreciate that.
    Continuing with the discussion on child health and disease, 
particularly with regard to research, they generally receive 
significantly less attention and funding compared to other age 
groups. In 2021--in the 2021 proposal, what is the 
administration doing to focus on child health and research and 
on childhood diseases?
    Secretary Azar. So, as you know, the President's pediatric 
care initiative, which you all funded through NIH, is really 
important because children and cancer really have been 
neglected for too long. Different disease profiles, so we have 
been building up the databases to share information so that we 
can actually help discover cures targeted for kids. So that has 
been part of the work of NIH. But really the budget continues 
that funding with $50 million in 2021 on top of what you 
already funded.
    Ms. Herrera Beutler. Thank you.
    Thanks, Madam Chair.
    Ms. DeLauro. Congresswoman Lee. I am sorry, Frankel, 
Congresswoman Frankel.
    Ms. Frankel. Okay. That is okay. My turn?
    Ms. DeLauro. Your turn. Go for it.
    Ms. Frankel. Thank you. All right. We are going to get back 
to our last subject. So, I guess, I want to correct what I 
think was some misinformation that you put out or maybe a spin. 
I am going tell you about Planned Parenthood, its last report: 
2.4 million patients; 9.7 million services provided; over 4.7 
million STI testing and treatment; 2.6 million birth control 
information services; they estimated that approximately 400,000 
unintended pregnancies were averted; over 500,000 breast exams 
and Pap smears; and 1.2 million people reached through 
education and outlet.
    So I would say, and I think most people in the public would 
say that Planned Parenthood has done a really good service, 
especially to poor women, women of color in this country. And 
your administration has basically, with what we call--with a 
very, very cruel gag rule, so putting the gag rule on steroids.
    And what does that mean, gagging? It is like they put a 
piece of cloth across the doctor's mouth because I think we 
need to all understand that Federal money is never used for 
abortions, and Planned Parenthood has never used Federal money 
for abortions.
    Oh, you are going to get the little red sticker from 
somebody there. But the fact of the matter is, now with the new 
gag rule on steroids, a provider who does not use Federal money 
for abortions cannot even tell somebody, when they go in 
office, if a patient says, ``What are my options,'' they are 
now gagged, the provider is gagged.
    And what Planned Parenthood has done, which I think is very 
courageous, but unfortunately I think it is going to maybe hurt 
a lot of women, is they have said: We are not going to be 
untruthful with our patients. We are an organization that, if a 
patient comes in for care, we are going to tell them the truth.
    And I wanted to give you another example of your--the 
alternatives that are being provided in this country and now 
that Planned Parenthood has had to withdraw. In Louisiana, the 
State list of alternative providers include dentists and 
nursing homes; and in Florida, it includes school nurses; in 
Ohio, it includes food banks.
    So I would just--I am running out of time, but I am going 
to end it by saying this: The women and the girls in this 
country, we need to be in charge of our own bodies in order to 
have full, productive lives, not Donald Trump being in charge 
of our bodies.
    And, with that, I yield back.
    Ms. DeLauro. Congressman Cole.
    Mr. Cole. Thank you very much, Madam Chairman.
    Mr. Secretary, just a couple of quick questions. I know you 
are working hard on the President's request for targeted HIV 
testing and working toward the hopefully elimination in the 
next 10 years of this dreaded disease. But, unfortunately, the 
Interior Subcommittee did not provide additional resources to 
the Indian Health Service as part of this initiative.
    You and I have had a little discussion about this. You 
know, what can be done as we move forward? And, again, let me 
just make clear, that is no criticism for our colleagues on the 
Interior Health because they have a very low budget. Actually, 
the chairman and I were talking about it, very difficult for 
them to provide the resources that they would like to do given 
the range of responsibilities they have. So I sympathize with 
them, but this is an important initiative. We have got to find 
a way to get it funded in Indian Country.
    Secretary Azar. It is quite important. We used money 
Congress had given us in 2019 to do four jump start projects. 
So we funded planning in all of the 57 jurisdictions so that, 
as soon as you funded the President's request, we would be able 
to get off to the races as we did with the funding from HRSA, 
this morning, the $117 million that I announced on executing.
    We had four jurisdictions, one of which was the Cherokee 
Nation that we advance funded so they could actually get moving 
right away on it in anticipation of funding for Tribal 
territory. We do have in this budget request a request of $27 
million for his that would support the critical needs of the 
disproportionately affected on the HIV spread in Indian 
Country.
    That would be expanding HIV testing in Indian country; 
connecting American Indians and Alaska natives to care; getting 
previously undiagnosed HIV infections in treatment so that they 
can be--if they are undetectable, they can be un-transmissible; 
getting prep out among people who are at risk to ensure that 
they cannot transmit to others; and also supporting disease 
surveillance in Tribal epidemiology centers.
    Mr. Cole. Well, again, we appreciate your efforts. I have 
very little time left, and this is a big question, but all of 
us know suicide rates have been rising literally in every State 
in the country. So I am interested in what you have in your 
budget that might help us to do more in that particular area.
    Secretary Azar. So we have been very active, especially in 
supporting on suicide with regard to our veterans. So we--
with--the suicide hotline now has a very important function. 
The very first question you are asked if you call the suicide 
hotline is, are you a veteran? If you are a veteran, we now 
have an immediate hot transfer over to a live person who will 
give immediate counseling tailored to veterans and the risk of 
suicide.
    We have collaborated very closely between NIH and DOD and 
VA and have come up with artificial intelligence algorithms 
that help us actually predict, based on a veteran's history, 
certain categories, certain individuals who are at much higher 
risk of suicidality. Those individuals actually receive--I 
think it is monthly coaching and proactive intervention. So we 
really hope that this collaboration between us and DOD and VA 
can help with the just devastating issue of our veteran suicide 
issues.
    We are also investing, of course, suicide prevention 
programs, 93 million community mental health services block 
grants with an increase of 35 million there. So and many other 
programs that are in the budget. Suicidality is a very 
important priority for us.
    Ms. Cole. Thank you.
    Thank you, Madam Chair.
    Ms. DeLauro. Congresswoman Watson Coleman.
    Mrs. Watson Coleman. Thank you, Chairman.
    Mr. Secretary, I need you to check back with your 
Department because my understanding is that New Jersey was 
specifically told to get ready to be able to house or deal with 
those individuals that would come through the funnel airport, 
and that is why they were looking to use the Joint Air Force 
Base, and that is why it is important because the ability to 
use that is being eliminated as of next week.
    Two other things really quickly. I am really pleased that 
you find maternal morbidity a really important issue. And I 
know we recognize that nearly half of pregnancies are 
unplanned. Women need to be able to have the kind of healthcare 
that they need when they find out that they are pregnant.
    I have been working on Healthy Moms Act, which would open 
up a special enrollment period for women who are finding 
themselves pregnant, but I know you can do that by executive 
order by just--you know, by your authority, and I would like to 
work with you on that. Would you be willing to work with me?
    Secretary Azar. Yeah. I haven't been familiar with that as 
a special enrollment period option, but I am happy to look at 
that and work with you on that.
    Mrs. Watson Coleman. Oh, great. Okay.
    Secretary Azar. I did not know that that wasn't--that for 
new--so for new pregnant women, there is not currently a 
special enrollment period?
    Mrs. Watson Coleman. No. It is not----
    Secretary Azar. I didn't know that.
    Mrs. Watson Coleman. It is not eligible right now. Okay. We 
can talk about that.
    Last thing is I did a lot of work with the special task 
force on mental health issues and Black youth suicide. As a 
result of that, we did--we had a report done by a series of 
professionals, working groups, identified a lot of issues that 
your department can address. So I am concerned about the $200 
million cut to the NIH.
    I would like to, with unanimous consent, enter this report, 
which is called ``Ring the Alarm: The Crisis of Black Youth 
Suicide in America'' into the record. And I would very much 
like to have the opportunity to work with you on making sure 
that some of these very important issues, particularly as 
access to culturally competent services, enough services, and 
research and things of that nature are addressed.
    Secretary Azar. Absolutely. That could be very valuable for 
us and our work on suicide. So, no, I look forward to that. 
Thank you.
    Mrs. Watson Coleman. Thank you. I yield back.
    Ms. DeLauro. We will--unanimous consent to enter your 
document.
    Mrs. Watson Coleman. Thank you.
    Ms. DeLauro. Congresswoman Lee.
    Ms. Lee. Thank you very much.
    Okay. I want to go back to a couple of my remarks and 
questions earlier, Mr. Secretary. First of all, you know that 
PEPFAR has been a bipartisan initiative since we really began 
this when President Bush was President. And so, every year, we 
are trying to make sure that we are on target in terms of 
reaching the 2030 goals of really eliminating HIV and AIDS.
    So this budget though calls for $170 million cut in PEPFAR, 
which does not make any sense if, in fact, we are going to keep 
working together to try to get to our goals. So I am not sure 
what the rationale was for putting forth a cut. That is a 
significant cut to the PEPFAR program. We need to increase it.
    Secondly, again, with regard to teen pregnancy prevention, 
for the life of me, I can't understand why you would eliminate 
this when we know for a fact that a wide range of evidence-
based and innovative interventions to support the sexual health 
of young people is extremely important. It helps develop 
healthy--it really develops the education that is needed to 
help our young people prevent abortions, and so I can't 
understand why you would eliminate that program.
    Also, it harms young people who are already marginalized, 
like LGBTQ youth and young people who have been victims of 
sexual violence. And so eliminating this program, what is the 
rationale, and what is the basis for that?
    And then, finally, you mentioned community health centers, 
which are wonderful and provide health services where there are 
many gaps in both rural and urban communities, but they don't 
address the basic racial health disparities, and you know what 
they are.
    And so the REACH program provides strategies to address the 
basic racial disparities in chronic health and the National 
Institute of Minority Health. It impacts millions of Americans 
by providing in the health delivery system specific 
perspectives and strategies to reduce health disparities as it 
relates to minority communities. So why would you cut that 
also? I mean, minority communities are really under attack 
through this budget.
    Secretary Azar. So, with regard to PEPFAR, I would have to 
defer to the Department of State on that. It is their program. 
I am not consulted on the funding levels for PEPFAR in terms 
of--but I would say PEPFAR is obviously an important program. I 
have gotten to see the fruits of the work of PEPFAR in building 
up public health capacity. PEPFAR plus the global health 
security agenda. As I traveled the DRC, Rwanda, Uganda on the 
Ebola crisis, I have gotten to see the fruits of that important 
work there.
    The teen pregnancy prevention program, we just--we 
fundamentally disagree in terms of whether those are evidence-
based interventions that actually from an evidence perspective 
deliver. The rate of teen pregnancy was declining long before 
the TPP was put in place. It serves less than 1 percent of the 
teen population.
    And a longitudinal study of the program actually during the 
Obama administration looked at 37 of those programs, and it 
found that 73 percent of them either had no impact or actually 
a detrimental impact in terms of STDs and teen pregnancy, teen 
initiation of sex.
    Ms. Lee. Well, I beg to differ with you, Mr. Secretary. 
Years of research have shown that the abstinence-only approach 
not only fails in getting young people to delay sex but also 
can harm young people.
    Ms. DeLauro. Congresswoman Clark.
    Ms. Clark. Thank you, Madam Chair.
    I first want to correct myself. I told you that there were 
67 days to get the congressionally mandated report. It is 
actually 53----
    Secretary Azar. Okay.
    Ms. Clark [continuing]. So an even bigger challenge than I 
first reported.
    And I just want to add that President Obama never proposed 
eliminating LIHEAP, but he did propose dramatic cuts to it, to 
the tune of $3 billion. And it was strong bipartisan opposition 
that rescued this program. I certainly hope we will see that 
again this year from your proposal to completely eliminate it.
    But switching gears, Madam Chair, I would ask unanimous 
consent to enter this letter from the American Psychological 
Association chief into the record.
    Ms. DeLauro. Without objection.
    Ms. Clark. This letter is addressed to you as of February 
21 and is concerning the very dangerous and disturbing practice 
that we are seeing emerging at ORR, where, as you know, we are 
required--you are obligated to act in the best interest of 
immigrant children in their care.
    But reports are that the notes from the psychotherapy 
sessions of children who have experienced trauma are being 
shared by ORR with ICE, and this information is being used 
against the children in deportation proceedings even though 
these conversations are supposed to be confidential. What are 
you doing to halt the sharing of this confidential information 
with ICE?
    Secretary Azar. So I am glad you raised that because I have 
been able to have a discussion with the chairwoman in private 
before the hearing about this issue. We agree that those notes 
and that interaction between the mental health provider and the 
child should be normally confidential. There are exceptions, as 
the APA would make clear also, where there is a risk of harm to 
the child or to others.
    Ms. Clark. But that is not----
    Secretary Azar. But there was guidance put out in 2016 in 
the Obama administration that was not clear, and it led to two 
mistakes happening: One was clinician notes were provided and 
that was not correct to DHS; and sometimes clinicians just cut 
and pasted their notes into the serious incident report in the 
management system where they should have just noted there was a 
threat of harm to self or other, which they have to do by law, 
and they cut and pasted it, and that was provided.
    When we learned about this in August of 2019 before any 
media reports, we stopped it. We issued corrective guidance and 
said that is not proper; minimal information should go in the 
serious incident report and go over, but it should not have 
happened.
    Ms. Clark. Okay.
    Secretary Azar. We agree with you.
    Ms. Clark. Speaking of children in custody, as I think 
about places that you can get money to address this 
coronavirus, and I still don't know why we are building a 
public health response once the pandemic threat is already 
here, but has the contract for Homestead where we were paying 
$720,000 a day to not house children, has that actually ended 
as of November 30?
    Secretary Azar. I don't know--I don't think it has ended as 
of November 30 or what the current contours are. I can explain 
to you why we have that contract, which is, in response, in 
fact, to the chairwoman and this committee's concerns around 
the care for kids, we are increasing fixed capacity, but we do 
need influx capacity in the event that, if Mexico changes 
border policy and we see kids, the number one priority is not 
letting them be backed up at ICE or at the border and coming to 
us, so----
    Ms. Clark. So that $80 million we have spent not to house 
children you feel that is better spent than putting that money 
into coronavirus. That is really an incredible set of 
priorities. Thank you.
    Ms. DeLauro. Thank you.
    Let me just recognize the ranking member for some closing 
remarks, and then I have two or three, and I am mindful of your 
hard stop.
    Mr. Cole. Thank you very much, Madam Chairman. I will be 
brief. First, I want to thank you for the hearing, excellent 
hearing, a lot of good questions, a lot of excellent points 
made I think by every member on the committee. And I want to 
commit to you, again, I look forward to working with you on the 
supplemental. I thought the points you made were good points. 
We want additional detail, but we intend to work together on 
this and certainly work with you, Mr. Secretary.
    And let me finish by thanking you again and your team. 
Look, this committee has worked hard for 5 years on a 
bipartisan basis to create the institutions that I think are 
serving us very well now, obviously, your entire department but 
specifically the NIH, the CDC, the strategic stockpile, the 
creation of the rapid response--Infectious Diseases Rapid 
Response Fund.
    All those things I think have put us in a position to do 
well, and I think you have done a good job. I think you guys 
have been very transparent with us from day one. I think the 
congressional briefs have been excellent. Appearance of a 
number of members of your department before this committee and 
a special briefing session that my good friend, the chairman, 
convened for us, extremely helpful.
    The contrast between what I saw yesterday in the Senate and 
what I saw here today on both sides of the aisle makes me very 
proud of our chamber and this subcommittee. I think we have a 
lot of people saying a lot of things that either haven't been 
participating in the process or have not been transparent about 
it.
    And, again, I want to also thank you because you did commit 
here and I know it is sincere commitment that if we need to go 
beyond your initial recommendation to protect the American 
people, we are all prepared to do that. So I don't look at 
the--I want to be prudent in the use of funds. I know my 
colleagues up here do as well, but we are like you.
    And I remember in one of our briefings--I think it was 
actually one that the chairman and I coordinated--you made the 
statement that, you know, you would rather be accused of doing 
too much in retrospect than accused of doing too little. And I 
think you have been true to that commitment every step of the 
way. I think the people that work with you have as well, and I 
am very confident you will continue to do that.
    So thanks for your hard work on behalf of the American 
people. Thanks too for your honesty and transparency here. We 
will try to help you in a lot of the places you need help, and 
then we are going to help you in some places you probably 
officially don't need help but we officially think you do. And 
so I look forward to that working relationship and, again, just 
thank you for your service to the American people.
    Thank you, Madam Chair.
    Ms. DeLauro. Thank you. If I can just wrap up being mindful 
of your timeframe, I would just tell you that the issue of 
suicide makes me--and the commentary on that makes me view that 
you need to review whether or not you want to cut $25 million 
from gun violence prevention research where the basic focus is 
on suicides. It is mostly suicides with veterans. And I don't 
care how good the hotline is; we need to find out what is going 
on in the minds of veterans and others in order to be able to 
plumb why they are taking their lives.
    But the issue of--we are not going to talk influx 
facilities today, my colleague mentioned this, but we are, very 
flat out. And I will just tell you, it is my goal with an empty 
facility and millions of dollars being spent and the numbers 
declining as they are and we are nowhere near capacity at the 
State-licensed shelters, we are going to shut them down because 
we can deal with the issues in other ways.
    I might also add the issue came up with regard to cuts, 
determining whether a Federal budget proposal counts as a 
budget cut is simple. If the proposal would reduce funding for 
a program's benefit or services or reduce the number of people 
who qualify for benefits relative to levels that would occur 
under current law, it is a cut. We are cutting $920 billion 
over 10 years to Medicaid, $756 billion over 10 years for 
Medicare.
    I want to get--let me just do this, because you mentioned 
this, Mr. Secretary, and I thought it was very clear. You 
stated that infectious disease, global health, and preparedness 
were prioritized in the CDC budget request following essential 
programs we--were proposed for cuts, which makes the 
commentary, quite frankly, inconsistent, cutting CDC $693 
million or 9 percent. We are cutting Infectious Diseases Rapid 
Response Fund by $35 million, 41 percent, and you don't--not 
replenishing it in your supplemental.
    The public health data initiative $20 million, a 40 percent 
cut, specifically asked by the Director Redfield in order for 
us to modernize our efforts to transform public health data 
into analysis so that we can move more quickly; the public 
health workforce, which we talked about today, $6 million or 12 
percent; and the epidemiology and laboratory capacity program 
by $40 million as a cut, 18 percent. This flies in the face of 
what you have talked about in terms of what your goals are.
    Lastly, about information sharing with DHS. Is ORR sharing 
information about rejected sponsor applicants with ICE at DHS?
    Secretary Azar. So we have shared the names and addresses 
of 141 individuals who were denied sponsorship due to criminal 
histories or due to fraudulent representations to ORR that they 
have a bona fide relationship with a child. No parents were 
included in that group. And then whenever we have----
    Ms. DeLauro. You are----
    Secretary Azar. I am sorry?
    Ms. DeLauro. You are prohibited by law from detaining 
sponsors based on information that HHS collects on potential 
sponsors during the vetting process.
    Secretary Azar. Well, again, I don't detain sponsors. But 
also the Department of Homeland Security is complying with the 
legal restraints in the act, but this is not parents. This is 
individuals denied sponsorship due to criminal histories or due 
to fraudulent representations to ORR that they would--that they 
have a bona fide relationship with the child, no parents being 
included in that group is what I am informed.
    Ms. DeLauro. Can you tell me also, is ORR sharing 
information with DHS on any adult who does not fall into the 
categories included in the DHS rider, the prohibition on use of 
funds to detain a sponsor unless they have a certain specific 
criminal criteria?
    Secretary Azar. I would want to get back to you on the 
details there. We certainly are complying with the rider, but 
if there is any beyond the rider, I don't have that detail.
    Ms. DeLauro. And I would like the information.
    Secretary Azar. Yep.
    Ms. DeLauro. What kind of firewall exists between ORR's 
information about potential sponsors and ICE given that 
information sharing for enforcement actions is prohibited?
    Secretary Azar. The use of it for enforcement maybe be 
prohibited, but there is no firewall that is required. And so 
information is shared, and it has been shared frankly for--I 
think for quite some time. For instance, we share information 
on sponsors within 24 hours of discharge, and that is part of 
also double--there are a couple things.
    One, the sponsor actually has to certify to us and to DHS 
that if they move the child, that that will be reported. 
Remember, this is a child who is not legally in the country and 
subject to proceedings; and, second, that the sponsor isn't, 
for instance, illegally in the country and subject to a removal 
order and about to be deported. That wouldn't be a safe 
environment for us to then place the child. So there is that 
last minute check and information sharing. I think that has 
gone on, my goodness, for at least over a decade, I believe.
    Ms. DeLauro. Well, we need to get a very, very detailed 
view of the current information that is being shared and 
whether or not it is in contravention of the rider in the bill. 
And further to that is that we need--because ICE walks into 
State-licensed facilities and fingerprints. And you may or may 
not know about it. ICE is transmitting--ORR is transmitting 
clinical notes. There are all kinds of avenues here which are 
being breached in terms of the privacy and the care of these 
children and the intimidation of these children.
    We need to get to a point where that is no longer the case 
and that ORR and DHS have only their concern about the welfare 
of these children. And, yes, I understand criminal activity. I 
understand human trafficking. But we have seen over the last 
year and a half or more that we are moving into what is really 
unbelievable mental health issues arising out of intimidation 
of children that are in our care. They are in your care, but 
they are in our care while they are here, and we are not going 
to continue to put up with that.
    Thank you for being here this morning. Thank you for being 
upfront with us on issues. And as my colleague said, we want to 
be ahead of this crisis on the coronavirus. We do not want to 
be behind the curve. So thank you very much, Mr. Secretary.
    [The following questions and answers were submitted for the 
record:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                       Thursday, February 27, 2020.

      DEPARTMENT OF EDUCATION BUDGET REQUEST FOR FISCAL YEAR 2021

                                WITNESS

HON. BETSY DEVOS, SECRETARY, DEPARTMENT OF EDUCATION

                        Introduction of Witness

    Ms. DeLauro. The subcommittee will come to order.
    Good morning, Secretary DeVos. Good to see you this 
morning, and welcome to the subcommittee.

                      Chairman's Opening Statement

    This is our second budget hearing of the year, and it is 
your fourth hearing with us. And today, as you know, we are 
going to examine the President's Department of Education budget 
request for fiscal year 2021.
    As I was reviewing the budget materials, Madam Secretary, 
this much was clear to me, that you are seeking to privatize 
public education. I believe--and I have had this conversation 
before with you. I believe that is the wrong direction for our 
students and for our country.

                     IMPORTANCE OF PUBLIC EDUCATION

    Instead, we need to be moving toward expanding public 
policies like early childhood education that we know help 
students succeed. We see this in other countries around the 
globe. They are not shrinking public support but, in fact, are 
expanding it. I will get more into the consequences of the cuts 
that you are proposing, but I want to start by examining your 
privatization philosophy, the false premise on which it is 
built, and the research that it ignores.
    Contrary to your claims, the Nation's public education 
system, which 90 percent of our children attend, has witnessed 
significant progress for all groups of students over the last 
30 years. Average mathematics scores on the National Assessment 
of Educational Progress, NAEP, have improved for fourth graders 
by 13 percent, eighth graders by 7 percent. While overall, 
reading improvements have been more modest--Black fourth 
graders' scores improved by 6 percent and eighth graders' by 3 
percent; Hispanic fourth graders' scores improved by 6 percent 
and eighth graders' by 5 percent--these are significantly 
higher than 40 years ago for all racial and ethnic groups.
    And I reflect on that and ask myself the question, where 
would we be without Federal investment? There is no question 
that there is more to do to address the disparities in 
achievement. We know we face significant challenges in 
assisting the kids that come into our system in education 
districts where they experience poverty and exposure to 
violence, often resulting in trauma. But the solution is not 
less resources, nor is it more privatization.
    Let me, if I can, just quote for you from a report by Dr. 
Pamela Cantor, who is a psychiatrist, and she co-founded an 
educational organization called Turnaround for Children, which 
translates the science of learning and development into 
problem-solving in our schools. She led a team commissioned in 
New York City by the Board of Education to assess the impact of 
the terrorist attacks on the city's public school children. 
What did she find? Surprisingly, while 68 percent of the 
children they observed had experienced trauma sufficient to 
impair their functioning in school, it is from their ongoing 
experience of growing up in poverty, not from what they 
witnessed that terrifying September day.
    In fact, the Administration's own data has shown how 
privatization has let students down. The Trump administration 
evaluated the D.C. Opportunity Scholarship Program and found 
that vouchers had a statistically significant negative impact 
on the mathematics achievement of impacted students. In other 
words, more vouchers, lower math achievement.
    That is not a lone data point either. Previous multisector 
studies using NAEP data have found that no student achievement 
scores for children in private schools were higher than those 
of children in public schools by any statistically significant 
degree. And I think they found this to be the case, I believe, 
in Indiana and in Louisiana, and there are other examples, 
which I can make available to you and to your staff.
    So your push to privatize public education is based, in my 
view, on a false premise that is not supported by data. But its 
consequences would be to undermine the education of our 
students in nearly every State, particularly for vulnerable 
students in high-need regions, including the rural parts of our 
country.

                  CUTS IN PRESIDENT'S EDUCATION BUDGET

    You would end career and college readiness for 560,000 low-
income middle school students across 45 States by eliminating 
the highly competitive grant program known as GEAR UP, a minus 
$365 million.
    You would endanger academic tutoring, personal counseling, 
and other programs for 800,000 students in sixth grade by 
slashing TRIO programs by $140 million. TRIO serves low-income, 
first-generation students and students with disabilities, 
helping them to graduate from college.
    You would endanger education access for children 
experiencing homelessness by eliminating the Education for 
Homeless Children and Youth Program, minus $102 million. This 
funding is desperately needed. In the 2016-2017 school year, 
more than 1.3 million enrolled children had experienced 
homelessness at some point in the past 3 years, an increase of 
7 percent from 2014-2015.
    You would endanger youth literacy, as well as potentially 
increase class size and undermine efforts to support diverse 
teachers by eliminating the main program, Supporting Effective 
Instruction State Grants, which we increased for the first time 
in many years. And you have taken $2.1 billion away from this 
program.
    You would potentially put higher education out of the 
financial grasp of students by flat-funding the Pell Grant. 
Forty percent of undergraduate students, 7 million students, 
rely on Pell Grants to afford higher education. But while Pell 
covered 79 percent of the average costs of tuition, fees, room 
and board at a 4-year public institution in 1975, it covers 
only 29 percent today. Our students cannot afford for us to 
stand pat for this.
    And finally, your budget would risk exacerbating the 
financial challenges of under resourced rural districts by 
converting rural formula grants into a block grant. These 
districts already struggle with lower student populations, 
higher transportation cost, and your move to undermine their 
funding in this way is unacceptable.
    With all of this, and I just say this to you, Madam 
Secretary with all sincerity, this is not going to happen. It 
is not going to happen.

                      OTHER REQUESTS IN THE BUDGET

    I am supportive of the recognition of the IDEA State 
grants, $100 million proposed increase; career and technical 
education, $680 million proposed increase for the CTE State 
grants. I am disappointed that adult education State grants are 
left with level funding, which I plan to ask you about later.
    You have also once again requested an increase for student 
loan servicing. We included new reforms, as you know, in the 
fiscal year 2020 bill to help us conduct more oversight and 
ensure that borrowers are getting the help they need. Many of 
these ideas stem from an oversight hearing that this 
subcommittee held last year. And to be direct, I will need to 
see how the Department implements the new requirements as I 
review your request for next year.
    With regard to charter schools, there is a place for them. 
They have a role in our education system. However, we have 
moved in the direction of creating a parallel education system. 
Concerns remain around issues of accountability and 
transparency, which, to this point, they have not been 
forthcoming. As I have said time and time again, I believe 
charter schools ought to be held to the same rigor, and where 
they fail, we need to know about it.
    And to close, Madam Secretary, you are clearly, again in my 
view, seeking to privatize public education. I hope that I have 
been clear that we are not going to do that. Because doing so 
ignores the research indicating the gains we have made, ignores 
the many areas private education shortchanges students, ignores 
the very reason the Federal Government has needed to be 
involved in education, as so powerfully indicated with Brown v. 
the Board of Education, and ignores the spirit and the values 
of this country.
    No, instead, we need the expanding public policies that 
boost education attainment, not restricting or reducing them. 
So I look forward to our discussion today, and now it is my 
pleasure to turn to my colleague, the ranking member of the 
subcommittee, Congressman Tom Cole from Oklahoma.

                   Ranking Member's Opening Statement

    Mr. Cole. Thank you very much, Madam Chairman.
    I want to tell you this is my favorite time of year because 
I get to spend so much time with you in this committee hearing. 
We are going to have dinner tonight, and it is always a 
delight. It honestly is a vigorous exchange of ideas and more 
cooperation than we tend to get credit for.
    And Madam Secretary, it is a particular pleasure for me to 
have you here today. I have known you for a long time, long 
before either of us were in our respective capacities. And I 
will leave it to you to describe your public philosophy, but 
there are two things that I know about you--your public 
education philosophy.
    But one is that you have always been for individualizing 
education. You have always been for what is the right job, 
role, or place for this particular student to be, and I see a 
lot of that in your proposals. And two, you have never been 
afraid to put a bold idea on the table and advance it, and I 
see a lot of that in this budget as well. There is a lot of 
boldness here. Some of which I agree with, some of which, quite 
frankly, I don't. But that doesn't bother me. I like the idea 
that you are willing to break the mold and think about this 
because we have got a lot of challenges.
    And also, you know, you are our chief officer overseeing 
probably the most diverse educational system in the world. And 
I just think about my own district. I have got five colleges 
and universities, everything from great comprehensive State 
institutions to elite liberal arts institutions, to regional 
facilities, to private Christian colleges.
    I have got, like everybody else, most of the young people 
that I am privileged to represent and their families go to 
public schools, but I have got charter schools. I have got 
private religious schools. I have got home schools. And they 
all do a good job. They all wrestle with the same problems.
    And I have got one of the most robust career/tech systems 
anyplace in the country throughout Oklahoma, and certainly in 
my district. And I was particularly pleased with a number of 
proposals that you made in that regard. So I think we will have 
a great discussion today.
    I am looking forward to your testimony. As a former 
educator, I understand how important it is for our entire 
population to have access to quality education. Without 
question, education is one of our most important building 
blocks for success, and access to quality learning directly 
impacts lifelong development and unlocks each individual's 
potential.

             PROPOSALS IN THE PRESIDENT'S EDUCATION BUDGET

    I was pleased to see that your budget request continues to 
prioritize resources to certain populations of children who 
need additional support, including children with special needs 
and disabilities, and Indian education and school districts 
whose revenues are impacted by a Federal presence within their 
boundaries.
    As you know, I am a strong supporter of career and 
technical education, and I am proud that my home State of 
Oklahoma is leading the way in innovative models for delivering 
cutting-edge skills that can lead to good-paying, rewarding 
careers for students who do not wish to pursue a 4-year liberal 
arts degree. And I thank you for your support of these 
programs, and I am looking forward to asking you more questions 
about the substantial increases in your budget, that your 
budget proposes for these programs this year.
    I also want to recognize your proposal to expand Pell 
Grants to students enrolled in short-term programs that offer a 
credential in a high-demand field. These opportunities offer 
high-payment employment in a variety of fields needed 
throughout my district, as well as many others.
    Interesting to me how many times we have had, when we do 
Member testimony, Members come here and specifically push the 
need for career and technical education, both in terms of job 
opportunities and talking to their employers in terms of needed 
skills. So I think you have really focused on a key area here.
    I have spoken, again, to small business owners, other 
Members of Congress who believe it is time to make Pell Grants 
available to individuals for enrollment in certificate-based 
programs, and I applaud you for putting that on the table for 
us to consider.

                      CONCERNS OVER PROPOSED CUTS

    Madam Secretary, your budget once again proposes to 
eliminate, consolidate, or change over two dozen programs. Some 
of these proposals may make sense in the context of a 
reauthorization or consolidation. I believe others are 
shortsighted.
    I actually agree with my friend the chairman, I am 
particularly concerned about the proposal to move the 
successful TRIO program from a competitive grant model to the 
formula grant to our States. That is no surprise to you. That 
has been a position I have held throughout my career.
    I am also concerned about the proposal to consolidate 
several Minority Serving Institutions' funding into a single 
stream. As you know, these institutions serve distinct 
populations with different needs, and I am not certain that 
such a change makes sense. Moreover, I feel that these often-
disadvantaged minority populations may be overlooked or 
marginalized if they are not singled out for special attention. 
So I am interested in hearing your perspective on that.
    I also would like to acknowledge your proposal to address 
limitations in the student aid program. Establishing Federal 
Student Aid as a separate organization is an issue I think is 
worth thinking about. I am not sure we are the right people to 
consider it here. It really is much more of an authorizing 
function than we are probably equipped to handle on this 
committee.
    But I do support your efforts to streamline and create a 
more user-focused system for student borrowers. The Next 
Generation project promises to modernize and improve the 
student loan infrastructure, benefitting over 40 million 
customers.
    Finally, while I tend to support block grants to States and 
freeing school districts from the bureaucracy involved with 
administering dozens of small, separate Federal programs, I do 
have some concerns that consolidating some programs, such as 
the Charter School Program, could have a negative consequence 
for the very students we hope to benefit by these proposals. 
And I will have a few questions about that.
    Again, there is a risk here that some States are welcoming 
the charter schools. Others, quite frankly, are not. And so I 
worry a little bit about the public sector taking money that we 
want to try and seed these innovative things.
    And I know you probably know more about this than anybody 
on this panel. You have got a lot of experience here. So I am 
interested in your perspective on that.

                  EDUCATION BUDGET IN BROADER CONTEXT

    I know you faced a very difficult challenge in making all 
the pieces fit into a tight budget. I made this point with 
Secretary Azar yesterday. This isn't necessarily your budget. 
This is the OMB's budget that you are tasked to defend. And 
that is what you are supposed to do. You work for the President 
of the United States. That is the budget process here.
    But obviously, you had to wrestle with a much smaller 
budget than you might have otherwise chosen. I am not going to 
ask you about that. I would expect you to be, of course, 
supportive of the President's position on this and overall 
budget priorities. But I think that does put you, just as it 
did Secretary Azar, in a difficult position. Sometimes you may 
well have been forced to make cuts that you did not advocate.

                            SPECIAL OLYMPICS

    We had a rather famous incident of that last year on 
Special Olympics, as I recall. So I know you sometimes 
privately make an argument that we might agree with up here, 
but publicly, you have got to go, you know, make the case. So, 
again, I respect that. That is one of the obligations you 
undertake when you accept a position, as you have, at--by the 
way--great personal sacrifice. It is not exactly a job you 
need, and I admire you, quite frankly, for your commitment to 
public service.
    I know that under the leadership of our chairman, the 
gentlelady from Connecticut, a strong quality education for 
students across the country will remain a fundamental priority 
in the creation of this year's Labor-HHS bill, just as it was 
last year. Frankly, just as it was when I was privileged to be 
chairman.
    And my friend has always been a good partner in that 
endeavor, whichever role she has--chairman, chair of the 
committee, or ranking member. So I look forward to working with 
my friend once again to craft a budget that balances our many 
priorities and invests in our country's people and its future.
    I look forward to your testimony today, Madam Chairman, and 
I yield back the balance of my time. Or Madam Secretary, and I 
yield back to you, the chairman.
    Ms. DeLauro. I thank my friend the ranking member and, 
again, look forward to working with you on this, and we will 
put it together, as we have in the past.
    And now I would like to turn to the distinguished chair of 
the full committee for any comments that she may have, 
Congresswoman Nita Lowey.

              Full Committee Chairman's Opening Statement

    Mrs. Lowey. Good morning, and thank you, Madam Secretary, 
for appearing before the committee. I look forward to the 
exchange of ideas.
    And I want to thank Chairwoman DeLauro and Ranking Member 
Cole for holding this hearing. This is the fourth budget 
request Congress has received for the Department of Education 
under your leadership that has been filled with program cuts 
and outright eliminations. Without fail, your vision hurts our 
students and their families.

                     PROPOSED CUTS AND ELIMINATIONS

    Like every previous year, we are going to reject this 
proposal. You would like us to believe this proposal empowers 
States and districts with flexibility, but the numbers don't 
lie. You propose eliminating 41 programs, cutting education 
funding overall by $6.2 billion.
    The Department of Education's mission is to promote student 
achievement in preparation for global competitiveness by 
fostering educational excellence and ensuring equal access. 
Secretary DeVos, your budget is clearly on a different mission, 
one that shirks accountability to our students and taxpayers.
    It would take more than my allotted time to read the 
complete list of eliminations and funding cuts. So I will only 
highlight a few, all of which demonstrate a lack of commitment 
to educational equity across elementary, secondary, and 
postsecondary education.
    Where we should be protecting and building on a $16.3 
billion investment in Title I schools, your budget proposal has 
eliminated this crucial support for students in high-poverty 
schools.
    You propose eliminating Full-Service Community Schools in 
my district. The Thomas Edison Elementary School in Port 
Chester was among the first in the country to implement the 
Full-Service Community School model, and their success has 
shown that integrating academics, social services, community 
engagement improves student learning, strengthens families, and 
empowers communities.
    I must admit I was an author at that time. I have visited 
this school, and it is so exciting to see these youngsters get 
all that they need within the school itself because many of 
these parents are working two jobs. And to have it all there, 
to have the parents come in and be a part of it, is very, very 
exciting. So I must admit it was disappointing to me to see 
this program eliminated.
    Now we will put it back, but it is still disappointing 
because I know of your interest in educating all the kids.
    The budget request eliminates the English Language 
Acquisition Grant Program, which is vital for combating 
inequality by improving outcomes for English language learners. 
Working families count on after school programs so that they 
can go to work knowing their child is safe and learning, but 
your budget request eliminates this funding.
    More than half of Americans live in a childcare desert, and 
that includes the one in five college students who are parents. 
On-campus childcare programs, like the Virginia Marx Children's 
Center at Westchester Community College, help student parents 
successfully pursue degrees. But you would cut funding for the 
Child Care Access Means Parents in Schools, the CCAMPIS 
program, by nearly 72 percent.
    I am trying not to elaborate in getting to the point, but 
72 percent is a lot of parents and children who won't be able 
to access this opportunity.
    It would be absurd to champion this budget request for its 
so-called fiscal responsibility. More than $2 billion in 
student financial aid and grants to institutions would be cut 
and instead squandered on a border wall.
    By eliminating programs and reducing funds, this budget 
request would exacerbate the opportunity gap. Our students 
deserve better, and I sincerely hope your response to our 
questions will address these concerns.
    And I thank you again for appearing before us.
    Ms. DeLauro. Thank you.

                    Introduction of Secretary DeVos

    Madam Secretary, we will now turn to you for your 
testimony, and your full testimony, as you know, will be made 
into the record. And I would ask that you take 5 minutes to 
summarize so that we can get to everyone's questions, and after 
that, we will proceed to 5-minute rounds for questions. And in 
that effort, I would recognize members in order of seniority 
and appearance at the time that we put the gavel down.
    And so, Madam Secretary, please begin when you are ready.

                           Opening Statement

    Secretary DeVos. Thank you. Chairwoman DeLauro, Ranking 
Member Cole, and members of the subcommittee, thank you for the 
opportunity to testify on the President's fiscal year 2021 
Budget.
    While we are discussing a budget, it is important to 
remember that Federal Government spending does not determine 
everything that is important to us, nor is it the only solution 
when we encounter challenges and opportunities. Instead, we the 
people overcome challenges and seize opportunities.
    That is why this Department's budget is focused on 
returning power to the people, to those closest to students and 
to students themselves. Our budget begins by recognizing that 
education is a local issue.
    Congress recognized that truth when it created the U.S. 
Department of Education 40 years ago. It promised the move 
would, and I quote, ``not increase the authority of the Federal 
Government over education, nor diminish the responsibility for 
education, which is reserved to the States.''
    This administration proposes Congress align the budget with 
that 40-year-old promise. Our budget would take a big step 
toward right-sizing the Federal role in education so that 
families, teachers, and State and local leaders are free to do 
what is right for students.
    The budget would expand education freedom for students so 
that they can prepare for successful careers. And it would 
refocus our approach to higher education so that students are 
at the center of everything we do.
    First, let us consider recent history. Over 40 years, 
Federal taxpayers have spent more than $1 trillion trying to 
fix K-12 education. Each year, Congress grew the budget from 
nearly $7 billion in 1980 to more than $41 billion in 2020 for 
K-12 education alone.
    But what have we bought with all that spending? Just open 
up the latest ``Nation's Report Card'' to see the sad results. 
No real improvement in student achievement in decades. So 
instead of holding fast to what we know does not work, let me 
suggest we find the courage to do something bold and begin a 
new era of student growth and achievement.
    The Every Student Succeeds Act gives us good insights into 
where we should go. ESSA became law because many of you on both 
sides of the aisle realized Federal overreach in education had 
failed. So you moved to restore the proper roles in education. 
The bipartisan K-12 law affords States and communities more 
flexibility to address local challenges.
    This administration proposes Congress complement its work 
on ESSA and make the budget match the law. States must work 
with local communities and families to develop comprehensive 
plans that best meet the needs of their students, and so States 
should be able to target their Federal taxpayer dollars 
accordingly. To that end, we propose putting an end to 
education earmarks by consolidating nearly all Federal K-12 
programs into one single block grant.

                            ESED BLOCK GRANT

    Overall, Americans spend about $860 billion on K-12 
education every year. Last year, Congress appropriated about 
$24 billion of that through the programs in our proposed block 
grant, or roughly 2.5 percent of total education spending. And 
yet, each year, teachers and school leaders spend more than 2 
million hours complying with Federal reporting and 
recordkeeping requirements for that small slice of the pie--2 
million hours, more than 83,000 days, more than 225 years. That 
is time that could have been focused on helping students learn 
and grow.
    Teachers, administrators, and State leaders need to be free 
to focus on people, not paperwork. Results, not regulations. 
Different States will invest their share of the block grant 
differently, and that is okay. In fact, that is what we hope 
they do.

                     EDUCATION FREEDOM SCHOLARSHIPS

    They can better figure out what their students need because 
they know their students. Every student is unique, and each one 
of them learns differently. Every child needs the freedom to 
learn in places and in ways that work for them. That is why the 
President's 2021 Budget also renews its call for a historic 
investment in America's students, Education Freedom 
Scholarships.
    Our proposal is a dollar-for-dollar Federal income tax 
credit for voluntary contributions to State-based, nonprofit 
organizations that provide scholarships directly to students. I 
like to picture kids with backpacks representing funding for 
their education following them wherever they go to learn.
    The budget also requests a $100 million increase in 
supporting children with disabilities, amounting to a total of 
$14 billion for IDEA programs.
    There is also a request for a dramatic expansion of career 
and technical education programs. At an overall increase of 
nearly $900 million, it is the largest investment in CTE ever. 
It includes a total of $2 billion for Perkins State grants, 
which is an increase of nearly $800 million.
    Additionally, we are requesting $150 million, an increase 
of more than $135 million, to fund STEM activities led by HBCUs 
and other Minority Serving Institutions located in Opportunity 
Zones. This administration wants every student in America to 
have more education options that focus on preparing them for 
successful careers.

                          FEDERAL STUDENT AID

    That goes hand in hand with our ground-breaking initiatives 
at Federal Student Aid. Consider that FSA is essentially a $1.5 
trillion bank that has dramatically outgrown its governance 
structure. We propose evaluating a new governance structure and 
whether FSA should be a standalone entity.
    In the meantime, we are continuing to build on our 
important reforms that establish one platform, one operating 
system, one website. And importantly, on providing customers--
students and their families--with a seamless student loan 
experience.

                         PRIORITIZING STUDENTS

    In the end, our budget is about one thing--putting students 
and their needs above all else. It is a budget that recognizes 
that no student and no State, no teacher and no town are the 
same. States need to be free to address the particular problems 
and possibilities of their people, and students of all ages 
need the freedom to find their fit.
    This budget proposes that Congress give it to them.
    Thank you for the opportunity to testify. I am happy to 
respond to your questions.
    [The information follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
              SPENDING INCREASES AND EDUCATIONAL OUTCOMES

    Ms. DeLauro. Thank you very much, Madam Secretary.
    And I am sorry I was remiss in recognizing Larry Kean, who 
is the Budget Service Director at Department of Ed. So welcome 
to you as well, Mr. Kean.
    Madam Secretary, to justify your cuts, you repeatedly claim 
additional funding for our public schools does not improve 
student outcomes. A claim that has no basis in reality. A 2018 
review of recent research on education spending, student 
outcomes by Northwestern economist Kirabo Jackson found 
statistically significant positive results for students in 12 
out of 13 studies, which is why, Dr. Jackson concludes, by and 
large, the question of whether money matters is essentially 
settled.
    I don't understand, Madam Secretary, why do you continue to 
claim that additional resources to public schools do not 
improve student outcomes when the empirical evidence tells us 
the exact opposite?
    I am just going to--I admittedly have not read through all 
of them. I have read some of them, but this is by education 
experts, people who understand the science of learning and 
development and how it improves. The data is overwhelming.
    So I ask you again, how can you continue to make these 
claims that student outcomes do not improve when empirical 
evidence tells us the opposite?
    Secretary DeVos. Chairwoman, let me just refer back to the 
NAEP results. But before I do that, I just--there are a couple 
of things that you said in your opening comments that I need to 
comment to.
    First of all, I am not out to privatize anything about 
education. I am out to make sure every student's education is 
personalized, individualized for them, that they find the right 
fit to unlock their potential. So let us talk about 
personalization, not about privatization. That is not the 
issue. That is not the goal.
    And we have spent over $1 trillion at the Federal level to 
close the achievement gap in the last 40 years. That 
achievement gap has not closed one little bit.
    Ms. DeLauro. Well, that is not true.
    Secretary DeVos. In fact, for many poor students, it has 
only grown wider.
    Ms. DeLauro. That is absolutely not true.
    Secretary DeVos. You look at the State-by-State results, 
you look at the overall results, and they are dismal.

           NATIONAL ASSESSMENT OF EDUCATIONAL PROGRESS SCORES

    Ms. DeLauro. I am going to----
    Secretary DeVos. Two out of three eighth graders cannot--
cannot read or do math at their grade level.
    Ms. DeLauro. And I would want to know where those schools 
are, what the environmental circumstances are, what kind of 
resources are going into those schools to the training of 
teachers and improving the lives of the families who live 
there, and making sure that the youngsters have that experience 
and have trained people that they need. If you deny the 
resources to the most--to the schools that need the help most, 
yes, you will fail.
    I am going to tell you NAEP scores----
    Secretary DeVos. No, if you free--actually, if you free up 
the resources for people at the most local level, you see 
results. You can see it in Florida. You can see it in 
Mississippi, where they focused solely on improving reading 
outcomes.
    Ms. DeLauro. And you can see in the District of Columbia, 
where the data from this administration has demonstrated that 
that is not the case.
    And you know, we have got scores higher in 2019 for most 
racial and ethnic groups in both subjects and in both grades, 
compared to the early 1990s. This is the--the NAEP data, scores 
in math and reading are significantly higher than they were 40 
years ago for all racial and ethnic groups. So the fundamental 
principle and the underlying philosophy on which you move 
forward and cutting all these programs and move to $5 billion 
for vouchers flies in the face of the progress that is made.
    Let us work together to understand the statistics, realize 
that where are, know that there is a difference, and we have 
got somewhere to go on an achievement gap. But let us not 
denigrate a public school system that serves 90 percent of our 
kids and that is making gains. Let us continue to make those 
gains. And quite frankly, the cuts that you have proposed is 
doublespeak. It is doublespeak.
    So I am just going back to your words that are the NAEP 
study. And as I said, you have got more studies released in 
2019 reached the same conclusion, including a study showing how 
extra money for Texas schools had a particularly strong impact 
on low-income and Hispanic students.
    I am going to share the studies with yourself and with your 
staff and with the members of this subcommittee to take a look 
to see if, in fact, the data belies the direction that you are 
taking public education in this country.
    And my time has run out. Let me yield to my colleague from 
Oklahoma.

                          PELL GRANT PROPOSAL

    Mr. Cole. Thank you very much, Madam Chairman.
    As I have said in my comments, Madam Secretary, I am really 
excited about your Pell Grant proposal and your additional 
investment in career and technical education. So I have got a 
couple of questions along those lines.
    You actually say that we would give these grants to provide 
credentials in ``in-demand fields.'' So I guess I am sort of 
interested to know how would you define ``in demand''? What 
would actually be covered? How would that work? Would all the 
programs--let us say a duly recognized State career and 
technical, would that be covered, or are you going to--do you 
have sort of selectivity in mind?
    Secretary DeVos. Well, our proposal really seeks to work 
with Congress to determine what--the definition around those 
programs and the extent to which they would be a part of a 
short-term Pell program.
    I know it varies by region, and I think it would behoove 
all of us to work closely with regions and States and to look 
at what those opportunities are. But we would look forward to 
working with Congress to determine that and to really address 
these opportunities for students.
    Mr. Cole. Well, I actually find, certainly in my State, 
honestly, quite often young people or not so young--because 
obviously you can be any age coming for additional technical 
training--they literally end up with a job faster usually than 
somebody coming out of a 4-year education, and it is quite 
often a very high-paying job. Believe me, when you need a 
plumber, you really need a plumber. You know, you can't wait 
around.
    Secretary DeVos. That is right.
    Mr. Cole. And so, again, I applaud that. We get a lot of 
questions about this because a lot of the students that go to 
these facilities are comparatively low income, and frankly, 
just the cost of college or the idea of assuming the debt that 
is often associated with that, to them, doesn't make sense. 
This really does. So I am glad you put it on the table.

                            TRIO AND GEAR UP

    I want to go to an area where, frankly, we don't agree, and 
that is on the TRIO and GEAR UP proposals that you have. I have 
got a lot of TRIO students in my State. We have historically 
been one of those States that has really benefited from that. 
We have really benefited from GEAR UP.
    And frankly, I have never met a single student or 
instructor in these programs that didn't think they were 
worthwhile. I look at TRIO, for instance, and since its 
inception, it has produced over 5 million college graduates. 
And I think a lot of those young people, quite honestly, would 
not have had the opportunity or the support structure to 
succeed in college without TRIO or the preparation that is 
necessary. That is one of the great things about GEAR UP. A lot 
of families where nobody has gone to college before really are 
not in a very good position sometimes to counsel their own kids 
or prepare them.
    And you want to--I don't want to send them to college and 
not have them successful. I want them to get that degree, not 
walk out of there with a few hours and thousands of dollars' 
worth of debt. So these programs, to me, seem to do that.
    And I used to have this problem, quite frankly, with the 
last administration, which I thought underinvested in these 
programs, even though historically we were always doing Race to 
the Top or some, you know, New Deal, when we had a couple of 
programs here I think have demonstrated their utility over time 
again and again. So explain to me again the advantages you 
would see in the consolidation and the movement to formula 
grants as opposed to competitive grants in this area.
    Secretary DeVos. Well, thank you, and I totally agree that 
these programs are beneficial and effective for many students. 
And our proposal does seek to essentially move GEAR UP into the 
TRIO program and block grant it to the States. The reality is 
that most of the awardees for the TRIO program are consistent 
year after year after year, and it is very difficult for any 
new program to break into it.
    We think that by allowing more flexibility----
    Mr. Cole. So that would tell me we should put more money in 
TRIO.
    Secretary DeVos. Well, and that is certainly your 
prerogative. But I think coupled with our proposal to block 
grant the elementary and secondary education funding of the 29 
different programs and, again, provide a lot more flexibility 
at the State and local level, the answer for one district might 
look quite different than an answer for the other district.
    Mr. Cole. A fair point.
    Secretary DeVos. And I think, coupled, it could be a really 
powerful----

               ESED BLOCK GRANT IMPACT ON CHARTER SCHOOLS

    Mr. Cole. Fair point. I have only got about 30 seconds 
left, so let me just quickly ask one other area because I know 
you have historically been a great champion of charter schools. 
And I do worry. Not everybody shares that point of view.
    I think if you block grant these to States, a lot of the 
money that has been set aside specifically for charters 
honestly is apt to be diverted into the public system, even 
though--well, to the normal K through 12 system. Particularly 
when the overall amount of money is coming down, well, let us 
concentrate within the K through 12 system. These are more 
experimental, or these are little bit more outside the 
``mainstream.''
    So I have gone over my time, but just briefly, do you have 
that concern?
    Secretary DeVos. Well, let me be very clear. I totally 
support charter schools and think we need not fewer of them. We 
need many more of them. There are a hundred--I mean, sorry, a 
million families on the waitlist for charter schools across the 
country, and they--I actually view our consolidation and block 
grant proposal as one that is additive and positive for 
charters.
    I have talked with a number of Governors about the block 
grant concept, and they are very excited about it. In States 
where they embrace this, there is going to be dramatic 
expansion and for----
    Mr. Cole. I have gone over my time. So I want to--I don't 
want the chairwoman to have to interrupt me. I will interrupt 
myself.
    But thank you, and I would like to continue this 
discussion. I appreciate it.
    Secretary DeVos. Thanks.
    Mr. Cole. Thank you, Madam Chair, for the indulgence.
    Ms. DeLauro. Thank you. Sure.
    Congresswoman Lee.
    Ms. Lee. Thank you very much.

                  PRESCHOOL DISCIPLINE AND RACIAL BIAS

    Thank you, Madam Secretary.
    Let me go right to this because there is still--and this is 
increasing--in terms of systemic injustices toward our Black 
and Latino students. First of all, you eliminated the 2014 
school discipline guidance to help ensure that students of 
color are not subject to harsher discipline practices than 
their White peers.
    Now let me ask you about your Office for Civil Rights 
proposal. Now this is a double whammy. To combine the counts of 
preschool children who received out-of-school suspension with 
those who received more than one out-of-school suspension and 
your proposal to eliminate preschool enrollment data by race 
and ethnicity.
    Now without this distinction, it is going to be very 
difficult to understand whether and to what extent this trend 
persists. The ability to track this data is critical because 
while Black students--now you have got to hear this and 
understand this and why this is so important. Black students 
make up 20 percent of preschool children.
    Now these are babies, right? They represent 50 percent of 
suspended, again, babies, preschoolers. Don't forget also that 
the Education Department's, your own data, in 2013 and 2014 
found that Black preschoolers--again, babies--are three times 
more likely to receive one or more out-of-school suspension 
than their White counterparts.
    So I requested in the last 2 years that this subcommittee 
receive language detailing school discipline in all preschool 
and K through 12 classrooms and to also include it in your 2020 
budget justification. Here you are again without having 
submitted this data--we went through this last year--although 
your budget request says that you will brief us on your plan 
with a horrendous plan to significantly alter this data 
collection.
    So why do you plan to change the data collection so that it 
really--and that is what it is going to do, it is going to mask 
the trends for out-of-school suspensions of preschoolers. And 
we should have solved this, and we shouldn't have to ask you 
once again for this data.
    So that is my first question. What in the world is going 
on, it would take us so long for us to get this report that we 
required you to submit for the last few years?
    And also do you believe that Black students are punished 
and suspended at greater rates than their White peers? Yes or 
no? I mean, do you believe that? The data shows this, and these 
are children. These are babies.
    Secretary DeVos. Ma'am, I agree and love children, as you 
do, and want to ensure that all children have the opportunity 
to get a great education.
    We have been focused on answering and responding to all of 
your requests.
    Ms. Lee. But you haven't done that.
    Secretary DeVos. I will check on that specifically----
    Ms. Lee. But you said that last year, Madam Secretary.
    Secretary DeVos. And what I know and what I am committed to 
is ensuring that all kids have an opportunity and equal access 
to----
    Ms. Lee. I understand that. Madam Secretary, you tell us 
that every year. But what about Black and Latino kids? You 
don't even submit to us----
    Secretary DeVos. That is exactly my point with opportunity 
for personalizing their education.
    Ms. Lee. No, Madam Secretary, no. You are trying to mask 
this by saying you are now not going to collect the data by 
race. So how in the world are you going to be able to say that 
you care about Black and Latino kids?

                    RESPONSIVENESS OF THE DEPARTMENT

    The other report we asked you, we asked you detailing the 
recommendations with regard to how to address adverse impacts 
of resegregation, including designating Title VI school 
monitors to ensure that every student has the opportunity for 
an equal education. Again, you said you were aware of this 
report. You would get it back to us as soon as possible. We 
still don't have this report.
    We have tried and tried over and over again, Madam 
Secretary, to get these reports from your office. They are 
written into the bills. They are required. And you are just 
thumbing your finger at us.
    Secretary DeVos. That is not the case.
    Ms. Lee. Well, it is the case.
    Secretary DeVos. We are--we are responsive. We have 
continued to be responsive to the many requests from Congress--
--
    Ms. Lee. Well, where----
    Secretary DeVos [continuing]. And we are committed to 
doing----
    Ms. Lee. Madam Secretary, on Black and Latino kids, these 
babies, these preschoolers, you have not been responsive. These 
are children who don't even get Head Start because they are 
kicked out of school before they are even in kindergarten. 
Don't you think that is important?
    Secretary DeVos. I think each one of them is important, and 
I care about each one of their futures. That is why I am 
suggesting we do things very differently than what we have been 
doing.
    Ms. Lee. Now, Madam Secretary, this committee has asked you 
for this data, and instead of providing the data and the 
reports, you are now trying to mask it by saying you are not 
going to use race and ethnicity to even present the facts. So 
how can you sit there and say that? We ask you over and over 
and over again every year.
    Secretary DeVos. I am committed to each of those children, 
as you are.
    Ms. Lee. But you are not showing that. Could you submit----
    Secretary DeVos. A report--a report does not solve----
    Ms. Lee. Well, wait a minute. Let me ask you about----
    Secretary DeVos. A report does not solve a child's problem.
    Ms. Lee. But we are asking--wait a minute. We are asking--
--
    Secretary DeVos. A report is not a child's future.
    Ms. Lee. Madam Secretary, we are asking you for the report. 
We need the data to understand this. I would think you would 
want the data to understand it also. That is all we are asking 
for. This is basic.
    So why wouldn't we get the information that this committee 
has asked you for for 2 years about preschoolers being 
disproportionately suspended from preschool? These babies, 
these Black babies.
    Secretary DeVos. Let us talk about the lack of 
achievement----
    Ms. Lee. When are we going to get the report?
    Secretary DeVos. Let us talk about the lack of achievement 
and the lack of opportunity by being forced to go----
    Ms. Lee. So we can't ask you for these reports, Madam 
Secretary?
    Secretary DeVos. By being forced to go to schools that 
don't work for them.
    Ms. Lee. I want to know when we are going to get the--Madam 
Secretary, are you just saying forget the reports? Just tell us 
that, if you are not going to give them to us.
    Secretary DeVos. No, ma'am, I am not.
    Ms. Lee. Well, then when do we get it?
    Secretary DeVos. I will check on when that report will be 
available.
    Ms. Lee. Both reports, on school resegregation and the 
suspension and expulsion of Black and Latino kids. You told us 
this last year. A year has gone by, and it is outrageous.
    Ms. DeLauro. Congressman Harris.
    Mr. Harris. Thank you very much.
    Thank you, Madam Secretary.
    What is outrageous is the 25 percent of our children, of 
our eighth graders can't read a grade-level passage. That is 
what is outrageous. And you are right. Money doesn't solve this 
problem.

                   DC OPPORTUNITY SCHOLARSHIP PROGRAM

    You know, I had the privilege of being invited to the 15th 
anniversary of the OSP program at Department of Education, 
where we met the parents. All they wanted was a better life, a 
better schooling for their children.
    Madam Secretary, you know that 90 percent of those students 
who took advantage of that program are Black students. The vast 
majority of the rest are Latino students. So to somehow suggest 
that you, as an advocate for programs like that, don't care 
about Black and Latino students just doesn't jive with the 
data.
    Secretary DeVos. That is right.
    Mr. Harris. Let us talk about the data. Significant 
progress on NAEP. Really? U.S. News and World Report headline 
about the last scores say ``Across the Board, Scores Drop in 
Math and Reading for U.S. Students.''
    They dropped. They didn't go up. There is no significant 
improvement.
    And with regards to the disparity, it is pretty clear the 
disparities existed between the highest and lowest performers 
for 30 years consistently. Now there are some people who would 
suggest that repeating the same thing you are doing that 
doesn't work is insanity. This is exactly what we are doing in 
the United States.

                     EDUCATION FREEDOM SCHOLARSHIPS

    So I want to congratulate you on the suggestion for the 
Education Freedom Scholarships. Now I know it is a bold idea to 
somehow believe that you should put parents in charge of their 
children's education or maybe making the choice where to send 
their children to school because, of course, God knows, we know 
better. That somehow some bureaucrat somewhere knows better. 
Some academic sitting in some ivory tower knows better than the 
mother.
    Some of those mothers I saw at that Department of Education 
celebration, who really knew what was better for their 
children, and it was not to be sent to the same poorly 
performing public schools because there was no competition.
    Now let me tell you what is interesting from the NAEP 
scores. There was one jurisdiction in the country where 
actually students performed better on three out of four of the 
measurements, Washington, D.C. Because for 13 years before that 
test was taken, Washington, D.C., instituted competition for a 
failing public school system.
    And the academics go, oh, no, it doesn't--oh, no, we are 
going to compare the scores of the people who went to the 
voucher schools and people that didn't go to the voucher 
schools. Competition works, and the Education Freedom 
Scholarships will induce competition.
    Now let me ask you, does a dollar for those scholarships 
come from the Department of Education budget? I think I saw it 
was the Department of Treasury budget, wasn't it, where those 
dollars----
    Secretary DeVos. For Education Freedom Scholarships?
    Mr. Harris. Yeah, for Education--right.
    Secretary DeVos. Yes, that is part of the Department of 
Treasury budget.
    Mr. Harris. Right. So this wouldn't really take a dollar 
from our public schools, would it?
    Secretary DeVos. No. No, it would be voluntary 
contributions.
    Mr. Harris. So let me see. So what could the possible 
opposition to voluntary contributions to a program, and I think 
I have the facts right, about three-quarters of parents favor 
that idea? The idea of actually giving choice.
    In fact, the statistics I see, 68 percent of African-
American parents, 82 percent of Latino parents. Specifically 
about the EFS program, 83 percent of African-American parents, 
83 percent of Latino parents actually want that choice.
    Secretary DeVos. That is right.
    Mr. Harris. Why in world would we deny it? Can you come up 
with any reason why? Other than teacher union opposition, could 
you come up with any other reason why we would deny that?
    Secretary DeVos. I see no reason to deny these kids that 
opportunity.
    Mr. Harris. Madam Secretary, thank you for putting up with 
what you do, what you put up with to stand up for the idea that 
every child--and as an educator for the 30 years before I came 
to Congress, for the idea that every child in America and every 
parent in America deserve a choice where to get sent to school.
    And if they are unfortunate enough to live in a geographic 
area or school district where their school is just plain lousy, 
that they should have the opportunity to go to a charter 
school. And it could be a public charter school. It could be 
nonpublic charter school, a charter school, or get a voucher, 
especially under the Education Freedom Scholarships. So these 
are voluntary contributions to get a voucher to help those 
children go to a better school.
    I just don't understand the argument against it. I never 
will understand the argument against it. It is about time we 
get raw politics out of education because it is standing in the 
way. Because you know, if you look at the statistics, yes, 
there was improvement in the NAEP. We went from 31st to 30th in 
the world in the last NAEP, 31st to 30th in the world, and it 
wasn't math or reading. I guess it was science. That is 
pathetic.
    In the 21st century, we can't afford to be anything but 
first in the world, and I just want to congratulate you on what 
you do to see to it that that could happen.
    I yield back.
    Secretary DeVos. Thank you, Congressman.
    Ms. DeLauro. Congressman Pocan.

                          PUBLIC SCHOOLS WEEK

    Mr. Pocan. Thank you very much, Madam Chair.
    Thank you, Madam Secretary.
    Easiest question you will get today. We have something in 
common, five-letter last name that gets mispronounced a lot. Is 
it DeVos or DeVos?
    Secretary DeVos. It is generally DeVos, but I have heard it 
lots of different ways.
    Mr. Pocan. Just my name, too. So I appreciate it. So, 
Secretary DeVos, thank you for being here, and I want to thank 
you, first, for not having cuts this year to special education 
and not cutting the Special Olympics. The fourth time is the 
charm, and I just want to say thank you.
    And also happy Public Schools Week. I am sure you are 
around the country advocating for public schools this week. 
Thank you. We had a strong bipartisan resolution with 90 
people, including our ranking member, on that, and very proud 
of the public schools we have in this country.

                       CHARTER SCHOOL PERFORMANCE

    I do want to pick up on where our ranking member started 
talking about charter schools, though, because this is where I 
think we don't have as good information. First of all, on 
academic performance, we know on charter schools, about one out 
of six does better than public schools. About half are about 
the same. But two out of six perform worse than public schools 
on academic performance.
    But I think there is something even worse. You mentioned 
what we bought with the spending. When you look at charter 
schools, there was a report last year that said 1,000 charter 
school program grants were given out by the Department of 
Education were given to schools that never opened or later 
closed because of mismanagement, poor performance, or fraud.
    And another report just last December said it is actually 
worse than that. It was 2,127 schools out of 5,286 that 
actually never opened or failed. That is 40.5 percent failure 
rate on charter schools. I looked it up. That is an F grade 
when you are below 60 percent, and yet you are advocating for 
doing more Fs rather than more As, like we get with public 
schools. Or Bs in some cases and maybe a few Cs. But Fs 
certainly don't seem to be the grade we want to advocate for.
    Also there was a School of Idea charter chain that have 
been awarded about $200 million in Federal funds. Over the 
years, they got a $67 million grant, another $116,000,000. Yet 
this is some of what they have spent their money on.

               WASTE, FRAUD AND ABUSE BY CHARTER SCHOOLS

    They had $400,000 going to a luxury box and tickets for 
Spurs tickets. I don't think you would see public schools 
getting a luxury box. They purchased a property from one of 
their board members for $1.7 million. I don't think a school 
board member would sell their property to a public school.
    Another board member got the commission on that sale on 
over millions of dollars of property, and only after a lot of 
scrutiny did the CEO back off of a plan to lease a private jet 
for $2 million a year over 6 years.
    So I guess my question on this terrible failure rate we 
have with charter schools that you are still advocating for, 
just a yes or no, do you think charter schools who receive 
Federal funding should be allowed to use those funds to 
purchase private jets?
    Secretary DeVos. Well, Congressman, I am not----
    Mr. Pocan. It is a yes or no question.
    Secretary DeVos. No, it is not a yes or no question.
    Mr. Pocan. Well, actually, it is. Actually, it really is. 
It is the definition of a yes or no question.
    Secretary DeVos. Actually, I have a few things to say about 
the things that you said about charter schools.
    Mr. Pocan. Okay, but can you answer my question, please, 
Secretary.
    Secretary DeVos. I have a few things to say----
    Mr. Pocan. Do you think Federal funds----
    Secretary DeVos [continuing]. About what you have said 
about charter schools.
    Mr. Pocan. Okay. Reclaiming my time, Madam Secretary. 
Reclaiming my time----
    Secretary DeVos. The report--and I am sorry.
    Mr. Pocan. It is a yes or no question I am giving you.
    Secretary DeVos. The report that you referenced has been 
totally debunked as propaganda.
    Mr. Pocan. I didn't ask you about the report.
    Secretary DeVos. Fewer than 2 percent of the schools didn't 
open.
    Mr. Pocan. Madam Secretary, reclaiming my time. I gave you 
the courtesy of making sure I could even say your name correct. 
Give me the courtesy of answering my question.
    Secretary DeVos. I appreciate that, but if you are asking 
me a question, I need to have a chance to answer.
    Mr. Pocan. A yes or no question. Yes, but I am asking you a 
question with a yes or no answer. It is really that simple. If 
the Secretary of Education can't answer a yes or no question, I 
don't know why you can be the Secretary.
    Do you think Federal funding should go to a school that 
uses it to buy a private jet? That is a yes or no question.
    Secretary DeVos. It is a very hypothetical question----
    Mr. Pocan. Oh, my God.
    Secretary DeVos [continuing]. That is obviously a no--no 
answer.
    Mr. Pocan. No, it is an actual question. It is an actual 
question.
    Secretary DeVos. There is no funding going to charter 
schools that would even address something like that.
    Mr. Pocan. You think--another yes or no--that they should 
be able to put money to a box at a professional sport----
    Secretary DeVos. Let me just say charter schools are public 
schools----
    Mr. Pocan. Madam Secretary, reclaiming my time.

                     PERFORMANCE OF CHARTER SCHOOLS

    Secretary DeVos. Charter schools are doing a great job----
    Mr. Pocan. Reclaiming my time.
    Secretary DeVos--for the families that are choosing them, 
and there are a million families on the waitlist to go to 
charter schools.
    Mr. Pocan. Madam Secretary? Madam Secretary, just talking 
over someone isn't an answer, just so you know. And yes or no 
often is when it is asked in a yes or no format.
    We also know that the same group gave such incomplete 
information over 3 years, didn't report accurate information, 
reported no information on performance data. Would you think--
would you give your staff a paycheck if they didn't perform 84 
percent of their tasks? Yes or no?
    Secretary DeVos. Of course not. But everything you are 
citing----
    Mr. Pocan. Thank you for answering it in a yes or no. That 
is progress.
    Secretary DeVos. Everything you are citing is debunked, 
ridiculous. So I don't accept the premise of your--of your 
question.

              DEVOS FAMILY INVOLVEMENT IN CHARTER SCHOOLS

    Mr. Pocan. It is actually--It is actually not. Let me ask 
you this. Do you think it is odd when people think--your family 
runs a charter. Correct? That is a yes or no.
    Secretary DeVos. No.
    Mr. Pocan. Your husband doesn't have a charter program?
    Secretary DeVos. He founded a charter school.
    Mr. Pocan. He founded a charter. So when people think that 
you may have a conflict of interest because of that, what do 
you----
    Secretary DeVos. Absolutely not.
    Mr. Pocan. I will let you not do a yes or no. You can 
respond however on that one.
    Secretary DeVos. I will respond in that my husband founded 
a charter school which is meeting needs of students all over 
West Michigan. And he is on the board, but he does not run the 
school. It is organized as a not-for-profit charter school, and 
it is a public school serving all comers.

                       CHARTER SCHOOL PERFORMANCE

    Mr. Pocan. Well, Madam Secretary, I think just the fact 
that you couldn't answer yes or no, and you look at this 
terrible rating of charter schools, this is why people have a 
worry that there could be a conflict or something else----
    Secretary DeVos. And you are wrong about charter schools.
    Mr. Pocan [continuing]. Because if they are not performing 
academically. Yeah, but 40 percent are closing down that you 
are giving grants to.
    Secretary DeVos. That is not true.
    Mr. Pocan. That is a waste of public taxpayers'----
    Secretary DeVos. That has been a totally debunked report. 
It was nothing but propaganda by an individual who has it in 
for charter schools.
    Mr. Pocan. So what percent of charter schools are failing? 
Do you have an idea, a number, any number?
    Secretary DeVos. I don't have a State--any national----
    Mr. Pocan. You are the Secretary of Education, and you 
don't have this. You know this report is wrong, but you don't 
have the numbers?
    Secretary DeVos. Charter schools are chartered by States. 
They are not chartered by the Federal Government.
    Mr. Pocan. You know that that number is not right, but you 
don't have the correct number? Is that what you are telling us?
    Secretary DeVos. What I know is parents and families are 
choosing----
    Mr. Pocan. So you don't know. So you don't know the answer.
    Secretary DeVos [continuing]. To send their children to 
charter schools.
    Mr. Pocan. That is a yes or no. So you don't know the 
answer?
    Secretary DeVos. Parents and children are going to charter 
schools by choice.
    Mr. Pocan. A yes or no. So you don't know the answer?
    Secretary DeVos. And there are a million more families on 
charter school waitlists.
    Mr. Pocan. I think I have the answer. I think I have the 
answer. Thank you.
    [Gavel sounding.]
    Ms. DeLauro. Congressman Moolenaar.

                     CONCERN OVER TONE OF QUESTIONS

    Mr. Moolenaar. Thank you, Madam Chair.
    I do want to say that I am very troubled by the tone of 
this hearing, and I feel like our Secretary is being badgered, 
and I would ask the chair to consider that as we move forward. 
Because I feel it is very unfortunate that we have come here to 
help meet the needs of our children, the Nation's children, and 
I think the tone of this hearing is very disappointing in that 
regard.
    And I also want to say, as a person who is familiar with 
the Secretary's record, I don't know of a single person who has 
been more engaged in policies to help minority students across 
the country than this Secretary from all of her work throughout 
her career. So I am very disappointed right now, but I do want 
to talk about some of the priorities.
    And also, as someone who has been a former school 
administrator, a charter school administrator, and someone who 
has chaired a State education budget, I will say that the focus 
that you have on helping people closest to the student and who 
care most for the student, making decisions to me is the right 
direction. So I want to compliment you on that. I know there 
are a lot of issues we could discuss, but I just want to say 
that at the outset.

                           SECOND CHANCE PELL

    There is a few specific things I wanted to ask you to talk 
about. First, the Second Chance Pell. I think one of the high 
points of Congress working with the administration has been to 
look at prison reform and to help those who have been in prison 
come back into the community and contribute.
    And I wondered if you could talk a little bit about your 
plans going forward. I know there is interest in community 
colleges in my area in participating in this, but if you could 
talk briefly about the Second Chance Pell program.
    Secretary DeVos. Well, thank you, Congressman. And I think 
this is an area where there is actually broad-spread support 
and a lot of great evidence. I have had opportunity to visit 
three different prisons and see students that have--I visited 
Tulsa Community College and prison in Oklahoma last summer and 
was just thrilled to see all of these mostly young men 
graduating with associate degrees, with certificate program 
recognition. Some of them completing their high school 
requirements. But it was a thrill to be there, and I think 
there is so much promise with making a Second Chance Pell 
program a permanent one that is going to provide hope and 
opportunity for returning incarcerated individuals and give 
them a really hopeful future.

                           FEDERAL WORK-STUDY

    Mr. Moolenaar. Wonderful. Thank you.
    And then I also wanted to talk with you. You mentioned 
preparing students for successful careers, and I know the 
Federal Work-Study proposals that you have really are aimed at 
inviting the private sector to participate more. And I 
understand there are 190 institutions that would be invited to 
participate in a pilot program.
    I know in one of my areas, Mid Michigan College is 
interested in participating in that. Could you comment on that 
briefly?
    Secretary DeVos. Well, we think that there is a real 
opportunity to help students get much more relevant work 
experience while they are attending college and in a Federal 
Work-Study program. Instead of working in the college 
cafeteria, if they are doing student teaching perhaps or 
clinicals in a health profession or perhaps it is in a business 
that has a relevance with the program they are taking in their 
college, we think extending this opportunity and helping 
students get really relevant, almost apprenticeship-like 
experience while they are in school studying is an important 
step in the direction of helping students succeed.

                           STUDENT LOAN DEBT

    Mr. Moolenaar. Thank you.
    Also I think, as parents, everyone is concerned about the 
higher cost of college education when you see the debt that 
students are taking out and then just the burden that places on 
them in the future. Can you comment about just what the 
administration can do to help alleviate the high cost of 
education, but also the student loan debt?
    Secretary DeVos. Well, this is a huge issue, and I am not 
sure I have got enough time to answer it fully. But I will 
start with a couple of things.
    We have taken important steps administratively to add a lot 
of light to what students can access through the College 
Scorecard, and now students can go and look up an institution 
and then go down to the field of study or program, find out 
what it is going to cost to attend that program and complete, 
and then, importantly, what their first year earning potential 
is after that.
    They can compare between schools. They can compare programs 
within schools. And this is going to, I think, help them be 
more discerning prospectively. I also think it is going to help 
schools look more critically at what they are offering and what 
the realities are of what they are offering. Perhaps it is 
going to make some changes--prompt some changes at higher ed 
institutions, and that is one way, bringing light to what has 
been a very murky kind of reality. And so that is one way we 
have taken a step.
    Another way, we have put the FAFSA form on the myStudentAid 
mobile app. We are continuing to add more and more information 
for students to model what their debt and what their student 
loan debt would mean and how they could pay off and have real-
time information for that right on their app. And we are going 
to be continuing to add more and more to give them more tools 
for financial literacy.
    Mr. Moolenaar. Thank you. And thank you, Madam Chair.
    Ms. DeLauro. Let me just say--I beg the indulgence of the 
subcommittee because I would like to address, Congressman 
Moolenaar, your comments, if I can. And I have a great deal of 
respect for you and your work on this subcommittee.

                     REPORTING FROM THE DEPARTMENT

    I think what you are hearing is a level of frustration 
about very, very important issues and the two issues that have 
been addressed in a strong way when we cannot get reports. We 
are an appropriations committee. We put in a bill that required 
the Department of Education to get us reports on the data with 
regard to babies being expelled from preschool. We don't have 
that report, nor was there an answer as to when we would get 
that report. That is a level of frustration. You would 
experience that as well.

                       CHARTER SCHOOL MANAGEMENT

    Further, with regard to charter schools, may I add that we 
held a hearing last year on charter schools. The OIG raised 
issues that we need to examine, including findings that States 
mismanaged charter school closures and that the Department 
failed to provide adequate guidance or oversight on the issue. 
We are the Appropriations Committee. We have appropriated 
serious money, more than $400 million last year alone. We need 
to conduct oversight.
    And so there is a level of frustration. And I might add, 
when you can say about charter schools that God is in his 
heaven, all is right with the world, and you cannot do a 
serious evaluation of which ones work and which ones don't 
work, that means that the Department is not doing the 
evaluation that we need to hear about. So therein lies the 
frustration, Congressman Moolenaar.
    Sure, please.
    Mr. Moolenaar. Okay. No, and I completely respect that. And 
what I heard the Secretary say is that she will find out the 
information on the report and get back to the committee, and I 
think any Secretary deserves that courtesy to get.

                            CHARTER SCHOOLS

    And on the charter school, I just would ask the chair to 
consider that charter schools, many have different missions. 
Some charter schools have the mission of educating adjudicated 
youth. And so the idea that we are going to start comparing a 
high-standard education with educating adjudicated youth and 
somehow evaluate them the same, that is a very different 
mission.
    And so I think this committee would be well served to kind 
of look at the unique missions of charter schools. And where 
there are inappropriate----
    Ms. DeLauro. I would also say to you that not our 
information, but the Office of the Inspector General at a 
public hearing that we had in this room last year claimed that 
there were serious difficulties. We have to look at that. We 
have to ask the Department about that.
    So, again, there is----
    Mr. Cole. May I, Madam Chairman?
    Ms. DeLauro. Yes, sure.
    Mr. Cole. Because we are obviously a little off topic here. 
And thank you for the indulgence.
    Look, I have to speak up in defense of my member. I think 
Mr. Moolenaar was right to say what he said.
    Ms. DeLauro. I don't have a problem with that.

                       TONE IN ADDRESSING WITNESS

    Mr. Cole. And I have zero problem because I agree with my 
friend Ms. Lee. We asked for a report, and we ought to get it. 
Nothing wrong with that. And we have some tough questions about 
charter schools. Nothing wrong with that.
    But anybody thinks the tone was appropriate toward the 
Secretary, it was not. And that, you know, we had a lot of 
people in 4 years that came before this when I was the chairman 
of this committee that I didn't agree with from the other 
administration. I don't think I ever addressed anybody the way 
I heard the Secretary addressed here, ever.
    Ms. DeLauro. Well----
    Mr. Cole. And I don't think any of my members ever did. So 
that, I think, is a legitimate point, and that is what I think 
there is concern about. Not the points----
    Ms. DeLauro. Well, there--as I say, that is a result of the 
frustration that people are feeling here. And quite frankly, to 
my friend, there have been members of your side of the aisle 
who have addressed folks who have come before this committee 
with a very big lack of respect. That doesn't say that it is 
right, but what we want to do is to get through the 
frustration. We need to get answers.
    We are an appropriations committee. This is a serious 
amount of money that we are looking at. And there are deep 
concerns as to the direction of public education in this 
country, and you know----
    Mr. Cole. I will say that I agree. There are deep concerns. 
I respect the frustrations. They are real. That is part of 
legislating. But it is a little bit different in terms of how 
we treat our witnesses.
    Ms. DeLauro. Well----
    Mr. Cole. So thank you very much, Madam Chairman. I 
appreciate it.
    Ms. DeLauro. And it applies to both sides of the aisle, as 
you know, as well.
    Mr. Cole. It certainly does on occasion.
    Ms. DeLauro. Congresswoman Bustos.
    Mrs. Bustos. Thank you, Madam Chair.
    And thank you, Madam Secretary, for being here. I promise 
to apply a combination of Midwest nice----
    [Laughter.]
    Mrs. Bustos [continuing]. And a little bit of my former 
investigative journalism background. But anyway, so interesting 
conversation.

                         YOUTH VAPING EPIDEMIC

    Thank you, again, for being here.
    So we are in the middle of a public health crisis, not just 
the coronavirus, but youth vaping. And my folks in education 
back home asked that I call it e-cigarettes because they think 
``vaping'' makes it sound nicer than it is. So I will say e-
cigarettes.
    But the numbers that we have from the Centers for Disease 
Control and Prevention show that back in 2011, we had 1.5, 1 
and \1/2\ percent of our high schoolers were doing e-
cigarettes. Now just last year, 2019, we are at 27.5 percent. 
So about a third of our high school students are now doing 
this. Just alarming. That is why I call it an epidemic.
    At junior high, in middle school, we are now at about 10.5 
percent of our middle schoolers. So I just couldn't believe 
these numbers when I learned these.
    We did a series of roundtable discussions in my 
congressional district in downstate Illinois. And the one that 
just really alarmed me was that we had a school resource 
officer said that there was third graders that were doing this. 
Third graders.
    And you know, this is easy to hide. They can put it in 
watches. They can put it in clothing. They can do it on these 
fake jump drives. So they are doing this.
    And that is why we wrote a piece of legislation out of my 
office called the Resources to Prevent Youth Vaping. It is part 
of a bill that we--a package of bills that we will be voting on 
on the floor tomorrow.
    And so what I wanted to ask you, I promise I am bringing 
this totally into your Department. I am wondering if the 
Department of Education is coordinating with the Centers for 
Disease Control and Prevention to make sure that we have 
information that we can get out to our parents. Make sure that 
we have resources that the teachers know about, that the school 
nurses know about, and just wondering if there is any kind of 
coordination going on with your Department and the Centers for 
Disease Control and Prevention?
    Secretary DeVos. Thanks, Congresswoman, for that question.
    I know that there have been participation in task forces. I 
would be happy to check on the extent to which those are 
happening and get back with you on that.
    Mrs. Bustos. Okay. Yes, if you could work with our office 
and make sure that we are aware of this. I think it is really 
just a commitment on your part. We were just with Secretary 
Azar yesterday, but I think working together will just be 
absolutely critical to help address this.
    Again, this is a public health epidemic that is impacting 
our students, our children. So I think that would be great.
    [The information follows:]

         E-Cigarettes--Coordination With the CDC on Prevention

    The Department has teamed up with the Centers for Disease Control 
and Prevention (CDC) in working groups, in coordination with the 
Office, of National Drug Control Policy (ONDCP), that have addressed 
drug prevention as a whole, including vaping as part of the discussion. 
For example last year ONDCP's Prevention Interagency Working Group 
(IWG) developed a Substance Use Prevention Resource Guide for School 
Staff (available at https://www. white house. gov/ondcp/additional-
links-resources/resource-guide-for-school-staff/). The website has 
links to Federal resources and information that include tobacco and 
vaping. The Federal agencies that participated in the IWG included, in 
addition to the Department of Education (Office of Elementary and 
Secondary Education), the CDC (Division of Adolescent and School 
Health) and the ONDCP, the Department of Health and Human Services' 
(HHS) Office of Adolescent Health; HHS' Substance Abuse Mental Health 
Services Administration's (SAMHSA), Center for Substance Abuse and 
Prevention; and the Drug Enforcement of Administration.

                            TEACHER SHORTAGE

    Switching gears, the other issue. I liked that Lois Frankel 
was saying I am guessing you are going to ask something about 
Illinois because I like to--I stay pretty focused on my own 
congressional district. Really, really severe teacher shortage 
that is happening all over the country.
    In the congressional district that I represent, we are 14 
counties, and we have seen the teacher shortage problem 
actually increase over the last year, actually increase by 
about 20 percent that we are seeing now. So in 2019, there were 
195 teacher vacancies in these 14 counties that I represent. 
Now there are 235. That is just over the last year. So this 
problem is getting worse, not better.

          PROPOSED CUTS TO ELEMENTARY AND SECONDARY EDUCATION

    So I know in the President's budget, just a few things I 
want to point out for the record that are concerning to me. The 
Public Service Loan Forgiveness Fund has a proposed cut of $50 
million. Teacher Quality Partnership Grant Program has a cut, 
proposed cut of $50 million.
    The funding of the Supporting Effective Educator 
Development Grant, proposed cut of $80,000,000. Supporting 
Effective Instruction State Grants cut of $2.1 billion.
    Secretary DeVos. Can I just interject?
    Mrs. Bustos. Please.
    Secretary DeVos. Because a number of the programs that you 
have cited are actually the ones that we have proposed to 
include in the block grant and would actually be very 
appropriate in your case and in your district. If there is a 
drastic shortage, the district could--the districts could 
target more of those resources and have the flexibility to use 
more of them for programs that would address the teacher 
shortage issue, teacher retention, teacher development and, in 
fact, give them a lot more flexibility than the current 
scenario.
    Mrs. Bustos. So talk me through then, if you could in the 
17 seconds we have left, talk me through about how 
specifically. So you got the block grant proposal. This is a 
mostly rural district I represent, 7,000 square miles, again a 
lot of smaller schools. How will these block grants help 
specifically recruit, retain, and fill all of these vacancies 
in a very, very rural congressional district?
    Secretary DeVos. Well, what it would do is allow for the 
districts to prioritize what portions of these 29 different 
programs would be most effective and most important for the 
needs in their district to meet the needs of the most 
disadvantaged students. And it would allow them, again, to 
personalize and prioritize where those needs lie more 
specifically than the approach of having 29 different programs, 
all with their own rules, all with their own regulations. These 
would be block granted to the State, and then 90 percent of 
them would go out directly to the districts under the Title I 
accountability and formula so all of the accountability 
provision is there, but much more flexibility for every 
district to be able to target the resources where they need the 
most.
    Mrs. Bustos. I will yield back the time that I don't have 
left.
    Thank you. [Laughter.]
    Ms. DeLauro. I thank the gentlelady. Congresswoman Herrera 
Beutler.

              SECLUSION AND RESTRAINT IN SPECIAL EDUCATION

    Ms. Herrera Beutler. Thank you, Madam Chair.
    Thank you, Madam Secretary, for being here.
    The first thing I wanted to mention, and we talked about 
this a little bit. I have a few questions. So I am going to try 
and bang on through them. The practice of seclusion and 
restraint, we have talked about this before, of special ed 
students I think is extremely detrimental to these young 
people, and the stories I have heard are--they are horrific.
    What is the administration doing to stop the practice and 
ensure that all students are treated with respect?
    Secretary DeVos. Thanks, Congresswoman.
    As we have talked about, we have an initiative going 
proactively through all 12 of our regional Office for Civil 
Rights offices to bring light to this subject, to ensure that 
schools and districts and States know what their 
responsibilities are, what the law is, and to really make sure 
that they are doing right on behalf of kids.
    And so this was a prospective initiative, conducting audits 
and also conducting a lot of proactive informational sessions 
to ensure that schools know what they should be doing or not 
doing.
    Ms. Herrera Beutler. One of the--and some of it, as I hear, 
it is a lack of reporting. Is there any enforcement mechanism 
to say so you have been doing the education and they should, a 
lot of them should know by now what the rules are around this. 
What type of enforcement mechanisms do you have, or do you not 
have any? What should we be doing to make sure that schools are 
adhering?
    Secretary DeVos. Well, where there are infringements on 
students' rights and requests for investigation, we are doing--
we are investigating. And I think that is where the important 
piece comes, on the follow-up.
    But we think and we hope that, again, proactively taking 
this initiative and bringing more light to this subject is 
going to bring about laudable results in terms of reporting and 
in terms of actual activity and action.

                        MENTAL HEALTH RESOURCES

    Ms. Herrera Beutler. Thank you.
    One of the things I hear a lot about from educators at home 
in Southwest Washington is lack of resources to address mental 
health needs. This is probably the top issue I hear about. It 
is actually more I hear about the mental and emotional health 
of the students more than I hear about math achievement and 
reading achievement. I mean, it is ground zero. These educators 
are doing everything they can, but these kids are coming in 
with a whole set of challenges that generations before them 
seem to have navigated or navigated differently.
    Who knows, right? I don't know why they are at where they 
are now. We are trying to figure that out. But these kids are, 
a lot of them are in real distress. What is or can the 
Department do to help? I mean, this is not in anybody's scope, 
right? This is not in our scope of practice, but this is the 
reality of where the kids are at right now.
    Secretary DeVos. A couple of things I would say. First of 
all, I think our proposal to block grant to the States and 
then, ultimately, the local districts all of these different 
programmatic funds would allow each district to address this 
issue in the way that they prioritize. And if this is, indeed, 
the most important issue for their most vulnerable students, 
that would allow them the flexibility to tap into more of 
those--a higher percentage of those resources than otherwise 
through the formula or through the programmatic approach.
    Ms. Herrera Beutler. So they would be able to maybe hire 
like an in-school mental health counselor, for example?
    Secretary DeVos. If that is what they thought would be----
    Ms. Herrera Beutler. I have heard--I have asked--I have 
heard requests for that, or SROs, and some of our funds are 
flexible, and some of them just aren't. Or if they are using 
money for this, they can't then use it for this is what is the 
feedback.
    Secretary DeVos. And that is why I think the block grant 
proposal is really sort of transformative in that way because 
it would allow for all of the uses of those programs, but for 
them to prioritize the dollars in a way that is going to really 
meet the needs of the most disadvantaged kids in their 
district.
    Ms. Herrera Beutler. And I got to believe there would be 
an--is there an administrative savings? I think one of the 
problems we have is we send everybody's tax dollars back to 
D.C. and headquarters, and headquarters skims it off--and this 
is in every department. Skims off the top and then sends back a 
lesser amount.
    Secretary DeVos. Well, there are--yes, I think, ultimately, 
there would be. And I think, importantly, that flexibility at 
the State and local level would really allow those closest to 
the students to target those resources in the ways that are 
going to be most meaningful for the kids that they seek to 
serve.

                     CAREER AND TECHNICAL EDUCATION

    Ms. Herrera Beutler. Okay. With my last 20 seconds, I am a 
big supporter of the Running Start programs, would like to see 
the Department support them. In addition, I just wanted to say 
thank you for the increase in the focus on career and technical 
education. We should not sell students down the river that you 
have to go to a 4-year liberal arts school, and that is what 
success is.
    Because we all know if you live at all in life, that is not 
the only definition of success. In fact, I know a lot of people 
who are happy and fulfilled have good, living-wage jobs with 
full benefits and are able to provide for their families on a 
career and technical type of education tracks. So thank you for 
the emphasis on that.
    Secretary DeVos. Well, the President and myself and this 
administration are really committed to advancing that and 
supporting multiple pathways for adult success.
    Ms. Herrera Beutler. Thank you. Yield back.
    Ms. DeLauro. Congresswoman Clark.

                  PRESCHOOL DISCIPLINE AND RACIAL BIAS

    Ms. Clark. Thank you, Madam Chair, and thank you, Secretary 
DeVos, for being with us today.
    I want to go back to a topic explored by my colleague 
Congresswoman Lee. Do you think that the disparity in 
discipline for preschoolers of color could indicate a racial 
bias?
    Secretary DeVos. I suppose it certainly could, and again, I 
think the bigger issue here is that we make sure that every 
child has the opportunity to pursue an education that is going 
to unlock and unleash their personal and fullest potential.
    Ms. Clark. Okay. Isn't it, however, the official policy now 
of the Department of Education that the cause of these 
disparate rates of discipline that we see with students of 
color is explained by the fact that these children are just 
inherently predisposed to misbehave and disrupt the classroom 
more than White children? Isn't that your policy?
    Secretary DeVos. No. No, it is not.
    Ms. Clark. That is the conclusion of the research you cited 
in your school safety report of 2019. Congress specifically 
asked you to strike all references to this report, which 
interestingly appeared in the Journal of Criminal Justice.
    Your official response within this budget is that you stand 
by this report and its conclusions. Isn't that right?
    Secretary DeVos. Congresswoman, do you have a question 
about the budget?
    Ms. Clark. Yes.
    Secretary DeVos. Because we are here--we are here to talk 
about the budget.
    Ms. Clark. That you did say in your fiscal year 2021 
budget, you responded that ``Department of Education stands by 
this report'' that says children of color are just more 
inherently inclined to misbehave, and that explains the 
disparate rates of discipline.
    Secretary DeVos. I don't know where that would have fallen 
in our budget narrative. I would----
    Ms. Clark. We will get you the exact section because it 
is----
    Secretary DeVos. I would be interested in that.
    Ms. Clark [continuing]. Right in your budget. And in fact, 
I don't see any other way to interpret this as your new policy 
because then you went on and eliminated the data collection 
that could help us solve this problem because you don't see a 
problem because you have adopted as the policy that this is 
just a race-based problem. That these kids are inherently----
    Secretary DeVos. In fact, Congresswoman, the CRDC 
question--the data collection questions are open for public 
comment now. They have not been concluded, and if you do have--
--
    Ms. Clark. But this is what you proposed, to no longer 
collect----
    Secretary DeVos. If you do have input, we would be very 
happy to take that.
    Ms. Clark. We certainly would like you to go ahead, undo 
what you put in your budget, strike this racist research, make 
sure it is crystal clear that you do not buy into this theory 
that children of color are disciplined because of who they are 
and that they come to school with disruptive tendencies. That 
is what you put in your official report. In your budget, you 
say you stand by it.
    Let us move on. I want to give you a chance to correct the 
record. Because I think we have had some testy exchanges in the 
past. And in 2018, you agreed that private and religious 
schools receiving Federal funding would have to have 
nondiscrimination policies.
    But I think I browbeat you into that answer. Is there any 
requirement that private and religious schools must have 
nondiscrimination policies under your EFS voucher program?

                     EDUCATION FREEDOM SCHOLARSHIPS

    Secretary DeVos. The Education Freedom Scholarship program, 
first of all, is a tax credit. They are not Federal funds----
    Ms. Clark. Is there any nondiscrimination? I did not see it 
in your budget proposal.
    Secretary DeVos. And--and the reality is that every student 
that would take advantage of an Education Freedom Scholarship 
would be protected. Their civil rights are protected, and that 
is true of students no matter where they are, in whatever 
school.
    Ms. Clark. But I am correct that you do not have that 
nondiscrimination requirement in your budget proposal?
    Secretary DeVos. The budget proposal is part of Treasury's 
budget, and it is only mentioned in our budget.
    Ms. Clark. But you agreed that it would, but it is not 
there.
    In September, you visited a religious school in Harrisburg 
that as a private religious institution, it is certainly 
allowed to do what they do. They have policies that transgender 
children can be expelled or denied admission based on that 
status. They also have different tuition rates depending on the 
religion of the children.
    My question to you is if Pennsylvania adopted your 
scholarship program, your voucher program, would this school be 
eligible for Federal funding with these policies in place? If 
approved----
    Secretary DeVos. Ma'am, I need to correct you on the nature 
of the Education Freedom Scholarship proposal. It is a Federal 
tax credit that would be the recipient of voluntary----
    Ms. Clark. Are you saying that Federal taxes----
    Secretary DeVos. Can I finish? Can I finish?
    Ms. Clark. I just want to--we are out of time. So I just 
want to be clear that----
    Secretary DeVos. Well, and I want to make sure that you 
have full understanding of what the proposal is. A Federal tax 
credit----
    Ms. Clark. I understand tax credits are Federal funding.
    Secretary DeVos. No, they are not.
    Ms. Clark. Yes, they are.
    Secretary DeVos. Because they are voluntary contributions 
in advance of paying your taxes to the Federal Government.
    Ms. Clark. That would be a----
    Secretary DeVos. They are direct contributions to 501(c)(3) 
charitable organizations, as designated by States that choose 
to participate.
    Ms. Clark. We are out of time, and I am going to leave you 
with this. You said in your testimony you wanted to expand 
educational freedom for students. I certainly hope that making 
these inherently discriminatory policies part of the Department 
of Education is not what you meant by that statement.
    Secretary DeVos. We don't discriminate against anyone at 
any time.
    Ms. DeLauro. Congresswoman Frankel.
    Ms. Frankel. I am going to follow up. Thank you for being 
here. Appreciate it.

                   TAX CREDITS AND EDUCATION FREEDOM

    I want to follow up on these voucher questions. So I was 
trying to just calculate in my head because, for me, I think 
this is a program for wealthy people to get free private 
school. Because my understanding of a tax credit is you 
actually--if you owe $10,000 in taxes and under your scenario, 
and you pay, let us say, $10,000 for private school, then you 
owe no taxes. Is that right?
    Secretary DeVos. No, Congresswoman, can I just interject?
    Ms. Frankel. Yes, please.
    Secretary DeVos. Because that is----
    Ms. Frankel. Okay, explain it to me.
    Secretary DeVos. That is absolutely a misunderstanding of 
the proposal.
    Ms. Frankel. Okay. Well, just explain so we know.
    Secretary DeVos. The proposal is voluntary contributions 
from individuals or businesses to 501(c)(3) scholarship-
granting organizations that would then give scholarships to 
families, as defined by the State that decides to participate. 
And in most States where there are education freedom school 
choice programs, they are geared and targeted to primarily low-
income families, many times also students with disabilities, 
and they are programs for students who are most vulnerable and 
most disadvantaged.
    And so it would be individuals who choose to help other 
students and other families who would voluntarily make those 
contributions. It is not a program for people of wealth.
    Ms. Frankel. Okay.
    Secretary DeVos. People of wealth already have choices.
    Ms. Frankel. Correct.
    Secretary DeVos. People of wealth already--people of power 
already have choices. All of these policies are designated for 
and are targeted toward individuals and families who don't have 
that power, who are assigned to schools that are not working 
for them.
    Ms. Frankel. Okay. I want to reclaim my time to follow up 
on Representative Clark's question.
    Is there anything in your proposal that requires 
nondiscrimination? So, for example, can they--can somebody keep 
a gay student out, or can they discriminate on the basis of 
religion? Or--or----
    Secretary DeVos. The key with school choice and education 
freedom is families and students voluntarily choose the place 
that works and fits for them.
    Ms. Frankel. So, okay. All right. I just want to understand 
this. So they can choose to go to a school that only allows a 
certain religion or a certain gender or a certain race? Is that 
correct?
    Secretary DeVos. Many schools have unique missions.
    Ms. Frankel. Is that the answer?
    Secretary DeVos. Different missions.
    Ms. Frankel. The answer is yes. Thank you. I answered it 
for you.

                                TITLE IX

    Okay. So I have another question. I think coming out soon 
is a new rule in reference to Title IX on sexual harassment and 
violence in colleges. Is that rule going to be published soon?
    Secretary DeVos. I expect it will be soon, yes.
    Ms. Frankel. So I think you probably know that there is a 
lot of concern from folks about what this is going to mean. 
Because all the statistics so forth show that there is still a 
lot of sexual violence on campuses, and there is a lot of 
concern that your new rule is going to actually discourage 
victims from coming forward.
    There is one particular point that I do want to ask you 
about, and maybe you can just clarify it because I cannot--I 
don't understand it. I read that rule. It is so long.
    Under the proposed rule, alleged harassment must occur 
within the school's own program or activity. So my question is 
whether or not that would cover off-campus, for example, frat 
houses. Would it pertain to online sexual harassment?
    Secretary DeVos. Well, ma'am, because the rule is not yet 
finalized nor published, I can't comment on it. It would not be 
appropriate to comment, and it would not be appropriate to--
yes, you are going to ask a first question, and then you are 
going to ask another. It is not appropriate to comment. The 
rule is not yet final.
    Ms. Frankel. So is the rule, as you understand proposed, as 
it is proposed, is it going to cover, for example, a sexual 
assault at a frat house that is off campus or online harassment 
and bullying?
    Secretary DeVos. Again, I cannot comment on the specifics 
of the rule.

                    CORONAVIRUS AND SCHOOL CLOSURES

    Ms. Frankel. All right. Well, that is really sad.
    Okay. My final question is we just read that Japan is 
closing all its schools because of the coronavirus. So I would 
like to know what plans you are making in regards to 
coronavirus?
    Secretary DeVos. Good question. I have convened a task 
force within the Department and have asked my Deputy Secretary 
Mick Zais to head that task force to ensure we have our 
continuance policies and every plan in place for work in and 
through the Department. And we continue to work with the other 
agencies across Government to ensure that we are prepared to 
respond and react and do as we should, depending on----
    Ms. Frankel. Okay, and thank you. I am happy to hear that 
you are doing that. I just hope that you will keep us informed.
    And I yield back.
    Ms. DeLauro. Congresswoman Watson Coleman. I can have 
Congresswoman Lowey go first for this first round if that 
would--is that what you want to do?
    Mrs. Watson Coleman. Actually, I would. If you--yes, I just 
need a moment.
    Ms. DeLauro. Congresswoman Lowey.

                     FULL-SERVICE COMMUNITY SCHOOLS

    Mrs. Lowey. Thank you.
    I mentioned the Full-Service Community Schools before. I 
think that they are so critical to bringing together health, 
social support, family-community engagement, early childhood 
development opportunities to really help students and their 
families thrive.
    Yet you propose eliminating dozens of K through 12 
programs, including community schools. We came together on a 
bipartisan basis in this Congress to authorize the Full-Service 
Community School program in 2015 because we know its value in 
the districts.
    First of all, I would like to know have you ever visited a 
full-service community school.

                          BLOCK GRANT PROPOSAL

    Secretary DeVos. I visited many schools. Maybe one of them 
has been termed that. But Congresswoman--or Chairwoman, if I 
could just say it is inaccurate to say that we have proposed 
eliminating these programs. We have proposed rolling them all 
up into a block grant.
    And I think your example of the school that you have cited 
and admire is exactly why we should consider the block grant 
proposal. Because it would allow schools and districts in your 
State to actually expand on those and target those resources in 
that direction if that is the right answer for the students in 
that district or in that region.
    It would give a lot more flexibility to States and 
communities not eliminating anything, but putting it in one big 
pool----
    Mrs. Lowey. With less money.
    Secretary DeVos. Well, the request--the request is at the 
level that it is. You are the appropriators. You will decide at 
what level to fund.
    Mrs. Lowey. Not that level.
    Secretary DeVos. I think the important--I think the 
important thing is the policy here, and the proposal--the 
policy proposal is to put all of those programs together in one 
block grant that would then allow the most local level, those 
closest to the students, to target the resources to meet the 
needs of the kids that are most vulnerable in that school 
district in a way that is going to uniquely meet their needs.
    Mrs. Lowey. However, you are decreasing the amount of money 
in the pot so that you are making schools really compete 
against each other for these dollars. So I am hoping as we go 
through the budget we will increase those dollars so we can 
sustain programs like this.
    And I think you would be interested in visiting one of 
those schools. I would be happy to give you a tour if you come 
up to Westchester.
    Secretary DeVos. Thank you.

                         AFTER SCHOOL PROGRAMS

    Mrs. Lowey. Now after school program. Your budget 
eliminates funding for after school programs?
    Secretary DeVos. No, it includes it in the block grant.
    Mrs. Lowey. So, oh, you are decreasing the pot of money and 
putting everything----
    Secretary DeVos. Putting it all into a block grant to allow 
for flexibility at the local school district level.
    Mrs. Lowey. But if you are cutting the budget, you are 
cutting the budget.
    Secretary DeVos. Well, again, you are the appropriators. So 
you decide at what level to fund it. But I think the important 
thing is the proposal to put all of them together in a block 
grant and allow for States and local districts to make 
decisions on which----
    Mrs. Lowey. Okay----
    Secretary DeVos [continuing]. What programs are most 
effective and what is going to work best to meet the needs of 
the most vulnerable students in that district.
    Mrs. Lowey. With less money. I get it.
    But let me just say this because I think it is important, 
and you probably know it. The amount of Federal funds going to 
districts is usually about 10 percent. I don't know if it is--
--
    Secretary DeVos. It is actually--it is actually less than 5 
percent.
    Mrs. Lowey. Less. Probably about 9 percent of the budget.
    Secretary DeVos. It is less than 5.
    Mrs. Lowey. And you are saying putting all these programs 
in a pot, decreasing the funds, everything is going to be fine. 
But I think that is where we have a real disagreement. And you 
are saying we are the appropriators, but if you are the 
Secretary of Education, your opinion is valued. And it 
disappoints me that you would take all these good programs, say 
put them in a pot, and then, okay, decrease the dollars.
    But we will move on because it is almost completed. Did 
anyone ask this one? Okay. [Laughter.]
    I am sorry. There are a couple of hearings going on.
    Secretary DeVos. I understand. I think I was in the hold 
room in the other one.

                          CHILD CARE ON CAMPUS

    Mrs. Lowey. Yes, okay. Now another favorite program of 
mine, maybe this is in the pot, too, but I think it is really 
worth your seeing, is the CCAMPIS program. More than one in 
five college students is a parent.
    For those with a young child, accessing childcare on campus 
can really make all the difference, and the struggle to get 
good childcare is reality, frankly, for a growing number of 
college students. Not every college campus--I have to get to 
the question. Oh, yes. Sorry about that.
    What do you think? Are you aware of the value of----
    Secretary DeVos. I am aware of it, and I know what our 
budget proposal has advanced. But I also know that the Health 
and Human Services budget really contains the increased funding 
around childcare. This is certainly a priority of the 
administration, and we believe that those programs through HHS 
would definitely be able to meet the needs of the program that 
you have cited as well.
    Mrs. Lowey. Well, I am out of time. But let me just say if 
the $3 million cut you have proposed were to take place, 
programs like this would disappear because the locals have the 
major responsibility, and our work is invaluable and our money 
is invaluable in supporting their efforts.
    Oh, that is 30--did I say that? A $38 million cut.
    But thank you so much.
    Secretary DeVos. Like I said, HHS has the bulk of the 
childcare budget proposal funds, and that is where--that is 
where the administration has put the priority around childcare.
    And let me just say, if you are going back to the 
Transportation, I like the color to look at in Transportation 
better than here, just a little aside. It is a really pretty 
green on the wall.
    Ms. DeLauro. We will take it into consideration and put 
some pictures up.
    Mrs. Lowey. I was so busy focusing on the issues that I 
didn't notice the color.
    Ms. DeLauro. Congresswoman Watson Coleman.

                       DISCIPLINE AND RACIAL BIAS

    Mrs. Watson Coleman. Thank you very much, Madam Chairman.
    And thank you, Secretary DeVos.
    I am going to ask you a couple of questions regarding the 
reduction in the investment in our children under your proposed 
budget. I am really concerned about the achievement gap, as 
well as you are, and I just maybe don't agree with our approach 
to it.
    The achievement gap that you talk about exists, I think, in 
part because schools lack equitable discipline guidance in 
addition to other resources. And students of color are 
disproportionately targeted for discipline and kept out of 
school, which prevents their learning.
    Further, there is a gross lack of accountability from your 
Department in ensuring that the school districts across the 
country live up to their missions.
    Let us talk first about the discipline piece. Just this 
week, a 6-year-old girl in Florida was arrested and taken from 
her school, even though school officials maintain they did not 
want the girl arrested. This is an all too common issue for our 
Black children.
    According to the Civil Rights Data Collection, Black K 
through 12 students are nearly four times as White kids to 
receive out-of-school suspensions. Black students are nearly 
twice as likely to be expelled from school without education 
services, compared to their White counterparts.
    This data is disconcerting because students who were 
suspended or expelled for a disciplinary violation were almost 
three times as likely to be in contact with the juvenile 
justice system in the next year.
    How do we reconcile this disparity with the percentage of 
population black students represent get the percentage of 
discipline? And given that you have rescinded the guidance that 
was intended to give to schools to break the school-to-prison 
pipeline--I hope that is what it was intended for--what are 
your plans to ensure that schools are a safe and welcoming 
environment that don't necessarily punish or discriminate 
children?
    Bottom line is what kind of resources do you envision 
providing through your request to schools to address this 
issue?
    Secretary DeVos. So, Congresswoman, thank you for that 
question, and you have cited up at the top your concern about 
the achievement gap, and I share that concern and have shared 
that concern for the three-plus decades that I have been 
working to change policy to free up children who haven't been 
able to achieve because of being stuck in a school that doesn't 
work for them.
    And I think you may have misstated when you said you don't 
agree. You don't agree with our approach, meaning your 
approach. I, too, don't agree with your approach with 
continuing to do the same thing with more and more resources 
and expect a different result.
    That is why our proposal has suggested taking all of--
virtually all of the elementary and secondary education funding 
from the Federal level and block granting it to the States. And 
then they, in formula to the local districts, to allow for the 
greatest amount of flexibility to directly address the needs of 
the students in that district and in that school. And I think 
this is an important----
    Mrs. Watson Coleman. Excuse me. Excuse me. Did that include 
alternatives to public options?
    Secretary DeVos. No. This would be the funding from the 
Federal Government for all of the elementary and secondary 
education programs, and it would be granted to the States and 
formulaed out under the Title I formulation. So 90-plus percent 
of it going to local districts.
    But it would allow the local districts the kind of 
flexibility they don't have today. It would free up tons of 
hours, literally 225 years of time, in complying with and 
writing reports and would allow them to target those resources 
directly to the kids who need it most.

                            ESED BLOCK GRANT

    Mrs. Watson Coleman. Well, I certainly agree that teachers 
are required to do a lot of paperwork that just takes time away 
from their teaching.
    I want to talk to you about something else that concerns me 
in the budget, which I think is a reflection of our values or 
your values or the President's values. The budget eliminates 41 
programs and cuts a number of other----
    Secretary DeVos. No. No, no, it doesn't. It takes them all 
and puts them into the block grant and allows flexibility at 
the State and local level. So it is not eliminating them.
    Mrs. Watson Coleman. So it is----
    Secretary DeVos. Twenty-nine of them.
    Mrs. Watson Coleman. It is putting more programs in one box 
with a limited amount of money, asking them to already compete 
with one another for----
    Secretary DeVos. No. So they wouldn't be----
    Mrs. Watson Coleman. Are you putting more money in the 
block grant?
    Secretary DeVos. They wouldn't be competing. They wouldn't 
be competing. They are formula granted out, 90 percent of the 
funds.

                            TRIO AND GEAR UP

    Mrs. Watson Coleman. Let us talk about the TRIO program. 
Talk to me about the TRIO program. Oh, all right. I am sorry. I 
can't hear you.
    Ms. DeLauro. No, no. I was going to say the question was 
TRIO and getting a quick answer.
    Secretary DeVos. Sure. We have proposed--we have proposed 
combining the TRIO and GEAR UP functions in the TRIO program. 
And again, coupled with the flexibility that the block grant 
for the other 29 programs would afford State and local 
districts, if there is more desired to be spent in the area of 
what the TRIO programs are doing, it would allow, again, more 
personalization for the students that are closest, for those 
closest to the students in each school district.
    Mrs. Watson Coleman. All right. I seek unanimous consent to 
enter some testimony from our students in the TRIO program, 
which has been so vitally important, which I think is not 
getting the appropriate attention that it should.
    Thank you, Madam Secretary.
    Ms. DeLauro. I think in a bipartisan way, there is 
agreement on your comment, and we will, so ordered, put the 
information into the record.
    Ms. DeLauro. We are going to do another round, but it is 2 
minutes so that we can move quickly.
    I just might add if you have not seen the video of the 6-
year-old child being put in handcuffs, pleading, pleading for 
not to have handcuffs. That is just a visual of what my 
colleagues are talking about, which is what is happening to 
particularly African-American kids and kids of color in 
preschool. Sobbing not to be put in handcuffs at 6 years old. 
Anyway.

        ACCREDITING COUNCIL FOR INDEPENDENT COLLEGES AND SCHOOLS

    A quick question. The Accrediting Council for Independent 
Colleges and Schools, ACICS, lost its accreditation 2016, 
demonstrated extraordinary lack of compliance, weak record in 
monitoring enforcement, standards below the Department's 
requirements.
    2018, you reinstated it. It is in financial peril, lost its 
former accredited institutions, not recognized by the Council 
for Higher Education, uncovered by USA Today that ACICS 
accredited Reagan National University, an institution, no 
campus, no staff, students, or alumni.
    What is the Department doing to ensure that students are 
not being duped by deceitful, for-profit colleges accredited by 
an agency that you reinstated? Will you consider reversing your 
decision to reinstate?
    Secretary DeVos. Well, Chairwoman, I was troubled by 
reading that piece as well and have directed that an 
investigation ensue to see what is going on there. I was--I was 
not happy to read that.
    Ms. DeLauro. So you would be willing to----
    Secretary DeVos. We have an investigation launched, and we 
are on it.
    Ms. DeLauro. Okay. And decision to reinstate, I thank you 
for you that.
    I tell you what I am going to do. I will yield back. Mr. 
Cole, go ahead.
    Mr. Cole. Thank you very much. I know we have got just a 
little time here.
    So just quickly, Madam Secretary, information--I had some 
questions on charter schools. I would like to submit them for 
the record. You made your position very clear, and I appreciate 
that very much, and your record is well known. But I do have 
some concerns on just what would happen to the money that we 
have drawn so far.

                          STUDENT LOAN CRISIS

    Second area that--and I have enormous sympathy with you in 
terms of this whole student loan problem and commend you, 
honestly, for trying to think through different ways to deal 
with that. In full disclosure, I was not very happy when we 
moved away from the loan guarantee approach. It sort of kept 
this out of your bailiwick, and we have really saddled you with 
an enormous problem, an under resourced problem, frankly, for a 
number of years.
    Again, as I said in my earlier comments, I am not sure we 
really have the power to do much here. I mean, it is really an 
authorizing function, I think, for the most part. But I am very 
curious about what you are doing now to try and combat this. I 
know you are doing some technology things. So I would like to 
know what those are.
    And again, if you would like to expound longer term as to 
what you think the ideal solution would be. Because we sort of 
put the Federal Government on the hook in a way that I don't 
think we ever should have in terms of this, and we have turned 
this into an extraordinary political issue that presidential 
candidates kick around. And I would like to get the Department 
out of the middle of this crossfire if there is some way to do 
it going forward.
    So your thoughts would be most welcome.
    Secretary DeVos. Sure. Well, as I mentioned earlier, I 
mean, it is a very large and complex issue. And I think we 
spend a lot of time talking about the loans and the debt that 
students are taking on, not quite as much time challenging why 
the cost of higher education continues to skyrocket.
    And you know, there is a lot of theory around that, but our 
budget proposal does suggest capping off the amount that 
graduate students can take out in student loans through the 
Federal Government and capping out the amount, importantly, 
that parents can take. We know that there have been all too 
many parents that have taken out loans greater than they are 
able to really afford, and Social Security being garnished as a 
result.
    But graduate students, we have over--yes.
    Mr. Cole. Thank you. I am again out of time.
    Thank you, Madam Chairman.
    Ms. DeLauro. We can continue the conversation.
    Congresswoman Lee.
    Ms. Lee. Thank you very much.
    First, to my colleagues on the other side, let me just say 
this to you, and I appreciate your comment. But when many of us 
started public schools, schools were segregated. We could not 
go to public schools. Got it?
    In 2017, we asked the Secretary to submit a report about 
the resegregation of our public schools. To date, that report 
has not been submitted. So I cannot be nice when I ask about 
this because this is serious for our Black and brown students, 
and many of us understand the role of the Federal Government in 
desegregation of public schools.

                       SECOND CHANCE PELL GRANTS

    Now, Madam Secretary, let me ask you about the budget as it 
relates to expanding Pell Grants for incarcerated students. You 
said you supported that, but I can't find in your budget 
request any line-item for that. Have you estimated how much it 
would cost, and do you plan to request funding for this?
    Secretary DeVos. Well, we have made the request to have 
Congress consider a permanent expansion. Because it is not a 
program other than a pilot through the Department currently, 
there isn't a specific piece of budgetary guidance to suggest 
with it.
    Ms. Lee. So what do we need to do to get you to do that, to 
submit a line-item for us?
    Secretary DeVos. Well, I think Congress needs to act and 
make Second Chance Pell a program. It is currently----
    Ms. Lee. So we have to authorize it? Okay.
    Secretary DeVos. It is currently just an experimental 
program through our authorities in the Department.

              HISTORICALLY BLACK COLLEGES AND UNIVERSITIES

    Ms. Lee. Okay. So we will work on that. Let me ask you 
about HBCUs because this budget doesn't increase funding for 
HBCUs except those that are in the opportunity zones, which 
leaves out about 50 percent of the HBCUs.
    So let me ask you about that because we know that the 
President has touted his support for HBCUs, yet we see a budget 
that level funds our Historically Black Colleges.
    Secretary DeVos. Well, I would just say that that is 
definitely indication of continued support for the important 
role HBCUs play. And that we also----
    Ms. Lee. But 50 percent won't be included in this.
    Secretary DeVos. But the level funding for the remainder of 
the HBCU-related programs is also an indication of the priority 
that we have placed on that. And then a $150 million plus-up 
for HBCUs and other Minority Serving Institutions for STEM-
related programs in opportunity zones, which Opportunity Zones 
are all across the country in rural and urban areas.
    Ms. Lee. I know, and leaves out 50 percent of HBCUs.
    Thank you, Madam Secretary.
    Ms. DeLauro. Congressman Harris.
    Mr. Harris. Thank you again, Madam Secretary.
    And Madam Chair, without objection, I would move to include 
the May 2019 Harvard Kennedy School poll, EdNext poll, into the 
record.
    Ms. DeLauro. So ordered.

                     EDUCATION FREEDOM SCHOLARSHIPS

    Mr. Harris. Good. Madam Secretary, let us just clear up 
something about these Education Freedom Scholarships. Just like 
when I write a check to my church every week, it is tax 
deductible. I am assuming my church is using it, you know, 
there is something religious associated with it. So the idea of 
having some tax preference for someone who actually has a 
religious bent is not a new concept. Is that right?
    Secretary DeVos. That is correct.
    Mr. Harris. Thank you.
    Okay. Now let us talk about the May 2019 Harvard Kennedy 
School poll that looked at school choice and looked at tax 
credits and, most importantly, vouchers for low-income 
students. Fact of the matter is that by 49 to 41 percent, all 
the people they sampled approve it.
    But the most interesting thing, and I am ashamed that 
Republicans only have 44 percent, Democrats 52 percent. But the 
reason why the Democrats actually prefer it more is because 
African-American Democrats have 70 percent approval for low-
income vouchers, and Hispanic Democrats 67 percent.
    Secretary DeVos. That is right.
    Mr. Harris. Now the fact of the matter is, is that these 
parents, the people who actually are most concerned with their 
students--with their children's education outcome actually want 
low-income vouchers, and I would suggest it is a soft bigotry 
of low expectations that somehow we are not going to provide it 
to them because we know better.
    You know, to quote a candidate who is now the President, I 
have a suspicion that a lot of those parents are asking 
themselves the question, ``What do I have to lose?''
    I yield back.
    Ms. DeLauro. Congressman Pocan.
    Mr. Pocan. Thank you very much, Madam Chairman, and thank 
you again.

                   APPRECIATION FOR PUBLIC EDUCATION

    I am going to try to channel my inner John Moolenaar, who 
always has grace in his demeanor. So I will try to do that. I 
think the difficulty is I am a product of public schools. I 
grew up in a lower middle class neighborhood.
    Recently, we sold my mom's--my aging mom's house for about 
$115,000. People like me got our opportunity to get where we 
got because of public education.
    So I am very passionate about public education, and many of 
these schools, because they discriminate, as a gay kid, I 
wouldn't have been able to go to, or I would have been beat up. 
So, honestly, I take that very personal, and I think I am going 
to enter my----
    Secretary DeVos. May I just comment to that as well?
    Mr. Pocan. Sure, please.
    Secretary DeVos. I also am very passionate about public 
schools. I am passionate about all schools, all schools that 
serve kids and that are good fits for kids. I am agnostic to 
what comes before schools.

             RECOVERING FUNDING FROM CLOSED CHARTER SCHOOLS

    Mr. Pocan. Sure. I got you. If I can just ask my question 
because I have the 2 minutes, less than 2 minutes, 1 minute 
left. What are we doing, though, to go after those tax dollars 
that we have lost that have gone to these failed charter 
schools, the ones that haven't opened or have failed? Are we 
doing anything to get that money back?
    Secretary DeVos. Well, again, that report has been totally 
debunked. There is----
    Mr. Pocan. But there are failed schools. Correct?
    Secretary DeVos. It is riddled, riddled with inaccuracy.
    Mr. Pocan. Sure, that is not my--this is the frustration, 
right? When I ask a question, don't answer a different, please, 
Madam Secretary.
    Secretary DeVos. It was like 1.5 percent of the total 
number of schools that didn't open, and I will be happy to get 
back with you.
    Mr. Pocan. Do we go after those dollars?
    Secretary DeVos. I will be happy to look into that further 
and get back with you on the disposition of those.
    Mr. Pocan. I accept that as an answer. Thank you very much.
    [The information follows:]

  Charter Schools Funded Under the Charter Schools Program That Have 
                         Closed or Did Not Open

    As noted in a June 28, 2019 letter to Congress on the Department's 
administration of the Charter Schools Program (CSP), of the 5,265 
charter schools that since 2001 have received CSP funding through a 
State entity or directly from the Department, 634 did not open and are 
unlikely to open in the future. In addition, the Department's date 
indicate that only 1.7 percent of CSP-funded schools close before their 
second year of operation. More information on how the CSP supports the 
successful opening and expansion of charter schools can be found in the 
June 28 letter.

                          FOR-PROFIT COLLEGES

    A follow-up on the for-profit colleges. I know that you got 
rid of a program that was in the Obama administration that 
protected students who had these failed colleges on their 
loans. Eighteen States have had to sue the Department of 
Education about this loan forgiveness.
    A Federal judge recently said we were--the Department of 
Education was not following that order and was fined $100,000. 
I guess my question is what are we doing to collect those 
payments? Are we still collecting payments from defrauded 
students, and are we going to try to take care of those 
students under----
    Secretary DeVos. So every student that has filed what is 
called the Borrower Defense claim was put in forbearance at 
that time. Like when I got to my job, there was no process, and 
I said it is going to take a while to figure out the process. 
Let us make sure these students aren't incurring any more 
interest, aren't having to pay any more on their student loans 
as long as their claims are in process. And so that has been 
the case on all of those claims that are not yet closed.
    Now we have been stymied at a couple of steps along the way 
by procedural rulings in court. We are still waiting for the 
Ninth District to rule on a methodology. But nothing pains me 
more than to not be able to resolve those completely.
    Mr. Pocan. Great. I will follow up. Thank you.
    Ms. DeLauro. Congressman Moolenaar.

                            ESED BLOCK GRANT

    Mr. Moolenaar. Thank you, Madam Chair.
    And again, thank you, Madam Secretary, for being here.
    I want to talk with you a little bit about the block grants 
because I think that is an important concept that it is kind of 
hard to get our hands around. So if I understand what you are 
saying is you are taking some of the federally mandated 
spending programs. You are consolidating it together into a 
flexible spending program that States and local school 
districts are going to have the ability to determine.
    So, for instance, if one local community said they wanted 
to focus on school safety, they could use those funds for that?
    Secretary DeVos. Correct.
    Mr. Moolenaar. And if one said, hey, we think career and 
college counseling should be part of it, they could use it for 
that?
    Secretary DeVos. Correct.
    Mr. Moolenaar. Mental health counselors, as my colleague 
had mentioned, you could use it for these needs that are 
identified kind of on the ground where people are saying this 
is really what our school district needs?
    Secretary DeVos. Well, and recalling that most of these 
programs, and including and especially Title I, were created to 
really help the most disadvantaged students. And I go back to 
my opening statement, where I said $1 trillion spent over the 
last 40 years to close the achievement gap, hasn't closed one 
bit. Has opened in many cases for lots of kids, particularly at 
the low end of the spectrum.
    And so let us do something different. Let us allow for that 
flexibility to translate down to the local level so they can 
target those dollars where the students need it most.
    Mr. Moolenaar. Thank you. And then in terms of the dollar 
amount, because I know whenever we are talking budgets, people 
are upset about different spending levels. Ultimately, your 
point is Congress is going to determine what spending level is 
in that?
    Secretary DeVos. Correct. From--yes, the administration has 
advanced this budget proposal. The important part, the policy 
part here about the block grant I think is the really important 
piece to consider.
    Mr. Moolenaar. Okay. Thank you very much.
    Thank you, Madam Chair.
    Ms. DeLauro. Congresswoman Clark.
    Ms. Clark. Thank you, Madam Chair.

         NON-DISCRIMINATION AND EDUCATION FREEDOM SCHOLARSHIPS

    To follow up, your last statement to me is we do not 
discriminate against children. Is that correct?
    Secretary DeVos. We uphold all of the laws of this land, 
and yes.
    Ms. Clark. Okay. So if we are operating on a 
nondiscrimination basis, which I think is the absolutely 
appropriate role for you to take, I hope that you will rescind 
on page E-8 of the Safe Schools and Citizenship Education 
Fiscal Year 2021 budget request where you said you stand by 
that racist research. I will look forward to you reversing 
course from that position in your budget.
    And we can have a long discussion about tax credits and 
Treasury, and I understand tax credits. And you and I disagree, 
apparently, that tax credits are Federal funding. But will you, 
as Secretary of Education, who has just said you will not allow 
children to be discriminated by race, religion, transgender 
status, sexual orientation, will you guarantee to me, to the 
children of this country that however funded this program that 
is in your budget that is $5 billion of taxpayer money, when it 
is rolled out in States, will you guarantee that every single 
school will have a nondiscrimination policy in order to qualify 
for that?
    Secretary DeVos. Well, Congresswoman, this is not proposed 
to be a Federal program. This is proposed to be a Federal tax 
credit. That doesn't----
    Ms. Clark. Will you guarantee----
    Secretary DeVos. Let me finish. The legislation is 
specifically for States to create programs that are going to 
meet the needs of the most vulnerable and needy students in 
their State.
    Ms. Clark. So we are right back to where we were.
    Secretary DeVos. We are right back to the reality of the 
fact that this program is to be implemented and designed at the 
State level, voluntarily contributed to by Federal taxpayers.
    Ms. Clark. So I am going to be clear that you have 
corrected the record. When you said to me that you, as 
Secretary of Education, would ensure that this program would 
only go to schools with nondiscrimination policies, that is no 
longer your stance. This is a State's choice that you--you will 
not do that as Secretary of Education.
    Secretary DeVos. Ma'am, may I just suggest that you are 
mixing up and you are not staying clear on the purpose of this 
program, which is----
    Ms. Clark. I am. I am perfectly clear----
    Secretary DeVos [continuing]. To help students get a great 
education in a place that fits for them.
    [Gavel sounding.]
    Ms. Clark. And your inability to say that you would stand 
up for kids is appalling, and you really should resign.
    Ms. DeLauro. Congresswoman Herrera Beutler.
    Ms. Herrera Beutler. Thank you, Madam Chair.

                     EDUCATION FREEDOM SCHOLARSHIPS

    I would love to have a little bit more clarification on the 
Opportunity Scholarship, or the Federal Freedom Opportunity 
Choice Program. Because I do want to make sure it is on the 
record very clearly whether it is a new program or whether it 
is Federal funding and whether there are strings attached. And 
actually, too, whether by somehow, you know--and I recognize it 
is Treasury's program--but is there some way that this is not 
under the laws of the land, our civil rights, our 
constitutional rights somehow abridged with starting this 
program?
    Secretary DeVos. Let me respond to that directly first. No, 
civil rights are not abridged in any way, period.
    What this does is it is not a new program to be 
administered at the Federal level. It is merely a vehicle to 
effectively and efficiently get voluntary contributions 
directly to scholarship-granting organizations as decided by 
States that choose to participate. With the idea that they are 
going to turn around and create one or more programs that are 
going to specifically address the needs of K-12 students in 
their State.
    Ms. Herrera Beutler. So no more then giving money to 
Planned Parenthood, which is a 501(c)(3), or your church, which 
is tax exempt. I mean, this is no more Federal funding than it 
is any money that----
    Secretary DeVos. Correct.
    Ms. Herrera Beutler. Right? Because churches aren't 
federally funded, right?
    Secretary DeVos. Correct.
    Ms. Herrera Beutler. I think there is a pretty big divide 
there. The other--oh, it has gone down. Is it going up or down?

           DUAL ENROLLMENT AND CAREER AND TECHNICAL EDUCATION

    The other thing I wanted to ask about is, are there 
opportunities in the Department with regard to encouraging 
students to participate in dual credit programs like Running 
Start? That is one way I think we are going to help them with 
their college costs.
    Secretary DeVos. Well, I think our proposal is to 
dramatically increase funding for career and technical 
education. And I think, importantly, this comes at a time when 
States have been writing their Perkins V plans and are about 
getting ready to implement it.
    I have visited a lot of schools that have fledgling dual 
enrollment programs, many that want to have many more and 
expand them dramatically. I expect that that is going to 
continue to be a growing reality, and certainly those places 
that are being forward leaning and recognizing the 
opportunities for their students are going to get that right.
    Ms. Herrera Beutler. Thank you.
    Ms. DeLauro. Congresswoman Frankel.
    Ms. Frankel. Thank you.

                     EDUCATION FREEDOM SCHOLARSHIPS

    I am going to follow up on Ms. Clark's question. First of 
all, I just want to say one of my colleagues compared the tax 
credit to a tax deduction. I think it is a big difference. I 
mean, you would agree with that. A tax credit is you take your 
certain percentage of what you owe and instead of paying it to 
the Federal Government, you are giving it to a private school?
    Secretary DeVos. No, you get to give it directly, 
effectively and efficiently----
    Ms. Frankel. To a private school.
    Secretary DeVos. Not to a private school, to a scholarship-
granting organization.
    Ms. Frankel. Okay. Okay.
    Secretary DeVos. It is a 501(c)3().
    Ms. Frankel. Got it.
    Secretary DeVos. A nonprofit scholarship-granting 
organization. And a State that chooses to participate----
    Ms. Frankel. Exactly.
    Secretary DeVos [continuing.] Could decide to expand the 
career and technical education.
    Ms. Frankel. Let me tell you something. The State of 
Florida, where I am from, they have been having this program 
and----
    Secretary DeVos. Very successfully, I might add.
    Ms. Frankel. No, not very successfully. In fact,--in fact, 
I just read an article where three banks that had been 
contributing have now pulled out because they found that there 
were 156 schools in Florida that are discriminating against 
people who are LGBTQ.
    So just here is what I am saying. We have a different 
philosophy. I just want to say this. It is a mistake, I 
believe, for you to come in here to cut $6 billion, to ask for 
a cut of $6 billion out of public education, and then at the 
same time, ask us or ask this Congress to set up a program so 
that whether it is a corporation or a person, a total of $5 
billion can now go, instead of to the Federal Government to pay 
taxes, to some scholarship program that they could put money 
into a private institution that discriminates against people.
    So I think that is a mistake.
    Secretary DeVos. Ma'am, isn't education about kids?
    Ms. Frankel. No--yes, education is about----
    Secretary DeVos. Okay.
    Ms. Frankel. I want to tell you something. The great 
equalizer in life is a good public education. I want to say----
    Secretary DeVos. It is a good education, yes.

                           ON-CAMPUS VIOLENCE

    Ms. Frankel. One other thing I want to say, which is this. 
I am very disappointed that--I want to try to say this nicely. 
Okay. I am very disappointed that you feigned ignorance today 
about a dangerous new policy about on-campus violence. I am 
very, very worried about that, and I really--I don't understand 
why you couldn't----
    Secretary DeVos. Well, ma'am, I am not ignorant about it. I 
told you we have not released the final rule, and it would not 
be appropriate for me to comment.
    Ms. Frankel. Okay. Thank you. I yield back.
    Ms. DeLauro. Congresswoman Watson Coleman.
    Mrs. Watson Coleman. Public education is a great equalizer, 
and the reason the Federal Government has a role in public 
education was to guarantee that children were protected, that 
opportunities were available, that there was equality and 
equity of the educational delivery system. And it is not about 
alternatives to that system.

                      DISPROPORTIONATE DISCIPLINE

    We have a responsibility to make that system work for all 
the children, and it concerns me, I asked you a question. How 
do you reconcile the disproportionate discipline of minority 
students in schools, the suspensions, et cetera? And even the 
arresting of a 6-year-old in schools without your questioning 
why that is happening.
    And one other thing, Madam Secretary, any time the Federal 
Government puts money into one of these school districts, you 
can require that there be a nondiscrimination program. You have 
got a responsibility to require that there is not 
discrimination against children, whether or not they are Black, 
Latino, or part of the LGBTQ communities. That is your 
responsibility.
    But you don't seem to give one good hoot about public 
education. Every time we talk about public education, you talk 
about education. And when you talk about education, you talk 
about the alternatives that you think work.
    Well, let me tell you, one of the reasons that our children 
are not achieving to the extent that they are intellectually 
capable of doing so is because we are not putting the resources 
where they need to be, in the public school system. And until 
we can reconcile that, you all don't have any right to talk 
about improving the system.
    I yield back.
    Secretary DeVos. Madam Chairman, could I just comment on 
that?
    Mrs. Watson Coleman. I don't need a comment because I 
didn't ask a question.
    Ms. DeLauro. Congressman Cole. If you want to just try to 
wrap up your comments, and I will wrap up, and then we will 
bring this hearing to a close.
    Mr. Cole. Well, it has been another eventful day at Labor-
H, Madam Chair.
    I want to begin, Madam Secretary, by thanking you. I want 
to thank you for the service that you render this country each 
and every day.
    Secretary DeVos. Thank you.
    Mr. Cole. I have known you for a long time. I agree with my 
friend Mr. Moolenaar. I don't know anybody that cares more 
about young people getting a good education than you, and you 
have a lifetime of commitment, service, and generosity, as does 
your family, to demonstrate that.
    And so while we may have disagreements on particular 
programs, many of us up here--you and I have a couple--that 
doesn't diminish one whit from the enormous sacrifice and 
service that you and your family have given people of all 
races, all colors, every ethnicity, every background for many, 
many, many years. And I consider your service as Secretary to 
be an extension of that, quite frankly.

                     CAREER AND TECHNICAL EDUCATION

    Second, I really want to applaud you on this career and 
technical education initiative, both the additional money for 
the institutions in question that you propose. I think it is a 
very wise investment, and I particularly appreciate you taking 
the lead and putting on front that we have got a lot of 
students that would benefit form this kind of education that 
can't afford what are even very modest fees, as a rule.

                            HIGHER EDUCATION

    So your willingness to look at the Pell Grant as an 
extension, we all want kids that want to get college educations 
to have that opportunity. It is one of the reasons why I am 
fierce about TRIO and GEAR UP and some of these other programs. 
But I also recognize the vast majority of young people aren't 
going to go for a 4-year college. They either don't want to, or 
that is just not the right approach for them.
    And I think sometimes we forget about them a lot, and in 
this proposal, I think you are actually putting the focus on 
folks that are too often forgotten. And you and the President 
are to be commended for that. Because he has been a leader, he 
actually took things like the apprentice program, which was a 
good Obama proposal, and put more money into that. This has 
been a very consistent theme in his tenure and in your tenure, 
and I appreciate that.
    Finally, again, I want to continue to dialogue on a variety 
of programs and would love to invite you--sometime I would love 
for you to--I was particularly pleased with your proposal on 
Second Chance Pell. I have been to Tulsa Community College and 
seen that program. They do outstanding work. Thank you very 
much for mentioning them. It will surprise, delight, and thrill 
them no end.
    But I think, more importantly, it is part of our 
population, again, that gets neglected and left behind. And you 
putting a search light on it and say let us help people that 
have had misfortune and made mistakes get back on the right 
track in life and give them an opportunity to make a decent 
living. It is really a good thing.

                          STUDENT DEBT CRISIS

    Last thing I will commit to you. I am going to wrestle with 
this student loan problem because I see it as real issue, and I 
am glad you mentioned the telling point about the cost of 
college as well. This isn't just a matter of the Federal 
Government, we have a lot of private institutions that need to 
think very carefully about how they counsel students and what 
they encourage them to do. And frankly, the advice sometimes 
they don't give them as to what the appropriate level of debt, 
if any, should be for them.
    And then, finally, the administration of this. And you 
rightly point out, it frustrated me when I was chairman. I am 
sure it frustrates our chairman the amount of resources that 
are getting put into looking after this.
    Again, my personal view is we made a big mistake when we 
got out of the loan guarantee business and dumped this over to 
the Department of Education and asked you to take on a mission 
that really, in my view, probably should not be your mission. 
So your thoughts as you grapple with this are very valuable.
    Finally, Madam Chairman, I want to thank you. You are 
always a great working partner, and I appreciate the way that 
you manage our committee. And we occasionally have differences, 
but we very seldom have deep disagreements about the tasks in 
front of us.
    So I look forward to working with you as we craft this 
budget and the other budgets that are under our jurisdiction, 
and I know, as always, we will find a lot more common ground 
than we do differences. Can't commit to vote for your first 
bill, if but we can come to an agreement in conference, I think 
we can do it again.
    Thank you. Yield back.

         NON-DISCRIMINATION AND EDUCATION FREEDOM SCHOLARSHIPS

    Ms. DeLauro. I want to thank the gentleman. It really has 
been an extraordinary positive--it is a working experience, but 
it is a friendship. For that, I am deeply, deeply grateful 
because it is that friendship that allows us to get the 
business of the country done, and that is why we are all here. 
And we believe in that.
    I just want to say one thing, Madam Secretary. I got a 
couple of items. But the couple of comments that my colleagues 
have made with regard to this notion that States can take--they 
are taking public money in whatever form, and they 
discriminate, that that will be up to the States.
    You may not want to take on that issue, though we all 
believe you have that authority. But we are not going to stand 
by and watch States discriminate against our children in terms 
of proceeding to get an education.

                          PUERTO RICO RECOVERY

    Let me mention on Puerto Rico, if I can. I want to take 
time to acknowledge the continued struggles of children in 
Puerto Rico. They have been really dealing with trying to 
recover from earthquakes, from all kinds of disasters, still 
from Hurricane Maria.
    I have been told, and we will look into this, that kids are 
going to school in tents. I don't know if you have been or your 
staff has been to the island. But I would ask you to do that 
and to see these conditions and really to urge the 
administration to support the House supplemental bill. It is 
really imperative.
    When I was there for Maria, children were afraid to go to 
school because if they went to school, they were fearful that 
when they went home, their parents would not be there. We are 
dealing with both education and we are dealing with mental 
health issues regarding these children, and I think we all 
believe we have a moral responsibility in this area.

                   BLOCK GRANT CONSOLIDATION PROPOSAL

    And finally, let me just say there has been a lot of 
discussion about the K through 12 education program. My view, I 
think the view of my colleagues, is that you propose to 
eliminate these programs, replace them with one block grant, in 
your words, eliminate Federal burdens that have been and ``have 
inhibited innovation.'' I am concerned, Madam Secretary, that 
you confused essential protections for children across all the 
formula programs as burden.
    One of this Nation's most urgent charges is to address the 
achievement gap between English learners and their Native 
English-speaking peers. As a condition of receiving Title III, 
States' districts need to provide effective language 
instruction programs, professional development for teachers, 
English learners, parents, family, community engagement.
    From the testimony, it appears that you look at the 
Elementary and Secondary Education Act, and you see a law for a 
formula grant that placed burden on States. However, I look at 
the Elementary and Secondary Education Act, I see a law full of 
vital protections for the most vulnerable students in our 
Nation's care. English learners, homeless children and youth, 
migrant children, children in the juvenile justice system, and 
the list goes on.
    We need to be absolutely clear, and the Department--and you 
are the Department--should be straight with the Nation's 
parents and educators. Let them know which one of the vital 
protections and safeguards are going to be rolled back.
    My final comment is, and the ranking member mentioned this, 
that maybe not your budget, but an OMB budget. But it is your 
job, you defend the budget. And year after year, you defend 
cuts and question the effectiveness of Federal investment in 
public education.
    And this year, defending the proposal to eliminate, we can 
have all the words possible, but we eliminate 41 programs. Last 
year, we talked about the 2020 request. I asked whether, you 
know, your request to OMB in September included cuts to Special 
Olympics, and we didn't get a straight answer then.
    The long and the short of it, Special Olympics is not cut 
this time around. But examine the cuts. What the Department and 
what the administration are doing with regard to them. And it 
is not so much, and this is where I come down. I am, quite 
frankly, tired of just saying $40 million in a cut here, $26 
million in a cut there.
    It is about the consequences. It is about what the effect 
of those cuts are on our children. And I think we both, from 
your perspective and from ours, have to be understanding of 
that opportunity to achieve your dreams and your aspirations 
through education are being curtailed. And in particular for 
the most vulnerable of our kids and kids who are in rural 
districts, kids who are in high-poverty areas that won't get 
the kind of attention that they need.
    And I do believe it is a moral responsibility that we 
utilize all the power of the Federal Government to engage with 
these communities and these students. So my hope is, is that we 
will come forward with a bill in the education area that will 
meet their needs, and we can do that on a bipartisan basis.
    Thank you for being here, and thank you for the work that 
you do on behalf of this country's children.
    Secretary DeVos. Thank you, Chairwoman.
    Ms. DeLauro. Thank you. The hearing is concluded.

                                            Tuesday, March 3, 2020.

                         REDUCING CHILD POVERTY

                               WITNESSES

KATHRYN EDIN, PROFESSOR OF SOCIOLOGY AND PUBLIC AFFAIRS, PRINCETON 
    UNIVERSITY
DOLORES ACEVEDO-GARCIA, PROFESSOR OF HUMAN DEVELOPMENT AND SOCIAL 
    POLICY, BRANDEIS UNIVERSITY
DOUGLAS BESHAROV, PROFESSOR, UNIVERSITY OF MARYLAND'S SCHOOL OF PUBLIC 
    POLICY
AUTUMN BURKE, ASSEMBLYWOMAN, 62ND ASSEMBLY DISTRICT, CALIFORNIA STATE 
    ASSEMBLY
MATT WEIDINGER, ROWE FELLOW, AMERICAN ENTERPRISE INSTITUTE
IRWIN GARFINKEL, PROFESSOR OF CONTEMPORARY URBAN PROBLEMS, COLUMBIA 
    UNIVERSITY
CHERYL BRUNSON, BROOKLAND MANOR TENANTS' ASSOCIATION, D.C. POOR 
    PEOPLE'S CAMPAIGN
    Ms. DeLauro. The subcommittee will come to order.
    Good morning, and let me welcome all of our guests. Today, 
we are examining child poverty in America and the immense 
physical toll and financial strain it puts on our young people, 
our families, and our Nation.
    Our ranking member, Congressman Tom Cole of Oklahoma, would 
love to be here, but we are all doing double duty on our 
various committees. He is held up at the Rules Committee. So I 
am going to ask unanimous consent to enter his remarks into the 
record.
    Ms. DeLauro. To frame the impact of poverty on our 
children, I want to mention the work of Dr. Pamela Cantor, a 
psychiatrist who specializes in childhood trauma. After 9/11, 
New York City Department of Education asked her organization, 
the Children's Mental Health Alliance, to assess the impact of 
the attack on the city's public school children. She found 
children were traumatized, but much more so by growing up in 
poverty.
    Poverty was a daily attack on their well-being. So it is 
for millions of children across our country who go to bed 
hungry, wake up cold, grow up with less, and struggle in 
communities that provide few chances to succeed, to grow, and 
to make mistakes without destroying lives.
    Let us remember that poverty has a pernicious impact on the 
development of children. It is a lifelong scar, and I know that 
our panelists will elaborate on this.
    The subcommittee provides some of the largest sums of 
discretionary funds in the Congress for the well-being of 
children, especially those in poverty. Early childhood 
programs, from the Childcare Development Block Grant to Early 
Head Start, Head Start, and Preschool Development Grants; 
education programs like Title I, Title II, GEAR UP, TRIO, and 
the Education for Homeless Children and Youth Program; and 
Labor programs that help connecting people to the training 
skills they need to make ends meet, such as WIOA training 
grants, Job Corps, and apprenticeship.
    In fact, the budget for the Administration for Children and 
Families in the Department of Health and Human Services is 
larger than the entire budget for either the Department of 
Justice, the Department of Interior, or the Treasury 
Department. So measures to address child poverty are an apt and 
fitting topic for us to review.
    In fact, this hearing is a next step in the process started 
by the Appropriations Committee years ago. It was in 2015 that 
the full committee accepted by voice vote an amendment that was 
introduced by our colleagues, both of whom serve on this 
subcommittee, Congresswoman Barbara Lee of California and 
Congresswoman Lucille Roybal-Allard of California.
    What they wanted to have, to fund--and which is what we did 
on a bipartisan basis--a comprehensive, nonpartisan, National 
Academies of Sciences study of child poverty in the United 
States. The evidence-based report was to ``provide its 
assessment of the most effective means for reducing child 
poverty by half in the next 10 years.''
    I want to commend again. You won't find two more committed 
individuals than Congresswoman Barbara Lee and Congresswoman 
Lucille Roybal-Allard. And I can tell you they are 
indefatigable. They do not give up for one second, and they 
have demonstrated their leadership in this regard.
    The results of their leadership and this subcommittee's 
investment bore fruit last year when the National Academies of 
Sciences, Engineering, and Medicine released their report, ``A 
Roadmap to Reducing Child Poverty.'' Because we invested in 
this report from HHS's Administration for Children and Families 
social services and income maintenance research, it is only 
fitting that we see it through to actually discuss the findings 
and let us put the dollars to work.
    The National Academies report is exhaustive and 
demonstrates the immense national cost of childhood poverty and 
outlines how we can half child poverty in 10 years. Let me 
quickly run through some of the take-aways on the scale and the 
demographics of child poverty in America.
    2015, 9.6 million children lived in poverty. That is about 
the size of the population of the State of Michigan, living in 
households with inadequate economic resources. Two-point-one 
million were living in deep poverty, households with grossly 
inadequate resources. That is about the population of New 
Mexico.
    With regard to race, and I quote, ``The poverty rates for 
black, 17.8 percent, and Hispanic, 21.7 percent, children were 
more than double those of non-Hispanic white, at 7.9 percent, 
children.''
    The report also notes that child poverty is not an 
individual problem. NAS estimates that childhood poverty costs 
the United States between $800,000,000,000 to 
$1,100,000,000,000 annually from increased crime, worsened 
health, lower earnings when poor kids become adults. That is 
the scale and the scope of the problem, then the solution.
    As the NAS report states, and I quote, ``Poverty 
alleviation can promote children's development, both because of 
the goods and services that parents can buy for their children 
and because it may promote a more responsive, less stressful 
environment in which more positive parent-child interactions 
can take place.''
    Study after study has shown that the first few years are 
essential to long-term outcomes for kids. But for our children 
to thrive, we have to support them at this vulnerable time of 
crucial development. The report does not identify a silver 
bullet. Instead, it measures the effectiveness of four 
different packages of policies.
    I will note that the NAS task force, which represents the 
consensus in the scientific community, found that ``Work 
requirements are at least as likely to increase as to decrease 
poverty.'' Instead, to actually reach the goal of cutting deep 
poverty in half, we need to employ one of three policies--a 
universal child tax credit, increases in the SNAP food stamp 
program, or housing vouchers.
    Other policies matter, like SSI, Social Security Insurance, 
but do not get you there. While these are not in our specific 
jurisdiction, they are worthy of our attention as 
appropriators. In particular, the task force said the single 
policy that would do more than any other to reduce child 
poverty is a universal $2,700 child tax credit, which would 
single-handedly cut child poverty by a third.
    To expand and strengthen the child tax credit, I am proud--
and I hope this doesn't sound self-serving, but I am proud to 
have introduced the American Family Act in the House of 
Representatives with Congresswoman Suzan DelBene of Washington.
    The Family Act makes fully refundable the child tax credit 
and the new young child tax credit. And according to Columbia 
University's Center on Poverty and Social Policy, doing so 
would cut child poverty nearly by 38 percent and deep child 
poverty in half.
    Let me close so that we can turn to our witnesses. I 
believe today's hearing is so important because it is vital 
that we delve into the problems that so many of our programs 
aim to solve. As we have said, the Labor-H bills makes 
opportunity real for families so that everyone has a better 
chance at a better life.
    This report, our report that we secured on a bipartisan 
basis, identifies how much is left to do. Millions of children 
remain prisoners of their parents' poverty. Not all of the 
policies may be in our jurisdiction, but what is in our 
jurisdiction, as the Congress and as the Appropriations 
Committee, is to be advancing policies that can help, that can 
help immensely, and then can help immediately.
    I am reminded of the words of Bobby Kennedy, and he said, 
and I quote, ``I believe that as long as there is plenty, 
poverty is evil. Government belongs wherever evil needs an 
adversary and there are people in distress.''
    There are people in distress. There are children in 
distress. There is no time to delay.
    I thank you very much, and now what we will do is we will 
proceed to the opening statements from our panelists. And let 
me briefly introduce our panelists.
    First is Kathryn Edin, professor of sociology and public 
affairs at Princeton University. Next will be Cheryl Brunson of 
the Brookland Manor Tenants' Association, a representative with 
the D.C. Poor People's Campaign. Next is Dolores Acevedo-
Garcia, professor of human development and social policy at 
Brandeis University.
    Next is Douglas Besharov, professor with the University of 
Maryland's School of Public Policy. Then we have Autumn Burke, 
assemblywoman for the 62nd Assembly District in the California 
State Assembly. If you don't mind, I just have to say the 
daughter of a Member of Congress Yvonne Brathwaite Burke, who 
we all remember as someone with a strong and determined effort 
to help people all over this country. Proud to have you here 
with us today.
    Next is Matt Weidinger. Did I--okay. A Rowe Fellow with the 
American Enterprise Institute. And last, but not least, is 
Irwin Garfinkel, professor of contemporary urban problems at 
Columbia University.
    I say this to all of you. Your full written testimony will 
be entered into the hearing record, and so you will be 
recognized now for 5 minutes. Kathryn.
    Ms. Edin. In the early 1990s, I traveled the country 
interviewing hundreds of single mothers about their survival 
strategies, culminating in the book ``Making Ends Meet,'' which 
was published on the eve of welfare reform. But I then went on 
to study other topics.
    However, in 2010, my work took me full circle when I came 
to knock on the door of the home of Ashley. She was a 19-year-
old mother with a newborn. Now on that day, her hair was 
unkempt. She wasn't making eye contact. As she moved her baby 
from one shoulder to the other, she wasn't properly supporting 
her baby's head. And I was stunned to learn that there was no 
cash income coming into this household, not from work, not from 
welfare, or from any other source. I had encountered this 
situation once in my interviews in the early 1990s.
    A thought occurred to me. Could it have been that in the 
aftermath of welfare reform, a new kind of poverty had arisen, 
one so deep we hadn't even thought to look for it?
    At the end of that interview, we gave Ashley $50, as we 
usually do. But I was worried about her and the baby, so I 
asked if we could come by the next day. Imagine our surprise 
when we found Ashley on her way out the door to search for a 
job. She had purchased a home perm and a used pantsuit. There 
was quite literally a spring in her step as she made her way 
down the sidewalk.
    Another thought occurred to me. Could it be in that in the 
world's most advanced capitalist society, a mere $50 cash could 
be the difference between the dispirited woman we had met the 
first day and the motivated job seeker we met the second?
    To answer these questions, I teamed up with Luke Shaefer, 
an expert on the survey that best captures the income of the 
poor, and we documented a dramatic rise in the number of 
households with children living on virtually no cash income 
since the mid 1990s. We then replicated these results with data 
from the SNAP program, finding that about 1.2 million families 
on SNAP reported zero income in 2017, up from just a few 
hundred thousand in the mid 1990s.
    Now for us, these numbers posed as many questions as 
answers. We knew we had to find other families like Ashley's 
and learn more about their lives. So we followed 18 such 
families in 4 locations for many months and sometimes years. 
And from this work, we developed three hypotheses about what 
was behind the rise of this new form of poverty, extreme 
poverty.
    The first was the virtual death of cash welfare. Only a 
small number of States, as you know, have anything resembling 
their pre-reform system. This program is now called TANF, and 
nationwide, only 20 percent of poor--sorry, 23 percent of poor 
families receive TANF. This is down from two-thirds in the mid 
1990s. Most remarkably, when the families we followed had hit 
hard times, it hadn't even occurred to most of them to even 
knock on welfare's door.
    Second, housing instability is a hallmark of life for the 
extreme poor. Our families' stories revealed that doubling up 
was what most often exposed their children to emotional, 
physical, and sexual harm. The number of homeless school 
children has doubled since the mid 2000s. We document a direct 
link between the decline of cash welfare and the rise of child 
homelessness. For every hundred fewer TANF cases within a State 
over a year, there are 14 more homeless students.
    Third, low-wage employment has become increasingly 
perilous. Initially, we thought families in extreme poverty 
might be cut off from the world of work, but their stories were 
full of jobs held, lost, and searched for. Perilous work 
combined with unstable living situations created a toxic 
alchemy, which spiraled many of our families into a spell of 
extreme poverty.
    How do families survive? Food pantry utilization has risen 
dramatically since the mid 1990s, but these and other private 
charities can't begin to cope with the scope of the need. Most 
families in our sample had to trade SNAP for cash, often at a 
steep discount, just to buy basics like socks and underwear for 
their kids and to keep the lights on.
    Many bore a scar on the inside of their elbow from selling 
their blood plasma frequently. In the U.S., plasma donations 
have increased fourfold since the mid 1990s.
    Some claim the U.S. poor are not poor. We constructed an 
index of deep disadvantage that combines measure of poverty, 
health, and intergenerational mobility. We find that average 
life expectancy in America's most disadvantaged places is 
roughly comparable to what is seen in places such as 
Bangladesh, North Korea, and Mongolia. And infant birth rate 
outcomes are similar to those in Congo, Uganda, and Botswana.
    We can argue about the causes and consequences of poverty 
and what to do about it, but can anyone really argue that we 
have solved it?
    Thank you.
    Ms. DeLauro. Professor Acevedo-Garcia.
    Ms. Acevedo-Garcia. Good morning. Thank you, Madam 
Chairwoman DeLauro and members of the committee. Thank you for 
the opportunity to testify today.
    I am a professor at Brandeis University, and I also have 
the honor of being a member of the committee of the National 
Academies that put together the report, ``A Roadmap to Reducing 
Child Poverty.'' I want to thank Representative Lee and 
Representative Roybal-Allard for their critical role in 
creating the National Academies committee.
    My role today is to summarize our main findings. First of 
all, we found that poverty is a very serious problem for the 
United States. It is very serious, of course, for the children 
that experience poverty. It compromises their health, their 
learning, their development, and also their outcomes as adults, 
including their employment prospects and well-being.
    It also costs the Nation between $800,000,000,000 and 
$1,100,000,000,000 per year. So it affects all of us.
    Thirteen percent of children today live in poverty. That is 
9.6 million. And 2.9 percent of children live in deep poverty. 
That is 2.1 million children. Just to have a sense of what 
families are experiencing, the threshold for poverty in 2017 
was $25,000 per year for a family of 4.
    Poverty, of course, has very harmful consequences 
throughout the life course for any child that experiences 
poverty, but it has a stronger effect for some children because 
they are more likely to experience poverty. Particularly 
Hispanic children have the highest poverty rate today, about 22 
percent. Black children have second-highest poverty rate, 18 
percent. White children have a poverty rate of 8 percent.
    Our statement of task directed us first to examine the 
research evidence that child poverty compromises child well-
being. Our main conclusion is that the weight of the evidence 
is that income poverty causes negative effects on children, 
especially when poverty starts early in childhood or occurs 
during a large proportion of childhood.
    The second aspect of our statement of task was to identify 
the major assistance programs that today help reduce child 
poverty. The committee concluded that poverty will be much 
higher without our major programs. Specifically, the EITCs, the 
child tax credit, and SNAP have major effects on reducing 
poverty, and SNAP and Social Security have major effects on 
reducing deep poverty.
    Despite the very important poverty-reducing effects of 
these programs, still 13 percent of our children live in 
poverty today, and 2.9 live in deep poverty. So our statement 
of task, the core ask of it, directed us to examine programs 
and policies with the potential to reduce child poverty by half 
in 10 years. That is, we were asked to try to reduce poverty to 
about 6.5 percent and deep poverty to about 1.5 percent.
    We examined 20 different individual policies and programs 
and found that none of them on its own would achieve the goal 
of reducing poverty by half. However, we found some promising 
possibilities.
    One of them was to increase the EITC by 40 percent, which 
would reduce child poverty from 13 to 10.9 percent, but it will 
have modest effects on reducing deep poverty. Another very 
promising approach is a child allowance that my colleague Irwin 
Garfinkel, who was also a member of the committee, will explain 
during his presentation.
    Because none of these individual policies achieve the goal 
of reducing child poverty by half, we also considered policy 
packages, which are combinations of policies and programs that 
together can achieve the goals. We specifically identified two 
packages that can achieve these goals.
    Package 3, which we named means-test and work package, 
includes expansion to the EITC, the child and dependent care 
tax credit, the Section 8 voucher program, and SNAP. We also 
identify a package, Package 4, whose core element is a cash 
allowance for children of $2,700 per year per child. It has 
some other elements that we can discuss later, but that is the 
main component. These two packages not only reduce child 
poverty by half, but also increase employment substantially.
    In sum, our main finding overall is that child poverty 
today is not an intractable problem. We can reduce child 
poverty today by 50 percent, and we know how to do it. We have 
two specific packages that will allow us to do that today.
    Thank you.
    Ms. DeLauro. Thank you. Mr. Besharov.
    Mr. Besharov. Thank you. Chairman DeLauro, nice to see you 
again. Members of the committee, I am delighted to be here.
    This is an important topic, and I was delighted to be 
invited to speak. I know many of the members of the committee. 
They have produced an impressive report, but here comes the 
``but.'' And the ``but'' is I think it takes too narrow a view 
of the causes of poverty and too narrow a view of what we 
should do about it.
    I think it adopted that view because of the charge given to 
it, a combination of the legislation and HHS instructions, 
which said you need absolute support for the proposal before 
you make it. And let me explain the two examples of why the 
report is too narrow.
    It addresses the problems of single mothers but makes no 
recommendations that I saw--and I am happy to be corrected--
about dealing with single parenthood by itself. I was raised by 
a single mother. I think I sort of came out okay. But there is 
no doubt that being raised in a family with a single mother 
adds extra stresses and makes it much more difficult to be--for 
a child to grow and prosper.
    Childcare, income support, they are only part of the 
answer, and I would have loved to see the report talk about 
more. And the report didn't because the evidence we have about 
single-parent programs is not as strong as giving money to 
people. You give money to people, and you can measure that they 
have more money every day. You give someone a better education, 
and it is extremely difficult to measure that. So my advocacy 
to you is when you consider implementing this report, please 
think about problems like single parenthood.
    The other thing the report talks about, but I think had no 
specific recommendations is about race and discrimination. 
Congressman John Lewis says it is a different America today 
from 1960 and before. And of course, that is correct, but 
racial differences are still great.
    This morning, I saw in the paper that the racial 
differences in schools, in the Boston public schools are so 
great that the advocates are pressing for the State to take 
over the entire school system of the City of Boston. I think 
that is a sign of the problems that go beyond putting more 
money into the system alone, alone here.
    But we have to address these other things. I used to say 
this to Senator Moynihan, and he would say, ``But I am in the 
Senate Finance Committee. I don't have jurisdiction.'' You have 
jurisdiction over some of these programs. So please, whatever 
you do on the rest, think about programs for single mothers. 
Think about programs that address the racial and ethnic 
differences that we have in our society because those are the 
things that are going to make a long-term difference for the 
families that we are talking about.
    So let me kind of be fancy about it. This is what I wrote 
in my testimony. I said, ``The result of the committee's 
approach, because of the mandate attached--'' so this is 
nothing personal--``was to exclude recommendations of new or 
promising ideas that either had not been tested or, at least in 
their initial iteration, had not been found successful.''
    That was one heck of a limitation for the proposals that 
should be made and adopted by this committee and this Congress. 
And it is the equivalent of saying to Silicon Valley, come up 
with a plan for 10 years from now, but assume no additional 
scientific breakthroughs. Just use what you have on the table. 
Don't think about anything new. Don't think about anything 
fresh.
    The members of the committee didn't write that, but that is 
what these--where these recommendations take us. And I think 
that will dry up energy in other areas. So in these 
conversations, I hope we talk about the broad range of causes 
of poverty.
    The last thing I will say in 56 seconds is that in their 
proposals about expanding cash benefits, I think they minimize 
the problem of benefit reduction rates, which is the phase-out 
rate on many of these programs. Many of us on the left as well 
as the right think they discourage work, discourage marriage. 
The penalty for cohabiting parents to marry in most States is 
between 10 and 40 percent of their income between $30,000 and 
$50,000 of income.
    We don't need that. We could fix it. We fixed it in the 
income tax code. We could fix it in means-tested benefits, and 
it would make it easier for people to marry, and they wouldn't 
face the same kind of penalties if they worked.
    Thank you very much.
    Ms. DeLauro. Thank you. Assemblywoman Burke.
    Ms. Burke. Thank you, Chairwoman DeLauro, the committee 
members, and their staff for giving me this opportunity to 
testify before the committee.
    My name is Autumn Burke, and I am the California State 
Assemblywoman representing the 62nd District, an ethnically and 
economically diverse area of Southern California.
    California is the fifth-largest economy in the world, and 
it has the highest rate of child poverty in the Nation. One in 
five children, or 1.9 million children, live in poverty, 
equating to almost one-third of African-American and one-third 
of Latino children.
    Child poverty alone is estimated to cost the U.S. economy 
more than $600,000,000,000 annually in lost productivity, 
increased healthcare costs, and higher criminal justice 
expenditures. High cost of living, income equality, and the 
ongoing impacts of institutional and economic racism all 
contribute to the high poverty rates not just in our State, but 
across the country.
    Historically, efforts to invest in measures to reduce child 
poverty have been hampered by a lack of sustained focus and 
defined holistic plan for addressing the problem. In 2017, I 
partnered with the Grace Institute, and with the introduction 
of my bill, Assembly Bill 1520, we launched an ``End Child 
Poverty in California'' campaign. And I would like to thank 
Congresswoman Lee for her support of that measure.
    AB 1520 did away with the traditional budgetary 
formulations and instead embraced a whole person approach when 
considering the needs of those living in poverty. This, in 
turn, produced an innovative comprehensive framework of 
recommendations for the Governor and the legislature to 
consider with the objective to lift an estimated 1 million 
children out of poverty in California. AB 1520 received 
overwhelming support from both sides of the aisle and was 
signed into law by former Governor Jerry Brown.
    The 2018 State report served as the foundation for 
additional legislative efforts that were undertaken this past 
year. Chief among those was the expansion of the California 
earned income tax credit and the creation of a young child tax 
credit.
    Specifically, my bill, Assembly Bill 91, expanded eligible 
for the CalEITC by raising the maximum allowable income to 
$30,000 a year. This provision dramatically broadened the 
number of families eligible to receive the CalEITC. The act 
also created a brand-new $1,000 refundable young child tax 
credit for families with children under the age of 6.
    The work of this task force served as a policy guidance 
specific to California and was the first of its kind. Since 
then, more work has been done, both nationally and in other 
States, the most significant being the 2019 report ``A Roadmap 
to Reduce Child Poverty'' by the National Academies of 
Sciences, Engineering, and Medicine.
    The ground-breaking Federal study analyzed several poverty 
reduction policies and in general recommended the following 
programmatic changes--expanding EITC, make the child and 
dependent care tax credit fully refundable and concentrate 
those benefits on families with children under the age of 5, 
increase SNAP benefits, and increase housing vouchers.
    While we did not make the California child and dependent 
care tax credit refundable, as recommended by the Federal 
report, our $1,000 refundable young child tax credit largely 
accomplishes the same goal. These changes are expected to 
deliver about $1,000,000,000 to working families or about 
$600,000,000 more than it did the previous year.
    As chair of the Revenue and Tax Committee for the State 
Assembly, I am acutely aware of the direct impact tax policy 
has on the lives of Californians. However, many of the existing 
tax benefits that the State and Federal Government provide are 
only available to those who file itemized tax returns.
    Additionally, credits are often not refundable, which means 
low-income families will receive little or no benefits. It is 
important that any attempts to address childhood poverty be a 
combination of Federal and State tax policy changes and direct 
expenditures like increasing SNAP and housing benefits.
    It must be noted, however, that the fight to end child 
poverty would fall short in California if it does not affect 
homelessness. California's homeless population has reached over 
151,000 people. The vast majority on the streets are not 
residing in shelters. African Americans are disproportionately 
affected, making up 6.5 percent of our total population, but 
accounting for 30 percent of our homeless.
    We can enact new tax policies and make additional 
expenditures, but we cannot stop the momentum of poverty until 
we make sure that every child and family has a home. That is 
why I have introduced Assembly Bill 2405, which would establish 
a right to housing for children and families in California, 
beginning 2026.
    Housing should be a fundamental right, like education and 
having access to clean drinking water. If the only place you 
are guaranteed a roof over your head in America is a prison, we 
are failing as a society.
    In short, I agree with the recommendations made by the 
National Academies of Sciences. However, there is only so much 
we can do at the State. If we are going to reach the goals 
outlined in the study, we are going to need the Federal and 
State governments to take much needed, coordinated action. 
California has expanded the EITC, and it has created the young 
child tax credit, and we are working to establish a right to 
housing.
    The closer we get to eradicating child poverty, the closer 
we come as a nation to achieving the prosperity and equity 
promised to every American. An endeavor such as this requires a 
partnership between both Federal and State government, a 
partnership that transcends elections, partisanship, and term 
limits, and it is only this way that we can truly end child 
poverty.
    Thank you.
    Ms. DeLauro. Mr. Weidinger.
    Mr. Weidinger. Thank you, Chairwoman.
    Chairwoman DeLauro, members of the subcommittee, thanks for 
inviting me to testify.
    My name is Matt Weidinger. I am the Rowe Fellow in poverty 
studies at the American Enterprise Institute. Previously, I 
spent over two decades working for the House Ways and Means 
Committee, with jurisdiction over a number of the policies and 
programs that are the subject of today's hearing and the NAS 
report.
    So let me start by recognizing Representative Lee and 
Representative Roybal-Allard for their work leading up to the 
report and today's hearing. The report is a valuable resource 
that includes, as we have heard, a number of possible packages, 
but it also includes tremendous background information about 
these important issues and how to take a look at them and 
evaluate them going forward.
    What I will do is try to review some important lessons from 
past efforts to reduce child poverty, which offer important 
context for the Roadmap's recommendations.
    First, reducing child poverty is a goal that taxpayers have 
contributed significant resources towards addressing. Figure 
4.5 in the Roadmap displays how annual Federal spending on 
children grew eight-fold in real terms between 1960 and 2010, 
which the report notes is many times larger than the 15 percent 
increase in the child population during that time.
    So taxpayers contribute significant help. It may not always 
be as well targeted as we would like, but there is significant 
assistance that is being provided.
    Second, as the Roadmap notes, recent efforts to reduce 
child poverty have focused on promoting parental work and 
earnings and have resulted in sharp reductions in child 
poverty. The shift from welfare toward work supports generally 
has been bipartisan and has included a number of policies 
designed to make work pay. Those policies include an expanded 
EITC, welfare reforms premised on promoting work, and increased 
childcare and extended eligibility for Medicaid for families 
making the transition to work.
    Those resulted in the parents who were least likely to be 
working before welfare reform, having the most significant 
gains in work and earnings in the years immediately after the 
welfare reform law, which have generally been maintained. As 
the Roadmap notes, rising earnings and work support benefits 
like those, like the EITC and others, contributed to reductions 
in child poverty.
    Here is what the report says, ``Between 1993 and 2016, the 
supplemental poverty measure,'' the measure used by the report, 
``fell by 12.3 percentage points, dropping from 27.9 to 15.6 
percent.'' That is a substantial 44 percent decline in child 
poverty, as the report measures.
    A third lesson is how we measure poverty matters a lot. The 
official poverty measure, as the report notes, ignores a 
growing share of anti-poverty assistance, including EITC, other 
tax credits, and various other anti-poverty assistance like 
SNAP, in its count of who is officially poor. Since 1999, 
spending on benefits that are not counted, the spending that is 
not counted has grown 16 times as fast as the spending on 
benefits that are counted under the official poverty measure.
    So to its credit, the report uses the supplemental poverty 
measure that actually takes account of all those benefits and 
the increased support that has been provided. Using the 
supplemental measure reduces the child poverty rate from 19.7 
percent under the official measure to 13.0 percent in 2015. 
Again, a substantial drop just from using a more accurate 
measure of what is being provided to help low-income families. 
That is about 5 million children different between the official 
poverty measure and the supplemental poverty measure.
    Fourth, the Roadmap includes, as we have heard, several 
different policy packages, including universal supports, means-
tested supports, work-oriented benefits, and so forth. The 
work-oriented proposals, such as expanding the EITC and 
adjusting the child and dependent care tax credit, are more 
consistent with recent efforts to promote work and make work 
pay. The work-oriented package is also the only package 
expected to increase earnings more than it increases spending 
on benefits, which I would say is an important factor.
    In contrast, means-tested support and universal support 
proposals, such as expanding SNAP and housing benefits, 
creating a new child allowance payable regardless of parental 
work, are significantly more expensive, and they also are 
projected to reduce somewhat employment and earnings.
    The final lesson is the relative cost of all these packages 
matter, including for the prospects for enactment. The most 
expensive package would cost an estimated $109,000,000,000 per 
year, and similar proposals have been made in the past decade 
and failed to have been enacted. The Roadmap doesn't identify 
potential offsets, and the current fiscal environment, as you 
all know, is very, very challenging, especially because senior 
entitlements are going to claim a rising share of the Federal 
budget going forward.
    So this may cause policymakers looking to pursue some 
progress using the Roadmap's recommendations to seek the more 
incremental changes whose lower costs and greater consistency 
with recent successful work support policies could improve 
their chances of enactment.
    Outside of the policy packages, the Roadmap also proposes 
more testing of efforts to promote work and strengthen 
families, like Dr. Besharov suggested, which would be 
beneficial and also would likely earn bipartisan support.
    Thank you for the opportunity to testify. Happy to answer 
questions.
    Ms. DeLauro. Thank you very much. Professor Garfinkel.
    Mr. Garfinkel. Good morning.
    Ms. DeLauro. Good morning.
    Mr. Garfinkel. Chairwoman DeLauro, Ranking Member Cole--
thank you--and esteemed members of this subcommittee, I was 
privileged to serve as a member of the National Academies of 
Sciences, Engineering, and Medicine's committee on building an 
agenda to reduce the number of children in poverty by half in 
10 years.
    Thank you, Representative Lee and Representative Roybal-
Allard, for your critical role in creating the committee.
    Professor Acevedo-Garcia has summarized the major findings 
of the report. I am happy to answer questions about the report, 
but my testimony focuses on policy and does not represent the 
committee. I draw on my own research on the benefits and costs 
of alternative income-transfer programs.
    The committee found two program packages that could cut 
poverty in half. One relies primarily on increases in means-
tested benefits, food stamps and housing subsidies, while the 
other relies primarily on universal and nonmeans-tested 
benefits, primarily child allowances or refundable tax credits. 
Either package would achieve a great deal of good. The child 
poverty reduction and fiscal cost of each package are virtually 
equivalent.
    The universal approach is, in my judgment, vastly superior 
in general and specifically for child allowances. What are the 
benefits of universality? First, human dignity. Means-tested 
programs benefits stigmatize beneficiaries. If everyone, rich 
and poor alike, get the benefit, there can be no shame. 
Universality eliminates stigma.
    Second, universality promotes social cohesion. Benefits 
limited to the poor or near poor create a sharp division 
between beneficiaries and taxpayers. Lower middle class 
families, who are just barely better off than the near poor, 
are resentful of poor beneficiaries. Universal programs 
reinforce the notion that we are all in this together.
    Third, universal programs promote social cohesion by 
including the poor and the rich in the same programs. And 
fourth, and most important, universal benefits promote equal 
opportunity and mobility. Benefits targeted at the poor reduce 
benefits as income increases. Benefit reductions are equivalent 
to a tax on income. Means-tested benefits place higher tax 
rates on the poor and near poor than tax rates faced by the 
more affluent.
    This creates what the late Tony Atkinson labeled a 
``poverty trap.'' You can't earn your way out of poverty or 
near poverty because benefits are reduced steeply as earnings 
increase. Universal benefits, by not eliminating benefits as 
earnings increase, avoid the poverty trap and promote 
opportunity and mobility.
    In short, the benefits or virtues of universal benefits are 
great. What are the costs? The fiscal costs of universal 
benefits are generally much higher than the fiscal costs of 
targeted benefits.
    Indeed, this is the only cost or vice of universal 
benefits. But as the Roadmap report clearly explains, in the 
case of child allowances in the U.S. today, the extra costs are 
small. Both the means-tested and universal packages cut poverty 
in half at about the same cost. Why are child allowances so 
cheap? Because the U.S. today nearly has a $2,000 per child 
allowance.
    Most families in the country get $2,000 per year via the 
Federal income tax. The exception are a small group of the very 
richest families and a much larger group of the poorest 
families, those with very low or no earnings. Excluding the 
poorest third of families is both inequitable and unwise. The 
children in these families will become more productive citizens 
as adults earning more, paying more in taxes, less likely to 
commit crime, and less likely to be unhealthy.
    In short, a child allowance of $2,000 per year is a clear 
policy winner because it has all the virtues of universality 
and none of the extra cost. But increasing the child allowance 
beyond $2,000 does entail all the extra costs of universality. 
The lower middle class, the middle class, and even the upper 
middle class all receive greater benefits from a larger child 
allowance than they will pay in taxes to finance those 
benefits. Only those in the top fifth experience higher net 
cost, with the highest cost experienced by the top 1 percent.
    So are the extra costs really a vice? Or in the current 
context, where inequality is as great as during the Gilded Age 
and the Roaring Twenties, is this vice actually a virtue?
    This concludes my testimony. Thank you for the opportunity 
to testify, and I look forward to your questions.
    Ms. DeLauro. I now would like to introduce Cheryl Brunson 
of the Brookland Manor Tenants' Association, representative of 
the D.C. Poor People's Campaign. I want to just welcome you, 
Ms. Brunson. Lived in the Washington, D.C., area her entire 
life. First time into any building on Capitol Hill.
    Ms. Brunson. Yes.
    Ms. DeLauro. So we are delighted that you are here, and 
please know that you are always, always welcome.
    Ms. Brunson. Thank you.
    As you said, my name is Cheryl Brunson, and I am with the 
tenant association at Brookland Manor, and there are some 
things I would like to touch on. But I would first like to say 
that I was born and raised here in Washington, D.C., and 
Washington, D.C., has been my home forever.
    And you know, I just want to say that, you know, Brookland 
Manor is a very family-oriented neighborhood. That is what I 
pretty much--you know, when you are looking for places to live, 
you look for certain features. And the features that I saw was 
that it was very family-oriented. They have adequate place and 
space for the children to play without being in harm's way.
    They had a lot of programs that were funded through the 
police department, and so the police department was running the 
Girls and the Boys Club, which was awesome because it gave the 
kids a sense of what they want to be when they grow up and what 
they could bring to the community when they grow up.
    And you know, now I am parenting, raising my grandkids. My 
kids are older. My oldest daughter is 45, and my youngest 
daughter is 34. My baby is 33. And now I am currently raising 
my grandkids because my daughter, she suffers with psychosis. 
And she is schizophrenic, and she suffers from depression. And 
she wanders off for days at a time, sometimes weeks at a time, 
and I have to put out reports and fliers, you know, to see if 
anybody knows where she is at or she is out of harm's way, or 
what have you.
    And a couple of times, we found her on Second and D Street 
at the shelter. She was lost. She couldn't find her way. So 
that is what we are dealing with, and I have to like keep my 
grandkids pretty much active so that they don't really feel the 
hardship that they are going through.
    But it is kind of hard to do that because the school system 
is failing us as well as these developers. You know, they are 
putting all of these charter schools in low-class 
neighborhoods, I would say, you know? And the teachers are not 
as on-hand as it was when I was growing up. They jot some stuff 
down on the board, da-da, da-da-da, and then the next thing you 
know the kids are looking like, ``Well, what do I do?''
    And they are leaving this to other kids in the classroom to 
put the other kids on point with what is going on in their 
activities. They don't always get what they need that way 
because that child may have missed something along the way, you 
know? So I am really fighting because, you know, in our 
neighborhood, our neighborhood, they are jailing us. They are 
setting our kids up to lock them up.
    Like if you all are running for the bus, you are not going 
to have a problem. But if our African-American kids or young 
adults run for the bus, the police is running after them 
because they think that he is up to something or they are up to 
something. They are tackling them down to the ground, macing 
them. This is true. This is so true.
    And then we have in our neighborhood, they brought in our 
neighborhood, they brought security in our neighborhood as if 
the police wasn't enough. When they first brought the security 
in there, they said it was for our safety, and we are looking 
around, ``Safety from who?'' Because we are all family here.
    And what I found out was they brought the security in to 
harass us, to move us around, to run up on us when we can't sit 
on our front. We can't lean on the fence. You can't smoke a 
cigarette out in front of the building. We have to stand in 
between--they say stand in between the tree box.
    You know what the tree box is? It is the street and the 
sidewalk, between the street and the sidewalk, that is where we 
have to stand at in our community. We have to stand there when 
we are waiting on our Uber. We have to stand in there when we 
are waiting on our cabs. We have to stand on there when we are 
waiting on the bus to get our kids from school. It is 
disturbing.
    Take, for instance, this is what MidCity and these 
developers are doing to these communities that they are 
rebuilding, redeveloping, they say, okay? One of the neighbors 
passed away. He had a heart attack. He had three daughters. One 
of his daughters was living with him to take care of him 
because they knew his heart was bad.
    He passed away. Before they could bury him, Brookland Manor 
was giving them an eviction notice. They wanted them out in 3 
days. They couldn't even bury their father in 3 days.
    Mind you, Douglas Smith worked for Brookland Manor. He 
worked for Brookland Manor for almost 12 years in the Boys and 
Girls Club. I never seen my grandson break down like this and 
cry a day in my life. Douglas Smith was a martial arts teacher, 
and he taught the kids in the neighborhood martial arts out of 
his own money, out of his own time. He did that for the 
community.
    They put that man's stuff out on the sidewalk like it was 
trash. They didn't even give the family enough time to grieve. 
And I see this constantly. I see this all the time, you know? 
People have been put out of the community for owing $1. They 
will return your money back to you if you are $1 short and 
charge you $25 for being late.
    Okay, these people in this community, we have a lot of 
single parents. We have single fathers. We have single mothers. 
We have grandparents, such as myself, raising our kids, and our 
kids can't even play. They can't even run through the community 
without being harassed by the security.
    And our community is sitting on our front, that is an 
infraction. Leaning on the fence, that is an infraction.
    Ms. DeLauro. Ms. Brunson, I hate to interrupt you, but you 
will get a chance to maybe continue in the questions. Everyone 
is given about 5 minutes to speak so that we can get to the 
questions, but thank you for the poignant testimony, and I 
promise you, you will get a chance to complete your thoughts 
and ideas as we move through the questions.
    Thank you so much.
    Ms. Brunson. Thank you.
    Ms. DeLauro. With that, we will start the questioning. And 
as I mentioned in my opening, my bill, the American Family Act, 
would give the same full child tax credit to families earning 
the minimum wage, military families, rural families, families 
with young kids, all those left behind by the tax bill. It has 
been endorsed by scholars across the country. It is consistent 
with the NAS, what they showed us would be the most effective 
policy to reduce child poverty.
    Dr. Garfinkel, is the National Academies of Sciences saying 
that if we had simply extended the child tax credit to the kids 
who were left behind, we would have drastically reduced child 
poverty? And in addition to including the left behind children, 
we also increased the credit to $3,600 for young kids and 
$3,000 for older kids. What would that additional income do for 
children and families?
    Mr. Garfinkel. So the committee talked about the costs of 
child poverty, and it is roughly $1,000,000,000,000 a year. And 
those costs come from less--the children who grow up in poverty 
get less education. They are less healthy. So they incur more 
healthcare costs. They are less productive as adults. So they 
earn less, and they pay less in taxes. More likely to commit 
crime. So just the fiscal costs of poverty are quite high.
    So reducing poverty by, in this case, if you were to have a 
child allowance of $3,000 and $3,500 for young children, we 
don't know. It is hard to say that that would exactly cut the 
costs in half or close to a half, but roughly speaking, 
whatever the reduction in poverty, we should expect that that 
would translate into a reduction in those costs.
    Ms. DeLauro. Let me just ask you this. Rates of single 
parenthood in the European Union are about the same as the 
United States. However, child poverty in the United States is 
much higher because of policy.
    Also I believe that single parents get smaller tax credits 
than married couples because their earnings are lower, and 
families headed by women get lower tax credits likely because 
of pay inequity or other reasons. I was concerned about the 
issue of single parenthood and that effect overall on----
    Mr. Garfinkel. So one of the packages includes a child 
support assurance, a guarantee of a minimum amount of child 
support for all those who are legally entitled to private child 
support. So for low--for low-income families, the men who are 
nonresident parents--and I am speaking in gendered terms here 
because 85 percent of children where the parents are separated 
live with the moms. So the fathers, their pay is low and 
irregular. And when pay is low and irregular, child support is 
going to be low and irregular.
    So the needs of single-parent families are greater than the 
needs of two-parent families, and one way to address that is to 
guarantee a minimum amount of child support. Sweden does that. 
Several other rich industrial nations do that. I have worked on 
that in my own research. I think that would be a very effective 
policy for addressing single-parent poverty.
    But you can't make the benefit too big, and that is where a 
child allowance comes in. A child allowance is general. It 
doesn't favor single-parent families. But if you have a program 
that increases the total guarantee, the total security that is 
available to single-parent families, that would be an effective 
way of addressing that problem.
    Ms. DeLauro. Thank you very much.
    With that, let me yield to my colleague, Mr. Moolenaar.
    Mr. Moolenaar. Thank you, Madam Chair. And thank you for 
holding this hearing today. And also for all of the 
participants, appreciate that very much.
    I want to begin with Mr. Weidinger. You had talked about 
the work-oriented proposals, and you talked about a historical 
kind of examination of what has worked in the past and kind of 
guiding us to what might work better in the future. And I came 
from a fairly rural district. When you look at farms, small 
businesses, people are interested in hiring people. There is 
actually low unemployment and people looking for employees.
    So I am kind of intrigued by the work-oriented proposals 
that you have identified that have been helpful. And I just 
wondered if you had any thoughts on maybe what we are doing 
now, but what we might want to do in the future to help people 
on the income side, as opposed to just focusing on the one 
aspect?
    Mr. Weidinger. Sure. Well, as I recounted in my testimony, 
recent anti-poverty policy history has focused significantly on 
what are known as ``work supports,'' the idea of making work 
pay, providing individuals with additional money if they are 
working. And as the NAS report shows, if you count those 
benefits, if you use the supplemental poverty measure, there 
has been significant progress in reducing child poverty as a 
result of that.
    The report also devised different packages of benefits, and 
one of them focuses more heavily on basically promoting more of 
that work orientation. That includes things like growing the 
EITC, sort of compressing the current child and dependent care 
tax credit, and making it more generous and more available to 
lower income folks to help them with childcare costs.
    If you do those sorts of things, if you do more basically 
of what we have been doing, you will make further progress 
against poverty. It is not as simple as saying where we 
encounter children, and especially low-income children, we will 
give them a check. It is basically more in line with what most 
American families experience, which is go to work, have 
earnings, keep your family out of poverty, and make progress. 
And fortunately, we also have an economy that is supporting 
those sorts of things.
    I would note the Conference Board recently reported that we 
are actually in a labor shortage across the country in blue 
collar and manual service jobs. And that is where wages are 
rising fastest. So many of the types of folks that we are 
concerned about have increased opportunity now, and we should 
be taking advantage of that and helping them move into those 
opportunities.
    Mr. Moolenaar. Thank you.
    And I also wonder--you know, one of the other challenges in 
my district, the opioid situation that I think it is across the 
country, but I wondered if in your studies, kind of how we are 
addressing that challenge, and how that affects child poverty? 
Any of you want to comment on that?
    Mr. Besharov. Many more years ago than I like to think, I 
was the Director of the U.S. National Center on Child Abuse and 
Neglect in HHS. And in those days, we worried about heroin 
addiction and its problems that occurred.
    The opioids are more of an equal opportunity scourge, which 
is to say middle class, lower middle class, white, black, not 
so much Hispanic, are caught up in this. And the consensus is 
that it is partly because of the stresses and the changes 
taking place in the American labor force and also because of 
something in the air that is just depressed. And it is 
reflected in our politics, and I won't get too philosophical 
with the amount of time you have, but it is a giant problem.
    And in the context of today, to not talk about the drug 
treatment side, but I was really so moved by Ms. Brunson's 
testimony. And if you listened to what she was describing, it 
is not as if an extra $1,000 a year or $2,000 a year or, 
colleagues, more than that is going to change the conditions 
she described. And the same is true with the opioids.
    There is something deeper going on, and we have to broaden 
the discussion to get to that, and it is affecting middle class 
kids. And just the last point I wanted to make, as a 
grandmother, she knows one of the big effects of the opioid 
crisis is, again, the renewal of grandparents coming to the 
rescue. I was raised by my grandmother. So I am allowed to say 
that.
    It is a terrific resource, but it is not enough for what we 
have to do. And tax credits aren't going to do it. Sorry.
    Mr. moolenaar. Thank you.
    And thank you, Madam Chair. I yield back.
    Ms. DeLauro. Congresswoman Lee
    Ms. Lee. Well, thank you, first of all, Madam Chair, for 
this really, quite frankly, historic hearing. Really appreciate 
your leadership and really I know your commitment over the 
years has been to end poverty, end child poverty. And so I am 
so delighted this comes under your jurisdiction, and I want to 
thank you very much for this.
    And I want to thank all of you for being here, and it is 
very seldom we get to see really the results of our work on 
this committee. And it was a bipartisan effort, and so here we 
are. And I really thank all of you for being here today.
    Let me say to Assemblywoman Burke, you mentioned being the 
daughter of Congresswoman Yvonne Brathwaite Burke. She was the 
first woman who was pregnant here on Capitol Hill with Autumn. 
[Laughter.]
    So you made history, Autumn, before you even arrived. Tell 
your mother and your dad hello for us, and I am so proud of the 
work that you are doing. And you have a quite a legacy in your 
family, but you have stepped up and moved forward in your own 
right.
    So thank you again for being here.
    I wanted to ask, first of all, Assemblywoman Burke a 
question with regard to national policymakers. Because, yes, 
you took the lead in California, and let me just mention the 
Golden State of California, which we represent, my district--of 
course, Oakland-Berkeley, right next to Silicon Valley--
African-American child poverty rates 32 percent, Latino child 
poverty rates 25 percent, Asian and Pacific American child 
poverty rate 16 percent.
    Outrageous. It is disgusting. It should not happen anywhere 
in the country, but especially in California. So what would you 
suggest that we hear from the work--that we learn from your 
work in California?
    And then my second question is--thank you, Ms. Brunson, for 
being here. This is your Capitol. Welcome. Glad you are here 
for the first time, but many residents of the District of 
Columbia don't really feel connected to their Capitol. So maybe 
you can go back and remind people to come up here as much as 
they can come.
    And you laid out the case and painted the picture of what 
we all understand and know in terms of systemic and 
institutional racism and what black people live with each and 
every day. And so there is a relationship between poverty, 
childhood poverty and racism. And so, Professor, I would like 
for you to kind of comment on that because we have, of course, 
the Fugitive Slave Act; the National Housing Act, which refused 
loans to black people; sharecropping, which tied millions of 
black people to their former masters. So there is damage that 
still has to be repaired before we could even complete this 
work of what the commission has done.
    So I would like for any of you, especially, Professor, to 
comment on that. But first, Assemblywoman Burke, what should we 
know as we follow up from your great work in California?
    Ms. Burke. You know, a few things. Obviously, making sure 
that any tax credit is refundable. But I would also like to 
speak to--and earned income tax credits are important. They are 
an important part of creating the safety net and making sure 
there are no holes.
    However, I would like to address the fact that even in 
rural communities--I don't come from a rural community. I come 
from a very urban community. But a lot of my colleagues, the 
reason they are so supportive of so much of the poverty 
packages, in rural communities there isn't that consistent 
work. And so there are times so many people not just in 
California, but across the country are a week or two away from 
becoming homeless or falling into poverty.
    And so it is not always possible to have an earned income 
tax credit. Those are the holes. Those are the people that fall 
through the cracks. And so it is important, and especially in a 
rural community, where we have some of these other mechanisms 
where we can make sure that people are taken care of. If you 
focus solely on an earned income tax credit, refundable or not, 
you do not create the net that you need to really lift children 
out of poverty and to stop that constant cycle. So that is the 
number-one thing for us.
    Obviously, in California, we are having a tremendous 
homeless issue. We have women in Oakland who recently--who have 
three jobs who are homeless and ended up having to take over a 
house and because--so that they could keep a roof over their 
children's heads. And people ask how could they do that? But 
what would you do?
    What would you do if you were 2 weeks away from losing your 
home or becoming homeless and having your children on the 
street? You would fight and do whatever you needed to do to put 
a roof over your head.
    And so although work is important, it is a very vital and 
important part of this, we really support career and technical 
education and making sure that those who have not had a chance 
to get a college education or community college education have 
an opportunity to do that. And that is all part of looking at a 
whole human.
    But we cannot only look at earned income tax credits. But 
when we do, they need to be refundable.
    Ms. Lee. Professor, can you talk a little bit about 
repairing this damage that underlies all of this?
    Mr. Besharov. Real fast.
    Ms. Lee. Okay, real fast.
    Ms. DeLauro. Go on.
    Mr. Besharov. So I think the debate in this country between 
left and right has gotten a little confused on part of this. 
People on the right tend to think, well, it is a different 
country. I quoted John Lewis. It is a different country from 50 
years ago, but it is not a whole country. And that is what he 
was careful to say. That was what President Obama was careful 
to say, which is we have made progress. There is more to make.
    Some of the proposals that you describe, Congresswoman Lee, 
I think are very needed. I was in Mississippi in 1968 doing 
civil rights work, and what we found was the U.S. Department of 
Agriculture basically didn't give farm aid to African-American 
farmers. Now that was our government, and there are loads of 
other programs like that.
    But the average person on the right doesn't know that 
history and thinks this is 2020. Hey, you guys have the vote. 
Excuse me for being a little, you know, flippant about it. All 
is fine.
    So there is a history, and my advice, for whatever it is 
worth, besides all this other stuff, is to systematically study 
the effects of this very recent discrimination, some of it that 
continues.
    Now I don't think it is all just racial discrimination. I 
think there is good, old economics going on for some of the 
stuff, and I don't want to sound as if I am only on one side of 
this argument. But it is truly the case that if people 
understood all the obstacles created by Government for African 
Americans in every State of the Union, they would be much more 
amenable to some kind of corrective action, and I think public 
education is the first step.
    Ms. Lee. Thank you. Thank you, Madam Chairwoman.
    Ms. DeLauro. Thank you. I just might add, Professor 
Besharov, that not only did they discriminate against African 
Americans, they discriminated against Hispanic farmers, and 
they discriminated against women farmers who never did get any 
recompense for their work.
    Well, now we are out of time here, but we will get back to 
you, okay?
    Let me now yield to Congressman Harris.
    Mr. Harris. Thank you very much, Madam Chair.
    Mr. Weidinger, I read the submitted testimony with 
interest. I read the report with interest. My understanding is 
that if you look at the discrepancies between two-parent 
families and single-parent families, that the poverty rate is 
22 percent with--child poverty rate, 22 percent in two-parent 
family, 9 percent in single-parent families.
    If you look at nonwork--nonworking households, 62 percent 
nonworking households' poverty rate, 7 percent full-time work 
poverty rate. It seems that if you are looking for a strategy 
to half the number of people in poverty that it is glaring that 
you should address these, and yet I think I am struck by how 
the Roadmap pays only little attention to that. It pays some, 
but little.
    So I am going to ask you. I mean, do you believe that 
instituting family support policies--and other countries have 
done it. Institute policies that encourage families, encourage 
two-parent families, and the encouragement of--and I mean, 
being serious about a goal of every able-bodied American being 
trained for a job, have a job, where do those fit into what 
your Roadmap would be?
    Mr. Weidinger. Sure. So you are right. Those statistics are 
from the Roadmap, and they reflect on sort of the reality that 
Dr. Besharov was saying, that the Roadmap was given a charge of 
saying within 10 years, how are we going to lift half of 
children out of poverty, right?
    The simplest way to do that and, as Dr. Garfinkel 
reflected, the most powerful way to do that is simply to 
provide a cash transfer to those households. It is sort of on 
the order of math, right? Somebody is low income. If you want 
to give them food today or cash or whatever that is, they are 
going to be less low income, less likely to fall below some 
threshold of deep poverty or poverty in general.
    What the Roadmap doesn't do as much of, and I would argue 
that some of our Government programs currently don't do enough 
of, is focus on the bigger picture, which is why is the person 
low income? What can we do to help them go to work? What can we 
do to raise their income from work, their earnings?
    We don't tend to hold programs accountable for success in 
that. What little we know about the actual outcomes of programs 
is most are unsuccessful when they try to do that. So in some 
sense, what the Roadmap provides is a challenge to current 
programs to do a better job in those things that we know are 
successful in most of our households in keeping people out of 
poverty.
    The Roadmap has a very specific and narrow charge. It is 
different from that, but I don't think that should distract us 
from the broader, sort of more whole view that you are 
reflecting on.
    Mr. Harris. Well, what do you--you know, look, this is a 
problem that has been around a while. And look, in my opinion, 
the Great Society failed. We have spent trillions of dollars, 
and we still have significant number of people who are in 
poverty.
    So I understand that the charge was, look, how do we do 
this within 10 years? But this is a generational problem, and 
it is probably going to look for a generational solution. So 
two specific questions.
    One is what policies do we have right now that actually 
discourage two-parent families? And what policies should we 
look for if we are going to do generational change, and we are 
going to create an expectation and make available policies that 
would provide for training and employment, what would they look 
like?
    Mr. Weidinger. So policies that discourage two-parent 
families are things like the earned income tax credit. So if 
you are a single low-income person and you marry another low-
income person, you may be bumped out of the range where you 
collect the EITC. That is a payment that is available today 
that can be up to $6,000 per person. If you are not collecting, 
that is pretty significant change.
    That may also knock out things like childcare, food stamps, 
housing benefits, you know, you name it, depending on the 
nature of the family. So we have programs that by their design 
include work disincentives, but the most pervasive of that and 
most powerful of all that is the disincentives to work, when 
you are basically adding a whole other earner to your 
household.
    In terms of functional things to change, I think we should 
hold programs more accountable for actually being successful in 
their outcomes, and that goes for things like the TANF program, 
right? The TANF program was supposed to be about moving people 
from welfare to work. It gave States tremendous flexibility. It 
also said States need to make a contribution on their own to 
support the costs and the effort of all that.
    And what we found is in many States, States have basically 
defunded their State side, and they have absolved themselves 
through sort of rhetorical--or sort of mathematical gymnastics 
of the expectation of engaging people in work. We need to 
reinvigorate those sorts of efforts. So we are actually 
encountering the types of folks that Dr. Edin suggested want to 
work and, with a little bit of help, could go to work.
    Mr. Harris. Thank you very much.
    Madam Chair, I yield back.
    Ms. DeLauro. Thank you. Congressman Pocan.
    Mr. Pocan. Yes, thank you very much, Madam Chair.
    Thanks to the panel. This was very interesting, and there 
is so much that you could cover, but I am going to try to cover 
one subject area, if I can, just because it is related directly 
to appropriations.
    And I understood the tax credits were not going to do it 
all. I understand that line. But let me talk specifically about 
the SNAP program because that came up by so many folks. And I 
have done the home visits of people, the new mothers, and seen 
the despair and the conditions, you know, empty--I can't even 
call it apartments, but very small living quarters.
    But on SNAP, when I first came here--I got elected in '12--
that first session, a number of us lived on SNAP for a week. 
The benefits at that time were about $31.50 a week. And I 
remember going to the grocery store, and I bought a bag of 
oranges, and that took up the biggest chunk of my SNAP benefit. 
Then I bought my ramen noodle soup, bought my peanut butter, my 
bread, and a few other things. And at the end of the week, my 
office told me I was pretty cranky because I wasn't getting 
that much food and certainly not that much healthy food at all, 
even at that $31.50.
    Since then, the benefit now, only because we gave it a 
boost in the last appropriations process, is around a little 
over $29 a week. So we are actually down in real dollars, not 
even inflation dollars. Inflation since then--when I did that, 
it was 10.7 percent. So it should be, if it was at that $31.50, 
it should go up $34.80. We are about 15 percent down in real 
dollars from when I came in 2013 in that program.
    Can you just talk about that a little bit? Because I find 
it pretty amazing. I was always told that is the number-one 
program to keep a kid out of poverty, and yet, you know, here 
we are fighting, struggling to keep it in. And I have a lot of 
ag areas in my district. I want to see all these ag bills get 
done.
    And yet over and over, SNAP becomes this philosophical 
fight that I don't get because--maybe because I did it for a 
week, and I saw how little you could actually buy with that 
amount. But could you just address that one program in 
particular? And Professor Edin, I think you brought it up 
first. So thank you.
    Ms. Edin. So I have studied SNAP with the USDA and talked 
to hundreds of households using SNAP about what they use it 
for, when they run out. I could summarize my research by saying 
in the last 2 or--last week and a half, families run on ramen. 
In fact, in one study I did, I was amazed at the number of 
ramen recipes--of course, ramen is not great for your health--
that I collected.
    But we often think about SNAP as sort of, you know, well, 
at least they have SNAP, as if cash doesn't matter. I mean, one 
of the reason that I have been so enthusiastic about the 
American Family Act is it actually provides this critical 
resource of cash. SNAP is actually intended to run out. It is 
not intended to cover your entire month.
    Mr. Pocan. No.
    Ms. Edin. Families don't recognize this. They tend to, at 
the first of the month, spend all of their money on their other 
bills, leaving nothing for food. So it is a big problem. It 
leaves children hungry.
    And of course, we have documented this rise in $2 a day 
poverty where families really have no cash and only SNAP. And 
in those cases, it is the only semi-fungible resource they 
have. And so if you are spending $600 in SNAP, as Alva May 
Hicks did in South Carolina--sorry, in Mississippi, just to pay 
your light bill, you know, getting $300 in return, your kids 
are going to be very, very hungry.
    It is a great issue. It is one that has I think really 
fallen--kind of is under the radar. But it is probably why or 
one of the reasons why we see an increase over time, even in 
this economy, in very low food security. So families are 
feeling it, and they are especially feeling in the last week 
and a half of the month.
    Mr. Pocan. Yes, and actually, Ms. Brunson, you are nodding 
your head. So can you share your experience?
    Ms. Brunson. Oh, yes. Yes, I would say like with SNAP, as 
Ms. Kathryn said, you know, it is definitely not enough for the 
kids to be able to eat. And I will tell you, a lot of these 
kids are looking forward to school. They are going to school so 
that they can get those meals.
    And my granddaughter personally, you know, every Friday, 
she brings home a bag from school, and it helps. It really does 
help. They call it a ``welcoming bag.'' It is a bag of food 
that she brings home every Friday.
    And you know, it actually has like the little snacks in it, 
like Little Debbies and stuff like that, little juices and that 
kind of thing. And they give her about two or three so she can 
share it with her brothers, you know, other people in the 
household.
    But if it wasn't for that, I am telling you, I wouldn't be 
able to make it. I would not be. And thank God for ramen 
noodles because I am telling you the stamps go so quick, you 
know? To me, it is like where those $50 would cover, would make 
at least 3 to 4 meals a week, it is only making 2 now because 
everything is going up. And just the other day, I was in the 
store shopping, and I am looking around like, ``Oh, my gosh, 
everything in here is so----''
    They are going up. Everything--it just seemed like 
everything is just sky high. And so I make a lot of soups. You 
know, I make a lot of stews, and I have this one particular one 
that kids say, ``What is it?'' I say, ``Oh, this is my penny 
soup.'' That means that I used every penny I had to make that 
soup. And they enjoy it. You have to come up with names and 
stuff like that so that the kids will eat it.
    But most of the time, the kids--and I know in my 
neighborhood, they are barely eating. So I try to buy enough 
snacks so that I can share with them as well, you know? I mean, 
it is really hard.
    Mr. Pocan. Thank you. Yes, thank you very much.
    Ms. DeLauro. Congresswoman Clark.
    Ms. Clark. Thank you very much. I truly appreciate this 
hearing today and thank all of you for joining us. It is so 
hard to capture all your stories and expertise in 5-minute 
segments, but here we go.
    I really want to focus on trauma and how that plays into 
kids in poverty and has lifelong effects. And Assemblywoman 
Burke, we know that childhood trauma, adverse childhood 
experiences can have immense impact on adulthood, including 
one's ability to hold a job, physical health, higher rates of 
diabetes, and other physical conditions.
    I have been very impressed with California's effort to 
begin screening. I am also very impressed with your State 
surgeon general, Dr. Burke, and her focus on this with the ACE 
scores for children. Can you comment on the importance of that 
screening and how California intends to support students and 
children who have those high scores?
    Ms. Burke. So we found, obviously, in California that--and 
I am sure everyone here is aware that African-American women 
are struggling the most from things like miscarriages, 
fertility issues, and a lot of that studies have shown is a 
result of stress. And that starts at the most beginning level 
of implicit bias and not being--and that stress that that 
creates in a woman as she is having a baby in poverty and 
creating that stress as well.
    And so I think that as a legislature, I think we have 
become extremely aware of not just how that affects a woman as 
she is giving birth, but as the children are born. Malnutrition 
obviously--as we have heard Cheryl talk about today, 
malnutrition makes it very difficult for children to learn, 
almost impossible.
    And as a legislature, I think we are starting to take that 
and Dr. Burke's studies and research very seriously and her 
work very seriously. We have not legislated on it as of yet, 
but I think that you will definitely see especially the black 
caucus is taking infant mortality as one of our number-one 
priorities for the year.
    And that is really based on after some of our research and 
some of our work, with her coming to the caucus saying that a 
lot of that is the effect of implicit bias and the things that 
we have--the women have taken on that we have not acknowledged 
as a State or a country.
    Ms. Clark. Thank you.
    And Professor Acevedo-Garcia, I know that you have done in 
this. Can you tell me about how you see anti-poverty measures 
actually being able to help and the connection between reducing 
trauma in children?
    Ms. Acevedo-Garcia. Sure. Thank you for that question.
    So, of course, child poverty in itself is a very 
significant adverse childhood experience. So by implementing 
any of the measures that the committee concluded would be 
effective in reducing child poverty, we would reduce the 
prevalence of ACES because poverty, child poverty is a major 
ACE.
    In addition to that, and I want to acknowledge Professor 
Besharov for his comments about the importance of race and 
racism and discrimination, we also know that there are many 
other stressors that affect families in addition to poverty. 
And one way in which the committee considered this is by 
examining the contextual factors that influence poverty. And by 
that, we mean factors that exacerbate the experience of poverty 
or the negative effects of poverty and also may influence the 
impact of anti-poverty policies.
    We considered things like discrimination in housing and 
employment and the criminal justice system. We also considered 
the effect of adverse neighborhood conditions.
    Although we were not able to incorporate this in the 
simulations, we reviewed very carefully the evidence that these 
factors tend to worsen this experience of poverty among 
children and also can limit effectiveness of anti-poverty 
programs. I think it is very important to recognize that we can 
make anti-poverty programs better if we acknowledge that we 
also have to deal with these contextual factors--again, your 
comment--and that we can do both at the same time.
    So I am going to give one example of that that is very 
close to my interests and my research. We know that minority 
children, specifically black and Latino children, are more 
likely to live in poverty than other children. Also among poor 
children, black and Latino children are much more likely to 
live in neighborhoods of very low opportunity.
    Just to give you a sense of the extent of the problem, 
about two-thirds and half of poor black and Latino children, 
respectively, live in very low-opportunity neighborhoods. 
Twenty percent of white children who are poor live in very low-
opportunity neighborhoods. So although, of course, the 
experience of poverty is very bad for all children, Latino and 
black children are also dealing with a lot of problems in their 
neighborhoods, and I really resonated with your comments in 
that sense.
    So we have a program, the Section 8 voucher program, that 
is an income subsidy to buy housing. But we can make it more 
effective by helping families, and we have programs that are 
doing this around the country, housing mobility programs that 
will help a family that has a Section 8 voucher to achieve a 
better neighborhood. And that way, that is a very concrete 
example of how we can tackle both poverty and ACES or multiple 
hardships at the same time if we are smart about how we use our 
programs.
    Ms. Clark. Thank you.
    Ms. DeLauro. Thank you. Let me also, Dr. Acevedo-Garcia, I 
want to just get a look at what the study showed, that work 
requirements are at least as likely to increase than decrease 
poverty. I just would mention that in Arkansas, 18,000 
individuals were kicked off the State's Medicaid program 
because of work requirement, and the employment rate dropped 
among Medicaid-eligible Arkansans.
    Kentucky's work requirement was forecasted to force at 
least 95,000 Kentuckians to lose coverage. Their new Governor, 
Andy Beshear, has withdrawn the State's work requirement 
waiver.
    I would like to give you the opportunity to respond to that 
assertion that work requirements are at least as likely to 
increase as decrease poverty, if you can.
    Dr. Acevedo-Garcia. Yes, it is very important to understand 
how a committee like our committee of National Academies works. 
For us, everything is driven by research evidence and the 
strength of the evidence.
    Ms. DeLauro. Right.
    Ms. Acevedo-Garcia. So the criteria that we use to identify 
programs included the strength of the evidence on how they 
improved child outcomes, their likelihood to reduce child 
poverty, and other factors such as cost, as well as the 
importance of values that we held as a nation like social 
inclusion or work.
    In regard to work requirements, we did examine the evidence 
extremely carefully, and we concluded that there is no evidence 
at this point to support that work requirements as part of 
social programs that aim at reducing poverty would help reduce 
poverty. So we did not include this approach in our policy 
simulations of either individual policies or packages because 
the evidence is not saying including them.
    Ms. DeLauro. We can have access to what that evidence is 
because, as you know, we are in an environment where there is a 
very big focus on work requirement as it pertains to the SNAP 
program and other programs and where people are in real danger 
unless we can answer that, this question, which is why I just 
wanted to bring it up again.
    Did you want to say something, Dr. Garfinkel?
    Mr. Garfinkel. Yes. So the evidence that is usually 
advanced for the efficacy of work requirements is the welfare 
reform, the 1996 welfare reform.
    Ms. DeLauro. Right.
    Mr. Garfinkel. And most scholars would say perhaps about 
one-third of the increase in earnings was due to the welfare 
reform, but you have to understand that welfare reform was not 
just work requirements, and probably even more important was 
the lifetime limits on eligibility for assistance. And there 
were lots of other elements as well.
    So the citing that evidence is very weak for saying the 
efficacy of work requirements. We do have experimental evidence 
on the efficacy, or lack thereof, in terms of reducing poverty 
for work requirements. So there were two different 
experiments--one in Canada, one I think in Minnesota--that we 
cite in the report. And the evidence from both is that work 
requirements increased work but had no effect on poverty. None, 
zero, zip.
    Ms. DeLauro. Mm-hmm, yes.
    Mr. Garfinkel. And that is because people that were kicked 
off welfare lost the welfare benefit, and their earnings just 
made up for the loss in benefits. That is experimental 
evidence.
    The last point, we were well aware or at the very end of 
our deliberations of what happened in Arkansas. I think it was 
Arkansas that you cite.
    Ms. DeLauro. Arkansas, yes.
    Mr. Garfinkel. Yes. And the evidence there is pretty clear. 
So, and we have lots of other evidence that work requirements 
have been instituted in a way that simply kicks people off 
welfare. I say this as being an advocate 25 years ago of not a 
work requirement, a broader requirement that all recipients of 
welfare should have a social responsibility to either work or 
do something to improve their own situation.
    That--I am an optimist, a great optimist. My wife likes to 
say I am the greatest optimist she has ever met. So I thought 
that that could work, that we could implement such a 
requirement in a decent way, and when someone was having 
trouble getting to work, that would be a sign to us that person 
needs help. That is not what happened.
    Ms. DeLauro. I will just add to that, and my colleagues 
bear with me, I can recall that debate very, very well. On the 
floor of the House, there was an amendment that passed which 
cut I think $25,000,000 from the food stamp program, and in 
fact, there were no wraparound services that were provided at 
all with the welfare bill about getting to work, about what you 
do about childcare, what you do about any of these other areas 
that would facilitate a person's ability to be able to get to 
work and so forth.
    And so we started behind the curve there. And I am proud to 
have voted against it. So I just use that.
    Mr. Garfinkel. Madam Chair, could I just add one--the idea 
that we would work-test Medicaid is just I don't get it. I just 
don't get it. It seems to me like such a bad idea that we--
Medicare, Medicaid, medical care increases people's health. The 
idea that we would try and kick people off that program because 
they are not working. They may be on the program because they 
can't work.
    And the administrative complications of enforcing the work 
test in Medicaid----
    Ms. DeLauro. Thank you. Congressman Moolenaar.
    Mr. Moolenaar. Thank you, Madam Chair.
    I want to follow up on this discussion we are having on 
work because I fundamentally believe that there is dignity in 
work and that it is good for people. And when you think about 
generation after generation, I think there is real value in 
children seeing a parent or parents working and realizing that 
is sort of to your point of social responsibility.
    I wondered, Mr. Weidinger, you had commented in your 
testimony that some of the impressive gains made against 
poverty after the 1996 reform continue to support promoting 
more work and earnings by parents as the better and more 
enduring solution to poverty. And that intuitively makes sense 
to me, although I also am sympathetic with the idea that if you 
get a certain point in your income and then you lose all the 
other supports, that may be a disadvantage.
    And so I wondered if I am sure you looked at that sort of I 
don't know what you would call it, but that ratio. And maybe 
there are ways we could improve that so that people wouldn't be 
penalized for working but would also have the incentive to 
work.
    Mr. Weidinger. Right. So just to follow up on the previous 
conversation, the work requirements in TANF or in other 
programs--but I know TANF best, so I will speak to those--there 
are actually 12 definitions of work. So it is not we are going 
to kick you off if you don't have a job. It is a progressive 
State, a smart State would say how can we help Dr. Edin's 
person go to work by providing the supports that she needs to 
go to work, right?
    And in effect, the TANF law permitted that to be the case. 
How States actually implemented that is a different thing, 
right? So I would tend to agree with Dr. Garfinkel that some of 
this trans--sort of in its translation to policy at the State 
level has devolved in a direction that the original law didn't 
really intend. It let the States somewhat off the hook for 
doing the type of engagement that we know is helpful to people 
to lifting their income and helping them escape poverty.
    On the question of sort of the backside transition, Dr. 
Besharov sort of made reference to this on the phase-outs and 
some of the penalties, there is--I would refer you to a chart 
by Gene Steuerle at the Urban Institute. It is a crazy quilt of 
the marginal tax rate effect of the phase-out of welfare, the 
welfare package that many people receive.
    SNAP phases out one way. Housing phases out another way. 
Childcare may have a cliff. The earned income tax credit phases 
up, is level, and then starts to phase out.
    All those things can create marginal tax rate effects that 
in the $20,000 to $30,000 income range for households create a 
marginal tax rate that is much like that that applies to 
taxpayers in the $200,000 and $300,000 range. Because one day, 
they are receiving a package of benefits, but the next day, if 
they get a raise, and you know, heaven forbid that you marry 
and bring a second earner into the household, all of a sudden, 
that benefit package goes away.
    So there are ways to try to address that and fix that. 
Typically, what they tend to do is sort of do the taper more. 
So have the phase-out be lower. That tends to raise the income 
eligibility for those benefits. It increases costs.
    There are other things that you can contemplate doing. You 
could sort of hold people harmless for those phase-outs for a 
period of time, give them a couple of years, something like 
that to help them transition to work. Maybe get a raise, 
develop more skills, and things like that. So there are policy 
options for addressing those sorts of things.
    Ms. DeLauro. Congressman Moolenaar, I know that Professor 
Edin wanted to respond, but I will give you extra time if you 
have different, other questions.
    Mr. Moolenaar. Oh, no. Please go ahead.
    Ms. DeLauro. Thank you.
    Ms. Edin. So I wanted to respond to both your comments 
about work and about family structure. In terms of work, if we 
look at the Survey of Income and Program Participation, we find 
that among children in--virtually in the spell of living in a 
virtually cashless household, during that year, 70 percent will 
have an adult that works. And the figure is 90 percent for 
other low-income children.
    So there is a high degree now of engagement even among low-
income mothers with very young children in work. I think that 
is good news. What we showed in our book ``$2.00 a Day'' is it 
is much more the challenge of keeping people in very low-wage 
jobs in work because of all the challenges of an increasingly 
perilous low-wage labor market.
    So Matt has talked about factors that discourage marriage. 
I have done a literature review with Sarah McLanahan, my 
colleague at Princeton, about what we know about what enhances 
marriage rates, especially among low-income parents.
    The work of Christina Gibson-Davis has shown that if you 
give an unmarried couple a small additional increase in 
resources, this is through earnings, if their economic 
situation improves, they are much more likely to marry. So 
maybe a child tax credit won't do it all, but an additional 
$5,000 to $6,000 in a household could easily increase family 
stability a lot.
    We also know that investments in excellent pre-K, 40 years 
later, show families with much greater family stability and 
fathers much more likely to live with their children and have 
raised them in their own household. We also see evidence from 
career academies. This program not only raises wages, 8 years 
later, but it dramatically increases family stability, 
especially for men.
    So I think what we know about these days, right, about how 
to get young people to marry, especially low-income young 
people, is to support them from pre-K all the way through to 
college graduation. And even small increases in their economic 
stability have been shown to quite dramatically increase their 
family stability.
    Mr. Moolenaar. Thank you.
    Ms. DeLauro. Thank you. That really gets to the issue of 
dealing with the child tax credit and which I said at the 
outset, it is not the jurisdiction of this committee, though we 
are very supportive of this effort. And as well as what are the 
programs that are within this jurisdiction, which is pre-K and 
worker training and all of these other areas would come 
directly under our jurisdiction that we need to meld those 
together.
    Congresswoman Lee.
    Ms. Lee. Thank you very much.
    Let me first to Dr. Edin. In your book ``$2.00 a Day: 
Living on Almost Nothing in America,'' you lay out the personal 
testimonies and survival strategies that Americans live in 
extreme poverty. Let me ask you with regard to the pre-existing 
Aid to Families with Dependent Children program and its 
relationship to lifting children out of poverty and the new 
welfare reform program under TANF.
    Now personally, okay, I was on AFDC for years. But I could 
go to college also, and I was able to take care of my kids and 
finish college, get my master's degree.
    Now when I was in the legislature, the welfare reform 
program came through the States, and I chaired the subcommittee 
that crafted a lot of the supportive services as it relates to 
welfare reform. But we couldn't get rid of these work 
requirements that were put into place, and a person like myself 
couldn't have continued to go to school because of the work 
requirements.
    So I voted against it. I think that was the worst thing 
Bill Clinton ever did, quite frankly. So let me just ask you 
how you see that right now. In the Academies' report, I don't 
know if you address this specifically, but these work 
requirements now for young women especially who want to go to 
college and who want to take care of their families and earn a 
better income, what is the deal with that in terms of lifting 
children out of poverty?
    And then to Assembly Member Burke, where is California now 
on our welfare on TANF and any of the terrible provisions that 
were put in early on? First, Dr. Edin and then Assembly Member 
Burke.
    Ms. Edin. So TANF has a couple of problems. One is that 
benefit levels have--the value of the benefits, even though in 
many States you just can't get on the rolls. Even if you did, 
in Mississippi, you would still live in $2 a day poverty. I 
believe it is in 17 States you are below 20 percent of the 
poverty level if you get the full benefit. I believe it is in 
the majority of the States where you are under 30 percent of 
the poverty level.
    Some States this last year raised their benefits for the 
first time, but it is still a dramatically reduced benefit. 
This means that people have to work under the table to survive. 
And so even if they were able to go to college, it would be 
much harder to do so because they are doing hair. They are 
selling their plasma. They are babysitting for neighbor's kids. 
Some of them are picking up tin cans on the sidewalk for about 
$1--the return of about $1 an hour.
    I mean, people are really--if you pay people 20 percent of 
the poverty line, and you believe the poverty line is too low, 
how do we think people get by? And so I think there is that 
story of when people fall so low, when benefits decrease on 
average in value by a third since the late 1990s, it is mid to 
early 1990s, that is an additional point to the work 
requirements actually pushing people off and into low wage 
work, the short-term training, which earns them poverty-level 
wages.
    But I would love to hear what is happening in California.
    Ms. Burke. Yes, so we are still--I have been working on 
this for a few years. We are trying to extend the time clock 
eligibility requirement for college from 48 to 60 months, and 
we are also trying to make sure that noncore activities like 
job training can maintain--you can maintain your participation.
    It has been a struggle. I will be honest with you. We have 
been working on it, I think I have done this bill three times 
now, or a version thereof three times. It is one of the great 
challenges. You know, there are noncore activities that you 
need to do, and there are noncore things you need to do to be 
employed.
    You know, whether that is--I am a single mother. So we keep 
talking about single mothers, and I am a black single mother 
sitting here. And I know that--and I have a good job, and I 
have a good career, but I struggle with childcare. And I have 
had to try to find time and space to continue my education.
    It is not easy, and as a State, we are still--we are still 
working on it. We still have further to go in that and 
understanding that getting a job is not as easy as some of the 
folks seem to think it is here, especially as an African 
American or an African-American woman.
    It is just there are a lot of hurdles, and there are a lot 
of hurdles for people in my district. Most people don't realize 
70 percent of students in California enter a high school never 
see a community college or a 4-year university.
    What happens to those 70 percent of young people? And they 
live in my district. And yet it is $25,000 or $26,000 to make 
sure a two-bedroom apartment. It is $70,000 for a child--for 
the L.A. County, $70,000 to pay for a child in foster care. 
This is basic math.
    Ms. Lee. Basic, yes.
    Ms. Burke. It really is. It is $90,000 to incarcerate one 
man for a year.
    This is not--this is basic math, but it is not a basic 
issue. It really does require that we look at a whole human 
being, and that is from the implicit bias of an African 
American, a Latino trying to enter the workforce, or trying to 
enter an educational facility. It is about making sure that 
CalWORKS is extended so that people can get the training and 
education they need while they still can do their nonconforming 
activities.
    This is a complex issue, and to minimize it to just the 
basic ability of going to work, people want to work. I believe 
it is socially equitable, and I think it does give people 
pride. But it is not that simple.
    Ms. DeLauro. Congresswoman Clark.
    Ms. Clark. Thank you. To pick up on that theme, I often 
think of the Boston Globe report that came out a few years ago 
on the median net worth of families in Boston. Black families, 
it is $8. White families, it was $247,000. They had to reprint 
those numbers because everyone thought that $8 had to be a 
mistake.
    And when we talk about the dignity of work, and I would ask 
you, Professor Edin, if you could repeat the statistics of how 
many people are working on TANF and others. Did you say it was 
upwards of 70 percent?
    Ms. Edin. So for--what we did is we followed children in 
the SIPP over a year, and it turns out it is easier to follow 
children because family structures are so unstable. And we 
found that even among children experiencing at least a 3-month 
spell of extreme poverty, having no income in the house, 70 
percent of those children had an adult who had worked.
    Ms. Clark. Yes.
    Ms. Edin. So we see that at 90 percent among other low-
income children. Since the early '90s, the penetration of work 
in the lives of poor households, poor single moms, is just 
astonishing. You know, back--back when I first started doing 
this in the early 1990s, I am getting older, you know, mothers 
really thought there was a ``Should I work? I am not sure that 
is good for me as a mother. I am not sure that is good for my 
kids.'' And now mothers will say, ``Of course, I should work. 
How else do I model the value of education to my children?''
    So people work. One of the things that was so striking in 
our research for ``$2.00 a Day'' was the level of 
identification with work. ``I am a worker. This is who I am.'' 
So work needs to live up to those aspirations that are held by 
low-income families.
    Ms. Clark. That is an incredibly powerful statement, and I 
think part of the problem with these work requirements is that 
it sets up a false paradigm that people are not working out of 
choice because they are getting a handout from the Government, 
when actually, I think we need to be focusing on exactly what 
all of you are advocating.
    And Mr. Weidinger, when we talk about accountability in 
this programs, and we all want that, I think we also need to be 
looking at accountability of our systems. Are we paying women 
equally for equal work? Are we insisting on a minimum wage that 
actually allows families to survive?
    Are we addressing in a realistic way systematic racism, 
systemic racism, and the toxic vestiges we have of slavery? Are 
we looking at voter suppression? All of these issues come 
together, and they have really been drawn into focus for me 
this week with the coronavirus.
    How are we going to make sure that we are able to keep 
Americans safe when there are people who do not have paid sick 
leave, who cannot afford to stay home from the job or multiple 
jobs they have that are allowing them to hold on? How are we 
going to be able to mitigate and have therapies for people who 
are sick if they are immigrant communities and afraid to come 
forward and get healthcare, or they have no insurance or are 
under insured, as we see tests for this coming in in the range 
of thousands of dollars in billing for patients who have needed 
to access testing.
    So all of these policies are not just a theory and a feel-
good, and we have to wrestle with this in a comprehensive way. 
And when we talk about the dignity of work, we have to make 
sure that those workplaces, those salaries are really giving 
people a chance.
    And I could go on forever, but I won't. But I just want to 
thank you for your work, Mrs. Brunson, for being here today and 
sharing your personal experience. It is always people, and we 
all know how we feel about our grandmothers. And I miss mine 
every day.
    But it is we have got to look at kids and say we can do 
better in this country.
    Ms. Brunson. Absolutely.
    Ms. Clark. And it is the connection for all of us is so 
very important, and so thank you for your work. Thank you all 
for being here, and thank you for having this hearing.
    Ms. DeLauro. I think the one thing that struck me, 
Professor Edin, when you were speaking is, you know, we all 
identify ourselves by our jobs. And I think so many of us, and 
I will just say this widespread, that oftentimes we just hear 
folks denigrate people who have fallen on hard times, do not 
have a job. But looking for a job, if you go to any of the 
Workforce Alliance Boards, and you see people at those 
computers looking, looking for a job, people identify who they 
are by their job. I don't care who you are.
    And so when you don't have a job, the stigma of that for 
your own personal self-confidence and you are role model as a 
parent, where how do you explain to your children that you 
don't have a job? So the notion that somehow that people are 
dogging it, that they don't want to work is--it really is 
humiliating and denigrating to individuals and what their lives 
are about and what their set of values are about.
    I want to--by the way, nobody is on the clock here. I just 
thought we would just have a conversation. But I do want to 
bring up because this is important. We are dealing with a 
budget that this administration has put forward. And I am 
asking everyone here. It requests to eliminate a block grant, 
more than 50 programs that benefit children and their families.
    That includes Preschool Development Grants; the Low-Income 
Home Energy Assistance Program, LIHEAP; the community service 
block grant program; foster youth programs, among others. It 
makes egregious cuts to Medicaid, to the CHIP program, and to 
TANF.
    Now we can sit here and say all those things are not going 
to happen, but some of them are going to happen. And so what I 
really do--let me just open this up. What is the impact that 
these kind of cuts will make on whether it is California or 
other places? What happens when there are no longer the 
investments in preschool slots, childcare slots, workforce, 
homelessness programs, apprenticeship programs, internship 
programs that deal with 70 percent of the people in this 
country who do not have a 4-year liberal arts degree?
    Let me just--you know, let me just throw it open here. What 
happens when we are faced with a budget like that? Go ahead.
    Ms. Edin. I think Matt could also--I think this is a point 
of agreement between us. What we know from the TANF block grant 
is that if you give block grants and you don't really supervise 
them, so to speak, you create really a race to the bottom. And 
Governors have been using the TANF block grant as a fungible 
stream of income for pet projects.
    So we see in Michigan, we are giving away college 
scholarships to middle class students. In Louisiana, we are 
supporting crisis pregnancy centers. It is true that many 
States fund their State-level EITCs through TANF, but that 
again goes to the working poor and not the categorically needy, 
as you were saying. It misses a large chunk of families who are 
the most needy.
    So, and also in reflection to Matt's remarks, only 8 
percent of current TANF dollars are going to job training. How 
could a proposal that was supposed to support job training and 
job placement be spending so little on the program.
    So I would say what is going to--and by the way, only of 
the $16,500,000,000, only a tiny fraction now is going to cash 
benefits. So most States are figuring out ways to basically 
siphon off most of the money, and I think that is what we could 
expect in the future. That is our most current model.
    Mr. Weidinger. So since you raised the budget, I would 
advise you think about this even more broadly. I included in my 
testimony a summation of the coming investments in the next--
expected in the next decade, prepared by the Pete Peterson 
Foundation, and found that for every dollar of spending that we 
will do above our current levels, we will spend 67 cents of 
that on senior entitlements. We will spend 3 cents of that on 
children.
    So I don't need to tell you, as appropriators, you are 
feeling the squeeze of the broader budget issues that we are 
facing as a country with some of this is demographics. It is 
understandable. It is the way it is.
    But I think everybody on this panel can agree that 
children's programs are under increasing pressure because of 
the broader budget dynamics that we are facing as a country. 
And until we actually deal with those, these programs will 
continue to be under pressure.
    Ms. DeLauro. Well, I just would say this, too, Mr. 
Weidinger, and I appreciate, and you know, in your testimony, 
you talk about using the supplemental poverty measure, et 
cetera, and where do we go and what we do. But we literally do 
not focus on--and I just have to say this in response is that 
we provided the biggest tax cut, the richest one-tenth of 1 
percent of the people of this country. We did that in 2017 
without--you know, in an immediacy.
    We are not thinking about a deficit. We are not thinking 
about anything else. And where we go all the time when we think 
of what economic pressure we have, we focus on seniors, as we 
contrast them with kids. Let us look at the top of the list 
here and find out who the beneficiaries, the real beneficiaries 
are of our current policy.
    And when we can get to leveling that playing field, then we 
will have the kind of money that we need and the resources that 
we need to make sure that our kids are taken care of and that 
our seniors can retire and have healthcare and a decent way of 
life.
    It is not you. I am not shooting the messenger here. I just 
get so frustrated with the notion that we never take up what 
happens at that level.
    Dr. Garfinkel.
    Mr. Garfinkel. So if it is okay, I want to come back to the 
importance of cash for a moment.
    Ms. DeLauro. Fine.
    Mr. Garfinkel. Because----
    [Laughter.]
    Ms. DeLauro. I always think that is important as well.
    Mr. Garfinkel. So, so as a long-run matter, capitalism is 
the best system we know for reducing poverty. But capitalism 
creates economic insecurity by its nature, and that has gotten 
worse recently as the labor market has changed and gotten more 
insecure. And several people have said, gosh, just what would 
$2,000 or $3,000 or $5,000 or $6,000 do to--how would that 
improve the lives of families with low income with children?
    And the answer is it creates a base, a secure base. And it 
reduces economic insecurity. Most especially at the bottom, but 
I could tell you it extends well above the bottom. The most 
important finding that come out of the Poverty Tracker study in 
New York City, which is a random sample of the whole city, is 
only about 20 percent of the population is poor in any given 
year.
    If you look over 4 years, it is close to half. And for 
those people who aren't--some of them who aren't poor, some who 
are poor, measures that we call hardship, but I like to think 
of them as economic insecurity, things like not going to a 
doctor because you couldn't afford it. Running out of money to 
buy food. Not being able to pay your housing, so you are 
possibly, in the worst case, thrown out of your housing. Not 
being able to pay bills, electric bills. Getting your heat 
turned off.
    Those kinds of insecurities in any given year in New York 
City, it is like 30 percent. And over the period of 4 years, it 
is closer to 60. It is above 50 percent.
    If we can find a way to stabilize the incomes, which child 
allowances would do, that is a huge contribution not just to 
the poor, but to the lower middle income, to the near poor, et 
cetera. Capitalism will do the work in the long run so long as 
we share the fruits of the capitalist system.
    Ms. DeLauro. I know my colleagues want to get into this, 
but you had a comment you wanted to make, Dr. Besharov, and 
then we will get both of you.
    Mr. Besharov. So I just want to point out--so I think many 
of us would agree with the kinds of things that you said, 
Chairwoman. But let me point out the following with this big, 
long report about ideas to reduce poverty, and most of the 
programs you described that you were feeling so angry about 
being proposed to be defunded didn't make it into the report.
    Now, right? Wait, no. So, so, to me, I will just close in a 
minute or two.
    Ms. DeLauro. Oh, no.
    Mr. Besharov. So the challenge is both to make those 
programs that you listed work better and to get the American 
people to believe they work better. And I can tell you the 
consensus about job training programs is don't do them, right, 
among the technical people who look at this.
    Yes, and the committees here aren't very excited about 
putting money in job training either. So, and I didn't see a 
big recommendation to increase job training in the report 
either because their requirement was to look at the research 
and say what works.
    Now I was against that requirement. I think you should try 
all these things, but the necessary product, and I know 
politics I can't help here. But the necessary and part answer 
to what you said I would say is we have to improve those 
programs so that the American people believe more in them.
    Sorry.
    Ms. DeLauro. Everybody believes in the LIHEAP program, I am 
sorry, Mr. Besharov. And boom, it has been eliminated. Go 
ahead, Dolores, and then Barbara.
    Ms. Acevedo-Garcia. Yes, just very quickly because I am 
obviously here to represent the committee. So we did--we did 
examine work training, and we did include one promising 
program, WorkAdvance, in one of the packages. You are right 
that we did not look into other programs. Part of the reason, 
as everyone knows, is that the task was to look at programs 
that could reduce poverty within 10 years. So I just wanted to 
clarify that.
    In regard to block grants, very important, we did examine 
whether they may be able to reduce--first, we look at the 
evidence carefully, and the evidence is not there to support 
that block grants could reduce poverty. And actually, the 
discretion that they give to States could very well work in the 
opposite direction.
    We have been holding different sessions around the country 
to disseminate the report. In Boston, we had one that was 
focusing specifically on the intersection between child poverty 
and racial and ethnic equity. One of our centers has conducted 
very powerful research that shows that block granting the TANF 
program, one of the things that it has done, many people here 
know, is that it has increased the percent of funds that go to 
the other categories. That is not childcare and other things 
that are legitimate uses for the other categories.
    And one of the things that we found is that States in which 
the caseload have a higher proportion of African-American 
clients are more likely to be using the other categories, again 
reinforcing this idea that we have to be looking at these 
issues simultaneously. It is not only child poverty, but it is 
issues of racism that are very much present in our society.
    Ms. DeLauro. Barbara.
    Ms. Lee. Yes. And thank you all again for being here.
    I wanted to just say a couple of things. First of all, 
child poverty rates right now constitute for me a state of 
emergency. It has so many different layers. You talk about 
systemic racism. You talk about early childhood development. 
You talk about homeless children. I mean, you know, in terms of 
just the ability for them to have a stable address and how do 
they go to school and going to five and six schools a year and 
moving around.
    I mean, the next generation of children who are living now 
below the poverty line are going to have a very difficult time 
just negotiating living in America. And so I am at the point 
now where I am saying, and I am glad Andrew Yang mentioned this 
several times during his campaign, about going back to a 
guaranteed annual income, something that will help stabilize 
this state of emergency until we figure this whole policy thing 
out.
    Because I am so worried at this point that this country is 
becoming a country again of it is two countries. One that is 
below--that is unequal, and the other that is just off the 
scale in terms of the 1 percent, in terms of the money and the 
greed in many respects that now we see at each and every level.
    And so we have got to somehow--and I don't want to see 
another 20 years go by and more kids falling into poverty 
without something dramatic and it is something that is outside 
of the box. And so just can you comment on a guaranteed annual 
income or some level that we will not allow people to fall 
beneath, given the state of emergency with our kids?
    Ms. Edin. So the reason I am advocating for something like 
the American Family Act rather than guaranteed family income is 
I actually believe the insight of David Ellwood when he came to 
the realization that good social policy has to be attuned to 
American values. So what the American Family Act does, and I 
want to quote from my quote when I reviewed the proposal, is 
that it sends a clear message that society values and supports 
the essential tasks of parenting and recognizes the special 
burden that all parents of children, especially young children, 
face.
    Low-income--the reason to give low-income parents with 
children essentially a guaranteed income is because they are 
doing something for society that is essential. Now my 
democratic self might like something bolder, but it seems to me 
that this is something all Americans can agree on. We value 
parents.
    Right now, fertility is going down in the United States, 
and it could be bad. It is tough raising kids on a low-wage 
job. So to the extent that this act sends a powerful social 
message, ``We value you.'' It brings dignity, right, just in 
the way that Professor Garfinkel described, and it reinforces 
the critical task of parenting.
    So that was a little off topic, but I will turn it over.
    Ms. Burke. So we do in California have a bill introduced, 
and we will introduce a bill that will come to our committee. 
And so we will actually have the universal basic income 
conversation in California this year. And it is an important 
conversation to have. That stability is incredibly important.
    And you asked, Chairwoman, what would be the consequences 
to the State if, in fact, there was this kind of pull-away from 
these programs, and I am lucky to live in a State where our 
Governor values a lot of these programs, and so we would 
probably try to backfill a lot of that. However, we do have our 
own other crises. We have a housing crisis that we are trying 
to figure out, and we also have wildfire and other incidents.
    And so how long we would have the capacity to do that, I 
don't know. But for others in other States, I think it would be 
more of a challenge. It would be devastating.
    Ms. DeLauro. Congresswoman Clark.
    Ms. Clark. So much to discuss, so little time. But you 
touched on housing, and the affordable housing crisis is such a 
part of this and how we make sure that families have stable 
housing so they can build strong, healthy families that are 
employed. It is not easy when you don't have that fundamental 
housing component and are forced to move away from our job 
centers as we see gentrification, rising cost of housing, 
certainly something we are struggling with.
    But I also wanted to ask you about the role of childcare 
programs like Head Start, programs making childcare affordable. 
In Massachusetts, one year of infant and toddler care can be 
more expensive than college tuition for families. And often the 
transportation voucher, if you are lucky enough to get a 
voucher, is so underfunded. And to say to parents and 
students--parents who are students that you have to have these 
requirements, but your voucher is only good for 8 hours is just 
an impossible balance.
    So if anyone could just talk about the importance of making 
sure that we are having early, rich early education 
environments open to every child would be great.
    Yes?
    Mr. Garfinkel. So the committee did not consider programs 
that would--of the kind you are talking about. Not because we 
didn't think they were important, but because the charge to 
reduce poverty in 10 years, just consider, for example, 
universal pre-K. I would say there was a lot of sympathy in the 
committee for that kind of proposal.
    But if you start if someone is 3 years old now, 10 years 
from now they are only 13. So you don't see the reduction in 
poverty. We recommended that there be another committee that 
look at long-term investments in children. We think that is 
very--I would say everyone on the committee believed that was 
equally important, but focusing on cash programs also had a 
great virtue.
    And I want to come back to your question about trauma 
because so I think insecurity potentially leads to trauma. And 
I must say one of my very favorite experiments, people love 
experiments. In general, I don't think social science 
experiments are the gold standard. But there are other kind of 
experiments, like with animals, that we would never do with 
human beings.
    But, and now we are even pulling back with respect to 
monkeys. But I will tell you about an experiment that showed 
that insecurity was actually possibly more damaging than just 
simply poverty. And there were three conditions, and this was 
with Rhesus monkeys.
    One was the monkeys had to work really hard. The mothers 
had to work really hard to find food. Second condition, it was 
relatively easy for them to find food. And the third condition 
was random alternation of those two conditions.
    And the monkey mothers that had a poor environment, their 
mothering and their child outcomes, their offspring outcomes 
were worse than the monkeys growing up in the rich environment. 
But the ones in the insecure environment, where they didn't 
know what was coming because it was random, they were far 
worse, far worse.
    And talk about trauma, and here I am going to 
anthropomorphize--or whatever the word is--the offspring would 
curl up, as if they are depressed, in the fetal position, 
leaning into their mothers for 15, 20 minutes at a time. That 
was not uncommon outcome.
    So that is how I think insecurity potentially relates to 
trauma.
    Ms. Clark. And we have seen that with work that we have 
been doing around trauma, addressing it in early education in 
our school systems. And then we come back to so many of our 
teachers and early ed professionals have so much unresolved 
trauma, it is a very difficult position for them to become that 
person of trust.
    So it is a generational problem, but I think we are 
beginning, and California is leading the way in putting this 
together as one of the markers that we have to look at. And we 
know that being in poverty is an inherently traumatic event and 
that like you said, that insecurity, that not knowing. Maybe 
one week, there is good meals, and the next week there isn't. 
Moving, whatever the change is, to adjust to a rapidly changing 
economic condition in the family, it has profound effects that 
are real and have--you know, if we really want to bend the 
healthcare cost curve, we better start looking at this.
    Thank you all again.
    Ms. DeLauro. Ms. Brunson.
    Ms. Brunson. Yes, I want to speak on what he was saying 
about poverty as far as with the school system and the 
teachers. You know, the teachers, like I said, they are not 
teachers like we grew up with. And the teachers are being 
bullied--I mean they are bullying the children, you know? And 
that is where I think that the poverty comes in at with the 
kids that their mentality and everything, they don't really get 
everything that they really need from the school system.
    Because one of the teachers told my granddaughter that he 
was going to make it his business for her to stay back. Now 
what kind of stuff is that to tell a child? The school system 
is failing our kids.
    Ms. DeLauro. I just want you to know on that note, where I 
went to high school, the principal said to me--because I was a 
cut-up--she said to me, ``You will never amount to anything.'' 
[Laughter.]
    Ms. DeLauro. So, but I had an unbelievably strong support 
system.
    Ms. Brunson. Absolutely.
    Ms. DeLauro. That I could fall back on and a support system 
that said, ``You go, girl.'' That is what it was all about. And 
that is what is critical.
    I want to give you, what we want to do is just like very, 
very briefly, if you wanted to tell us something, what we 
should do, and I just want to go quickly down the line so we 
are going wrap this--we are going to wrap up the hearing.
    Why don't we start with you, Professor Edin?
    Ms. Edin. So I would say, whatever you do, think about 
whether it incorporates the poor and brings dignity. I think 
the American Family Act, which is a little bit more generous 
version of what was in the report, does that.
    Ms. DeLauro. Cheryl.
    Ms. Brunson. I would like for you to think about the 
children and child poverty because in the middle class area and 
especially in Ward 5, the children are suffering.
    Ms. DeLauro. Yes?
    Ms. Acevedo-Garcia. We have a responsibility to reduce 
child poverty by half today because we know how to do it.
    Mr. Besharov. I am embarrassed to be so small bore. Ask the 
CRF to give you a report on marginal tax rates and work in 
marginal tax rates and marriage because you can do something 
with that.
    Ms. DeLauro. Okay. Thank you.
    Ms. Burke. I would say prevention is key. Prevention 
includes universal preschool, and I would say that there is a 
new class of people. They are working poor, and the notion that 
they are stupid or lazy is outdated and ridiculous.
    Ms. DeLauro. And demeaning.
    Mr. Weidinger. The report provides a range of options. We 
tend to think in this town of all or nothing. We shouldn't. 
There are important incremental possibilities within the report 
that are flagged. So I would point your attention to those.
    Ms. DeLauro. Thanks. Dr. Garfinkel.
    Mr. Garfinkel. So I understand that as an academic from 
Columbia University and heading of a poverty center, I can't 
endorse the American Family Act. But what I can say is that if 
something like the provisions that are in the act were 
enacted----
    [Laughter.]
    Mr. Garfinkel [continuing]. It would be a good thing.
    Ms. DeLauro. Okay. Thank you. Thank you.
    And just to wrap up, by the way, also--and the personal 
stories that people tell--yes, do you want to make a statement?
    Ms. Lee [continuing]. Oh, yes, let me just----
    Ms. DeLauro. Yes, let us go.
    Ms. Lee [continuing]. Thank you all for your presence, but 
also for your suggestions. And Mr. Garfinkel, Professor 
Garfinkel, you mentioned the report had recommended us look at 
what some long-term investments in alleviating child poverty 
would be. I think we have enough here to talk about some 
follow-up next steps from the report, but also I would add, 
Madam Chair, I think we need to take on looking at this issue 
and put into our report language, looking at the issue of 
systemic racism in child poverty.
    Because everyone here has mentioned some of these 
underlying issues, and until we really bring that forward, 
sweep this out from under the rug, we are going to hold the 
line on some of the programs. We are going to maybe be able to 
do better with some. But we will never be able to address the 
disparities with children of color as it relates to poverty.
    So I think we need to have something in our report this 
year that addresses long-term investments as well as the issues 
of poverty and racism. And hopefully, the academy can be part 
of this.
    So thank you again very much.
    Ms. DeLauro. Those are great suggestions, and I also would 
like to ask all of you if you would bear with us as we try to 
look at some of the recommendations and also try to figure out 
how we craft the kinds of policy initiatives that we can moving 
forward. You all will be just an excellent resource.
    What I was going to say is I don't remember all the 
details, but my folks were evicted many years ago, and our 
furniture was out on the street at 79 Pearl Street in New 
Haven, Connecticut. And I can only recall what the stories are 
about what that did and what that meant to my folks in trying 
to make sure that they could be gainfully employed and take 
care of their only child.
    I would like to say this, that you know there are people in 
this country years ago who fashioned a social safety net. They 
were Democrats, and they were Republicans. They were not naive 
people. They were people who realized that as we moved down the 
road of industrialization and of moving forward, that they had 
the potential of people being left behind. And so what they 
tried to do was to put in place the social safety net that 
would keep people from falling behind.
    And for those who would say that nothing has happened as a 
result of those social safety net programs really, quite 
frankly, don't look at the data. Let us just look at the data, 
and you have--this is in 2018--4.7 million children lifted out 
of poverty because of the EITC and the CTC, 1.47 million from 
Social Security, 1.38 million from SNAP, 936,000 housing 
subsidies, 800,000 school meals, 497 from SSI, 429 from child 
support, 216 from TANF, 160 from WIC, 103 from the UI program, 
unemployment insurance, 72 from LIHEAP, 27 for workers 
compensation. These programs work. They work.
    And what we need to be doing is to strengthen these 
programs and adding on to them as we go forward and not fall 
into our own trap that says that people are not working as hard 
as they can and doing what they need to be able to have 
economic security.
    And that is why what you have done here today, all of you, 
I thank you so very, very much for your contribution to this 
effort. It means a lot to all of us. And again, I want to thank 
Congresswoman Barbara Lee, Congresswoman Lucille Roybal-Allard 
for in 2015 having the vision that this would be a direction 
that we needed to go in to study what is going on with 
childhood poverty.
    With that, the hearing is closed. Thank you.

                                          Wednesday, March 4, 2020.

   NATIONAL INSTITUTES OF HEALTH BUDGET REQUEST FOR FISCAL YEAR 2021

                               WITNESSES

FRANCIS COLLINS, M.D., PH.D., DIRECTOR, NATIONAL INSTITUTES OF HEALTH, 
    ACCOMPANIED BY DIANA BIANCHI, M.D., DIRECTOR, EUNICE KENNEDY 
    SHRIVER NATIONAL INSTITUTE OF CHILD HEALTH AND HUMAN DEVELOPMENT
ANTHONY FAUCI, M.D., DIRECTOR, NATIONAL INSTITUTE OF ALLERGY AND 
    INFECTIOUS DISEASES
GARY GIBBONS, M.D., DIRECTOR, NATIONAL HEART, LUNG, AND BLOOD INSTITUTE
NED SHARPLESS, M.D., DIRECTOR, NATIONAL CANCER INSTITUTE
NORA VOLKOW, M.D., DIRECTOR, NATIONAL INSTITUTE ON DRUG ABUSE
    Ms. DeLauro [presiding]. The subcommittee will come to 
order.
    Good morning, all. Dr. Collins, welcome back to the Labor, 
HHS, Education Appropriations Subcommittee. Let me also welcome 
all of you. We have five institute and center directors who are 
joining in this morning. Dr. Bianchi, director of the Eunice 
Kennedy Shriver National Institute of Child Health and Human 
Development. It is almost as long as the Subcommittee on 
Health, Education, Human Services, and Related Agencies here. 
So anyway. Dr. Anthony Fauci, director of the National 
Institute of Allergy and Infectious Diseases; Dr. Gary Gibbons, 
director of the National Heart, Lung, and Blood Institute; Dr. 
Ned Sharpless, Director of the National Cancer Institute; and 
Dr. Nora Volkow, director of the National Institute on Drug 
Abuse.
    Again, welcome, welcome, welcome to all of you. Actually, 
Leader Hoyer asked me this morning, he said, do you have the 
NIH coming? I said, yes, indeed. He says, and are you 
ultimately going to be able to get all the institute directors 
to come up, and I said, we will. And he said it is one of the 
most remarkable hearings that we have, and we thank you for the 
great work that you do. And what a difference you make in 
savings the lives of the people of this great country.
    At the start, let me just touch on the matter of the 
coronavirus. I want to just say thank you to the director, to 
all of the institutes. I want to just say a particular thank 
you to you, Dr. Fauci, and I want to say that our public health 
experts deserve our praise for what is the excellent work that 
you are doing on what is clearly a matter of national 
importance and national urgency, as you know, in so many ways.
    Today we will be discussing the 2021 budget request for 
NIH, and I want to note that I intend to invite an additional 
panel of institute and center directors to testify in front of 
the subcommittee later this year because I believe that we all 
learn a lot from all of you. That happened with us last 
September as well.
    Before we get into the NIH's 2021 budget, let me just, if I 
can, bring you up to date. I think you know that the committee 
has been working hard to develop an emergency supplemental, you 
know, to be able to fund the response of this outbreak, and 
there are still one or two issues that remain, you know, open. 
But with all speed and deliberation, the intent is that, and 
the chairwoman can speak to that if she cares to. But we are 
looking at trying to move as quickly as we can between today 
and hopefully tomorrow, but before the end of this week, to get 
this finalized and voted on.
    So the funding, you know, includes funding for the NIH. The 
funding will support research on diagnostics, therapeutics, and 
vaccines. For COVID-19, that will be critical to managing the 
outbreak and, again, to save lives. I also might want to note 
that NIAID is not starting at square one; rather, years of 
building research on coronaviruses and vaccine development. And 
I just want to say to the whole subcommittee, to my colleagues 
on both sides of the aisle, have invested sustained investments 
in biomedical research that the committee has made in recent 
years. And I am very, very proud that the Congress has 
increased the NIH funding by $11,600,000,000, 39 percent over 
the past 5 years.
    Last year alone, the Congress provided an additional 
$2,600,000,000 increase over the Fiscal Year 2019 level for the 
NIH, and this was in a bipartisan, bicameral way that this was 
done, and we are very, very proud of that. I know certainly the 
ranking member is, and we worked closely together on this 
issue. I would just say to you that, you know, I think the 
President's budget would reverse this project. The budget 
proposes to cut NIH funding by $3,300,000,000, 7.9 percent 
below the 2020 level. This would result in NIH making nearly 
1,800 fewer new grants to research, a reduction of 16 percent.
    This subcommittee will not be pursuing these cuts. We 
intend to move forward with a continued increase investment in 
NIH to build off that progress that we have made in recent 
years, and, again, that will be on a bipartisan basis. I know 
that, you know, as I know anything about where we are going and 
what we are doing. I am especially proud that the Congress 
provided $25,000,000 for research on firearm violence 
prevention, including $12,500,000 to the NIH. I was glad to see 
that the NIH budget request maintains funding for research on 
flu, including on the development on a universal flu vaccine. 
However, I believe we need to continue to grow this research as 
we did in Fiscal Year 2020, and I look forward to hearing more 
about what NIAID will accomplish with these additional funds.
    I was disappointed to see a $559,000,000 cut to the 
National Cancer Institute at a time of unprecedented promise in 
cancer research that has led to more and more promising 
researchers seeking NCI research grants. I think cutting the 
funding for NCI sends the wrong message. In fact, with only a 
few exceptions, the proposed cuts to NIH would touch every 
institute, almost every field of research.
    Last year, in addition to new funding for several 
initiatives, we were able to provide a 3.3 percent increase to 
each NIH institute and center. We need to keep up that momentum 
and not reverse it. I believe my friend and my colleague, 
Ranking Member Tom Cole, will concur. Biomedical research is 
one of the most important investments that a country can make 
because it gives the gift of life, which we need to support, 
and I promise you that we will.
    Thank you again for everything that you do, and I look 
forward to our conversation today. And let me turn this over to 
my good friend from Oklahoma, the ranking member of the 
subcommittee, Congressman Tom Cole.
    Mr. Cole. I want to thank you, Madam Chair, and thank all 
you for being here. Before I get to my prepared remarks, I just 
want you guys to know how you span the bipartisan divide that 
we have here. I actually made a statement, and it was tweeted 
out by Howard Dean last night, so I thought that was worthy of 
note. I very seldom get tweeted out by Governor Dean, so I was 
pretty proud of that. [Laughter.]
    And the statement was, if I am buying real estate in New 
York, I will listen to the President of the United States. If I 
am asking about infectious diseases, I am going to listen to 
Tony Fauci. [Laughter.]
    So I think that kind of sums up where we are as a 
committee. And I want to commend all of you and thank all of 
you for what you have been doing in the middle of a difficult 
national crisis, but, more importantly, what you just do day 
in, day out, every single day, and the amount of hope you give 
people around the world, certainly to our fellow Americans. And 
I think you have been extraordinary custodians of the 
investment that this committee has made on a bipartisan basis 
for multiple years, and I know intends to make again. If we can 
find any way to do it, we will do it, and I think we will find 
a way to do it.
    The current challenge that we have, frankly, is a reminder 
that you need to do these things, and you need to do them on a 
regular basis. You can't just show up game day and think you 
are going to be able to deal with something. You have to have 
made the commitments, the investments over a long period of 
time to have the infrastructure to do it. I am very proud of 
this committee and our counterparts in the United States 
because we have done that. I am proud of Congress for this, 
quite frankly.
    And this is no disrespect to anybody, but this committee 
has consistently in the last 5 years gone beyond what any 
President of either party asks it to do. And it did that 
because Congress, you know, we actually doubled the NIH budget 
many years ago. That was actually also a congressional 
initiative, if you will recall. I think Congress actually, 
because it is very close to the people, has a very keen sense 
of awareness of how much your fellow Americans value the 
endeavors that go on at the NIH.
    So I will go to my formal remarks. After 5 years of 
sustained increases for the National Institutes of Health, I am 
pleased to welcome once again to this hearing Director Francis 
Collins. You must get tired of hearing this, but once again, I 
want to commend you, Dr. Collins, on your long and 
distinguished career in Federal service. You have left a legacy 
of excellence, and it is really an honor to work with you. And 
I have said this often, too. You have got to be the best 
politician in a town of politicians to get appointed by Donald 
Trump and Barack Obama. I mean, that doesn't happen very often, 
but, again, I think it says something about the bipartisan 
nature of what you do and the national commitment there.
    I have made no secret of the fact that increasing funding 
for the NIH is one of the proudest bipartisan accomplishments 
of this subcommittee. A sustained, steady commitment to 
increase NIH funding is critical to ensuring our Nation's 
future as a leader in biomedical research and unlocking cures 
to so many of the diseases burdening our strained healthcare 
system. The hard work and innovation this funding fosters is 
part of the sustaining force of the United States' economic 
growth.
    Leaders in the House and Senate, Democrats and Republicans, 
have unified behind these increases over the past 5 years, and 
I ardently hope this trend continues for years to come. While I 
appreciate and sympathize with the fiscal restraint expressed 
in the President's budget, I do not think the reduction 
proposed for NIH is in the best interest of the American 
people. To reduce the NIH funding at this juncture would erode 
the progress we have made, as the chairwoman mentioned, over 
the past 5 years, signal to the research community instability, 
and, quite possibly, delay by years or perhaps decades advances 
in modern medicine, including curing diseases, finding better 
treatments for cancer, and unlocking the power of precision 
medicine.
    I also want to caution against the budget request's 
proposed changes to the negotiation for indirect costs, are 
funds included as part of the grant to cover facilities and 
administration. This critical funding serves as a foundational 
element for research, and I support the enacted bill language. 
I hope, Madam Chair, we continue that restraint. This is a 
false economy that our friends in some quarters have pointed 
out, and it is one that will hurt research, not provide 
additional dollars. We simply, you know, need to protect the 
institutions that we have been investing in.
    This past year, we had the opportunity to sit down with 
Nobel Prize winner, Dr. Jim Allison. His work on immunotherapy 
for cancer treatment promises to chart a course for a new 
direction for treatment for our deadliest cancers. The 
noninvasive nature and rapid time between treatment and 
resuming normal daily life is nothing short of remarkable. 
Moreover, these treatments are coming to market faster than 
therapies of the past and could take a decade before standard 
health insurance reimbursement. New applications for research 
in this area are overwhelming available Federal funding, and it 
is something I hope we look at very carefully going forward.
    Companies have noticed the promise of such methods and are 
beginning to invest their own resources as well. Ten years from 
now, we may have thousands of cancer survivors that under 
today's treatment protocols would not have been helped. It is 
stories like this that remind me that support for the NIH has a 
real-life impact on life, and that every dollar investment is a 
direct downpayment to a better future for millions of Americans 
and tens of millions of others around the world.
    I also want to highlight the progress we have made on 
Alzheimer's disease research. This deadly disease is creating 
an enormous strain on the healthcare system, families, and the 
Federal budget. It is a rising cause of death and impacting 
more and more Americans each year. Total spending on 
Alzheimer's will exceed $1,000,000,000,000 by 2050 if it 
remains on its current trajectory. We must make progress. 
Frankly, fiscally, there is no other option.
    I am pleased to learn an international team of researchers, 
partly funded by the NIH, has made more progress in explaining 
the genetic component of Alzheimer's disease. Their analysis 
involving data from more than 35,000 individuals with the late 
onset of Alzheimer's disease has identified variants in five 
new genes that put people at greater risk of their disease. In 
order to tackle the fiscal, emotional, and financial toll that 
this disease is having on families, we must have a better 
understanding of the underlying genetics.
    I do not want to take up additional time recognizing all 
the distinguished institute directors before us today, Madam 
Chairwoman, because, quite frankly, like you, I would rather 
hear from them about the exciting research that they are all 
involved in. However, I do want to thank each of you and your 
colleagues, and those institute and center leaders who are not 
with us for your passion, dedication, and hard work. I believe 
the work at the NIH has and will change the course of disease 
direction and treatment for many generations to come. I hope 
Congress continues to be a supportive partner in these efforts. 
Thank you, Madam Chairman, for holding this important hearing.
    Ms. DeLauro. Thank you very much. It is now my pleasure to 
yield to the chairwoman of the full Appropriations Committee, 
and someone who has had just a major role in making sure that 
we respond in kind and with alacrity, Congresswoman Nita Lowey.
    The Chairwoman. And I thank you, Chair DeLauro and Ranking 
Member Cole, for holding this hearing, and welcome once again 
our very distinguished guests. I don't know how you are awake, 
Dr. Fauci, but----
    [Laughter.]
    The Chairwoman. It is all those exercise routines. 
[Laughter.]
    Thank you. Thank everyone because I know it is a team 
effort. Let me say at the outset, President Trump's disastrous 
budget is filled with deep cuts that tear at the fabric of our 
Nation. Instead of building on the historic investments in last 
year's appropriations bills, the President doubled down on 
partisan talking points. To propose investing $2,000,000,000 
for the wall and cutting $3,300,000,000 from the National 
Institutes of Health really does expose the Trump 
Administration priorities for what they are: political rhetoric 
over public health. But as you know, this committee is on your 
team, and at a time with surging cases and costs associated 
with heart disease, cancer, Alzheimer's and related dementias, 
a vaping epidemic, and now the novel coronavirus, this panel's 
commitment to NIH will remain as strong as ever.
    I would be remiss not to mention that with my retirement, 
this will likely be my last NIH budget hearing. I will have to 
come and be in the audience. [Laughter.]
    And when I think about it, we have come so far since I 
joined this subcommittee in 1993. I was a kid then when NIH was 
funded at about $10,300,000,000. We committed to doubling the 
NIH budget, then more than tripled it. Together, with the great 
leadership of this subcommittee, in the past 5 years, we have 
had increases at $11,600,000,000, for a total funding level of 
$41,700,000,000. And, frankly, every penny was worth it, and we 
are so appreciative for all of you, for your talents, for your 
hard work, for your commitment. It has really been an honor for 
me to serve on this committee.
    I do remember touring a lab with a young Dr. Francis 
Collins, who had a plan to map the human genome, and I remember 
that first map. There was nothing in it. [Laughter.]
    And the advances in combatting breast cancer have 
revolutionized survivor rates as immunotherapy has given life 
to people who would have had a death sentence a decade ago. We 
know more about childhood development and the human brain, and 
we are witnessing amazing strides in precision medicine. And if 
you recall, we now even have some female lab rats. For those 
who weren't part of that humor at the time, we were convinced 
all the lab rats were male, so I am delighted to know that you 
have female lab rats.
    Your work has filled me and millions of Americans with 
hope. Never in all of human history has medicine had more to 
offer, and yet with all these great achievements, we have so 
much more to do. I recently came across my questions from an 
NIH hearing in 1999 when I asked why women are more likely than 
men to have Alzheimer's. We still don't have the answer. In 
fact, we don't have many answers to Alzheimer's. I was on a 
panel. Lord knows why they asked me to be on a panel. And it 
was about 35 of us sitting around a table with one person who 
knew what he was talking about, a scientist from Columbia, and 
everyone was kind of quiet. And I said, Dr. Gibson, from 
Columbia, I said, so what are you recommending? You know, for 
many people around that table, there were experts, people who 
had been working on this for years and years. And he sat up and 
he said, diet and exercise. Dr. Fauci knows that, right? We 
have had conversations about that. Actually, so many of you.
    But after all the investments, that is really all we are 
offering most people when it comes to Alzheimer's. We still 
don't know the answer, and we still don't have a method for 
early detection of certain cancers. We still don't know why 
treatments work for some patients but not others, and we still 
don't know why rates of autism are rising, and why there are 
higher rates among boys than girls. By the way, if you have 
answers to any of these questions today, feel free to share 
them with us. This may be up to date, I thought, as of this 
morning, but if you have some answers to these questions, we 
would love to hear them.
    So there is so much we need to achieve, and I can think of 
no better people to do it than the people sitting in front of 
us today. You have saved lives. You have eased suffering. You 
are our superheroes. And with the polarization in our politics, 
if the American people could see how we could come together to 
fund such important work, I was going to say they would be 
proud. They would probably be shocked. But maybe we should 
invite more to really understand how bipartisan the NIH is and 
how bipartisan this committee is. And that is why we cannot let 
a partisan budget request stand in the way of saving lives.
    So I thank you all. It is a pleasure for us to welcome you 
once again. Madam Chair.
    Ms. DeLauro. Thank you. Dr. Collins, I am going to turn to 
you for testimony, and as you know, your full testimony will be 
entered into the record. And I would yield 5 minutes of time 
for your testimony. Thank you.
    Dr. Collins. Well, thank you, and good morning, Madam Chair 
DeLauro, Ranking Member Cole, and especially Chairwoman Lowey. 
I did not realize you were going to make this announcement 
about 1993 to today. I think 1994 was the first time I appeared 
in front of this committee to defend the Genome Project, so 
thank you for that reflection.
    On behalf of the National Institutes of Health----
    [Disturbance in hearing room.]
    Ms. DeLauro. Please.
    [Disturbance in hearing room.]
    Ms. DeLauro. Dr. Collins, please continue.
    Dr. Collins. I do want you to know that the condition, ME/
CFS, chronic fatigue syndrome, is of great concern to NIH, and 
these are obviously----
    Ms. DeLauro. And if you need time to mention that, please 
go ahead and do it, okay, in the course of, you know, the 
proceedings this morning. Please, go ahead with your testimony.
    Dr. Collins. I would like very much to talk about it at a 
later point.
    Ms. DeLauro. Yes.
    Dr. Collins. Okay. Let me continue. On behalf of the NIH, I 
want to thank you, this subcommittee, for that $2,600,000,000 
increase in last year's omnibus. The steady increases you have 
provided have brought new life to biomedical research and built 
a foundation for us to take on new and unexpected challenges, 
challenges like the one that is on everyone's mind right now, 
the global coronavirus outbreak. Your investments have enabled 
NIH to be at the forefront of action against this serious 
health threat, and I am quite sure you will hear more about 
what we are doing from Dr. Fauci a bit later.
    In the meantime, I would like to highlight a few of NIH's 
other recent achievements, and maybe I could turn your 
attention to the screen. Science magazine announced its short 
list of breakthroughs of 2019, three of them supported by NIH. 
The first is the lifesaving progress we have made against Ebola 
virus disease, including the first effective therapies. Our 
second breakthrough, according to Science, was the development 
of kids getting specially-formulated foods to combat 
malnutrition, taking advantage of what we have learned about 
the microbiome. The third is development of a highly-effective 
triple drug therapy for cystic fibrosis, or CF.
    I am among the legion of researchers who have been part of 
a long journey to develop targeted therapies for CF. Yeah, that 
is me on the left. [Laughter.]
    Ms. DeLauro. Where is the guitar? [Laughter.]
    Dr. Collins. It is off in the corner, on the left. Thirty 
years ago, when I led the NIH-funded team that co-discovered 
the gene for this devastating disease while I was at University 
of Michigan. Mutations in that gene lead to dysfunction of a 
protein that normally helps maintain the body's balance of salt 
and water, and without that, mucus builds up in the lungs, 
setting the stage for potentially respiratory infections. The 
new triple drug therapy kicks that protein back into shape.
    And does it work? Well, take the case of Robin Petras, an 
Ohio woman with CF, who recently wrote to me. As these 
snapshots show, Robin slept in a mist tent as a child, and her 
parents spent hours each day loosening the mucus that clogged 
her respiratory tract. Later she became so sick, she had to 
give up her beloved teaching career. But just 5 weeks after 
starting triple therapy, Robin's lung function improved 
dramatically, and she now lives the active life she had always 
imagined. She has even set a new personal best: swimming a full 
mile in 60 minutes. I could not do that.
    She told me this medicine has revolutionized her entire 
physical and mental life. What a transformation. Thirty years 
of research to get to this point, and a wonderful example of 
basic science, collaborations between public and private 
leading to his kind of breakthrough. So stories like Robin's 
inspire researchers to keep searching for innovative ways to 
help folks with all kinds of diseases.
    Among the many exciting possibilities is a new generation 
of gene-based therapies. At past hearings, I have introduced 
you to just a few of those who have been helped by these 
therapies, people like Mateo with spinal muscular atrophy; 
Janelle, with sickle cell disease. And many of you have met 
cancer patients, like Emily, whose lives are saved by CAR-T 
cell immunotherapy for cancer.
    But we need more breakthroughs. There are about 6,500 
diseases for which we know the molecular basis. The pace of 
discovery has increased rapidly, yet we still have effective 
therapies for only about 500 of those. The latest development 
in gene-based treatments, the CRISPR gene editing system, 
promises to boost that number. CRISPR provides a precise find 
and replace function for DNA, allowing cells to be reprogrammed 
to correct disease-causing misspellings.
    Five years ago, I never would have predicted this explosion 
of opportunities in gene therapy, but actualizing the potential 
poses real challenges. Today it can take 2 years to produce the 
materials needed for clinical trials of gene-based therapies, a 
new one just announced this morning. We can rely on the private 
sector to support trials for more common diseases, but for 
ultra-rare diseases, which involve tens of millions of people, 
NIH must do more to de-risk projects if we hope to enter as 
potential partners from the private sector. So to that end, the 
President's budget for Fiscal Year 2021 includes a $30 million 
initiative for an NIH-led consortium to shepherd development of 
gene therapy targets for rare diseases from concept to clinic, 
customizing processes for gene delivery, manufacture of 
regulatory review, and testing.
    To conclude, these are dramatic times for NIH research. 
Today I have focused on gene-based therapies, but many other 
remarkable advances are on the horizon, advances like 
developing vaccines for coronavirus and other infectious 
diseases, using science to address our Nation's opioid crisis, 
and applying the power of immunotherapy to even more types of 
cancer. None of this would be possible without your support. 
Because of you, we at NIH are working hard to turn dreams of 
healing and health into reality for all. So thank you, and my 
colleagues and I look forward to your questions.
    Ms. DeLauro. Thank you very much, Dr. Collins, and thank 
you for the slides and the stories because that makes it real 
in terms of how people's lives have been changed. I lost, 
growing up, two wonderful friends with cystic fibrosis, and it 
was extraordinary, you know, how we can now save lives in 
thinking about what you can do.
    Dr. Fauci, I recognize that you have been very, very 
generous with your time in providing the subcommittee with 
information about NIH's current and proposed activities related 
to COVID-19, including basic research, development of 
diagnostics, therapeutics, and vaccine. Just kind of a two-part 
question. Would you give us a brief update on the latest 
developments in NIAID's work in this area? And because, as I 
mentioned, NIH isn't starting from scratch with regard to the 
research on coronavirus or on emerging infectious diseases, if 
you can tell us about how prior investments in NIAID, that 
research, have laid the groundwork for what we are able to do 
now with the coronavirus.
    Dr. Fauci. Thank you very much for that question, Madam 
Chair. Yes, in fact, if you look at the fundamental basic 
research on molecular virology and the ability, which really 
comes from NIH itself and NIH-funded investigators, to be able 
to identify a pathogen and sequence it extraordinarily rapidly 
allows us to do the things that I will mention in a moment. 
This goes back to fundamental basic research on molecular 
biology, virology, genetics, et cetera.
    Remember, a major first coronavirus that caused the problem 
globally was the SARS virus in 2002, 8,000 people and 775 
deaths, for a death rate of about 9 or 10 percent. Several 
years later, we had the MERS coronavirus, again, causing a 
problem in the Middle East. Now we have the third coronavirus. 
One of the things that we have been able to do, and the NIH, as 
you know, does many things, and we are studying very 
intensively the fundamental virology and pathogenesis of the 
disease. The things that we are doing right now in the form of 
interventions are in the arena of vaccines and in therapeutics.
    It is really extraordinary that from the first time the 
sequence was made public by the Chinese when they discovered 
which virus it was, literally within days, we took that 
sequence off the database and inserted it into one of our 
vaccine platforms the messenger-RNA in the Vaccine Research 
Center at the NIH. And then what we did was a step-wise 
approach, to first determine is it immunogenic. Can you stick 
it in an animal, and would it make an immune response? The 
answer is yes. I predicted that it would be about 2 to 3 months 
to go into Phase 1 trials, and I think we are going to beat 
that. I think it will be in in probably about 6 weeks, which, 
as a matter of fact, will be the fastest that anyone ever has 
gone from the identification of a sequence into a Phase 1 trial 
of any vaccine that has ever been done. That is the good news.
    The sobering news is that since vaccines are given to 
normal individuals, what is paramount is safety and whether or 
not it works. So we will do a Phase 1 trial. We will do it in a 
number of our research centers, including our center at the 
NIH. That will take about 3 to 4 months. And then if 
successful, which I believe it will be--there is no reason to 
believe it won't be safe--we will go into what is called a 
Phase 2 trial. The Phase 1 trial is 45 individuals. Phase 2 
trials are hundreds if not a couple of thousand individuals. It 
would take about a year to a year-and-a-half to be fully 
confident that we would have a vaccine that would be able to 
protect the American people. And so although the good news is 
we did it fast, the bad news is that the reality of vaccinology 
means this is not going to be something we are going to have 
tomorrow.
    In contrast with therapy, if I might say, we have a number 
of therapies that were effective in an animal model and in 
vitro. We don't know if they work in people, but we have 
already started a trial in the United States on a Gilead drug 
called Remdesivir in both Washington State, which is having a 
problem as you know right now, as well as at the University of 
Nebraska, where we have put the people who were repatriated and 
brought back. A clinical trial will be done, and if, in fact, 
it is shown to be effective, maybe not perfectly effective, but 
at least somewhat effective in bringing down viral load, we 
would imagine in the next several months, and it will take that 
long to do the trial, that we might have an intervention.
    So going back from what you said, all the way to the 
molecular virology decades ago to where we are right now, I 
think that is what we call the proof of the pudding of 
investment in biomedical research.
    Ms. DeLauro. Thank you. Thank you very, very much. As your 
grandmother and my grandmother would have said, lemon and honey 
is going to help your voice a lot, you know. [Laughter.]
    So maybe a shot of bourbon, I don't know. But in any case, 
I have just about 13 seconds left, so I am just going to yield 
back my time and get around to my other questions second round.
    Mr. Cole. In the spirit of bipartisanship, I want to assure 
you that a shot of bourbon can help you, Madam Chair. I have 
tested it routinely, and it works very well. [Laughter.]
    Dr. Collins, you know, we all are always interested in 
stretching these dollars as far as we can and putting money 
behind research. But I think one of the smart things we did 
last year in a bipartisan and bicameral way was to set aside 
$225,000,000 for infrastructure, frankly, and for facilities 
maintenance, and we know that does meet your needs. The idea, I 
think, the hope would be, we can see where our allocation is, 
what we could do. But that would be something we could sustain 
on annual basis for a number of years to let you catch up to 
where you need to go.
    So, one, could you tell us sort of how that $225,000,000 
has been used? Two, what would you do if you had additional 
funds in the next year of comparable size?
    Dr. Collins. Congressman Cole, I really appreciate you 
raising this issue because it is critical to the effective 
functioning of this remarkable engine of discovery, the 
National Institutes of Health and its intramural program. We 
have over the course of quite a few years been successively 
falling behind in terms of maintenance just because of the way 
the funding comes through. We are not allowed to spend money on 
buildings and facilities unless it is approximately designated 
as such.
    And we now add up where we are. We are about $2,100,000,000 
in the hole in terms of the kinds of funds that would really 
ideally be necessary to keep the place in the kind of 
circumstances that you would like to see. And we have had a 
number of really major problems in our clinical center, which 
have caused quite a lot of difficulties in terms of being able 
to take care of patients. I can, if you would like, if it comes 
up here, show you a particular example of just some of the 
things that you can see have happened in the course of just the 
last few months in terms of floods. We have had to close down 
big parts of our clinic at times. So we have a big backlog of 
need.
    The National Academy of Sciences was asked by the Congress 
to look at this issue and agreed that we need urgent attention 
to this matter. We also believe we need, in order for the 
clinical center to be fully effective, to replace our current 
operating rooms, which are at risk of having leaking in the 
ceiling in the middle of an operation, and that is obviously 
something you would never want to see happen. And so we have on 
the books already to go a surgery-radiology wing, the cost of 
which, though, is about $500,000,000.
    What you have done in terms of increasing the support for 
this has helped us hugely, and it will help us both with the 
backlog of maintenance that we need to pay attention to, but 
also to try to build up a sufficient amount of funds to start 
that new wing. And it will be greatly much appreciated if that 
can be also sustained in Fiscal Year 2021. You saw the 
President's budget actually did call this out as a special need 
by increasing that number for B&F to $300,000,000. So I know 
this is not sexy in the same way as we are going to cure cancer 
or are we going to find a new answer for autism. But without 
the infrastructure, we can't take care of patients in the way 
that they are counting on us to do.
    Mr. Cole. The fact that you showed up with slides might 
suggest that people coordinated this in some way. [Laughter.]
    That would never happen.
    Dr. Collins. I never want to miss the chance----
    Mr. Cole. Never happen. Dr. Gibbons, heart disease and 
stroke are 7 times higher in American Indians/Alaska Natives 
than among their white counterparts, certainly in my State, 
which has a high concentration. Native Americans actually have 
the highest death rate from heart disease in the country. So 
could you tell us what the NIH is doing to address these health 
disparities and describe some of the progress you have made in 
recent years?
    Dr. Gibbons. Yes. Thank you for that question that 
addresses an important concern and an important health 
disparity. As you pointed out, we particularly have concerns 
about rural populations, and we recognize that and started a 
new cohort study. Our institute started the Framingham Heart 
Study over 70 years ago looking at communities to understand 
the driving factors in heart disease now taking us to a we now 
have a similar new program that is actually called RURAL that 
focuses on Kentucky, Alabama, and other areas with large rural 
populations. That is where we are seeing actually 
cardiovascular disease going in the wrong direction, as it is 
with certain populations, American Indians and rural Americans.
    Similarly, we are engaged in a group of studies called 
DECIPHER, that are taking community-based efforts to address 
how to engage communities in the process of creating healthier 
communities, recognizing that often there are social and 
behavioral and cultural factors. And so that involves a 
community engagement strategy. In fact, Dr. Amanda Fretts is 
Native American and is now a principal investigator of our 
Strong Heart Study, which is based in Oklahoma, the Dakotas, 
and Arizona. She is engaged in a project to promote healthier 
lifestyles, particularly in American Indian communities, in 
fact, taking them into a more traditional diet of fruits and 
vegetables, whole grains that we know can help prevent heart 
disease. So this is very top of mind and a high priority.
    Dr. Collins. Thank you very much. Thank you, Madam 
Chairwoman.
    Ms. DeLauro. Congresswoman Lowey.
    The Chairwoman. Thank you. I think I ask this question 
every time, Dr. Collins. Are we learning anything about the 
development of Alzheimer's? How far are we from even a 
temporary, I won't say a cure, but let me ask you. How far are 
we away from a cure or real prevention?
    Ms. Frankel. Of what?
    The Chairwoman. Alzheimer's.
    Dr. Collins. I wish I had a crisp answer to that, but I 
would say progress in the last few years has been really 
impressively moving forward. We have identified pathways that 
are involved in Alzheimer's disease going well beyond the 
amyloid and the tau hypothesis, which has been so dominant. 
Genetic studies have revealed now about 100 different places in 
the DNA that provide a risk for this. And it tells you that 
there are things we didn't appreciate, such as that the immune 
system is involved here in some way, and lipids are involved in 
a way that goes beyond what we knew about before. And the cells 
in the brain that are sort of the support cells, the so-called 
microglia, are at least as important as the neurons, which have 
always gotten all the attention.
    All of that has led to in a partnership with industry, the 
Accelerating Medicine Partnership, the identification in just 
the last year of 52 new drug targets, which are of great 
interest to academics and drug companies, and which will lead 
us down a whole bunch of new directions in terms of 
therapeutics.
    But I have to say the amyloid hypothesis is still very much 
on many people's minds, even though we have had all of these 
failed trials and we don't understand why they have failed. 
Please keep in mind, Biogen is still taking the position that 
their most recent trial, when they reanalyzed the data, did 
look as if it provided benefit to people who got the highest 
dose of this antibody against amyloid for the longest period of 
time. And they have gone back to FDA, and FDA has been willing 
to look at the data again. And watch this space closely. If FDA 
decides there is something there, we might actually finally be 
in a place where we have a signal of some benefit, and then, of 
course, the whole game changes. There is a huge difference 
between having everything fail and have something work a little 
bit because then you can build on that, and we are all watching 
that closely. So it is really all hands on deck.
    NIH is running now over 200 clinical trials, not just about 
drugs, but also about preventive interventions. The SPRINT MIND 
study, which Gary Gibbons could tell you more about, has 
definitely shown that reducing blood pressure seems to be a 
good way to prevent the onset of dementia in susceptible 
individuals. Vascular contributions are really important here. 
We are pretty sure that physical exercise helps. We are pretty 
sure that cognitive exercises are also of benefit. I wish I was 
able to say that with absolute certainty. So we are making 
progress, but let's make no mistake, this is a really hard 
problem.
    The Chairwoman. Okay. I will ask you next year. I will 
write you a letter next year. [Laughter.]
    Can I come as a guest? Okay. Dr. Sharpless, another one of 
my favorite issues because it has been so disappointing. Are 
there any advances that have been made in early detection and 
treatment for kidney cancer?
    Dr. Sharpless. Yes. We think the incidence, in fact, of 
kidney cancer has gone up modestly related to improved 
detection, so finding smaller lesions earlier. This provides 
some challenges because when you start detecting very small 
cancers, we already worry about this issue overdiagnosis and 
overtreatment in detecting really, you know, dangerous cancers 
as opposed to the more indolent type.
    But I think that kidney cancer is an important human cancer 
where we have made some progress, but there is more to be made. 
It is not one of our most outstanding successes in the cancer 
world. Immunotherapy has some role for these patients. In terms 
of early detection, we are still considering a number of 
approaches, including, I think perhaps the most promising right 
now in addition to imaging is, you know, the ability to detect 
nucleic acid in the blood, so blood tests for something like 
kidney cancer and other related cancers. So we have a number of 
approaches, but stay tuned. It is still early.
    The Chairwoman. Well, my time is running out, so I am sure 
Dr. Gibbons and Dr. Volkow, you all know about the rising rates 
of e-cigarettes, particularly among young people, which is just 
startling. Okay. If you want to make a quick statement, and 
then we can go back and get into it because I am really 
concerned about the incredible rates.
    Dr. Volkow. And I think we should be concerned. In 2018, we 
saw a doubling in 1 year of the number of kids that were vaping 
nicotine, and in 2019, we saw a doubling of the number of kids 
that were vaping THC. So the concern is, of course, that these 
kids are becoming addicted both to THC and nicotine, and we may 
lose the big battle that we have won over combustible tobacco 
with all of the adverse consequences. So, yes, we should be 
very concerned.
    The Chairwoman. So we will save it for the next round. I 
don't want to overstay my welcome. Thank you.
    Ms. DeLauro. Congressman Harris.
    Mr. Harris. Thank you very much, Madam Chair. And, Dr. 
Fauci, I am surprised you have a voice left at all. [Laughter.]
    You appear to have been everywhere. You must have, like, 
twins or something. You are everywhere. Let me ask you a 
question about, because you used the word ``the sequence'' for 
the coronavirus-19. And that is the one, I take it, that the 
Chinese have shared, that sequence. My understanding is that 
they have also been unwilling to share other samples of the 
virus, that that sequence is just one place in time.
    Dr. Fauci. Right.
    Mr. Harris. And that it would be useful to know to see 
other samples. Is that true? I mean, from a scientific point of 
view, is that something that would be useful?
    Dr. Fauci. It would be useful, but we are mitigating that 
problem, Dr. Harris, because we now have unfortunately enough 
cases of our own.
    Mr. Harris. Correct, and that is of concern to me, you 
know, that the Chinese did not share that because, I don't 
know. Look, in this instance, days or weeks might be very 
important, and I am afraid that we might have lost days or 
weeks because of China's unwillingness to share those early 
case samples. Now, the fatality rate is, of course, 
controversial because who just announced that they think it is 
3.4 percent. You have been, I think, quoted in the New England 
Journal of Medicine a few days ago that, well, it is probably 
less than 1 percent.
    Dr. Fauci. No.
    Mr. Harris. Where do you think it is going to end up 
because we don't know the denominator.
    Dr. Fauci. You said it, sir. If you look at the cases that 
have come to the attention of the medical authorities in China 
and you just do the math, the math is about 2 percent. If you 
look at certain age groups, certain risk groups, the fatality 
is much higher. As a group, it is going to depend completely on 
what the figure of asymptomatic cases is. So if you have 
asymptomatic cases, it is going to come down.
    What we are hearing right now on a recent call from the WHO 
this morning is that there aren't as many asymptomatic cases as 
we think, which may then elevate, I think, what their mortality 
is. You know as well anybody that the mortality for a seasonal 
flu is 0 percent. So even if it goes down to 1 percent, it is 
still 10 times more fatal.
    Mr. Harris. When we will know with our own data, do you 
think?
    Dr. Fauci. We will know, I hope. I am torn, Dr. Harris, 
because if we get enough data to have a big ``N,'' it is going 
to be bad news for us, but we are learning more and more. The 
thing that is encouraging is that as part of the WHO umbrella 
team that went to China finally after a long period of time, 
there were two U.S. individuals on there, one from the CDC and 
one from the National Institutes of Health. He has come back. 
He is now in self-isolation in his home, but he is going to be 
giving us a report pretty soon about that. You know him. Cliff 
Lane. He is the individual who is my deputy. And I think we are 
going to get the information you need.
    Mr. Harris. Good. Well, thank you. Dr. Collins, a couple of 
questions about data and information sharing. In your budget 
justification, it said the NIH is in the process of updating 
its data sharing policy. I am curious if you have any 
information on the amount of data that is indeed shared by NIH 
grantees, and whether you believe mandatory sharing of data 
should be a requirement of all those receiving granting. And a 
related question. The Administration has suggested that, you 
know, if someone receives Federal funding, the published 
research should be available free upon publication, not a 1-
year waiting period, but free upon publication. So could you 
comment on those two, what I would call, you know, just kind of 
transparency issues regarding Federal funding?
    Dr. Collins. Those are very much on our mind, Dr. Harris. 
And certainly in terms of having our grantees share the data 
that they have generated with public funds, we feel very 
strongly that is part of their responsibility. And certainly 
the data sharing policies that we have been putting together 
make that increasingly clear. There are some legal limitations 
on our actually making that a mandate, but we can certainly 
put, in terms of a term and condition of the award, that that 
is the expectation, and we can monitor that to see if, in fact, 
it is happening.
    With regard to publications, we also believe that if the 
public is paid for science, that science ought to be accessible 
to people who are interested in looking at it. As you know, 
this is a controversial topic because some of the journals 
would find this to be an existential moment for them if 
everything was free immediately. We are working in that 
direction. We have for a few projects, like the Cancer 
Moonshot, like the HEAL Initiative, required that everything 
that comes out of those projects has to be accessible at the 
very moment that is published without any charge or any 
firewall, and that is a signal of where we want to go 
eventually. But this is a complicated negotiation.
    Mr. Harris. That is right, but is it your feeling that it 
would be an existential threat, or that the journals could 
probably find a way around it?
    Dr. Collins. I think all the journals are looking at 
options that they might try to adopt as alternatives to those 
that require complicated and expensive journal subscriptions.
    Mr. Harris. Thank you very much. I yield back.
    Ms. DeLauro. Congresswoman Lee.
    Ms. Lee. Thank you, Madam Chair, thank you, Ranking Member, 
for this hearing. Thank you, Dr. Collins. Thank you for your 
team. It is always good to see you. And I associate myself with 
the remarks of everyone who has talked about the importance of 
continuing with our bipartisan work because, really, you are in 
the business of life saving and life affirming, and just thank 
you for everything that you are doing.
    Of course, you know I have focused a lot on the National 
Institute of Minority Health and Health Disparities, and 
unfortunately I see this $30,000,000 cut. The request, 
$305,000,000, and the enacted level was $336,000,000, it is a 
$30,000,000 cut. Now, we know there are many disparities as it 
relates to communities of color when you look at the 
disproportionate rates of lupus, and thank you very much for 
following up with our request on lupus in terms of an action 
plan, higher rates of Alzheimer's among older African 
Americans, sickle cell disease.
    In many ways, I feel like I have received a medical 
education from all of you because so many of my family members, 
friends, and community suffer from multiple sclerosis, COPD, 
lupus, sickle cell, HIV and AIDS, the A1c test, diabetes and 
sickle-cell trait relationship. So I personally, like most 
members, have gotten into the weeds on a lot of these diseases, 
and we have put in budget requests and language. And I want to 
thank you for being responsive and for bringing forth the plans 
that we have asked for.
    So in terms of these cuts, I am curious with regard to what 
the $326,000,000 cut to the National Heart, Lung, and Blood 
Institute would do in terms of our COPD action plan. Also the 
cut, again, in the National Institute for Minority Health and 
Disparities, the $30,000,000 cut, and over and over. I could 
talk about these cuts as it relates to, you know, some of these 
diseases. Multiple sclerosis. The BRAIN Initiative, I believe 
there is a cut of about $40,000,000. So can you just kind of 
tell me how you are going to deal with this if these cuts, in 
fact, go through?
    And then my second is, and I want to thank you for the 
report as it relates to the ``Growing Absence of Black Men in 
Medicine and Science.'' And we are working very closely now 
with partners in this. And I wanted to ask you with regard to 
the Common Fund, how can we support more comprehensive work 
because this is outrageous in terms of what is happening to 
black men in medicine and in the sciences. And how we can help 
fund the National Academy of Sciences based on their roundtable 
work that they want to continue, and can we look to the Common 
Fund? Unfortunately, I see a cut of under $96,000,000 less. No, 
I am sorry, $42,600,000 than 2020. So we can kind of talk about 
how we are going to address these issues within this budget?
    Dr. Collins. There are so many important questions there. 
Let me just try, because I know time is short. With regard to 
what NIH does when we encounter a circumstance of really 
significant resource constraints, I think all of the people at 
the table would agree with me that we try to still identify 
what our priorities are and try to protect those as much as we 
can. We look around to see if there are things that could be 
slowed down without quite as much of a serious impact, but it 
is painful to try to do that. And every one of the areas you 
talked about, we would have to struggle with exactly that kind 
of priority setting.
    I am really glad you raised the issue about our workforce 
and the need for more representation from underrepresented 
groups. Our workforce does not look like our country, and it 
should. I want to mention, and this is something that you 
brought up in terms of the Common Fund, the program called the 
BUILD Initiative, which is a way in which we are making it 
possible for people from traditionally underrepresented groups 
to have a real scientific experience as undergraduates, which 
is how you actually capture the attention and the imagination 
and the passion of young people.
    And that program, which has now been going on for 4 or 5 
years, is actually looking very promising. None of these 
programs we do would be done without really evidence-based 
analysis. We are not going to support things that don't work. 
We also have supported a National Mentoring Network for people 
who may not be, like me, a white male who would naturally have 
a network that they could depend on. That has also turned out 
to be quite positive.
    You are right that maybe an area we are particularly 
worried about is African-American men. We have a recent 
initiative we are discussing with the NCAA about how to 
interest athletes in science and provide them with scientific 
opportunities, like summer internships in a research lab, so 
that that will be seen as a more attractive possible career 
path with mentors and role models that they can learn from. So 
we are all over this.
    Ms. Lee. Dr. Collins, would it be possible to work with 
your team to present new strategies, new ideas, and see if we 
can develop some broader partnerships that would actually 
enhance what you are doing?
    Dr. Collins. Absolutely. We are closely aligned with the 
National Academy on this topic, and they have been very much 
partners, and we would like to build on that and do even more.
    Ms. Lee. Okay. Thank you very much. We will follow up.
    Ms. DeLauro. Congressman Moolenaar.
    Mr. Moolenaar. Thank you, Madam Chair, and thank you all 
for being here. Good to see you all again, and, Dr. Collins, I 
appreciate your many years of service. I wondered if you and 
also Dr. Sharpless could talk briefly about the President's 
Childhood Cancer Initiative. That is something that I know we 
funded, and I just wondered if you could give us an update on 
that.
    Dr. Collins. Dr. Sharpless is ideally suited for that.
    Dr. Sharpless. I would be happy to take that. You know, 
childhood cancer is an area where we have seen significant 
progress over the last few decades, but we still have a ways to 
go. There are still clearly too many kids dying of cancer in 
the United States, and even the kids we are able to cure are 
often left with lifelong survivorship challenges because of 
significant surgery, and radiation therapy, and chemotherapy. 
So it is an area where we need clear progress. And the 
Administration announced this is a top priority of theirs to 
make progress in childhood cancer, and the President announced 
this initiative at the State of the Union more than a year ago. 
And now Congress has appropriated the funds, and we are 
tremendously grateful for that important devotion of effort and 
resources to this topic.
    So it is under way. We have sort of convened a lot of the 
thought leaders in the community about how to make progress 
most expeditiously in childhood cancer. We have charged the 
working group to come up with ideas, and we are well under way. 
The focus here is on sort of how to use data better for 
childhood cancer and sort of radical data aggregation. I 
suspect, for example, we would be able to create a registry 
that has data on every child with cancer in the United States, 
and in terms of outcome and follow up, that will be a 
significant improvement over what we have now. So it is a very 
exciting initiative that is really getting started.
    Mr. Moolenaar. Okay. Thank you. And Dr. Volkow, I wonder, 
in the past, you have discussed efforts to develop non-opioid 
alternatives to help manage both acute and chronic pain. I 
wonder if you could give us an update on the status of that 
research and some of the innovative approaches that might be 
coming down the pipeline.
    Dr. Volkow. Yeah, thanks for that question. And indeed the 
general support from Congress that gave us $500,000,000 to our 
base to actually study and address interventions in science 
that can solve the opioid crisis has enabled us to advance 
enormously our investments in understanding pain, transition 
from acute and chronic, but also to develop new therapeutics, 
and to determine what implementation we can currently do to 
help patients that are suffering from chronic pain.
    As a result of that, there are several projects that have 
emerged, including the creation of two networks. One of them 
will enable the development of new molecules and testing, and 
the other one will enable the testing in patients with pain of 
the interventions. And this is done with industry, with 
partnerships with industry so that we can help accelerate, but 
also with academic centers.
    And this has been an incredibly challenging area to develop 
treatments that are as effective for pain, but safe, and that 
is why it is so incredibly relevant that we create the 
partnerships with the pharmaceutical industry. I mean, Francis 
has taken a lead on this, and I don't know if there is anything 
else, Francis, that you think is worth mentioning.
    Dr. Collins. No, I think you have said it well. I would 
like to emphasize, this is another all-hands-on-deck 
circumstance where 20 of the NIH institutes are getting 
together to work on this initiative we call HEAL, which stands 
for Helping End Addiction Long Term, and for that, we need to 
have non-addictive, but effective, pain medicines. And we are 
working quite quickly in that space, recognizing it is a really 
hard problem.
    Mr. Moolenaar. Thank you. Dr. Fauci, we have been talking a 
little bit about the coronavirus, and I wondered if you could 
comment some of the partnering that NIAID has been doing with 
BARDA on the development of medical countermeasures for these 
threats in general, biological and pandemic threats.
    Dr. Fauci. Yes. Thank you very much for that question. It 
transcends the coronavirus certainly because, you know, the 
NIH's fundamental mandate and work is in fundamental basic 
research and its translation into translational research, which 
is then translated into a product for intervention. And if you 
look at the things that are now out from a number of diseases, 
from HIV, to Zika, and now to coronavirus, it is essentially a 
process where we do the initial fundamental research, bring it 
to its early stage of development, usually in a Phase 1, and 
hand it over to BARDA.
    What BARDA does, they get their resources and partner 
predominantly with either biotech companies or larger 
pharmaceutical companies to make a product based almost 
invariably, in fact, if you look at some of the things that 
have now come out with products, almost every single one of 
them, with few exceptions, has NIH fingerprints on them from 
the very beginning. So I think it is really a nice marriage and 
part of the continuum from the fundamental research for the 
product, and it has worked very well.
    Mr. Moolenaar. Thank you very much. Thank you, Madam Chair. 
I yield back.
    Ms. DeLauro. Congressman Pocan.
    Mr. Pocan. Thank you very much, Madam Chair, and thank you 
all for being here. Dr. Collins, thanks for having all your 
colleagues here. I think the single easiest thing to say is it, 
and it is totally a tribute to all your work when you see the 
bipartisanship when this comes forward. When our ranking member 
was the chair of the committee or Ms. DeLauro, we as Congress 
increased funding to NIH, and I think it just shows how much we 
all value everything you do. So thank you.
    And I just want to say thank you so much for updating the 
statistic, and I will mention it because I think it is good for 
every to know. We used to have, how many drugs were approved, I 
think, in a 6-year period that had NIH support, and it was 
every single drug. You just did a 10-year period. We look back 
going through 19 of the 356 drugs approved by the FDA, each and 
every single one had support from the NIH, and that is our tax 
dollars. So thank you for updating that number, and I think it 
is something, as we talk about drug pricing and other issues, 
it is very, very helpful.
    I feel like I would be doing legislative malpractice, 
however, if I didn't talk about the coronavirus, especially 
with Dr. Fauci here. I want you to know I follow you very 
closely. I have enormous respect for what you say. I have been 
following Scott Gottlieb and have enormous respect for him. I 
have been following the World Health Organization trying to get 
some various sources on this. And I have to be critical in one 
area, and I would love you to help maybe talk me off the ledge 
on this, but I don't know if you can, is the lack of how we are 
handling testing right now, the fact that all of a sudden, CDC 
has dropped keeping track of how many people we test.
    We had someone this morning talk to us who was part of the 
Ebola response. Their comment, and I will paraphrase, is, you 
know, when you don't even know what you don't know, that is not 
a great place to be, and trying to figure out how to deal with 
things, and the fact that if we start not keeping track of 
this, the amount of tests and who we are testing. We should be 
much more aggressive, I believe, in my opinion. We should be in 
the hospitals. Anyone who has got a pneumonia that we can't 
necessarily identify, we should be testing, because otherwise 
medical professionals need to know. I just feel like this is 
one area. You gave me great response on where we are on finding 
something to help, whether it be treatments or otherwise, a 
vaccine. I feel like this is one where we are dropping the 
ball, and I do want to get to another question, but let me ask 
you on this particular one, talk me off the ledge. I am nervous 
that we are not keeping track of who we are actually testing 
and the fact that we are not more aggressively testing.
    Dr. Fauci. Well, I am not going to try and talk you off the 
ledge because you are making a good point.
    Mr. Pocan. Okay.
    Dr. Fauci. Push him off. [Laughter.]
    No, it is less the keeping the track of the test, sir, than 
it is making the tests available and withdrawing the 
restrictions on who can be tested. So let me explain because 
this is really an important issue.
    Mr. Pocan. I just want to leave a minute for the other 
question.
    Dr. Fauci. Okay. So the issue is the tests from the CDC 
were for public health components, State and public health 
groups. They would have to give it to them. The test result 
comes back from the CDC. That started off with some technical 
problems which delayed the test going out. The major issue that 
I find, and many of my colleagues find, problematic is that if 
you are looking for people in the community who don't have a 
recognized link to a case, we call it community transmission, 
then you have got to withdraw the restrictions that in order to 
get a test, you have to have a link to something. It is almost 
inherently contradictory. Those have been lifted. The FDA has 
taken the constraints off, and now we finally have companies 
that are going to be making many, many more tests.
    Mr. Pocan. But should we be proactive in testing, 
especially in hospitals and places like that, rather than 
waiting for people to come and be tested?
    Dr. Fauci. Yes.
    Mr. Pocan. Okay, because I just feel like that is one of 
the components----
    Dr. Fauci. The answer is yes.
    Mr. Pocan. Okay.
    Dr. Fauci. And I feel strongly about that.
    Mr. Pocan. Thank you. I love when I get a one-word answer. 
Maybe you could meet with Secretary DeVos and explain to her 
yes or no questions. The second area, I am worried about supply 
chain. You know, I just read China Rx because Rosa told me, and 
now I have got Mike Gallagher, one of my colleagues on the 
Republican side from Wisconsin, you know, I think is going to 
read the book next. I am concerned about, you know, the fact 
that, as we have had the conversation previously about this, 
the number of either drugs that are made, active ingredients 
that are made, I would add medical devices that are made in 
places like China, and I don't know. Do we really know what 
that supply chain is with the various companies?
    We did a letter this morning, Pramila Jayapal and I, to, I 
think, the top 20 or so prescription drug companies and are 
asking this very question. But do we keep track of this 
anywhere to know how many of the drugs are made in places like 
China, and where we could be for potential shortages in a case 
like this?
    Dr. Fauci. I believe that the FDA does, and, in fact, your 
concern is one that we have been talking about as part of 
pandemic preparedness for years. When we put together the plan 
back in 2005, we said one of the real problems is supply chain. 
I was somewhat, I would say, impressed/shocked that something 
like 90 percent of the fundamental ingredients that go into 
many of the drugs, not the actual drug itself, comes from 
China. So that is a real problem, and I don't have any answer 
for you. It is not anything that we do at NIH, but it is 
something that impacts us.
    Mr. Pocan. Can I ask one really, really quick follow-up? 
Should we be tracking active ingredients in medical devices as 
well, supply chains?
    Dr. Fauci. I would imagine yes, but, again, that is out of 
our purview.
    Mr. Pocan. Thank you.
    Dr. Fauci. Thank you.
    Ms. DeLauro. We will do a hearing or a briefing with 
Rosemary Gibson, China Rx, so that we can talk about that. 
Congresswoman Herrera Beutler.
    Ms. Herrera Beutler. Thank you, Madam Chair, and I am glad 
Mr. Pocan asked about this. This is one yesterday when I was at 
the White House I asked Vice President Pence about, the supply 
chain issue. And I know in the last number of months we have 
heard ``we're fine,'' ``we're fine,'' ``we're fine,'' ``we're 
fine,'' or weeks, and then this last week, we started to hear, 
well, there are some concerns. I think February 27th was the 
first time that a prescription manufacturer noted that there is 
a supply chain issue with regard to the coronavirus, and we 
have already seen shortages for unknown reasons, of things like 
immunosuppressive drugs.
    And this is an area that I am very focused on seeing what 
the solutions can be in the short term, because people say go 
get 3 weeks of your prescription. Well, if your prescription is 
being rationed, you can't do that. So there is now in the, you 
know, year that we are going to be dealing with maintenance and 
treatment of this virus. What should we be doing? What can you 
see? And then obviously there is the big picture. You talked 
about needing to fix the supply chain overall for preparedness. 
Could you speak to that?
    Dr. Fauci. Well, the supply chain problem is, as you know 
very well, a long-term problem that has been brought to our 
attention multiple times. And then when you have something like 
this, you realize you have a supply chain problem which you 
cannot fix immediately, and there is no real easy fix for it. I 
don't have an answer for you, but maybe this would be a lesson 
as we go forward that, as I have said to this committee many 
times, this isn't the first nor the last emerging microbe that 
we are going to be confronted with. And one of the issues that 
is vulnerable when you have an emerging infection is getting 
cut off from things that we depend on from other nations. I'm 
sorry, I can't tell you what to do tomorrow or next month, but 
maybe we could talk about the future and how we might turn the 
knob a little bit.
    Ms. Herrera Beutler. I am interested in that. I want to 
hear about the future and how we can change the big picture. I 
do think there are some immediate solutions that I am going to 
be asking the Administration to be considering and the 
different task forces to make it easier for people to access 
their prescriptions. Maybe it is even accessing a brand that is 
available over a generic that is not available, and how can we 
help make that cost effective for patients and hold them 
harmless. That is an area that I am looking at for in the 
immediate short term because people need to have access, 
period.
    You know, the other thing I wanted to ask about is, and I 
don't know if you can speak to this. So being from Washington 
State, in my districts on the coast, I am in between Seattle 
and Lake Oswego. Obviously people at home are very attuned to 
what is happening. The State has requested, and, you know, 
there has been a lot of coordination. I have been on the phone. 
The governor is talking to the Vice President, is talking to 
the task force, talking to our senator. Like, everybody is 
mobilizing, and I am very proud of our public health response. 
I am grateful for the CDC, and even FDA folks were on the plane 
immediately, so we are moving forward.
    One of the things that was asked, and it is kind of around 
the strategic national stockpile, which is not necessarily 
under your jurisdiction, but perhaps you could speak to. We 
have made a request for personal protective equipment. I think 
only about half of that has been let to us as a State. And then 
also what is your opinion about expanding CDC testing criteria, 
because I agree. I actually think, so the State can only test 
certain amount of folks. We needed it in the commercial labs 
available for people to go in and test. Would you support 
expanding that criteria so we could get more people access? 
Your thoughts.
    Dr. Fauci. Yes, I would support it. Expanding criteria 
means withdrawing restrictions. That is the point----
    Ms. Herrera Beutler. I just want to hear it another way.
    [Laughter.]
    Dr. Fauci. Okay.
    Ms. Herrera Beutler. I think we can't say it enough.
    Dr. Fauci. Yeah, right, and I feel very strongly about 
that. Washington has a very good public health group.
    Ms. Herrera Beutler. Mm-hmm, we do.
    Dr. Fauci. They have put together a test that they have 
done. They have been able to do it. They need help. They need 
support. I was on the phone late into the night last night with 
my colleagues from Washington, and we really do need to act 
aggressively there.
    Ms. Herrera Beutler. When you say ``help'' and ``support,'' 
give me specifics.
    Dr. Fauci. For example, they are doing contact tracing on 
in the nursing home outbreak. Now if they find out that it is a 
community out there, they are going to have to do contact 
tracing on that. They are stretching their resources, and that 
is an issue.
    Ms. Herrera Beutler. So backfill support obviously----
    Dr. Fauci. They need some help.
    Ms. Herrera Beutler. And they need----
    Dr. Fauci. I think, in fact, I am certain. Not that I 
think, I am certain the CDC is right now as we speak helping 
them.
    Ms. Herrera Beutler. That is my understanding, but it is an 
evolving situation.
    Dr. Fauci. I was on the phone with them last night, so that 
is the reason why.
    Ms. Herrera Beutler. We appreciate that. Thank you, Madam 
Chair.
    Ms. DeLauro. Thank you. On the supply chain issue, I would 
hope on a bipartisan basis that we could take a look, which is 
not the subject of this committee, but advanced manufacturing 
and what we can do in the long term on manufacturing those 
ingredients here rather than in China. And I think that is well 
worth our time and effort to take a look at. Congresswoman 
Frankel.
    Ms. Frankel. Thank you very much for being here. All right. 
So I just have to ask you some supermarket questions. So people 
think, like, when I go to the supermarket, people think that 
members of Congress should know everything, all right? So these 
are very simple. So one of the questions I get is if the 
coronavirus is just cold symptoms, well, that is what we hear 
on the news.
    Voice. No, flu.
    Ms. Frankel. Okay. More like the flu. Okay. I guess the 
question I have is how long does it last, and what makes it so 
serious?
    Dr. Fauci. It isn't a common cold. The confusion is that 
about 10 to 30 percent of the common colds that you and I and 
everyone else get during a season happen to be a coronavirus, 
but a certain subset of coronaviruses can cause extremely 
serious disease. They did it with SARS, they did it with MERS, 
and now they are doing it here with the novel coronavirus. The 
reason it is serious is that, a question that was asked by Dr. 
Harris, is that the mortality of this is multiple times what 
seasonal flu is. So seasonal flu spreads widely. The mortality 
is 0.1 percent. Right now in China, the mortality for this 
particular infection, the latest report, was 3 to 4 percent. It 
might be a little bit less.
    It isn't a cold. It is very interesting that most of the 
common colds are upper respiratory infections. This virus, not 
to get too technical, the component of the virus that binds to 
a receptor in the body to allow it to infect, those receptors 
are rich in the lung. That is the problem. It binds to it, so a 
person can present no sneezing, no sinusitis. Fever, shortness 
of breath, you do a chest X-ray, and you have pulmonary 
infiltrates. That is not the common cold.
    Ms. Frankel. Okay. Well, thank you for that. Now I will 
have a better answer for people. Next question, if you are able 
to comment on this. In terms of your research, is there 
anything that you think the FDA can do to speed up your 
research? I see a shaking of the head by Dr. Collins.
    Dr. Collins. You are referring to coronavirus specifically?
    Ms. Frankel. Or any drug that you have been researching.
    Dr. Collins. So we work very closely with the FDA. We 
actually have a Joint Leadership Council.
    Ms. Frankel. Maybe this a better question. Is there 
anything that we can do to speed up the FDA? Yeah.
    Dr. Collins. Well, Tony, maybe you should say specifically 
with coronavirus because FDA has been all-hands-on-deck in that 
space and has been very recently pretty actively enhancing the 
ability to do laboratory tests.
    Dr. Fauci. I don't think there is anything that you could 
do to speed up the FDA. Quite, frankly, they may need more 
resources to do the kinds of things they are doing. That is 
right, Madam Chair. But we have very good relationships with 
them. They have been very, very cooperative and collaborative 
with us in trying to get these countermeasures out as quickly 
as possible without cutting corners that would impact safety 
and our ability to evaluate efficacy.
    Dr. Collins. Maybe the former acting commissioner of the 
FDA might want to answer this question as well since he is now 
the head of the Cancer Institute. So, yeah, what could the 
Congress do to help the FDA there, Ned?
    Dr. Sharpless. Yes. To answer your question, I am here as 
NCI today. I don't really want to speak on behalf of the FDA, a 
different Federal agency. But I think, you know, a challenge 
like this is really trying for the Food Drug Administration 
because it is so sudden, and this sort of machinery is built to 
be deliberative. I think probably, you know, the device 
centers, decision-making about making these LDTs, the lab-
developed test, more widely available and releasing those 
restrictions is a really important development that I think the 
academic labs will be able to bring these tests up to speed 
very quickly. I think they are definitely going to need more 
funding.
    I think they have some significant hiring challenges in the 
FDA that I worked on a lot. 21st Century Cures gave them a new 
hiring authority that was much appreciated, and I suspect they 
will be using robustly. But they are really great people, and I 
am sure they are up to the task.
    Ms. Frankel. I think I am running out of time. So one more 
question on Alzheimer's. Is private industry doing any research 
because I have always heard that because it is so expensive, 
that they really are cutting back on that.
    Dr. Collins. They are, but it is not all companies. Again, 
I have the privilege of serving as the co-chair of the 
executive committee of what is called the Accelerating 
Medicines Partnership, which is focused on Alzheimer's as well 
as rheumatoid arthritis, lupus, and diabetes. And there are 
five companies there that are invested in this in a big way, 
and they have been willing to put their funds as well as ours 
together into a partnership where all the results are open 
access. But it has been concerning that a number of other 
companies have ceased working on Alzheimer's disease because of 
so many clinical trial failures. We need them to come back. I 
mentioned earlier we have more than 50 new drug targets. We are 
trying to encourage them to get interested again.
    Ms. Frankel. Okay. Thank you. I yield back.
    Ms. DeLauro. Congresswoman Bustos.
    Mrs. Bustos. Thank you, Madam Chair. Well, first of all, 
thank you for answering so many of the questions that we have 
around coronavirus, but I am going to actually switch topics. 
Is that okay? [Laughter.]
    So I am from Illinois. The congressional district I serve 
is 14 counties, goes up to the Wisconsin State Line. The 
Mississippi River is on the western part of my district and 
then goes into central Illinois. Eleven of the 14 counties are 
rural, and then we have the population centers of what we call 
the Quad Cities, Peoria and Rockford. So each of these counties 
and communities face the unfortunate circumstances that can 
lead to negative health outcomes, probably like almost every 
congressional district in the in the country. And, as you know, 
these are called social determinants of health, and I am just 
going to give you a few examples.
    In Peoria, Illinois, we have got a problem with food 
deserts. And I heard a story from a person in my district, it 
takes them 16 bus stops to be able to access fresh fruit and 
vegetables. Sixteen bus stops. And then in Rockford, Illinois, 
Congresswoman Lauren Underwood just came to my district. She is 
the co-chair of the Black Maternal Health task force, and we 
brought her in so we could bring health professionals together 
and find out why in the State of Illinois black women are 6 
times more likely to die as a result of pregnancy-related 
conditions than white women. So it is something that, again 
social determinants of health. How do we get to this?
    We have a hospital in my district that took them 7 years to 
hire a primary care physician. Seven years. And then we have 
just closed within the last year the obstetric services out of 
Pekin, Illinois and Galesburg, Illinois. So those are some of 
the examples that were facing. So along with Congressman Cole, 
we introduced the Social Determinants Accelerator act. I am 
very proud that we have gotten that out there.
    But here is what I had like to ask you, and maybe, Dr. 
Collins, you can start, but I would love to hear from the rest 
of you on this. The National Institute on Minority Health and 
Health Disparities has a strong focus on social determinants of 
health, but each of your institutes obviously has skin in the 
game on this. So I am wondering if you can talk about how you 
are together addressing this, what I can take away from this. I 
love the powerhouse that we have sitting in front of us, and 
that is what I would like you to focus on for the couple 
minutes that we have here.
    Dr. Collins. And it is a wonderful topic, and, in fact, 
every one of the NIH institutes, as you say, has skin in the 
game in various ways, and I could give you many examples. 
Because of the time, maybe I will first ask Dr. Bianchi to say 
what we are doing in terms of this very thorny and difficult 
and important issue of maternal mortality, which is 
particularly a problem of health disparities.
    Mrs. Bustos. Thank you, Doctor.
    Dr. Bianchi. Thank you. NIH really shares your concern. The 
problem that we have is, although maternal mortality is rising, 
it is still a relatively rare event, so it is very difficult to 
study it. There are only about 700 women. That is too many, but 
it is hard to study 700 hundred a year. We are focusing on the 
so-called near misses. In addition, there are 50,000 more women 
who are near misses, and these women can help us to identify 
differences in survival. Why do these women survive whereas 
there are others who do not?
    We also really need to understand why is there a difference 
in African-American women, as you mentioned, but also American 
Indian women as well as Alaska Native women, who all have 
higher risks of mortality, as well as all women over age 40. It 
is also important to recognize that maternal death doesn't just 
encompass pregnancy, labor, and delivery, but it encompasses 
the full year after delivery.
    Mrs. Bustos. Right.
    Dr. Bianchi. And so we have to connect obstetrics with 
internal medicine. Pregnancy puts a stress on a woman's body, 
as you know. It unmasks comorbid conditions, such as diabetes, 
depression, and heart disease, so it is really an opportunity 
to intervene. Dr. Collins has put up the slide because we are 
now developing a trans-NIH initiative that is going to be known 
as IMPROVE. This is the first time you have heard about this. 
It is implementing a maternal health and pregnancy outcomes 
vision for everyone.
    It has two components. One side on the right is the 
foundational biology part, which is really aimed at determining 
predictive biomarkers as well as novel technology, and on the 
left, there is a social and biobehavioral aim. It is very 
important to connect the communities not only to hear from them 
what they need, but then to be able to implement some of these 
changes.
    Dr. Collins. Everybody could tell you more about it, and I 
am sorry because of the time I can't call on the other folks at 
the table, but we would love to talk to you more about this. 
This is a very high priority for us.
    Mrs. Bustos. Okay. We will set aside some time where we can 
talk outside of this hearing, but thank you very much. I 
appreciate your perspective on that. I yield back.
    Ms. DeLauro. Congresswoman Clark.
    Ms. Clark. I yield to Congresswoman----
    Ms. DeLauro. She wants to yield to you. Go for it.
    Mrs. Watson Coleman. Can you take that 33 seconds off my 
time?
    Ms. DeLauro. Go for it.
    Mrs. Watson Coleman. Good morning, everyone. Thank you for 
being here, and I am so sorry that I missed a lot of the 
testimony. I think that you do important work, and I thank you 
for the service that you provide. Dr. Fauci, you said that do 
support proactive testing.
    Dr. Fauci. Mm-hmm.
    Mrs. Watson Coleman. True? Right.
    Dr. Fauci. Yes.
    Mrs. Watson Coleman. So what does that mean? Why are we not 
doing it, and what does it mean, and who would be tested, and 
under what circumstances?
    Dr. Fauci. We are beginning to do it now. It was not 
implemented earlier, and----
    Mrs. Watson Coleman. What does that mean, though?
    Dr. Fauci. Proactive testing means when you have community 
spread where you do not have a known index case. So let me give 
you an example of what non-proactive is, and then it will be 
easy to show what proactive is. So you bring in someone, as we 
did when we flew many of our diplomats and others from Wuhan, 
we brought them back to the United States. And the thing you 
needed to do was to test their obvious contact, like their 
wives or their husbands or what have you, and you wind up 
seeing that they are infected or not. Proactive means I don't 
know what is in the community, so I am going to go to a bunch 
of emergency rooms, and when people present with symptoms that 
look like they might be coronavirus, even though they have no 
connection with anybody who has coronavirus, they didn't travel 
anywhere, and test them to see if they are infected.
    Mrs. Watson Coleman. That is even in communities that have 
absolutely no knowledge of having being there.
    Dr. Fauci. Absolutely. Absolutely.
    Mrs. Watson Coleman. If I go to the emergency room in New 
Jersey where there are no confirmed cases or anything, but I 
have got some symptoms----
    Dr. Fauci. Right.
    Mrs. Watson Coleman [continuing]. Flu-like symptoms, right?
    Dr. Fauci. Right. Right.
    Mrs. Watson Coleman [continuing]. They would test and make 
sure that it is not the corona.
    Dr. Fauci. There aren't enough resources to do it in every 
single emergency room and every single center. So what the CDC 
has done, they started by taking six sentinel cities, and now 
they are expanding that to many more cities, essentially doing 
sentinel surveillance in different places. And that will give 
us a good idea, or at least a partially good idea, of what is 
under the radar screen that we are missing.
    Mrs. Watson Coleman. So are these cities clustered only 
near like the State of Washington?
    Dr. Fauci. No. No. The cities are Seattle, Los Angeles, San 
Francisco, Honolulu, New York, and Chicago, and there will be 
more.
    Mrs. Watson Coleman. My understanding is that the CDC is 
managing diagnostic tests sent to State public health labs, 
while FDA is managing tests at private labs. How does it get 
determined who does what?
    Dr. Fauci. It is not a question of managing. It is a 
question of the CDC's fundamental mandate is to develop the 
test and provide it for public health purposes to individual 
State and local public health authorities. The issue with the 
FDA came in when the FDA can give permission for a medical 
center--you pick it, University of Washington in Seattle, 
Cornell in New York City--to develop their own test or to 
partner with a biotech or diagnostic production line, and do 
their own tests on their own without needing the very intensive 
quality control that the FDA generally gives to a test. So that 
gives much more flexibility to have many, many, many more 
centers do their own tests.
    Mrs. Watson Coleman. Okay. My husband had pneumonia in 
December, and he is still coughing. I am like, I want to send 
him. I want to send him to have him checked out. I am very 
interested in research into health disparities among minorities 
and non-minorities and minority children, and what is happening 
with the suicide rates, how it seems to be growing 
exponentially or just disparately in the African-American 
community. And I am wondering, the budget as proposed, what is 
the impact on the Institute that would do that kind of research 
and be able to support those kinds of services?
    Dr. Collins. So as we mentioned earlier, when NIH is faced 
with resource constraints, we try to identify what are the most 
high-priority issues and try to protect those, even if it means 
that we have to cut back in other places. I totally agree with 
you. The question of health disparities, and especially 
something as heartbreaking as suicide, has to be a very high 
priority. And the National Institute of Mental Health, who is 
not represented at this table, has a big investment in that 
space, and particularly trying to understand are there ways of 
identifying who is at risk and making an intervention before it 
is too late.
    And we are getting closer to that and even using things 
like machine learning, taking advantage of what happens because 
everybody is carrying around a cell phone. There are indicators 
in terms of people's reduced social interactions that they are 
perhaps in a depressed state that you would not have otherwise 
known. A lot of that research is now going on, and it is very 
appropriate to focus particularly on the health disparity part 
of it.
    Mrs. Watson Coleman. I am sorry. Is that my 33 seconds?
    Ms. DeLauro. Fifty-two and now a minute.
    Mrs. Watson Coleman. I yield back. I have other questions 
regarding this issue. Thank you.
    Ms. DeLauro. We are hoping for a third round. Congresswoman 
Clark.
    Ms. Clark. Thank you so much, Madam Chairwoman, and thank 
you all, this incredibly esteemed panel. Dr. Fauci, I am 
hearing a lot from hospitals in my State of Massachusetts who 
are feeling under resourced and unprepared for the coronavirus. 
Can you tell us a little bit about, as we are anticipating 
moving from containment to mitigation, how we are going to help 
with the hospitals around the country? Uh-oh. [Laughter.]
    Dr. Collins. Was that a response?
    Dr. Fauci. Yeah, that was a response. [Laughter.]
    So when you say ``we,'' are you talking about the United 
States government? So, I mean, I can't----
    Ms. Clark. NIH and CDC.
    Dr. Fauci. Well, the NIH is not going to be able to do 
anything there except make, as quickly as possible, the results 
of the research we do to be able to be deployable in places 
like Massachusetts.
    Ms. Clark. Right.
    Dr. Fauci. The CDC works very closely with State and local 
health authorities, and that is one of the reasons why I think 
you are going to see, and I don't know what it is going to be, 
is that there are going to be resources that are going to have 
to be forthcoming to go. And I understand there is a 
supplemental package being run through. I don't want to address 
that, but that is one of the ways to answer the question, is 
that the States, Massachusetts included, are going to need some 
help to be able to implement the kinds of things that I think 
are going to be needed.
    Ms. Clark. Looking at Massachusetts and this entire health 
crisis, one of the things I am glad about is that Massachusetts 
has a very high number of insured people.
    Dr. Fauci. Right.
    Ms. Clark. That does not hold true across the country, and 
I am concerned about how our health insurance policy plays out 
in something like this. Can you tell me where you see the gaps, 
and what is most immediately obvious to you about what we can 
do to redress it?
    Dr. Fauci. That is a very good question. And because of 
that, most recently, it must have been in the last couple days, 
they all seem to mesh these days. But it has been a couple of 
days, that the director of the CMS has now been made a member 
of the President's task force, so that person is there. Those 
questions came up. Exactly the question you are asking came up 
at the task force meeting last evening, and that is going to be 
addressed.
    I don't know what the answer to it is because that is not 
my area, but it clearly came up, just like you said, that some 
States, some territories, some regions have good insurance, 
good care, and others don't. So how are we going to get the 
tests equitably distributed, not based on whether somebody can 
pay for them or not.
    Ms. Clark. Yeah, you know, it pulls in our paid family 
leave policies, all these different things, and we don't expect 
the CDC to take on that whole policy agenda, but they are so 
intertwined. And I hope that the task force will also look at 
immigrant communities. If we cannot get immigrants to fill out 
a Census because of fear, how are we going to get them to 
access healthcare for their children and themselves?
    Dr. Fauci. Again, a very good question because that also 
came up at the task force, and from what I am hearing, that is 
not going to be an impediment. Right.
    Ms. Clark. Excellent. We will wait and see. Dr. Volkov, 
good to see you. I was also very concerned that the Trump 
Administration had proposed transferring $5,000,000 from 
substance use and mental health services, nearly $63,000,000 
from NIH to fight the coronavirus. I don't think we make 
tradeoffs between public health emergencies. But I wonder if 
you can tell me what progress has been made and what steps are 
NIDA taking to work on the youth-focused interventions and 
recovery support services.
    Dr. Volkow. Well, again, one of the things that has helped 
us enormously has been the $500,000,000 that came to address 
the opioid crisis, because one of the projects that has been 
prioritized is prevention interventions. And when you address 
prevention interventions to help to avoid kids start taking 
drugs, you don't do it specifically for opioids. You do it in a 
general sense. And this is also important because we are seeing 
now that the opioid crisis is shifting not just from opioids, 
to getting into psychostimulants, so it is not like we are 
going to have to address prevention for one drug. We need to 
address the question what is making us vulnerable as a country, 
and youth are the most vulnerable of all of them.
    So we have several initiatives that are on that are going 
to be expanded, for example, prevention to rural communities 
that are at very, very high risk for drugs, to the criminal 
justice setting. How do we intervene in schools? And another 
project that we have been able to hopefully launch, as you 
know, we have done a 10-year follow-up for children from 9 to 
10 upward to understand what are the factors in the brain that 
makes you vulnerable to drugs, but how does the environment 
influence them? We want to start in infancy to look forward. So 
these are just some of the examples that we are targeting to 
try to develop knowledge and implementation methods to prevent 
youth from taking drugs.
    Ms. Clark. Great. I am out of time. I would love to follow 
up with you in another way on medically-assisted therapies 
treatment for younger people as well. Thank you.
    Ms. DeLauro. Thank you. What I am going to try to do is to 
ask three or four questions and get quick answers to them, so, 
and let me just start with this. Dr. Bianchi, endometriosis, a 
disease that impacts 1 in 10 women, leading cause of 
hysterectomy. Can you describe NICHD's research related to 
endometriosis? Tell us what your top priorities for the 
research would be if provided with additional resources. And I 
am asking this question, and where is my colleague, 
Congresswoman Finkenauer, who has a very serious interest in 
this area, and thank you for being here, Congresswoman 
Finkenauer. So hold on to that.
    Dr. Collins, we gave you $12,500,000 for gun violence 
prevention research. I want to have you tell us what do you 
expect to do with that. Also with the Office of Research on 
Women's Health, the NIH budget has grown by 39 percent. Office 
of Research on Women's Health has increased only 8 percent. 
Anyway, they have a critical role in doing what we need to do 
across all of the institutes. How would additional resources 
for the Office of Research on Women's Health enable the office 
to better advance and coordinate women's health research?
    And, Dr. Gibbons, cardiovascular disease and women. You 
know, stroke, heart disease leading cause of death for women in 
the United States. What research is NHLBI supporting to improve 
diagnosis and treatment of women with heart disease? Dr. 
Bianchi.
    Dr. Bianchi. Thank you, Madam Chair. As you said, 1 in 10 
women have endometriosis. These are women of reproductive age. 
It is associated with chronic pain, has enormous economic 
impacts because women do not go to work. It is a leading cause 
of infertility, and it is also associated with an increased 
incidence of cancer. NICHD has a Gynecologic and Health Disease 
Branch where we are funding research on the diagnosis, 
prevention, and treatment of endometriosis. We have made it one 
of our 10 aspirational goals in our strategic plan, and I am 
very proud of the fact that NICHD's research, we are talking 
about drugs that were developed as a result of NIH support, the 
drug Orilissa, which is the newest drug to treat pain in women 
with endometriosis, came out of an NICHD SBIR grant. Thank you.
    Ms. DeLauro. And I will just say this to Congresswoman 
Finkenauer, that you ought to be in touch with Dr. Bianchi to 
get all the information that you need to move forward. Dr. 
Collins, prevention research.
    Dr. Collins. Very quickly to preserve time for Dr. Gibbon. 
Firearms. We have invested in firearms research all along, and 
having these additional funds from the Congress in the current 
fiscal year is something that we welcome. We are invested in a 
full set of threat research to Americans' well-being, and we 
will continue to do so, and are certainly committed to 
executing any funding directives from the Congress.
    We have already written up various funding opportunity 
announcements, are waiting momentarily for them to be cleared. 
We will look at such things as the role of videogames, the role 
of trying to keep firearms out of the hands of adolescents, 
such things as the violence interrupter schemes that are 
carried out in some cities, do they actually work. We need data 
here, and we are the data people.
    Ms. DeLauro. That is right.
    Dr. Collins. So you can count on us. You asked about ORWH, 
the Office of Research on Women's Health. A very important part 
of what we do, Janine Clayton, who is the director of that, is 
a wonderful catalyst. But let me emphasize that while the 
funding of ORWH is modest, it is about $43,000,000----
    Ms. DeLauro. Right.
    Dr. Collins [continuing]. The overall funding for women's 
health research is about $4,400,000,000, so it is reflective of 
the way in which this, in fact, involves all of the institutes.
    Ms. DeLauro. I am very, very concerned about the amount of 
funding to the Office of Women's Health Research. I understand 
it is being done. It is cross cutting, but this is something 
that many, many years ago we identified as something critically 
important, and I want to make sure they are getting the 
resources that they need. Go ahead, Dr. Gibbons on NHLBI.
    Dr. Gibbons. Well, maybe I will take off on that point. A 
key part of the initiative for the NHLBI to address women's 
health and cardiovascular disease is actually to take more of a 
focus in their reproductive years. And to do that, we recognize 
that a leading cause of maternal morbidity and mortality 
actually relates to cardiovascular disease, typically women 
over the age of 30 in their reproductive and child-bearing 
years.
    So we have a number of initiatives that are targeting that. 
So, for example, pregnancy is often a stress test for the 
cardiovascular system. Peri-cardiomyopathy is a major cause of 
maternal morbidity and mortality. So we are really striking up 
an initiative to better understand what are the drivers and 
biomarkers and actually genetic factors that may be 
predisposing to that. Similarly, we recognize that women who 
have adverse pregnancy outcomes often have a long-term 
trajectory of increased cardiovascular risk. So we have the 
nuMoM2b Healthy Heart Study that is following up over time and 
recognizing that there may be interventions we can do to change 
the whole trajectory of those women.
    Ms. DeLauro. Mm-hmm. [Audio malfunction in the hearing 
room], and really these things playing together. They are not 
in isolation. They are not in silos.
    Dr. Gibbons. That is correct.
    Ms. DeLauro. And they work together on this. Let me yield 
to my colleague, Ranking Member Cole.
    Mr. Cole. Thank you very much, Madam Chair. When I think 
about the appropriations, you know, it is too easy sometimes 
get caught up in a what are we doing this year kind of 
mentality. Really the way this process works is everything is 
cumulative and incremental in appropriations. And so under that 
philosophy, we have adopted over the last 5 years a cumulative 
and incremental increase for NIH funding. And so, Dr. Collins, 
I want to ask you two of my favorite questions because you 
always take me in interesting directions.
    First is, one of the things we have been able to do that we 
would not have been able to do had we not made these kind of 
consistent investments and looking forward, what are the things 
that you think we might be able to do if we were to continue 
down the path that we have been on; that is, sustained 
inflation plus increases for the NIH over the next 5 years?
    Dr. Collins. I love being asked these questions. Thank you, 
Mr. Cole. The way in which these 5 years of steady increases 
influence things is perhaps most dramatically visible in what 
we have been able to do for early-stage investigators. Back in 
2015, we funded 600 of those grants in 1 year, and that was not 
nearly enough, and people were getting pretty concerned whether 
they had a career path. This past year, we funded over 1,300 of 
those, more than doubled this investment in the next generation 
of talent. And morale has just dramatically changed. I will be 
in Alabama tomorrow and Friday meeting with investigators, and 
I can tell you they are going to be really excited about 
science because now the environment makes it possible for them 
to take risks. Similarly, we have been able to increase the 
number of just overall grants and the number of principal 
investigators. We have enriched the breadth and depth of the 
entire workforce that we depend on.
    In terms of specific things, we have been able to put 
forward projects that are truly bold improving our 
understanding of life to single cells, the single cell biology 
effort, being able to go after things, like the influenza 
vaccine, at an even higher rate, the universal flu vaccine, 
than we would have otherwise, and develop platforms like what 
we are now using for coronavirus. We couldn't have done that if 
we hadn't had the support.
    Initiating this dramatically bold program called All of Us 
that aims to enroll 1 million Americans in a long-term 
prospective study of health, and that is going to be a platform 
for so many other things that we will want to learn about, and 
that takes resources. The BRAIN Initiative, really trying to 
figure out how what is between your ears does what it does. 
Again, now spending $500,000,000 on that. And it is remarkable 
what kind of technologies have been invented and what impact 
that will have on brain diseases. Cancer immunotherapy, making 
great advances we would not have been able to do as quickly 
without your help. And the whole focus on opioids and finding 
alternatives to opioids through the HEAL Initiative. Those are 
just a few of the things that we would not have been able to do 
had it not been for your strong support and seeing this 
predictable upward trajectory.
    What we could do going forward? Well, gosh, the sky is kind 
of the limit here. I mentioned in my opening statement about 
gene therapy, that we are at this cusp where we can begin to 
take what has now been done curing sickle cell disease with 
gene therapy. Let's start curing a lot of other of these 
conditions as well. You can see the path forward to do that. 
New opportunities in terms of artificial intelligence machine 
learning applied. We are going to have a big investment there 
coming in the next year or two because we can see ways this 
could play out in multiple different applications.
    A new focus maybe on nutrition. We are talking seriously 
about that. It is an area that we know is critical for health, 
and yet the science hasn't necessarily quite gelled around the 
new opportunities. It is time to do that, and, again, that is 
going to take resources. And all the things we talked about in 
terms of health disparities, ending HIV in the U.S., dealing 
with the new difficulties with methamphetamine and cocaine, not 
just about opioids. Those are all in our minds as visionary 
things that we can accomplish with this kind of path being 
continued. So I really love the question, and everybody at the 
table would have their own answers, but I guess I kind of gave 
you a bunch of mine.
    Mr. Cole. Well, Mr. Sharpless, on cancer, what would your 
answer be?
    Dr. Sharpless. Yeah, you know, I think you mentioned Jim 
Allison earlier, the Nobel Laureate who won the Nobel Prize for 
figuring out kind of using the immune system to cure cancer, 
right? I think what is maybe not known about Jim's story is 
that he started out in a small institution in Texas. That is 
where the first paradigm change in research was done. It was 
not a glamorous institution. It was before he went to Berkeley. 
It was before MD Anderson. It was before he went to Sloan 
Kettering.
    And I think that I am obsessed with the fear that there are 
these great scientists with terrific ideas who are working out 
there sending us their grants. We have had an explosion of 
grant submissions, a 50 percent increase over since 2013, and 
that we are not able to get to their great idea because our 
paylines just aren't high enough. So with the generous 
appropriation that Congress has been giving us, we have been 
trying to get those numbers up so that we can get to the really 
innovative cutting-edge science that make a difference for 
patients, like Dr. Allison's work.
    Mr. Cole. I just would say, Madam Chairman, I hope we look 
at this this way. We ought to be thinking about this because, 
as Dr. Collins said, every person here could give us a 
different answer if we could tell them some certainty. We are 
going to stay on the track that we have been on, and we want 
you to think that way and present those kind of possibilities. 
I think this committee has done that, and, you know, frankly 
done a good job at it.
    Ms. DeLauro. Congresswoman Lowey.
    The Chairwoman. Thank you very much, and I want to take 
this opportunity again to thank you all for your extraordinary 
work. I came back because I wanted to get back to the whole 
issue of e-cigarettes with Dr. Gibbons and Dr. Volker. With all 
the information out there, it is not penetrating the kids, and 
the rising rate of e-cigarettes among young people, as you 
know, is startling. When I look at the numbers, 64 people died. 
Nearly 3,000 were hospitalized last year with vaping 
respiratory-related illnesses.
    Now, as I understand it, many, but not all, of these cases 
were attributed to vitamin E acetate, long-term impacts of 
vaping, but concern is growing that there could be long-term 
health consequences: heart disease, stroke, cancer. In the 
couple of minutes we have, I would like to hear from both of 
you. What can we do about it? And if you have any ideas, it 
would be welcomed. I just see these numbers increasing on 
college campuses exponentially.
    Dr. Volkow. Yeah, one of the things that we don't 
necessarily recognize is that these vaping devices are very 
high technology for delivering drugs in ways that make them 
very, very rewarding and addictive. So you can actually deliver 
huge quantities of nicotine in much higher concentration than 
what you normally do with combustible tobacco. As a result of 
that, what we are observing is in the past where a kid will 
take several months to escalate, now we are seeing this 
escalate in a couple of weeks, and that is also associated with 
toxicity with higher risk of addiction, and that is what we are 
now facing.
    And the numbers speak for themselves. One of the main 
reasons, which was not even recorded in the past, why teenagers 
are saying that they are vaping nicotine is because they say 
they are hooked to it. So they have done that transition very, 
very rapidly, and I think the message is that it is urgent that 
we do interventions to prevent that. We need to stop it 
because, otherwise, we will go into tobacco smoking again. But 
also all of the points that you are saying that I will let my 
colleague, Dr. Gibbons, address, we don't really know what are 
the consequences of delivering this vaping into your lungs as 
well as other organs.
    Dr. Gibbons. So you clearly raised an important area of 
concern. Just last summer, obviously you are describing the 
cases of e-cigarette and vaping associated lung injury that 
really started to explode as sort of a new epidemic and 
mysterious illness. We didn't know why people were presenting 
with shortness of breath, and other symptoms requiring 
hospitalization, until we got this history of vaping. This was 
an area where close collaboration, between NIH, FDA, and CDC in 
response to this public health threat was pretty immediate and 
collaborative. Within weeks, we were convening subject matter 
experts from around the country, and, again, leveraging prior 
investments this committee has made because we were able to 
leverage centers of excellence in tobacco regulatory science, 
bring and convene people who have already been studying e-
cigarettes together, and say what can we do, what is going on 
about this new vaping epidemic related to lung injury.
    That mobilized a research agenda. And so, again, within 
weeks we put out a notice to engage our research community to 
start studying what is driving this EVALI. And the CDC, with 
its case definition and surveillance apparatus, was able to 
start to make these links to THC and substances that might be 
combined with THC that might be driving it. By December, we 
clearly had a sense that vitamin E acetate from samples from 
the lung may be a key associated element of this phenomenon.
    And, again, related to the researcher community we 
established, investigators were already beginning to study and 
get the causal link between vitamin E acetate and study it in 
animal models. And, in fact, in just the past few days, it was 
published in the New England Journal of Medicine, by NHLBI-
funded investigators in Roswell Park, that indeed just giving 
vitamin E acetate through a vaping device, at least in this 
mouse model was, was they could recapitulate a lot of the 
lesions seen in patients with EVALI.
    So literally, within 8 months, we been able to close the 
loop from a mysterious disease involving a collaborative effort 
between NIH, CDC, and FDA, to address that public health 
threat, and with that awareness, we are starting to see the 
cases come down. But, as Dr. Volkow mentioned, we still don't 
know the long-term effects. In fact, we have now funded a 
cohort to follow and trace all those patients with EVALI, and 
we recognize that EVALI is probably just the tip of the 
iceberg. What is happening to subclinical injury to the lung in 
the long term of these young people? That is still an unknown.
    The Chairwoman. Well, my time is up, but I would just hope 
that we could work together. I think it is pretty conclusive 
this just isn't good for kids, adults, or anybody.
    Dr. Gibbons. Absolutely.
    The Chairwoman. What are we doing about it? The kids don't 
believe it, and working with CDC, perhaps----
    Ms. DeLauro. Ban it.
    The Chairwoman. I am with you. I would ban it completely. 
But I would like to follow up with you because it seems to me 
the science is conclusive, and what are we going to do to get 
these kids to understand, cut it out. Thank you very much.
    Ms. DeLauro. Congressman Harris.
    Mr. Harris. Thank you very much, and thank you all for 
being here. It makes me nostalgic for the days I used to do 
research. [Laughter.]
    How exciting it is, especially when we have discoveries. 
Dr. Collins, just briefly, you know, a group of us are going to 
send a letter to the President asking him to look again at 
human embryonic stem cell research, which we understand still 
continues at the pace of about a $25,000,000 a year at the NIH. 
As you know, I mean, the future really is pluripotency, you 
know, inducing pluripotency of regular cells into stem cells 
states. And the idea that we are continuing to destroy human 
embryos and funding it or funding the destruction basically 
through the NIH, I think is a mistake because, you know, human 
embryos are, in fact, the youngest humans. And I think many 
believe correctly that human life should never be used as a 
mere means for achieving the benefit of another human being. 
That is not the purpose of human life.
    So I would hope that if the President responds positively 
to our letter, that you could come up with a way to phase out 
that, you know, to just phase out the use of a $25,000,000 on 
something that really has yielded no direct clinical benefit 
yet. And I understand there are basic science reasons to pursue 
it, but these are humans. These are the youngest humans. We 
should move away from that as soon as practical.
    Dr. Volkow, it is good to see you again. You probably know 
what I am going to ask about. It has been a year, and I want 
you to update us on, you know, the marijuana research that is 
done, looking at its effect on the brain because, you know, as 
more States attempt to move to recreational use of marijuana. 
Fortunately in the last omnibus bill, you know, an attempt was 
turned back to make the recreational marijuana industry much 
more profitable and widespread through, you know, removing 
banking restrictions. I mean those restrictions are still in 
place, so it buys us some time to actually educate the American 
public, I think, about how dangerous it can be. So if you could 
just talk about that.
    And just as an aside, I do believe our colleagues in Energy 
and Commerce are going to move finally a medical marijuana 
research bill that makes it easier to do research and to truly 
discover what is merely a pie-in-the-sky promise with regards 
to what marijuana can do and those diseases where it really 
will be of help. But if you could just update us about some of 
the research that indicates just about the dangerous expansion 
of marijuana, especially with the bleed down to younger 
individuals that we see. I mean, whether it is e-cigarettes or 
marijuana, you can make it illegal, but young people are going 
to use it. So if you could just briefly in the last 2 minutes 
discuss what is----
    Dr. Volkow. You know, and thanks for asking that question 
because it is an area where there has been major changes in the 
perception of the American public that we have a drug that is 
benign. And as a result of that, we are seeing a very dramatic 
increase in the number of people that are consuming marijuana, 
44,500,000 million in 2018.
    Of greatest concern, of course, relates to children because 
the brain is developing until we are in the mid-20s, and the 
endogenous cannabinoids system, which is the one that is 
basically stimulated by marijuana, is crucial in enabling that 
development, including migrations of cells, how cells 
communicate with one another. So what the research has shown 
that kids, adolescents, consuming marijuana, and there is a 
dose effect, are much more likely to show disruptions in terms 
of structure and function of the brain. That appears to be 
associated with cognitive impairments. The criticism that has 
been done of those studies is that they have to look at it 
retrospectively, which is the reason why we are currently doing 
the ABCD Study that is looking prospectively to address 
specifically that question objectively in ways that cannot be 
challenged.
    What also has merit very clearly, and this is from stories 
that have come across all over the world by independent 
nations, is that the use of marijuana with high-content THC is 
associated with a greater risk of having psychosis. Now, the 
big question is, is this acute or chronic psychosis, and there 
is now data to show unequivocally that high doses of THC can 
make psychotic any one of us. Chronically, now, the data 
indicates that it does increase the risk, that you could 
develop a chronic psychosis, whether you have the genetic 
vulnerabilities as we would recognize it now or not. So and 
this, again, highlights why we need to provide information to 
the public so that they go in with their eyes wide open when 
they make decisions of taking drugs, but, importantly, when we 
make policy decisions.
    Mr. Harris. Thank you very much. I yield back.
    Ms. DeLauro. Congresswoman Lee.
    Ms. Lee. Thank you very much. Dr. Fauci, of course have 
worked together for many years on HIV and AIDS, on the 
epidemic. I co-chair the bipartisan Congressional HIV/AIDS 
Caucus, and we are still working together in a bipartisan way 
to make sure that we have the resources to address this 
epidemic. We are at the tipping point now in the field of HIV 
research, including vaccine development. So I would just like 
to ask you if you have kind of an update on the future progress 
in these areas in terms of vaccine for HIV and AIDS.
    Secondly, I would like to ask you, just in terms of the 
coronavirus, has it hit a pandemic level or not, and how do we 
explain to our constituents the difference between an epidemic 
and a pandemic? And I want to find out, as serious as this is, 
well, I think we are doing a good job in explaining how to 
prevent the transmission of the virus. But given that there is 
a 2 percent fatality rate for this virus and it is impacting 
people who are elderly, I wanted to find out, do you think, 
from your perspective, that that 2 percent is accurate right 
now in terms of fatality rates?
    And then to Dr. Collins if we have time, just on sickle 
cell, how close are we now? I mean you have done some 
remarkable work on sickle cell disease, and we are waiting, and 
I know we are close. Of course, you know, 1 in 10 African 
Americans in the U.S. have sickle cell, well, at least the 
trait, and so I wanted to just see how close we are, and how we 
are doing as it relates to identifying the trait early enough 
where those who have diabetes recognize that the A1c test is 
not accurate or could provide false results.
    Dr. Fauci. Okay. I will be really quick because you had a 
lot of questions. So the vaccine, as you know, we had a 
disappointing situation with the vaccine trial that was finally 
looked at by the Data and Monitoring Safety Board in South 
Africa, which was called HVTN 702, which was using the model 
that we used in the Thai trial, and that showed, safety, no 
deleterious effect, but no efficacy. There are two other major 
trials that are going on, one in southern Africa, one in the 
Americas and Europe. Those trials, we won't have the data on 
them probably for at least another couple of years. They are 
using a different concept. They are using a different vector. 
They are using a different protein, and they are using a 
different adjuvant. So I can't give any prediction of what the 
result is going to be.
    Simultaneous with that, there is another whole effort on 
HIV vaccines using a structural biological approach to get the 
right confirmation of an immunogen to induce broadly-
neutralizing antibodies, which are the gold standard of 
protection against viral infections. So there is still a lot of 
good work going on, but we did have a disappointment.
    Number two, the word ``pandemic,'' there are many, many 
people who have different descriptions and definitions of 
``pandemic.'' ``Pan'' being all, means widely distributed. The 
WHO has not declared this a pandemic yet because they haven't 
had very sustained transmission throughout the world, so, 
technically, it is not a pandemic. It will be up to them to 
make that declaration.
    Next, the 2 percent mortality. A report just came out today 
that when they looked at the totality of the data, in China 
mostly because 90-plus percent of the infections are in China, 
it was somewhere around 3 percent, up from the 2. The percent 
mortality will depend on the denominator of number of cases. So 
if you are not counting every case, then the mortality would 
look high. If you are counting a lot of cases that are 
subclinical, the mortality will become lower. But no matter how 
you slice, it is many, many, many more times lethal than the 
influenza that we get in the season, particularly for the 
elderly and those who have underlying conditions, because most 
of the deaths and the hospitalization, the mean age is about 
70.
    Ms. Lee. Dr. Collins, quickly.
    Dr. Collins. Very quickly, and my colleague, Gary Gibbons, 
is very much in the lead of this effort. We have a whole Cure 
Sickle Cell Initiative that NHLBI is leading. And the good news 
is here, we now have at least three clinical trials that are 
using gene therapy for sickle cell disease that appear to be 
working and working dramatically. They are very high tech. They 
require very specialized technology and hospital services. So 
it is not quite ready for broad extrapolation, but we are going 
to see, I think, in the next few years sickle cell disease 
becoming one of those conditions that we can actually cure.
    In fact, we have started a new initiative with the Gates 
Foundation to figure out how we might extrapolate that to Sub-
Saharan Africa, which is where most people with sickle cell 
disease live. And it would be unethical, I think, at this point 
to say we are fine because we figured out how to do this in a 
high-tech environment. We have to figure out how to do it in a 
low-resource setting as well. The interaction with A1c and 
sickle trait is now well recognized, I think, by many 
physicians. It was a very significant JAMA publication that 
laid out exactly the data about this about a year ago, so I 
think there has been a recognition that this has to be paid 
attention to in managing diabetes with somebody who has sickle 
cell trait.
    Ms. Lee. Thank you very much.
    Ms. DeLauro. Congresswoman Clark.
    Ms. Clark. Thank you so much. I was delighted to hear this 
morning the story on NPR about the incredible advances, and you 
did a very good job, Dr. Collins, on, you know, injecting a 
virus into the retina and potentially restoring vision. It is 
unbelievable. But I know that there are many concerns also with 
CRISPR and these technologies after the Chinese scientists 
edited genes of babies last year. So I know there is great work 
going on about putting up the sort of ethical guardrails that 
we need. I wonder if you can tell me what steps NIH is taking 
to protect patients and mitigate wrongdoing as we continue to 
push the boundaries of science and medicine for amazing cures.
    Dr. Collins. Well, this is an area of intense interest of 
for all of us, and it is this remarkable circumstance of the 
application of CRISPR-Cas, so-called gene editing, for many 
different genetic diseases. And you mentioned the one that was 
just reported about this morning, which is a cause of 
blindness, is one of the most exciting things that is happening 
right now in terms of research. Let me make it clear. Those 
approaches basically approach a way to fix the spelling of a 
misspelled gene somewhere in the body, but it doesn't get 
passed on to the next generation. It is non-hereditary.
    What happened in China was an intent to actually make this 
kind of change in an embryo, which would be what you call the 
germline, the hereditary changes, and we all agree that that is 
utterly inappropriate at the present time. There is so much we 
don't know about that, so many risks, so many theological and 
philosophical consequences to beginning to change our own 
instruction book. We at the NIH would not support that. In 
fact, that would be illegal in the United States, that kind of 
embryo manipulation. The World Health Organization has a high-
level panel that is looking at this, and we wait for their 
recommendations. And so far, they have also come down quite 
strong on this. Our National Academy----
    Ms. Clark. Do you know when you expect that recommendation?
    Dr. Collins. The WHO recommendation? I think probably in 
the next few months, sometime during this calendar year, from 
what I hear. They are beginning to close in on some sort of 
conclusions. Again, WHO has a challenge because they have got 
to get all those countries to sign on to it, so there will be a 
draft and then we will sort of see what happens. Certainly in 
this country, that would not be something we would do, but at 
the same time, there is all this promise if you don't deal with 
the hereditary applications. But what we call the somatic cell 
part, you are dealing with the eye, or amygdala, liver, or 
maybe the brain for a child who has otherwise an untreatable 
genetic disorder. This is potentially enormously exciting. We 
have a whole program at NIH and our Common Fund trying to 
develop the ways to deliver that gene editing apparatus safely 
to the tissue where you want it to go, because it is one thing 
to know how to do it in the cell culture, but in a person, how 
do you actually send it to the right zip code and have that 
result happen safely and effectively. There is a lot going on 
in that space, and we have made a pretty big investment.
    For me, who is a geneticist, you know, these 7,000 genetic 
diseases waiting for some kind of solution, this is a scalable 
approach that might actually work, not in the next 100 years, 
but maybe in the next decade. But we have to work really hard 
to knock down all the barriers.
    Ms. Clark. Thank you. Dr. Sharpless, it came to my 
attention recently through crackerjack staff that 20 percent of 
cancer trials failed due to insufficient patient enrollments 
because there are barriers, restrictions on eligibility, access 
to transportation, et cetera, ability to take time off work. 
What efforts are NCI undertaking to enhance clinical trial 
recruitment and operations at smaller community sites that may 
not traditionally be engaged in clinical research?
    Dr. Sharpless. Yeah, I think it is a really important 
topic. Clinical trials accrual, the whole foundation rests on 
being able to recruit patients. And we have so many trials and 
so many great ideas in cancer, but if we can't test them, then 
we really can't make progress. So fixing this problem is an 
intense focus for the National Cancer Institute.
    I think one big issue is, you know, basket trials in the 
prior era are were designed poorly. They were designed to be 
done in, you know, tertiary care centers only and not to be 
done in sort of the other sorts of environments, and required, 
you know, just a process that was bad. And so one of the things 
that has happened in the last few years is a real focus on 
these sort of basket trials that can be done in the community. 
So the NCI match trial accrued 6,000 patients at 11,000 sites, 
for example. We have this in-core network that has these sites 
that allow people to get to accrued trials in the community. We 
know that being on a trial provides better care, and it also 
provides a more diverse population on the trial, so it is 
really important.
    And lastly, I should mention, we have made it a crusade to 
get rid of these arbitrary and somewhat silly eligibility 
enrollment criteria that keep people off trials, like HIV 
positive or treated brain metastases, or things like that. So 
we, working with others in the oncology community, have tried 
to make trials simpler and more doable in the community, but it 
is still an area where we need some improvement.
    Ms. Clark. Great. Thank you so much.
    Ms. DeLauro. Congresswoman Frankel.
    Ms. Frankel. Thank you again for being here. This has been 
terrific. And so I have three questions. Okay. Number one is, I 
had read a report or a study that women are feeling like 
doctors are dismissing their complaints, so, number one, I am 
curious whether or not there is any research on sex 
discrimination in medicine. Number two is, where I live in West 
Palm Beach, it seems like in the entertainment district, every 
other storefront is selling CBD. Florida has also legalized 
marijuana. So I am just curious whether or not there is any 
research to show that either CBD or the marijuana is medically 
effective. And then my third is back to my grocery store 
questions on coronavirus, is I know you are not supposed to 
touch your face, but is it any part of your face? Where are the 
germs going? And if someone is gets quarantined, how long do 
they have to be quarantined for, and can there be repeated 
quarantines? I mean, I guess the better question is, do you 
think this is going to be a widespread issue in our country? 
Sex discrimination first, yeah.
    Dr. Collins. Sex discrimination first. Dr. Bianchi.
    Dr. Bianchi. Certainly with regard to maternal mortality, 
there is definitely discrimination and that women's voices are 
not being heard, and that is one of the aspects of the IMPROVE 
Initiative that we want to address. That is the community-based 
initiative. We know that there is not only a dismissal of 
women's voices, but also there is infrastructural racism, and 
we are definitely including that as part of this overall 
initiative.
    Ms. Frankel. The CBD and marijuana.
    Dr. Collins. Nora.
    Dr. Volkow. We know there is evidence from CBD to be 
effective for helping to treat seizure disorders in children, 
Dravet syndrome, and that has led to a medication. Otherwise, 
there are no other FDA products approved for CBD, but there is 
interest with respect to its analgesic effects. There is 
interest with respect to its anti-inflammatory effects. And we 
also definitely are interested and are evaluating its potential 
therapeutic value to help treat different types of addiction, 
including opioid addiction. With--respect
    Ms. Frankel. When you say ``interest,'' does that mean 
there is research being done or----
    Dr. Volkow. Research is being done.
    Ms. Frankel. Okay.
    Dr. Volkow. We are funding researchers to do this both in 
animals and in humans. And with respect to the THC, the 
information is more limited. There is some evidence that it 
could be beneficial for multiple sclerosis, for spasticity from 
multiple sclerosis, also for pain indications, and otherwise, 
the evidence is not very good in terms of its potential 
benefits. But researchers are doing studies, and we are funding 
researchers to do studies on PTSD, for example, could it have a 
value.
    Ms. Frankel. All right. Back to the coronavirus.
    Dr. Collins. Yeah, touching your face.
    Dr. Fauci. So----
    Ms. Frankel. First of all, to have the germs get in you.
    Dr. Fauci. Okay. So, first of all, you asked a question 
about touching your face.
    Ms. Frankel. Yeah.
    Dr. Fauci. So the public health ways to avoid getting 
coronavirus are very similar to those to avoid influenza, and 
that is particularly as simplistic as it sounds: washing your 
hands as frequently as you can. One of the problems with 
respiratory-borne diseases is that they are spread either by 
droplets, gross droplets--someone coughs or sneezes on you--or 
even a bit of aerosolized where you can be sitting next to 
someone very closely, and you don't cough and sneeze, but the 
virus can aerosolize----
    Ms. Frankel. So, I mean, does it go into you through your 
nose, your mouth?
    Dr. Fauci. That is what I will get to.
    Ms. Frankel. Okay.
    Dr. Fauci. All right. So what it is, it will get in through 
a mucosal surface. That could either be your nose, your mouth, 
or even your eye. The reason for washing your hands is that 
people often do the wrong thing. That is why you hear us say 
cough into the crook of your elbow because people sometimes go 
like this, to blow their nose. They will shake hands with you, 
touch a doorknob. Fifteen minutes later, you come by and do 
that, then you touch your face, and that is how you get it. So 
that is the way. That is the first thing.
    Secondly, incubation period quarantine. The incubation 
period, the median time from when you get exposed to when you 
get clinical symptoms, is about 5.2 days. That is the median. 
The range is somewhere between 2 and 14. Fourteen is much, much 
more the outer limit. So when someone is suspected of being 
exposed, they either self-isolate or they get actual 
institutional quarantine for 14 days.
    Ms. Frankel. But you could have----
    Dr. Fauci. Fourteen days. Fourteen.
    Ms. Frankel. You could have multiple self-quarantines. I 
mean, what if you get exposed and then you stay home, and then 
you get exposed again and you stay home? Do you have to stay 
home every time you get exposed?
    Dr. Fauci. Well, it depends on what you mean by 
``exposed.'' I mean, if you are exposed to someone who has 
documented infection, and then you are tested and you go into 
voluntary isolation, not necessarily quarantine. The only time 
you get quarantined is if it is very, very clear that you have 
direct contact with someone.
    Ms. Frankel. But it could be multiple times.
    Dr. Fauci. Well, it could be if you are in a situation 
where you are in an outbreak. Well, that is very interesting 
because when you go from containment, which means to prevent 
the spread, to mitigation, which means in the community, 
distancing yourself socially. If, I don't want to say ``when'' 
because every time I say ``when,'' it is a headline. If. 
[Laughter.]
    Dr. Fauci. Okay. If it gets to the point where there is 
really widespread infection, if that ever happens or----
    Ms. Frankel. Do you expect that to happen in our country?
    Dr. Fauci. I can't predict that. I cannot----
    Ms. Frankel. Are you worried about it?
    Dr. Fauci. I don't worry. I try and just do things that can 
prevent it.
    Ms. Frankel. Thank you very much. I yield back.
    Ms. DeLauro. Congresswoman Watson Coleman.
    Mrs. Watson Coleman. When there is a vaccine available, who 
gets it first besides my colleague to my left? [Laughter.]
    Dr. Fauci, who gets it first, and how do we go about 
distributing it?
    Dr. Fauci. Well, the standard approach when you have a 
vaccine, for example, for influenza, when you have limited 
vaccines, you give it to the most vulnerable. And the most 
vulnerable clearly are the elderly and those with underlying 
conditions, and those generally are heart disease, chronic lung 
disease, kidney, diabetes, and obesity, or those who are using 
immunosuppressive drugs who might have an underlying cancer.
    Mrs. Watson Coleman. And so we are 18 months or so away 
from that. Probably?
    Dr. Fauci. At least. The other thing that is important is 
the healthcare workers and those who are the frontline 
responders because those are the ones in every disease we know 
that are the most vulnerable. In fact, if you look in China, 
the people who were most vulnerable before they had good PPEs 
were the healthcare providers.
    Mrs. Watson Coleman. Mm-hmm. Thank you. Dr. Collins, 
following up on my interest in the whole issue of health issues 
and the disparate impact on minorities, one of the things that 
I learned from the emergency task force that we had on mental 
health and black youth suicide was that researchers, black 
researchers in particular, have not been having their research 
requests considered, and they have been denied these requests 
for reasons having to do with not communicating clearly what it 
is that you are looking at. The implications of community 
outcomes or collaborations not necessarily recognizing the 
significance in our space, with regard to issues of that 
nature.
    One of the things that one of the Institute directors 
talked about was having more workshops, having more input from 
black researchers into what would be considered and whose 
grants and stuff will be considered. What are the things that 
we can do to ensure that researchers of this nature are getting 
an equal opportunity to do the research that is important for 
the disparities that exist in the minority communities?
    Dr. Collins. This is an issue that we are looking at with 
great seriousness since it was documented a few years ago that, 
in fact, an African-American investigator, who comes to NIH 
with their best and brightest ideas, has a lower chance of 
getting funded than other groups. And that is very disturbing 
to look at, and there were many hypotheses about what might be 
involved. I think we have not completely sorted out all the 
reasons, but we have discovered a number of them, and certainly 
part of this issue does relate to, I think, the fact that 
oftentimes investigators may not have been in as strong a 
position to be able to put forward a grant application because 
of the lack of mentoring, the lack of opportunities to sort of 
be involved in networks, which may be a natural thing for 
others, but for minorities not so much. And we are working very 
hard on ways to do a better job of mentoring with something 
like the National Mentoring Research Network.
    We also identified the fact that there are different areas 
of research where minorities tend to migrate, and health 
disparities research is one of those, and you can see why that 
is. That is some oftentimes a passion for somebody who gets 
into research who comes from an underrepresented group. They 
want to work on understanding why their communities are not 
being as well served. And yet it is clear that some of the 
research that goes on in that space doesn't fare as well in our 
peer review system, regardless of whether the applicant happens 
to be a minority or not. So there is some action there that we 
need to take.
    We are still trying to sort this out. There was a paper we 
published a few months ago about this which got a fair amount 
of attention. We are continuing to do the analysis to see what 
else we are missing here. We are determined to sort this one 
out.
    Mrs. Watson Coleman. Well, I am glad. I am both a co-
founder of the Congressional Caucus on Black Women and Girls, 
and we are interested in those things that impact individuals, 
particularly because of the intersection of their gender and 
their race, and as well as the interest in what is happening 
with our children and mental health disparities, things of that 
nature, big issues in my community. So I thank you for the work 
that you are doing, and I look forward to the work that you 
will be doing in the future. Thank you. I yield back.
    Ms. DeLauro. Thank you. We are going to do a kind of a 
third round here with 3 minutes each. But I wanted to let you 
know I have just been informed, I do not know what the dollar 
amounts are, but it would appear that the House and the Senate, 
Congressman Cole, have come to an agreement on the 
supplemental. [Laughter.]
    God is in His Heaven. All is right with the world.
    Dr. Collins. Yes.
    Ms. DeLauro. And so actually we just got that that notice, 
and so that word will be getting out about dollar amounts, et 
cetera, et cetera, et cetera. So, again, yes, wonderful. This 
is where we need to go.
    I am going to do my rapid fire piece here again. Dr. 
Gibbon, status update on NIH's efforts on a commission on 
lymphatic diseases. Okay. NCI. You talked about lots of 
activity in the area, Dr. Sharpless. Tell us a little bit about 
what is driving the interest in cancer research because you 
have so many more. I would love to know at some point, and 
maybe I will just sit and talk with you about where we stand 
with ovarian cancer and finding a marker for ovarian cancer.
    Universal flu vaccine update, Dr. Fauci. If we could 
provide additional resources in 2021, how quickly might we move 
to some success there? And, Dr. Collins, the NIEHS. In past 
emergencies, they supported training for workers, for 
healthcare workers, airports, correctional institutions, et 
cetera. Just a quick overview of their work or training 
activities in recent public health emergencies, H1N1 flu 
pandemic, Ebola, and could they support what we need to do for 
this current COVID-19 outbreak. So status of the commission on 
lymphatic disease.
    Dr. Collins. Sure.
    Dr. Collins. A lightening round.
    Ms. DeLauro. A lightening round.
    Dr. Gibbons. Exactly. So you hit on the important issue 
that of lymphedema is often debilitating and disproportionately 
affecting women. We have established a task force that is 
trans-NIH that is focused on lymphatic research, this issue. 
The NHLBI alone spends $20,000,000 a year on this issue along 
with many other ICs contributing even more to that collective 
effort.
    One of the key activities of interest is part of the human 
cell atlas that Dr. Francis Collins described in which we were 
able to get single cell resolution characterization of many 
cells in the body. One of the key organs, if you will, is the 
lymphatic system, and so understanding that system both in 
normal human health and development, as well as in response to 
injury and disease is fundamental to really getting to better 
treatments for the disease.
    Ms. DeLauro. We will have further conversations on this, 
but we did encourage in the omnibus a national commission on 
lymphatic disease, so we are going to pursue that with you. 
NCI. What is driving this interest?
    Dr. Sharpless. First of all, I would say it is a really 
good problem.
    Ms. DeLauro. Yes. Amen.
    Dr. Sharpless. I mean, you think of all these people coming 
with good ideas. That is that is what drives science.
    Ms. DeLauro. We got to be able to fund them, too.
    Dr. Sharpless. It is probably a lot of things. I think the 
National Cancer Center Program plays some role. I think our low 
paylines, frankly, people just write more grants. But the main 
one, I think the really inherent one is the exciting time in 
cancer research, the scientific progress. I saw this at the FDA 
when, like, 30 percent of the business in terms of new 
approvals and devices and drugs were cancer-related products. I 
see this in Big Pharma. I see this in basic science. There are 
just a lot of people who think they have good ideas for cancer, 
so I think that is the main one. And I would be happy to follow 
up with you on ovarian cancer.
    Ms. DeLauro. Yes, on ovarian cancer. Still after all these 
years, we don't seem to have a marker.
    Dr. Sharpless. Agreed.
    Ms. DeLauro. And we know how many thousands of women die 
every year from ovarian cancer. Dr. Fauci, universal flu 
vaccine.
    Dr. Fauci. Thank you very much to the committee for the 
plus-up on the universal flu vaccine. We are making significant 
progress. As I mentioned last time, the first in human Phase 1 
trial for a universal flu vaccine for the Group 1 influenzas, 
which is a whole cluster of influenzas went into clinical 
trial. It was successful. It showed to be safe, and it showed 
to be immunogenic. We will start very soon a Phase 1 trial for 
the Group 2, which is the other whole group of influenzas.
    So we are really moving along very, very quickly. By the 
end of the summer, we will be able to go into a Phase 2 trial. 
That is going to be important because that is going to involve 
hundreds, if not a couple of thousand, of people, and we will 
need the resources that you gave us to be able to do that Phase 
2 trial. Thank you.
    Ms. DeLauro. And I would assume additional resources.
    Dr. Fauci. Yes, indeed. No, I mean, well, that you are 
going to give us. [Laughter.]
    Ms. DeLauro. Amen. Amen.
    Dr. Collins. Very quickly, NIEHS has played a critical role 
in training people who can deal with outbreaks. They previously 
worked on Ebola. They are totally prepared to step in on this 
Phase 2, need some support for that. And basically, it is 
airports, as you said. It is correctional facilities. It is 
hospitals. They both do train the trainer efforts, they do 
face-to-face, they run courses.
    Ms. DeLauro. You mentioned that you need some help with 
that. Can we be instrumental in pushing for NIEHS to be engaged 
and involved in the training, which is----
    Dr. Collins. I am curious in looking in the supplemental 
and see whether there is a way that this can be factored into 
that----
    Ms. DeLauro. Okay.
    Dr. Collins [continuing]. Because we are going to need a 
lot of training for people who aren't quite prepared for this 
yet.
    Ms. DeLauro. Okay. Thank you. Congressman Cole.
    Mr. Cole. Thank you very much, Madam Chair. I want to 
follow up quickly actually on the point you raised with Dr. 
Sharpless because I want to have a little more information. We 
have got obviously explosion, as you pointed out, going on for 
a variety of reasons. Are there some things we should do so 
that we don't leave good science on the table just because 
right now cancer seems to be a lane where there is a lot more 
happening than maybe some other areas?
    Dr. Sharpless. Yeah, I think there are. You know, probably 
the main thing to realize about this problem is that it is not 
a 1-year problem. You know, it is like a mortgage. We pay these 
grants. They have 4- and 5 and, in some cases, even 6-year 
budget tails. And so when we invest in the RPG pool and this 
pool of grants today, which, you know, goes up 3, 5, 8 percent 
every year at the NCI over the last, you know, 5 to 10 years, 
then that has outyear costs for us that are quite significant. 
And so, you know that provides some hesitation on the part of 
the NCI to be good stewards.
    You know, if we over invest today, we could have a real 
problem 3 years from now if we are not smart about it. So, you 
know, there is a realization that this problem is not going to 
be fixed this year or next year, that we expect that we are 
going to get these increased number of grants for a while 
because there are people which have a lot of really great 
ideas. So I think this, you know, sustained commitment that you 
have provided for so many years is really what the doctor 
ordered for the NCI RPG problem.
    Mr. Cole. Yeah, I think that is important. I couldn't agree 
more. Dr. Collins, the Attorney General has raised some 
awareness of threats posed by foreign governments that 
obviously, particularly the people Republic of China, you know, 
frankly raiding our science or interfering with our research. 
Can you tell us what your level of concern is on that, some of 
the measures you might be taking to respond?
    Dr. Collins. We are quite concerned. Dr. Mike Lauer, who is 
the head of our Extramural Research Division, has spent 
probably two-thirds of his time now on this over the course of 
the past many months. First, let me say that we greatly depend 
upon and value foreign investigators, foreign-born 
investigators, who are part of our workforce, the vast majority 
of whom are honorable, hardworking, incredible contributors. 
And one thing we have to be careful of is that even as we have 
identified this as a serious issue, that we don't extrapolate 
into anything that would look like sort of racial profiling, 
which would be a really unfortunate, unmerited, and 
unforgivable kind of approach.
    At the same time, we have identified numerous examples, I 
am sorry to say, of individuals who have been receiving 
substantial financial benefits from relationships with foreign 
countries--yes, often China--without disclosing that, and it is 
a requirement that they do so. Likewise, we have instances 
where individuals have shared grant applications that were not 
even yet reviewed with colleagues in other countries to give 
them some kind of an edge on developing some new invention. 
Obviously that has consequences for intellectual property.
    We are very serious about identifying those circumstances. 
You have probably seen in the press some dramatic examples of 
individuals who have been found to be egregiously against the 
way that scientists should behave, and have, as a consequence, 
lost jobs and, in some instances, been brought forward for 
various kinds of criminal prosecution. Again, I think most of 
the people that you might see in our workforce or honorable, 
but we are determined. We are stewards of the public trust. If 
there are instances that are not going the way they should, we 
will be following up on them.
    At the moment, we have dozens of these investigations that 
are currently under way. We are working with the FBI on this, 
and they have been good partners with us, and we will keep our 
eye on this and continue to see where the trouble is and then 
act upon it.
    Mr. Cole. I just want to commend you for your vigilance 
here, and, frankly, also for the even-handed attitude. There is 
a danger here that this could degenerate into a place where 
none of us would ever want it to go. And so thanks for having 
the focus on the problem, but also thanks for remembering, as 
you say, most of the folks that are involved in these endeavors 
are honorable, able, and are serving humanity. So it is a tough 
problem, and I think you have struck the right balance. Thank 
you, Madam Chair.
    Ms. DeLauro. Congresswoman Frankel.
    Ms. Frankel. Well, first I just want to say, I want to 
thank our chair, and our ranking member, and all our panelists. 
It is so refreshing, and I think we are blessed to be able to 
have a bipartisan discussion on health research, and very 
fortunate to have people of your caliber leading the way. I am 
not going to ask you more supermarket questions. I would just 
note that I have touched my face so many times today----
    [Laughter.]
    Ms. Frankel. Seriously, I am very worried about the social 
and economic impacts of the potential of this virus. That is 
really very frightening, and I am not going to get into it with 
you guys. So I am going to ask you some different questions. 
Specifically, in Florida, and I also know in the Nation, that 
suicides are a big issue, and also I saw something that that it 
is a leading cause of maternal death. Is that right? That is 
suicide.
    Dr. Collins. [Nonverbal response.]
    Dr. Bianchi. [Nonverbal response.]
    Ms. Frankel. No? Okay. I am glad you are saying no. But I 
want to just combine these questions because I am curious not 
only about suicide research, but also postpartum depression 
research.
    Dr. Collins. I will quickly start with suicide and then ask 
Dr. Bianchi about postpartum because that fits in with our 
maternal mortality topic. Certainly suicides increasing in many 
different communities and demographic areas are of deep 
concern, and there are many diagnostics about why that might be 
going on that relate to people's sense of isolation, which is 
clearly a growing problem in this Nation. We at NIH are aiming 
to do everything we can to identify the factors and, 
particularly, the predictors of who is at risk and what the 
interventions might be. And there are certainly some of those, 
such as trying to make sure that people don't have access to 
lethal force for that moment where somebody makes a sudden 
decision to end their life. And it is often a rather sudden 
decision.
    I will say also in terms of treating the clinical 
depression that often undergirds this, there is a major 
development that has happened, which is the development of this 
drug called ketamine, which has this remarkable phenomenon in 
many people who have had chronic clinical depression and not 
responded to anything else, of after an intravenous infusion, 
having an almost, within an hour, lifting of the clouds. That 
is now being tried in people who are acutely suicidal and 
starting to look pretty promising in that space if you can 
catch somebody before they take the drastic action, and lift 
them out of what seems to be a hopeless circumstance. So that 
is one bright spot in what is clearly a very tough problem.
    Dr. Bianchi. Yeah. So NICHD is funding research that 
currently is looking at postpartum women who potentially are at 
risk for suicide. So the difficulty with the postpartum 
situation is some of these women have no prior history of 
mental health problems. So, again, it is this rare issue where 
how do you know if someone is going to be at risk. So we are 
funding an investigator who is actually looking and taking a 
machine learning approach through the electronic health record 
to begin to identify certain clues in the record.
    But the other issue is a lot of pregnant women are 
depressed, and they are taking antidepressants during 
pregnancy. So we need to know are these drugs safe to take 
during pregnancy and lactation. And there is an area where I am 
concerned because women who are at risk are not taking their 
medicines because they think it is better for the baby, and so 
we are doing research to show what is safe and what isn't safe. 
And we have a study called the CUDDLE Study where women taking 
these medicines are donating their breast milk so that we can 
see what is actually in the breast milk.
    Ms. Frankel. Thank you very much.
    Ms. DeLauro. Congresswoman Watson Coleman.
    Mrs. Watson Coleman. Thank you, Chairman. Dr. Sharpless, I 
would like to talk to you about endometrial cancer. I know that 
their cancers have shown a lot of improvements in the number of 
deaths over the time. The National Cancer Institute 
surveillance epidemiology and End Results Program shows a 
worsening survival rate from endometrial cancer from 1996 to 
2016, and the incidence rate for black women surpassed that of 
white women in 2007 and continues to increase to this day. The 
incidence of the more aggressive Type 2 cancers is dramatically 
higher for black women than for white women.
    I am wondering what your plan is. What is happening in that 
field, and what are you planning in terms of funding clinical 
trials and trying to come up with specific therapies that 
address these disparities?
    Dr. Sharpless. Sure. Thank you for the question. I think we 
are equally concerned by the statistics you mentioned. This is 
a cancer which is increasing in mortality in the United States. 
As I mentioned, most cancers are actually declining in 
mortality. The few that are actually showing an increased 
mortality are particularly of concern, and why is that 
happening? We think endometrial cancer and a few other cancers, 
it may be partially related to obesity, you know, the obesity 
epidemic. Obesity is associated with endometrial cancer. We 
don't think that is the entire explanation.
    The basis for the disparity is an area of active research 
between African-American women and other populations. You know, 
this is a problem across many cancers, including endometrial 
cancer. Generally, our findings have been that they are, in 
part, these, you know, social determinants of health, access to 
care, these sorts of things, and partly often driven by biology 
and some combination thereof. And so we have funded efforts in 
endometrial cancer and other gynecological cancers to see 
specifically address that question.
    We have SPOREs in endometrial cancer of gynecologic 
malignancies, which the Center of Research Excellence is 
funding, but, you know, an area where we are devoting a lot of 
focus because of the worrisome statistics you mentioned.
    Mrs. Watson Coleman. Thank you. I yield back.
    Ms. DeLauro. Thank you. I will just yield to the ranking 
member for any final comments before we conclude.
    Mr. Cole. Thank you very much, Madam Chairman. I think like 
many members, this is always my favorite hearing of the year, 
and I think because we all marvel at your abilities and the 
work that you are doing and you are about, and what your 
colleagues are doing. And we all see the good in these 
investments, and we all feel as if you have been really good 
stewards of money that the Congress has chosen to put at your 
disposal. And we all think the American people and, frankly, 
all of humanity have benefited enormously as a result of those 
investments.
    I am proud of this subcommittee. I am proud of my chairman 
who has been my partner in this for years, and I am proud of 
our colleagues on the other side of the Rotunda who have worked 
with this for years, and I think it is absolutely critical, 
Madam Chairwoman, that that continue. Now, I would be the first 
to say, and I know my chairman knows this better than I do, 
this is going to be a very tough year. We have a 2-year budget 
agreement. It is essentially flat funding if you look at some 
of the requirements in a couple of the other departments that 
are going to take money, we know. Veterans I am thinking of in 
particular. My friend, the chairman, and her counterpart, my 
friend Chairman Blunt, are going to be confronted with really 
tough decisions. I have had this discussion over many years 
with Dr. Collins. I usually use the phrase, you know, we are in 
another one of those years where we are robbing Peter to pay 
Paul. Fortunately, you are Paul, and somebody else is going to 
have to be the Peter, and that it is not your job to make those 
decisions. It is the job of this committee.
    And my friend, the chairman, and I have commiserated with 
this over this many years because there are lots of wonderful 
things in this bill, lots of things we agree on, lots of things 
that are national priorities. But I think this committee has 
made the right decision over the last 5 years in a bipartisan 
sense by probably making you the top priority in the bill every 
single year. And I don't think that is ever been more 
dramatically demonstrated than right now.
    You know, how many questions did we have on coronavirus, 
and yet there will be another coronavirus out there. And I 
thought one of the most telling answers of the hearing, you 
know, when Dr. Collins made the point that these past 
investments have put us in a stronger position to deal with 
these current challenges. And I thought Mr. Sharpless made an 
excellent point, Dr. Sharpless, as well when he talked about 
the extraordinary opportunities we have in a particular area 
right now. And those opportunities come and you have to use the 
resources you have to take advantage of those openings, and you 
also have to make commitments that sustain themselves over 
years. I mean, the committee has to think in terms, again, 
always of cumulative and incremental, whether it is investment 
in your physical infrastructure, or it is just thoughts about 
projects that clearly take multi years to come to fruition, and 
we have got to make sure the revenue stream is there and 
available.
    So, again, I thank all of you for the work. I thank this 
committee, you know, on a bipartisan basis for its sustained 
commitment here. And I think, Madam Chairwoman, the wisdom of 
that has been borne out, and I hope we can continue that. I 
know if it was up to you and me, I know it would be continued, 
and, you know, we are pretty persuasive with our colleagues 
sometimes, too. [Laughter.]
    We really make a pretty good team here and in dealing with 
our friends across the Rotunda, who fortunately have approached 
this with the same mindset that we have for many, many years to 
come. So hopefully we can continue this because I think it 
will, frankly, render enormous benefits to the American people, 
and that is what all of us came here to do. With that, I yield 
back, Madam Chair.
    Ms. DeLauro. Thank you, very, very much to my dear friend 
and colleague, and, if I might add, co-conspirator in what we 
do in this subcommittee. And indeed, this is always an 
extraordinary hearing, and it is a revelation. You know, we 
have a doctor on our committee in Dr. Harris, but as far as I 
know, the rest of us are not scientists. We are not doctors.
    Mr. Cole. Wait a minute. I am a doctor. [Laughter.]
    Ms. DeLauro. Well, yes, right. You are a political science 
doctor here. But what we are about is trying to grapple with 
issues about which we spend time studying and learning so that 
we can try to do the right thing. You do every day in your life 
focus on a mission of which there is no nobler cause or highest 
commitment, which is to save lives. And we get to work in 
cooperation with you to make sure that we push the edge of that 
envelope. You do. We need to do that with the resources that we 
provide you to do your work.
    I will just say this to my colleague that, yes, you are 
Paul, but I always have, and you have heard me say this before, 
I have to worry about Peter as well----
    [Laughter.]
    Ms. DeLauro [continuing]. And looking at that, but I think 
you know where our hearts and our commitments are to make sure 
we go down the road. I would just say one other thing. You 
know, this is a committee in working together, which does not 
deal with ``gotcha.'' We are not sitting here to try to stump 
you to make a political comment. We are here to try to get the 
best information and the best advice so that we can respond. 
And when some of the questions are hard and they are tough, it 
is not for political purposes, but it is to look at our 
stewardship of public dollars and where those public dollars 
are going. And we are so trustful of you with being good 
stewards of the public dollar, and we can sell that, both my 
colleague and I, to other members of this subcommittee as well 
as the committees across the aisle with our Senate colleagues.
    I am going to end on a humorous note that I am going to 
have to stop hugging people, Tom. [Laughter.]
    And I just want to make sure, Dr. Collins, that people can 
afford ketamine, okay? That is another issue that we could----
    [Laughter.]
    Ms. DeLauro. Thank you. The hearing is concluded. Thank you 
all very much.
    [The following questions and answers were submitted for the 
record:] 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
